USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 1 of 45

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-11779
________________________
D.C. Docket No. 1:17-cv-00061-KD-MU
MATTHEW REEVES,
Petitioner - Appellant,
versus
COMMISSIONER, ALABAMA
DEPARTMENT OF CORRECTIONS,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Southern District of Alabama
________________________
(November 10, 2020)
Before WILSON, MARTIN, and JORDAN, Circuit Judges.
PER CURIAM:
Matthew Reeves, an Alabama prisoner on death row, appeals the district
court’s denial of his habeas corpus petition. See 28 U.S.C. § 2254. He argues that
habeas relief should have been granted on two grounds. First, he asserts that he is
intellectually disabled and therefore ineligible for the death penalty. Second, he

1a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 2 of 45

contends that his trial counsel rendered ineffective assistance by failing to hire an
expert to evaluate him for intellectual disability—despite petitioning for and
obtaining funds to do so.
For the reasons which follow, we affirm in part and reverse in part. We affirm
the denial of habeas relief on the intellectual disability claim, but we reverse the
denial of habeas relief on the ineffective assistance of counsel claim.
I
In January of 1998, an Alabama jury found Mr. Reeves guilty of capital
murder. By a 10-2 vote, the jury recommended that Mr. Reeves be sentenced to
death, and the trial court followed that recommendation. We recount the events that
led to Mr. Reeves’ conviction and sentence, as well as evidence adduced at the state
post-conviction proceedings.
A
The facts underlying Mr. Reeves’ conviction were described by the Alabama
Court of Criminal Appeals on direct appeal. See Reeves v. State, 807 So. 2d 18 (Ala.
Crim. App. 2000). We summarize them as follows.
On November 27, 1996, Mr. Reeves, who was 18 years old at the time, his
brother Julius, and several other individuals set out to commit a robbery. See id. at
24. Their car, however, broke down. A passing driver, Willie Johnson, stopped in
his pickup truck and offered to tow the car. See id.

2
2a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 3 of 45

After Mr. Johnson towed the car, Julius offered to give him a ring as payment
if he would drive the group to his girlfriend’s house to get it. See id. Mr. Johnson
agreed, not knowing that Julius had told the others that Mr. Johnson was going to be
their robbery victim. See id. After taking the group to pick up the ring, Mr. Johnson
drove them back to the Reeves’ house. See id. at 24–25. As the truck came to a
stop, Mr. Reeves shot and killed Mr. Johnson and instructed the others to go through
his pockets to “get his money.” See id. at 25.
B
Two attorneys, Blanchard McLeod and Marvin Wiggins, were initially
appointed to represent Mr. Reeves. Before trial, Mr. McLeod and Mr. Wiggins
petitioned the trial court for funds to hire a clinical neuropsychologist, Dr. John R.
Goff, to evaluate Mr. Reeves for intellectual disability. After the trial court denied
the motion, Mr. McLeod and Mr. Wiggins sought rehearing. In their rehearing
request, they said they “possesse[d] hundreds of pages of psychological,
psychometric and behavioral analysis material relating to” Mr. Reeves. See D.E.
23-1 at 74. They also asserted “[t]hat a clinical neuropsychologist or a person of
like standing and expertise is the only avenue open to the defense to compile this
information, correlate this information, interview the client and present this

3
3a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 4 of 45

information in an orderly and informative fashion to the jury during the mitigation
phase[.]” Id. at 74–75 (emphasis added). 1
During a subsequent hearing before the trial court, Mr. McLeod further
explained why retaining a neuropsychologist was critical:
This is a mitigation expert who we would expect because of the
tremendous amount of discovery material provided to us from the
Department of Youth Services, from the schools, . . . and all of the
psychologicals and all that we do have available that we are going to
need someone to assist us in the mitigation phase of this case. . . . This
is not for competency. This is for the mitigation phase of the case, and
it’s going to be a little late once we finish the guilt phase of the case to
worry about retaining someone to assist with the preparation of the
mitigation phase.
D.E. 23-3 at 92–93. Mr. McLeod continued: “We have received two to three
hundred pages of discovery material in the nature of a psychological and a
psychiatric information that is going to be exceptionally pertinent at the penalty
phase of this proceeding.” Id. at 96.
On October 16, 1997, the trial court granted the defense’s request for funding
to hire Dr. Goff. Shortly thereafter, Mr. McLeod withdrew as counsel and was
replaced by Thomas Goggans. Mr. Wiggins, however, continued to represent Mr.
Reeves.

1

We later describe the medical and behavioral records that Mr. Reeves’ counsel had in their
possession prior to trial.
4
4a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 5 of 45

Mr. Goggans and Mr. Wiggins moved for and were granted access to Mr.
Reeves’ mental health records from the Taylor Hardin Secure Medical Facility,
including records related to an evaluation performed by a clinical psychologist, Dr.
Kathy Ronan, a few months earlier. But despite securing funding and obtaining the
Taylor Hardin records, they never contacted Dr. Goff or hired any other
neuropsychologist to evaluate Mr. Reeves for intellectual disability.
Instead, on the day of the sentencing phase of Mr. Reeves’ trial, Mr. Goggans
and Mr. Wiggins spoke to Dr. Ronan about Mr. Reeves for the first time and then
called her to testify. Dr. Ronan had been appointed by the court to evaluate Mr.
Reeves solely to assess his competency to stand trial and his mental state at the time
of the offense. She had not conducted a sentencing-phase evaluation, which she later
explained “would contain different components than those for the trial phase
evaluations, and would be more extensive in terms of testing and background
investigation.” D.E. 23-15 at 11. She also had not evaluated Mr. Reeves for
intellectual disability. Specifically, Dr. Ronan had not administered a full IQ test
(she had administered only the verbal portion of the test), and she had not assessed
Mr. Reeves’ adaptive skills, both of which are necessary to properly evaluate
intellectual disability. See id. at 10–12; D.E. 23-8 at 145.
Dr. Ronan nevertheless testified at the sentencing phase, based on her limited
evaluation of Mr. Reeves, that he was in the “borderline range of intelligence.” When

5
5a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 6 of 45

the state asked Dr. Ronan on cross-examination whether Mr. Reeves was
intellectually disabled, she responded that “[h]e was not in a level that they would
call . . . mental retardation.” Mr. Reeves’ trial counsel did not object, nor did they
elicit testimony from Dr. Ronan on redirect about her inability to offer that opinion
without having conducted the necessary intellectual disability evaluation.
Mr. Reeves’ trial counsel presented two other witnesses during the sentencing
phase. They called Detective Pat Grindle of the Selma Police Department, who
described the poor condition of Mr. Reeves’ childhood home. And they called Mr.
Reeves’ mother, Marzetta Reeves, who testified about various struggles in Mr.
Reeves’ childhood. For example, she testified that that his father was absent, that
he repeated first grade and “either third or fourth grade,” that he “had a hyperization
problem” and “some learning disabilities,” that he “got whipped a lot from [his
grandmother] and his aunties,” and that his brother Julius had significant influence
over him.
During closing argument, the state emphasized that Mr. Reeves “chose his
path”—that he was not a “victim of our society,” but instead had “every resource . . .
available,” yet he “pushed it all away.” The defense referenced Mr. Reeves’ mental
capacity only in passing: “You heard the psychiatrist or the psychologist as she
talked about Matthew’s upbringing. You heard her talk about the resources that
were there and the resources that were not there. You heard Ms. Reeves talk about

6
6a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 7 of 45

first grade, his failing that. He went on through the system, and the third grade, he
failed that. And in the eighth grade . . . because of his violent behavior, because of
his condition, because he just wouldn’t listen, wouldn’t pay attention, didn’t want to
be in that environment he was kicked out of school . . .”
The jury recommended that Mr. Reeves be sentenced to death by a 10-2 vote,
and the trial court subsequently imposed a death sentence. On direct appeal, the
Alabama Court of Criminal Appeals affirmed, and Mr. Reeves’ petitions for writ of
certiorari to the Alabama Supreme Court and the U.S. Supreme Court were denied.
See Reeves v. State, 807 So. 2d 18 (Ala. Crim. App. 2000), cert. denied, Ex parte
Reeves, No. 1000234 (Ala. 2001), & Reeves v. Alabama, 534 U.S. 1026 (2001).
C
Mr. Reeves timely petitioned for post-conviction relief pursuant to Rule 32 of
Alabama’s Rules of Criminal Procedure. Mr. Reeves asserted, among other claims,
that his trial counsel were ineffective for failing to obtain an expert to evaluate him
for intellectual disability—despite having sought and obtained funds to hire a
neuropsychologist for that very purpose. He also argued that his counsel were
ineffective for failing to retain a mitigation expert, and that his death sentence
violated the Eighth Amendment because he is intellectually disabled.
The Rule 32 court held a two-day evidentiary hearing on Mr. Reeves’ petition.
Both sides presented witnesses at the hearing.

7
7a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 8 of 45

Mr. Reeves called Dr. Goff, whom post-conviction counsel had retained to
evaluate him prior to the hearing. Dr. Goff testified—based on his review of Mr.
Reeves’ mental health and school records and the results of a battery of tests
designed to assess Mr. Reeves’ IQ, cognitive abilities, and adaptive functioning—
that Mr. Reeves was intellectually disabled. Dr. Goff concluded, based on Mr.
Reeves’ IQ scores of 71 and 73, that he has significantly subaverage intellectual
functioning. Dr. Goff also concluded that Mr. Reeves has significant deficits in
multiple areas of adaptive functioning, including functional academics, selfdirection, work, and health and safety. In addition, Dr. Goff testified that, had Mr.
Reeves’ trial counsel asked him to evaluate Mr. Reeves years earlier for the purpose
of testifying at trial, he would have performed similar evaluations and reached the
same conclusions.
Mr. Reeves also presented a mitigation expert, Dr. Karen Salekin, who
testified about the neglect, domestic violence, drug abuse, and extreme poverty that
he experienced as a child. Mr. Reeves did not call Mr. McLeod, Mr. Wiggins, or
Mr. Goggans to testify. 2
The state called Dr. Glen King, a clinical and forensic psychologist who also
evaluated Mr. Reeves for the Rule 32 proceedings. Dr. King concluded that Mr.
Reeves was “in the borderline range of intellectual ability.” D.E. 23-25 at 234. Dr.

2

At the time of the Rule 32 proceedings, Mr. Wiggins was an Alabama state judge.
8
8a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 9 of 45

King testified that Mr. Reeves had an IQ of 68, but that his “achievement scores [on
other tests] indicate a level of functioning higher than the IQ scores actually
indicated.” Id. at 223–24. Although Dr. King found that Mr. Reeves achieved low
test scores in three areas of adaptive functioning (domestic activity, work, and selfdirection), he explained that other evidence indicated that he did not have substantial
deficiencies in these areas.
The Rule 32 court denied Mr. Reeves’ petition in 2009, but the order was not
served on Mr. Reeves, his counsel, or the state until 2013. Because of this error, Mr.
Reeves was granted leave to file an out-of-time appeal.
In 2016, the Court of Criminal Appeals affirmed the denial of Mr. Reeves’
Rule 32 petition. See Reeves v. State, 226 So. 3d 711 (Ala. Crim. App. 2016). As
relevant here, it concluded that the Rule 32 court did not abuse its discretion in
denying Mr. Reeves’ intellectual disability claim. See id. at 725–44. It also held
that Mr. Reeves could not meet his burden of proving ineffective assistance of
counsel because he did not call his trial counsel to testify at the Rule 32 hearing. See
id. at 747–48. It explained that Mr. Reeves’ “failure to call his attorneys to testify
[was] fatal to his claims of ineffective assistance of counsel,” because without such
testimony “the record is silent as to the reasons trial counsel . . . chose not to hire Dr.
Goff[.]” Id. at 749–51 (emphasis added).

9
9a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 10 of 45

The Alabama Supreme Court denied Mr. Reeves’ petition for a writ of
certiorari. See Ex parte Reeves, No. 1160053 (Ala. 2017). The U.S. Supreme Court
also denied certiorari. See Reeves v. Alabama, 138 S. Ct. 22 (2017) (Mem.). Justice
Sotomayor—joined by Justices Ginsburg and Kagan—dissented, explaining that the
Court of Criminal Appeals’ “imposition of a categorical rule that counsel must
testify in order for a petitioner to succeed on a federal constitutional ineffectiveassistance-of-counsel claim contravenes [Supreme Court] decisions requiring an
objective inquiry into the adequacy and reasonableness of counsel’s performance
based on the full record before the court.” Id. at 23.
Mr. Reeves then filed a federal habeas corpus petition. The district court
denied relief, but granted Mr. Reeves a certificate of appealability on his claim that
trial counsel were ineffective for failing to hire an expert to investigate his
intellectual disability. We granted Mr. Reeves a certificate of appealability on his
claims that he is intellectually disabled and that the Court of Criminal Appeals
incorrectly required trial counsel’s testimony to establish ineffectiveness.3

3

We also granted a certificate of appealability on Mr. Reeves’ claim that trial counsel were
ineffective for failing to conduct a sufficient mitigation investigation or hire a defense mitigation
expert. Given our ruling on trial counsel’s ineffectiveness for failing to retain an expert to evaluate
Mr. Reeves for intellectual disability, we do not reach whether trial counsel were also ineffective
for failing to secure additional mitigation evidence.
10
10a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 11 of 45

II
The district court’s denial of a § 2254 habeas corpus petition is subject to de
novo review. See Ward v. Hall, 592 F.3d 1144, 1155 (11th Cir. 2010). Because Mr.
Reeves filed his petition after April 24, 1996, however, this appeal is governed by
the Antiterrorism and Effective Death Penalty Act of 1996. AEDPA “establishes a
highly deferential standard for reviewing state court judgments.” Parker v. Sec’y,
Dep’t. of Corr., 331 F.3d 764, 768 (11th Cir. 2003). Under AEDPA, a federal court
may only grant a writ of habeas corpus if the state court’s determination of a federal
claim was (1) “contrary to, or involved an unreasonable application of, clearly
established Federal law” or (2) “was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.” 28 U.S.C.
§ 2254(d). The phrase “clearly established Federal law” encompasses only the
holdings of the Supreme Court of the United States “as of the time of the relevant
state-court decision.” Williams v. Taylor, 529 U.S. 362, 412 (2000).
A state court’s determination is “contrary to” clearly established federal law
“if the state court arrives at a conclusion opposite to that reached by [the Supreme
Court] on a question of law or if the state court decides a case differently than [the
Supreme Court] has on a set of materially indistinguishable facts.” Williams, 529
U.S. at 413. A state court’s determination is “an unreasonable application” of clearly
established federal law “if the state court identifies the correct governing legal

11
11a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 12 of 45

principle from [the Supreme Court’s] decisions but unreasonably applies that
principle to the facts of the prisoner’s case.” Id. Reasonableness is an objective
standard, and a federal court may not issue a writ of habeas corpus simply because
it concludes in its independent judgment that the state court was incorrect. See id.
at 410. See also Woods v. Donald, 575 U.S. 312, 316 (2015) (“[A]n unreasonable
application . . . must be objectively unreasonable, not merely wrong; even clear error
will not suffice.”) (citation and internal quotation marks omitted).
Under § 2254(d)(2), we presume that a state court’s findings of fact are correct
unless rebutted by clear and convincing evidence.

See 28 U.S.C. §

2254(e)(1). “This deference requires that a federal habeas court more than simply
disagree with the state court before rejecting its factual determinations. Instead, it
must conclude that the state court’s findings lacked even fair support in the record.”
Rose v. McNeil, 634 F.3d 1224, 1241 (11th Cir. 2011) (citations omitted).
III
We first address Mr. Reeves’ intellectual disability claim.
A
Mr. Reeves argues that he is ineligible for the death penalty under Atkins v.
Virginia, 536 U.S. 304, 321 (2002), which held that executing intellectually disabled
individuals violates the Eighth Amendment. Generally, a determination of whether

12
12a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 13 of 45

a person is intellectually disabled is a finding of fact. See Fults v. GDCP Warden,
764 F.3d 1311, 1319 (11th Cir. 2014).
Though Atkins left defining intellectual disability to the states, the Supreme
Court noted that the medical community defines intellectual disability (then referred
to as “mental retardation”) as follows:
Mental retardation refers to substantial limitations in present
functioning. It is characterized by significantly subaverage intellectual
functioning, existing concurrently with related limitations in two or
more of the following applicable adaptive skill areas: communication,
self-care, home living, social skills, community use, self-direction,
health and safety, functional academics, leisure and work. Mental
retardation manifests before 18.
Atkins, 536 U.S. at 308 n.3. The Alabama Supreme Court has similarly held that,
for a defendant to prove that he is intellectually disabled under Atkins, he must show
(1) that he has “significantly subaverage intellectual functioning (an IQ of 70 or
below);” (2) that he has “significant or substantial deficits in adaptive behavior;” and
(3) that these problems “manifested themselves during the development period (i.e.,
before the defendant reached age 18).” Ex parte Perkins, 851 So. 2d 453, 456 (Ala.
2002). See also Smith v. State, 213 So. 3d 239, 248 (Ala. 2007) (same).
In Hall v. Florida, 572 U.S. 701, 721 (2014), the Supreme Court held that a
determination of intellectual disability must be “informed by the medical
community’s diagnostic framework.” The Court in Hall invalidated a Florida statute
that defined intellectual disability based on a strict IQ test score cutoff of 70,

13
13a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 14 of 45

concluding that it contravened the established medical practice of taking into
account the standard error of measurement. The standard error of measurement
reflects “that an individual’s score is best understood as a range of scores on either
side of the recorded score.” Id. at 713. The Court explained that “an individual with
an IQ test score between 70 and 75 or lower may show intellectual disability by
presenting additional evidence regarding difficulties in adaptive functioning.” Id. at
722 (citation and internal quotation marks omitted).
B
Mr. Reeves argues that the Court of Criminal Appeals’ analysis of the first
two prongs of the intellectual disability standard is both contrary to and an
unreasonable application of Hall, as well as an unreasonable determination of the
facts. See Appellant’s Initial Br. at 25–38. We disagree.4
In analyzing the first prong, the Court of Criminal Appeals interpreted Hall to
mean that “an IQ score, alone, is not determinative of intellectual disability or even
of the intellectual-functioning prong of intellectual disability.” Reeves, 226 So. 3d at
740. Thus, although Mr. Reeves had full-scale IQ scores of 68, 71, and 73, the Court
of Criminal Appeals concluded that the Rule 32 court did not abuse its discretion by
finding—based on all the evidence presented and after observing Mr. Reeves when

4

The Court of Criminal Appeals did not reach the third prong, regarding whether the intellectual
disability manifested before the age of 18. See Reeves, 226 So. 3d at 743 n.15.

14
14a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 15 of 45

he testified at a pretrial hearing—that his intellectual functioning was not
significantly subaverage. See id. at 741.
Turning to the second prong, the Court of Criminal Appeals similarly stated
that a court “is not required to find that a person suffers from significant deficits in
adaptive functioning merely because that person’s scores on a standardized test
indicate such deficits.” Id. at 741–42. It reasoned that, although testing performed
by both experts reflected that Mr. Reeves had adaptive deficits in certain areas,
“other evidence was presented that either called into question the validity of those
scores and/or indicated that [Mr. Reeves’] deficits in those areas were not, in fact,
significant.” Id. at 742.
Mr. Reeves contends that the Court of Criminal Appeals deviated from the
medical community’s diagnostic framework in evaluating his intellectual
functioning because it did not place enough weight on his IQ scores. See Appellant’s
Initial Br. at 27–33. He also asserts that the Court of Criminal Appeals’ analysis of
his adaptive functioning contravened established medical standards because it
treated his adaptive strengths as negating his adaptive deficits. See id. at 36–38. For
this latter point, he relies on Moore v. Texas, 137 S. Ct. 1039, 1050 (2017), which
clarified that “the medical community focuses the adaptive-functioning inquiry on
adaptive deficits.” As we have stated, “[a]fter Moore, states cannot ‘weigh’ an

15
15a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 16 of 45

individual’s adaptive strengths against his adaptive deficits.” Smith v. Ala. Dep’t of
Corr., 924 F.3d 1330, 1337 (11th Cir. 2019).
Assuming without deciding that the Court of Criminal Appeals unreasonably
applied Hall with respect to the first prong of the intellectual disability standard, Mr.
Reeves cannot prevail on his Atkins claim. The Court of Criminal Appeals did not
unreasonably apply Hall in analyzing the second prong. 5
1
Under Teague v. Lane, 489 U.S. 288 (1989), and its progeny, cases
establishing new constitutional rules of criminal procedure generally cannot be
applied retroactively on collateral review. See Welch v. United States, 136 S. Ct.
1257, 1264 (2016). We therefore address whether Hall and Moore apply to Mr.
Reeves’ claim, as both opinions were issued after Mr. Reeves’ conviction and
sentence became final in 2001, and Moore was issued after the Court of Criminal
Appeals denied post-conviction relief. See Caspari v. Bohlen, 510 U.S. 383, 389

5

To the extent that Mr. Reeves claims that the Court of Criminal Appeals’ opinion is an
unreasonable application of Atkins, we reject that argument. “Atkins did not define intellectual
disability, nor did it direct the states on how to define intellectual disability . . . Rather, Atkins
expressly left it to the states to develop ‘appropriate ways to enforce the constitutional restriction’
on executing the intellectually disabled.” Kilgore v. Secretary, Fla. Dep’t of Corr., 805 F.3d 1301,
1311 (11th Cir. 2015) (quoting Atkins, 536 U.S. at 317). The Court of Criminal Appeals therefore
did not unreasonably apply Atkins in evaluating whether Mr. Reeves was intellectually disabled.

16
16a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 17 of 45

(1994) (“A threshold question in every habeas case . . . is whether the court is
obligated to apply the Teague rule to the defendant’s claim.”). 6
We do not apply Moore to Mr. Reeves’ Atkins claim for two reasons. First,
Moore was decided after the Court of Criminal Appeals issued the relevant statecourt decision in 2016, and therefore it was not “clearly established” law under §
2254(d)(1). See Shoop v. Hill, 139 S. Ct. 504, 507–08 (2019) (summarily vacating
the Sixth Circuit’s grant of habeas relief because it was improperly based on Moore,
a case “which was not handed down until long after the state-court decisions” that
were relevant for purposes of the § 2254(d) analysis). Second, we have held that
Moore “announced a new rule” that does not apply retroactively under Teague. See
Smith, 924 F.3d at 1338–39.
Unlike Moore, Hall had been decided at the time the Court of Criminal
Appeals issued its opinion in the Rule 32 appeal. In reviewing Mr. Reeves’ claim,
the Court of Criminal Appeals applied Hall, rejecting the state’s argument that Hall
does not apply retroactively to cases on collateral review. See Reeves, 226 So. 3d at
727 n.7. Although the Court of Criminal Appeals was free to apply Hall as a matter
of state law, see Danforth v. Minnesota, 552 U.S. 264, 282 (2008), its retroactivity

6

Atkins was decided in 2002, also after Mr. Reeves’ conviction and sentence became final, but we
have held that Atkins—which announced a substantive rule of constitutional law—applies
retroactively. See In re Holladay, 331 F.3d 1169, 1173 (11th Cir. 2003) (“[T]here is no question
that the new constitutional rule . . . articulated in Atkins is retroactively applicable to cases on
collateral review.”).
17
17a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 18 of 45

determination does not govern whether Hall applies retroactively in federal court.
See Knight v. Fla. Dep’t of Corr., 936 F.3d 1322, 1333 (11th Cir. 2019) (“[A] statelaw retroactivity determination has no significance in federal court . . . if the
government raises the issue, a Teague analysis is mandatory.”).
We have held that Hall sets forth a new rule of criminal procedure that does
not apply retroactively under Teague. See In re Henry, 757 F.3d 1151, 1158–59
(11th Cir. 2014); In re Hill, 777 F.3d 1214, 1223 (11th Cir. 2015); Kilgore v.
Secretary, Fla. Dep’t of Corr., 805 F.3d 1301, 1313–16 (11th Cir. 2015). Although
we would normally follow this precedent, a state can waive a Teague
nonretroactivity argument. See Caspari, 114 S. Ct. at 953 (“[A] federal court may,
but need not, decline to apply Teague if the State does not argue it.”). Here, despite
the existence of cases like Henry, Hill, and Kilgore, the state has failed to argue on
appeal that Hall is not retroactive. In fact, it has chosen to address Hall on the merits.
See State’s Answer Br. at 24, 30. We therefore consider whether the Court of
Criminal Appeals unreasonably applied Hall.7

7

Although Mr. Reeves also says that the opinion of the Court of Criminal Appeals is “contrary to”
Hall, he does not argue that it failed to identify the correct legal standard or refused to apply
Supreme Court precedent that involved materially indistinguishable facts. See Williams, 529 U.S.
at 413. His contention is better characterized as an “unreasonable application” argument, as he
acknowledges that the Court of Criminal Appeals identified the correct legal principles but
contends that it unreasonably applied those standards to his case. See id.
18
18a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 19 of 45

2
Hall does not provide guidance as to how a court is to analyze the adaptive
deficits prong of the intellectual disability standard, other than saying that the
analysis is informed by the medical community’s diagnostic framework. See Hall,
572 U.S. at 721. See also Mays v. Stephens, 757 F.3d 211, 218 (5th Cir. 2014)
(explaining that Hall does not dictate what kinds of evidence a court might consider
when determining adaptive functioning, and “[i]nstead, . . . exclusively addresses
the constitutionality of mandatory, strict IQ cutoffs”); Arbelaez v. Fla. Dep’t of
Corr., 662 F. App’x 713, 723 (11th Cir. 2016) (“Nothing in the holdings of Atkins
or Hall speaks directly to the methodology for discerning an individual’s deficits in
adaptive functioning.”).
Mr. Reeves argues that prevailing medical standards make clear that the focus
should be on adaptive deficits, not adaptive strengths. See Appellant’s Initial Br. at
37. To the extent that the Court of Criminal Appeals may have improperly balanced
Mr. Reeves’ adaptive strengths against his adaptive deficits, the Supreme Court did
not hold that this was improper until Moore. “[W]hile that approach today would
be contrary to clearly established federal law—that is, contrary to Moore . . .—it was
neither contrary to nor an unreasonable application of clearly established Supreme
Court law when” the Court of Criminal Appeals affirmed the denial of Mr. Reeves’
Rule 32 petition. See Clemons v. Comm’r, Ala. Dep’t of Corr., 967 F.3d 1231, 1250

19
19a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 20 of 45

(11th Cir. 2020). See also Smith, 924 F.3d at 1343 (explaining that, although the
Alabama courts had improperly reasoned that the petitioner’s adaptive strengths
outweighed his deficits, this approach was acceptable until Moore).
In any event, the Court of Criminal Appeals did not treat Mr. Reeves’ adaptive
strengths as overriding his adaptive deficits; instead, it weighed conflicting evidence
and concluded—based on Dr. King’s testimony and other record evidence—that Mr.
Reeves’ adaptive deficits were not significant, despite his low test scores in certain
areas. See Reeves, 226 So. 3d at 742.
Although Dr. King testified that Mr. Reeves achieved low test scores in
domestic activity, work, and self-direction, he also explained that other evidence
indicated that Mr. Reeves did not have substantial deficits in these areas. For
example, the Court of Criminal Appeals relied on Dr. King’s testimony that Mr.
Reeves scored low in domestic activity “because [he] had never been required to do
any type of domestic activity growing up and had been incarcerated since he was 18
years old.” Id. It also cited testimony by Dr. King that he would have scored Mr.
Reeves higher in “self-direction” had he known at the time of the evaluation that Mr.
Reeves had been “involved in a lot of drug activity and was actually directing the
behaviors and activities of others[.]” Id.
The Court of Criminal Appeals further relied on Dr. King’s conclusion that
Mr. Reeves scored low in the work domain because he “did not get to the age where

20
20a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 21 of 45

he might be able to master use of complex job tools or equipment” before he was
incarcerated. See id. And it recounted other evidence confirming that Mr. Reeves
has at least some vocational skills. He had certificates in brick masonry, welding,
and automobile mechanics, and held a construction job while his brother was
incarcerated. See id. at 742–43.
In addition, the Court of Criminal Appeals noted that although Mr. Reeves
scored low in the health and safety, self-care, and leisure domains on the test
administered by Dr. Goff, he achieved high scores in these areas in tests administered
by Dr. King. See id. at 743. It viewed certain evidence—that Mr. Reeves “sold
drugs to make money” and “used that money to buy personal belongings for himself,
including a car, and to help pay the household bills”—as demonstrating that he could
care for himself. See id. Finally, the Court of Criminal Appeals credited Dr. King’s
testimony that Mr. Reeves could read at a fifth-grade level, and Dr. Goff
acknowledged that reading at that level “would not qualify as a significant deficit in
functional academics.” Id.
In sum, the Court of Criminal Appeals did not unreasonably apply Hall by
relying on this evidence to find that Mr. Reeves did not have substantial deficits in
at least two areas.

We reiterate that a determination of whether a person is

intellectually disabled is a finding of fact, see Fults, 764 F.3d at 1319, and under
AEDPA such a finding is presumed to be correct. Even if we may have viewed the

21
21a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 22 of 45

evidence differently, “we are not sitting as the initial triers of fact determining
whether [Mr. Reeves] is in fact [intellectually disabled]. We are not even assessing
factual findings made by a district court for clear error. We are reviewing the factual
findings of the state habeas court through the prism of AEDPA, which calls for a
presumption of correctness that can only be overcome by clear and convincing
evidence.” Id. at 1321. Accordingly, we affirm the district court’s denial of relief
on Mr. Reeves’ Atkins claim.
IV
We now turn to Mr. Reeves’ claim that he received ineffective assistance of
counsel in violation of the Sixth Amendment. Mr. Reeves must establish two
elements to prevail on this claim: (1) deficient performance of counsel; and (2)
resulting prejudice. See Strickland v. Washington, 466 U.S. 668, 687 (1984).
To prove deficiency, Mr. Reeves must show that his trial “counsel’s
representation fell below an objective standard of reasonableness.” Id. at 688. In
considering counsel’s performance, courts “indulge a strong presumption that
counsel’s conduct falls within the wide range of reasonable professional
assistance[.]” Id. at 689. “To overcome that presumption, [Mr. Reeves] must show
that counsel failed to act reasonably considering all the circumstances.” Cullen v.
Pinholster, 563 U.S. 170, 189 (2011) (citation and internal quotation marks omitted).

22
22a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 23 of 45

To prove prejudice, Mr. Reeves “must show that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Strickland, 466 U.S. at 694. A “reasonable probability”
does not mean that counsel’s performance “more likely than not altered the
outcome.” Nix v. Whiteside, 475 U.S. 157, 175 (1986). Instead, a “reasonable
probability” is a “probability sufficient to undermine confidence in the outcome.”
Strickland, 466 U.S. at 694.
Under AEDPA, Mr. Reeves is “entitled to relief only if the state court’s
rejection of his claim of ineffective assistance of counsel was ‘contrary to, or
involved an unreasonable application of,’ Strickland, or rested on ‘an unreasonable
determination of the facts in light of the evidence presented in the State court
proceeding.’” Porter v. McCollum, 558 U.S. 30, 39 (2009) (quoting § 2254(d)). If
the Court of Criminal Appeals unreasonably applied Strickland, then we review Mr.
Reeves’ ineffectiveness claim without AEDPA deference. See McGahee v. Ala.
Dep’t of Corr., 560 F.3d 1252, 1266 (11th Cir. 2009) (“Where we have determined
that a state court decision is an unreasonable application of federal law under 28
U.S.C. § 2254(d), we are unconstrained by § 2254’s deference and must undertake
a de novo review of the record.”).

23
23a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 24 of 45

A
In rejecting Mr. Reeves’ ineffective assistance of counsel claims, the Court of
Criminal Appeals held that, “to overcome the strong presumption of effectiveness,
a Rule 32 petitioner must, at his evidentiary hearing, question trial counsel
regarding his or her actions and reasoning.” Reeves, 226 So. 3d at 748. It
concluded, based on this categorical rule, that Mr. Reeves’ “failure to call his
attorneys to testify [was] fatal to his claims,” id. at 749 (emphasis added), without
considering the extensive evidence before it about counsel’s performance or
explaining why this other evidence did not establish ineffectiveness. By treating Mr.
Reeves’ failure to call his counsel to testify as a per se bar to relief—despite ample
evidence in the record to overcome the presumption of adequate representation—the
Court of Criminal Appeals unreasonably applied Strickland.
Strickland established a “presumption” of reasonable performance, but it also
made clear that the presumption may be “overcome.” 466 U.S. at 689. See also
Kimmelman v. Morrison, 477 U.S. 365, 384 (1986) (recognizing that, although under
Strickland counsel’s competence is presumed, the defendant may “rebut this
presumption by proving that his attorney’s representation was unreasonable under
prevailing professional norms”). “The question is whether an attorney’s
representation amounted to incompetence under ‘prevailing professional norms,’ not

24
24a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 25 of 45

whether it deviated from best practices or most common custom.” Harrington v.
Richter, 562 U.S. 86, 105 (2011).
Rather than creating (or even permitting) a per se rule that the petitioner must
present counsel’s testimony to rebut the presumption, Strickland emphasized that
counsel’s performance must be judged “on the facts of the particular case, viewed
as of the time of counsel’s conduct.” 466 U.S. at 690. See also id. at 688 (“[T]he
performance inquiry must be whether counsel’s assistance was reasonable
considering all the circumstances.”) (emphasis added).

“Most important, in

adjudging a claim of actual ineffectiveness of counsel, a court should keep in mind
that the principles we have stated do not establish mechanical rules.” Id. at 696. See
also Rompilla v. Beard, 545 U.S. 374, 381 (2005) (“A standard of reasonableness
applied as if one stood in counsel’s shoes spawns few hard-edged rules[.]”); id. at
393–94 (2005) (O’Connor, J., concurring) (“[T]oday’s decision simply applies our
longstanding case-by-case approach to determining whether an attorney’s
performance was unconstitutionally deficient under Strickland[.]”) (emphasis
added).
The Supreme Court has ruled that state courts unreasonably applied Strickland
by requiring a petitioner to additionally show on the prejudice prong that the result
of the proceeding was fundamentally unfair, see Williams, 529 U.S. at 393–95; by
“deferring to counsel’s decision not to pursue a mitigation case despite their

25
25a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 26 of 45

unreasonable investigation,” Wiggins v. Smith, 539 U.S. 510, 534 (2003); and by
concluding that, rather than examine their client’s prior conviction file, counsel
could ask the client and family relatives whether they recalled anything helpful or
damaging in the prior victim’s testimony, see Rompilla, 545 U.S. at 388–89. Here,
we agree with Justice Sotomayor that the Court of Criminal Appeals unreasonably
applied Strickland by creating a categorical rule requiring the testimony of counsel:
Strickland and its progeny establish that when a court is presented with
an ineffective-assistance-of-counsel claim, it should look to the full
record presented by the defendant to determine whether the defendant
satisfied his burden to prove deficient performance. The absence of
counsel’s testimony may make it more difficult for a defendant to meet
his burden, but that fact alone does not absolve a court of its duty to
look at the whole record and evaluate the reasonableness of counsel’s
professional assistance in light of that evidence.
Reeves, 138 S. Ct. at 26 (Sotomayor, J., dissenting from the denial of certiorari). If
the Court of Criminal Appeals were correct, then an ineffectiveness claim would be
barred as a matter of law if counsel had passed away or did not recall the reasons for
his conduct. Its per se rule is objectively unreasonable. 8

8

We recognize that only Supreme Court cases constitute clearly established law under § 2254(d).
We note, however, that we have considered the totality of the evidence in evaluating
ineffectiveness claims where trial counsel has not been able to provide meaningful testimony at a
post-conviction hearing, either because he had passed away or could not recall the pertinent events.
See Williams v. Head, 185 F.3d 1223, 1227–28 & 1234–35 (11th Cir. 1999) (considering the
totality of the evidence regarding mitigation investigation where trial counsel’s recollection of
events was hampered due to the loss of the case file); Callahan v. Campbell, 427 F.3d 897, 933–
36 (11th Cir. 2005) (examining the reasonableness of trial counsel’s performance in light of the
evidence in the record even though trial counsel did not testify at the Rule 32 hearing because he
had passed away).
26
26a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 27 of 45

That Strickland does not demand counsel’s testimony is also clear from cases
in which the Supreme Court found ineffectiveness due to failure to investigate
despite such testimony. In those cases, the Court based its review on the full record.
See id.
For example, in Williams, 529 U.S. at 392, the Supreme Court held that the
Virginia Supreme Court’s decision rejecting the petitioner’s ineffectiveness claim
was both contrary to, and an unreasonable application of Strickland. Though trial
counsel testified about his strategic decision before the state habeas court, see id. at
373, the Court nonetheless concluded that “the failure to introduce the comparatively
voluminous amount of” mitigating evidence “was not justified by a tactical
decision[.]” Id. at 396. Instead, the Court determined—based on the totality of the
evidence in the record—that counsel did not “fulfill their obligation to conduct a
thorough investigation of the defendant’s background.” Id. Specifically, the Court
explained that “[t]he record establishes that counsel did not begin to prepare for [the
sentencing] phase of the proceeding until a week before the trial,” that counsel
“failed to conduct an investigation that would have uncovered extensive records
graphically describing [the petitioner’s] nightmarish childhood,” and that “[c]ounsel
failed to introduce available evidence that [the petitioner] was ‘borderline mentally
retarded’” or “even to return he phone call of a certified public accountant who had

27
27a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 28 of 45

offered to testify that he had visited [the petitioner] frequently” in prison and he
seemed to thrive in a more structured environment. See id. at 395–96.
Similarly, in Wiggins, the Supreme Court held that the Maryland Court of
Appeals unreasonably applied Strickland in rejecting the petitioner’s claim that his
trial attorneys rendered ineffective assistance by failing to investigate and present
mitigating evidence. Though trial counsel testified that they made a strategic
decision to focus on “retry[ing] the factual case” and dispute the petitioner’s
responsibility for the murder, see 539 U.S. at 517, the Supreme Court proceeded to
“conduct an objective review of their performance.” Id. at 523.
In doing so, the Court considered other evidence in the record, noting that trial
counsel had available to them a written PSI, which included a one-page account of
the petitioner’s personal history, and records from the city department of social
services. See id. The Court concluded that “[c]ounsel’s decision not to expand their
investigation beyond the PSI and the DSS records fell short of” professional
standards, and that the “scope of their investigation was also unreasonable in light
of what counsel actually discovered in the . . . records.” Id. at 524–25. Namely, the
records revealed that the petitioner was “shuttled from foster home to foster home,”
that his mother was an alcoholic, that he had frequent, lengthy absences from school,
and that on at least one occasion, he was left alone for days without food. See id. at
525. The Court also noted that “[d]espite the fact that the Public Defender’s office

28
28a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 29 of 45

made funds available for the retention of a forensic social worker, counsel chose not
to commission [a social history] report.” Id. at 524. The record thus established the
unreasonableness of counsel’s conduct, despite their testimony about having made
a strategic decision.
And in Porter, 558 U.S. at 39–40, the Supreme Court again concluded that
trial counsel’s decision not to investigate mitigating evidence “did not reflect
reasonable professional judgment,” despite trial counsel’s testimony at the
postconviction hearing. Reviewing counsel’s performance de novo, the Supreme
Court explained that the record reflected that “like the counsel in Wiggins, [trial
counsel] ignored pertinent avenues for investigation of which he should have been
aware.” Id. at 40. For instance, the court-ordered competency evaluations indicated
that the petitioner spent very few years in regular school, served in the military and
sustained wounds in combat, and noted his father’s “over discipline.” Id. Yet
counsel did not further investigate, and “thus failed to uncover and present any
evidence of [the petitioner’s] mental health or mental impairment, his family
background, or his military service.” Id.
These Supreme Court cases demonstrate that, even when trial counsel does
testify that a decision not to investigate was made for a strategic reason, that
testimony may not establish adequate performance if it is rebutted by other evidence
in the record. As Justice Sotomayor stated: “It cannot be, then, that such testimony

29
29a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 30 of 45

is necessary in every case. Where counsel does not testify but the defendant offers
other record evidence, a court can simply presume that counsel would have justified
his actions as tactical decisions and then consider whether the record rebuts the
reasonableness of the justification.” Reeves, 138 S. Ct. at 27 (Sotomayor, J.,
dissenting from the denial of certiorari).
Finally, the Supreme Court’s opinion in Massaro v. United States, 538 U.S.
500 (2003), further indicates that trial counsel’s testimony is not required for an
ineffective assistance of counsel claim. There, the Supreme Court held that failing
to raise an ineffective assistance of counsel claim on direct appeal does not bar the
claim from being brought in a later post-conviction proceeding under § 2255. See
id. at 509. But it declined to hold that ineffective-assistance claims must be reserved
for collateral review, recognizing that “[t]here may be cases in which trial counsel’s
ineffectiveness is so apparent from the record that appellate counsel will consider it
advisable to raise the issue on direct appeal. There may be instances, too, when
obvious deficiencies in representation will be addressed by an appellate court sua
sponte.” Id. at 508. The Court thus acknowledged that, in at least some cases,
ineffectiveness may be established based on the trial record and without testimony
from trial counsel or any other evidence presented on post-conviction review.
In view of these cases, “[t]here can be no dispute that the imposition of a
categorical rule that counsel must testify in order for a petitioner to succeed on a

30
30a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 31 of 45

federal constitutional ineffective-assistance-of-counsel claim contravenes [the
Supreme Court’s] decisions requiring an objective inquiry into the adequacy and
reasonableness of counsel’s performance based on the full record before the court.”
Reeves, 138 S. Ct. at 23 (Sotomayor, J., dissenting from the denial of certiorari). The
Court of Criminal Appeals’ decision contravenes the command of Strickland that
courts are to consider “all the circumstances” rather than applying “mechanical
rules.” Strickland, 466 U.S. at 688, 696. The Court of Criminal Appeals thus
unreasonably applied Strickland by applying a per se rule that trial counsel’s failure
to testify was fatal to Mr. Reeves’ ineffective assistance of counsel claims, and by
refusing to consider or discuss the evidence in the record, discussed below,
establishing counsel’s deficient performance.
B
Because the Court of Criminal Appeals unreasonably applied Strickland, “we
are unconstrained by § 2254’s deference and must undertake a de novo review of the
record” to determine whether trial counsel’s performance was deficient.

See

McGahee, 560 F.3d at 1266. The Court of Criminal Appeals never reached whether
trial counsel’s failure to retain a neuropsychologist was deficient, as its decision
rested solely on the lack of testimony from trial counsel at the Rule 32 hearing.
As the Supreme Court explained in Strickland, “counsel has a duty to make
reasonable investigations or to make a reasonable decision that makes particular

31
31a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 32 of 45

investigations unnecessary.” 466 U.S. at 691. The Supreme Court has further
instructed that “[i]n assessing the reasonableness of an attorney’s investigation, . . .
a court must consider not only the quantum of evidence already known to counsel,
but also whether the known evidence would lead a reasonable attorney to investigate
further.” Wiggins, 539 U.S. at 527–28 (holding that “counsel chose to abandon their
investigation at an unreasonable juncture, making a fully informed decision with
respect to sentencing strategy impossible” in light of what the records that they
reviewed “actually revealed”). See also Porter, 558 U.S. at 40 (holding that counsel
performed deficiently because he “ignored pertinent avenues for investigation of
which he should have been aware”).
Here, under Williams, Wiggins, and Porter, the totality of the evidence
establishes that trial counsel ceased their investigation at an “unreasonable juncture.”
Wiggins, 539 U.S. at 527. The record includes trial counsel’s own statements that
retaining a neuropsychologist to evaluate Mr. Reeves was “the only avenue open to
the defense to compile” the “hundreds of pages of psychological, psychometric, and
behavioral analysis material relating to” Mr. Reeves. See D.E. 23-1 at 74–75. Trial
counsel also acknowledged that they had “hundreds” of pages of documents,
including records from the Department of Youth Services, school records, and other
mental health records that they believed would be “exceptionally pertinent at the
penalty phase.” D.E. 23-3 at 96. They further represented that a neuropsychologist

32
32a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 33 of 45

was necessary “to assist [counsel] in the mitigation phase of the case,” even stating
that waiting until after the guilt phase to retain someone would be “a little late.” D.E.
23-3 at 92–93.
Indeed, trial counsel twice requested that the court appoint such an expert—
only to then neglect to hire Dr. Goff or any other neuropsychologist once the court
granted the request for funds. They never even contacted Dr. Goff, despite having
over three months to do so—as the funds to hire him were granted on October 16,
1997, and the trial began on January 26, 1998.
This conduct is particularly unreasonable and deficient in light of what trial
counsel actually knew about the need for an intellectual disability evaluation. See
Wiggins, 539 U.S. at 505. Among other things, the documents that trial counsel had
in their possession before trial included:
x Mental health records from the Cahaba Center for Mental Health reflecting
that Mr. Reeves was treated at the center for behavioral problems and ADHD
beginning when he was eight years old, that he was re-admitted for treatment
when he was 10 years old, and noting that “his intelligence is somewhat below
average” and his “[j]udgment and insights are poor.” See D.E. 23-19 at 1064–
65; D.E. 23–20 at 12.
x Records reflecting that Mr. Reeves was administered an IQ test when he was
14 years old and obtained a verbal IQ score of 75, a performance IQ score of
74, and a full-scale IQ score of 73. These records state that he is in the
“borderline range of intellectual functioning” and that he has “severe
deficiencies in non-verbal social intelligence skills and his ability to see
consequences.” D.E. 23-20 at 13, 57.
x Mental health and school records demonstrating that Mr. Reeves failed the
first, fourth, and fifth grades, that he was placed in special education services
33
33a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 34 of 45

for “emotional conflict,” that he was “socially promoted to the seventh
grade,” and that he was expelled in eighth grade. See D.E. 23-20 at 12, 43,
88–90, 156.
x An outpatient forensic evaluation report from the Alabama Department of
Mental Health and Mental Retardation describing Mr. Reeves as having
“below normal intellectual functioning” in June of 1997. See D.E. 23-19 at
981–88.
The record further reflects that—in contravention of their own statement that
waiting until after the guilt phase would be too late—trial counsel did not speak to
Dr. Ronan about testifying on Mr. Reeves’ behalf until the day of the penalty phase.
And, despite specifically requesting the appointment of a neuropsychologist to do
an intellectual disability evaluation for mitigation, trial counsel relied on Dr.
Ronan—a clinical psychologist who had evaluated Mr. Reeves only for competency
to stand trial and his mental state at the time of the offense, and who had not
conducted an intellectual disability evaluation for mitigation.
At the Rule 32 proceedings, Mr. Reeves submitted an affidavit from Dr.
Ronan, in which she explained that she “was not requested to complete a sentencing
phase evaluation,” and she “had not conducted an extensive clinical evaluation
regarding mental retardation as that was not within the scope of [her] evaluation.”
D.E. 23-15 at 10. Specifically, Dr. Ronan testified that an “evaluation for [c]apital
sentencing would contain different components than those for the trial phase
evaluations, and would be more extensive in terms of testing and background
investigation.” Id. at 11. For example, Dr. Ronan only administered the verbal
34
34a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 35 of 45

portion of an IQ test. Had she been conducting an intellectual disability evaluation,
the entire IQ test “would be required to be given,” and further investigation into
adaptive functioning would have been necessary. See id. The state’s own expert,
Dr. King, acknowledged that a “full scale IQ test” should be given to evaluate
intellectual disability. See D.E. 23-25 at 52.
Dr. Ronan further stated in her affidavit that “[a]ttorneys were routinely
informed as to the limitations” of her testimony for the capital penalty phase, “in that
the original evaluation was not performed for that purpose.” D.E. 23-15 at 10.
Despite this, Mr. Reeves’ trial counsel called Dr. Ronan as a witness. Under the
circumstances and our cases, it was not reasonable for trial counsel to rely on Dr.
Ronan, as she had only performed a competency evaluation and they did not speak
to her until the day of the penalty phase. See Debruce v. Comm’r, Ala. Dep’t of
Corr., 758 F.3d 1263, 1273–74 (11th Cir. 2014) (holding that no lawyer could
reasonably forego the pursuit of mitigation evidence on the defendant’s mental
health “based on the results of [a] pre-trial report governing competency to stand
trial” because competency cannot be equated with guilt-phase mental health
defenses). See also Hardwick v. Crosby, 320 F.3d 1127, 1163 (11th Cir. 2003)
(“Regarding mental health evidence, our court has distinguished between its use
during the guilt phase to establish competency to stand trial and presenting mental
health mitigating evidence at the penalty phase.”); Blanco v. Singletary, 943 F.2d

35
35a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 36 of 45

1477, 1503 (11th Cir. 1991) (“One can be competent to stand trial and yet suffer
from mental health problems that the sentencing jury and judge should have had an
opportunity to consider.”).
In denying relief on Mr. Reeves’ ineffective assistance of counsel claim, the
district court noted that the records obtained by trial counsel indicated that Mr.
Reeves was in the borderline range of intellectual functioning. As a result, the
district court concluded that they “cannot reasonably be faulted for failing to pursue
further expert inquiry into [his] intellectual functioning[.]” D.E. 29 at 49.9
But as the Supreme Court stated in Strickland, “strategic choices made after
less than complete investigation are reasonable precisely to the extent that
reasonable professional judgments support the limitations on investigation.” 466
U.S. at 690–91 (emphasis added). Given that trial counsel had already obtained the
funds to retain Dr. Goff—and was well aware that Mr. Reeves’ intellectual ability
was an important issue—counsel should have at least had his mental capacity
evaluated so that they could “mak[e] an informed choice among possible defenses.”

9

The Rule 32 court similarly concluded that when Dr. Ronan’s testimony is considered together
with the records collected by trial counsel, “there was no indication of a diagnosis of mental
retardation.” D.E. 23-16 at 155. But because the Court of Criminal Appeals applied its per se rule
requiring trial counsel’s testimony, it did not analyze counsel’s conduct and did not pass on the
Rule 32 court’s analysis. We therefore review only the decision of the Court of Criminal Appeals.
See Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018) (“when the last state court to decide a prisoner’s
federal claim explains its decision on the merits in a reasoned opinion,” a “federal habeas court
simply reviews the specific reasons given by the state court and defers to those reasons if they are
reasonable”).
36
36a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 37 of 45

Wiggins, 539 U.S. at 525. See also Williams, 529 U.S. at 396 (holding that counsel’s
failure to investigate and present mitigating evidence was deficient even though “not
all of the additional evidence was favorable to Williams”); Jones v. Sec’y, Fla. Dep’t
of Corr., 834 F.3d 1299, 1306–07 & 1312 n.6 (11th Cir. 2016) (holding that
counsel’s performance was deficient because he did not have the defendant
evaluated by a mental health expert despite evidence that neuropsychological testing
was needed, even though there were also other unfavorable psychological
evaluations in the defendant’s records, including notations that he was not suffering
from any mental illness). Cf. Sealey v. Warden, 954 F.3d 1338, 1356 (11th Cir.
2020) (noting that trial counsel’s decision not to further investigate the petitioner’s
mental health, despite having requested and received funding from the trial court for
a complete psychological evaluation, was “deeply troubling”).
We recognize, of course, that because a habeas petitioner bears the burden of
proving that his counsel’s performance was deficient, “the absence of evidence
cannot overcome the strong presumption that counsel’s conduct fell within the wide
range of reasonable professional assistance.” Burt v. Titlow, 571 U.S. 12, 17 (2013)
(citation and internal quotation marks omitted); Chandler v. United States, 218 F.3d
1305, 1314 n.5 (11th Cir. 2000) (same). Presenting counsel’s testimony at a postconviction hearing may, therefore, be necessary to prove deficiency where the record
is otherwise silent. For example, in Jenkins v. Alabama Department of Corrections,

37
37a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 38 of 45

963 F.3d 1248, 1265–66 (11th Cir. 2020), we held under AEDPA deference that a
petitioner claiming his counsel was ineffective for failing to investigate and present
mitigating evidence could not meet his burden of overcoming the presumption of
competence, in part because the attorney who was responsible for the penalty phase
did not testify at the Rule 32 hearing. The “record [was] silent as to [counsel’s]
thoughts and intentions as he prepared for the penalty phase,” and the “limited
record” that the petitioner did develop undermined his assertion that counsel
prepared inadequately. See id.
Where the record is not silent, however, counsel’s testimony is not necessarily
required. For instance, in Buck v. Davis, 137 S. Ct. 759, 775 (2017), the Supreme
Court recently found deficient performance in a case where the state and lower
federal courts had concluded that the ineffective assistance of counsel claim was
procedurally defaulted. See id. (finding deficient performance where, during the
penalty phase, trial counsel introduced testimony from an expert that the defendant
had a greater propensity for violence because of his race, as “[n]o competent defense
attorney would introduce such evidence about his own client”). It reached this
conclusion even though it appears that counsel did not testify at any post-conviction
hearing. See id. at 769–770. Neither the Supreme Court, Fifth Circuit, nor district
court opinions referenced any testimony from trial counsel. See id. at 775–76. See
also Buck v. Stephens, 623 F. App’x 668 (5th Cir. 2015); Buck v. Stephens, No. H-

38
38a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 39 of 45

04-3965, 2014 WL 11310152 (S.D. Tex. Aug. 29, 2014); Buck v. Thaler, 452 F.
App’x 423 (5th Cir. 2011); Buck v. Thaler, 345 F. App’x 923 (5th Cir. 2009).
Here, as in Buck, the record is not silent. The record establishes that trial
counsel ended their investigation of Mr. Reeves’ intellectual ability at an
unreasonable time. They had numerous records pointing to Mr. Reeves’ low
intelligence and educational failures. And yet they failed to even contact Dr. Goff
after proclaiming their need for him and obtaining the funds to retain him. In view
of their awareness of the need for an intellectual disability evaluation, there can be
no valid strategic reason for this decision. Trial counsel’s performance was thus
deficient, given what Mr. Reeves’ records revealed.
C
As explained in cases like Brownlee v. Haley, 306 F.3d 1043, 1049–50 (11th
Cir. 2002), at the time of Mr. Reeves’ trial and sentencing hearing in 1998, an
Alabama jury performed an advisory role in a capital sentencing proceeding. The
jury, after hearing the evidence presented by the parties at the second phase of a
bifurcated proceeding, issued an advisory verdict recommending a sentence to the
trial court based on its evaluation of aggravating and mitigating factors. If the jury
found no statutory aggravating circumstances, or found that the statutory
aggravating circumstances did not outweigh the mitigating circumstances, it had to
return an advisory verdict recommending a sentence of life imprisonment without

39
39a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 40 of 45

parole. See Ala. Code § 13A-5-46(e)(1)–(2) (2001). If, on the other hand, the jury
found that one or more statutory aggravating circumstances outweighed the
mitigating circumstances, it had to return an advisory verdict recommending a
sentence of death. See Ala. Code § 13A-5-46(e)(3) (2001).

The decision to

recommend a sentence of death had to be based on a vote of at least 10 jurors. See
Ala. Code § 13A-5-46(f) (2001). The trial court, based upon its independent
determination and weighing of the aggravating circumstances, made the final
decision as to the appropriate sentence. See Ala. Code § 13A-5-47(d)–(e) (2001).10
The Court of Criminal Appeals did not reach the prejudice prong here, so we
review this element of the Strickland claim de novo. See Rompilla, 545 U.S. at 390.
“Given that the jury here recommended a sentence of death by the narrowest possible
vote, 10 to 2, [Mr. Reeves] need establish only ‘a reasonable probability that at least
one juror would have struck a different balance’ between life and death.” Jenkins,
963 F.3d at 1270 (quoting Wiggins, 539 U.S. at 537). He “need not show that
counsel’s deficient conduct more likely than not altered the outcome in the case.”
Strickland, 466 U.S. at 693. In assessing the reasonable probability of a different
result, we “consider the totality of the available mitigation evidence—both that
adduced at trial, and the evidence adduced in the habeas proceeding—and reweigh

10

In 2017 Alabama amended its capital sentencing scheme. See 2017 Ala. Laws Act 2017-131
(S.B. 16) (amending, e.g., Ala. Code. §§ 13A-5-46, 13A-5-47). The new provisions are not before
us in this appeal.
40
40a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 41 of 45

it against the evidence in aggravation.” Porter, 558 U.S. at 41 (internal citation,
quotation marks, and alteration omitted).
In sentencing Mr. Reeves, the trial court found only one aggravating
circumstance: that the offense was committed during the course of a robbery. On
the other hand, the trial court found two statutory mitigating circumstances, his lack
of significant prior criminal activity and his age at the time of the offense, and two
non-statutory mitigating circumstances: he grew up in a poor home environment
without appropriate developmental resources and responds positively when placed
in a structured environment.
Although Mr. Reeves is not ineligible for the death penalty under Atkins, the
jury or trial court might have found other statutory or non-statutory mitigating
factors had evidence of his intellectual disability been presented, and thus weighed
the aggravating and mitigating circumstances differently. As Mr. Reeves asserts,
see Appellant’s Initial Br. at 64, his mental capacity is relevant to the statutory
mitigating circumstance of “[t]he capacity of the defendant to appreciate the
criminality of his conduct or to conform his conduct to the requirements of law,”
Ala. Code § 13A-5-51(6) (2001), and two non-statutory mitigating factors under Ala.
Code § 13A-5-52 (2001) (“mitigating circumstance shall include . . . any other
relevant mitigating circumstance which the defendant offers”). See also Brownlee,
306 F.3d at 1071–73 (explaining that the jury could have found a non-statutory

41
41a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 42 of 45

mitigating circumstance based on the petitioner’s “borderline intellectual
functioning and psychiatric disorders”). Cf. Tennard v. Dretke, 542 U.S. 274, 287
(2004) (recognizing that evidence of impaired intellectual functioning is “inherently
mitigating” even if the petitioner does not “establish a nexus between [his] mental
capacity and [his] crime”); Atkins, 536 U.S. at 305 (“Mentally retarded persons . . .
have diminished capacities to understand and process information, to communicate,
to abstract from mistakes and learn from experience, to engage in logical reasoning,
to control impulses, and to understand the reactions of others. Their deficiencies do
not warrant an exemption from criminal sanctions, but diminish their personal
culpability.”).
The mitigating evidence that counsel failed to obtain and present was
powerful. At the Rule 32 hearing, Dr. Goff testified that Mr. Reeves was “mentally
retarded.” He also testified that Mr. Reeves read at a third-grade level, his other
academic skills were at a fourth-grade level, and he spelled at a fifth-grade level, and
that Mr. Reeves has had significant deficits in self-direction, functional academics,
work activities, and health and safety throughout his life.
The district court concluded that Mr. Reeves failed to show prejudice because
the jury was informed of his “lower intellectual functioning multiple times during
the penalty phase[.]” D.E. 29 at 50–51. During the penalty phase, however, trial
counsel only presented evidence that he was in the “borderline” range of intellectual

42
42a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 43 of 45

ability, not that he was intellectually disabled. Indeed, the only evidence they put
on about his mental capacity undermined that finding, as the sole witness to testify
as to his intellectual ability during the penalty phase—Dr. Ronan—stated on cross
examination “[h]e was not in a level that they would call . . . mental retardation.”
Trial counsel did not object or clarify on re-direct examination that Dr. Ronan had
not conducted the necessary evaluation to make that determination. The jury thus
never heard from a qualified expert who had fully evaluated Mr. Reeves that he was
“mentally retarded.” In fact, they were told the opposite.
The jury or the trial court may have found Dr. Goff’s testimony particularly
relevant in light of Dr. Ronan’s and Dr. Salekin’s testimony that Mr. Reeves was
negatively influenced by his brother Julius—who was present for the offense and
conceived of the idea to rob Mr. Johnson—and that his low intellectual functioning
made him particularly susceptible to the influence of others. Had Dr. Goff’s
testimony been considered, there is a “reasonable probability that the advisory
jury—and the sentencing judge—‘would have struck a different balance.’” Porter,
558 U.S. at 42 (quoting Wiggins, 539 U.S. at 537). The neglected evidence here is,
in other words, “sufficient to undermine confidence in the outcome.” Strickland,
466 U.S. at 694. See also Williams, 529 U.S. at 398 (explaining that evidence of the
petitioner’s childhood abuse and “the reality that he was ‘borderline mentally
retarded,’ might well have influenced the jury’s appraisal of his moral culpability”);

43
43a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 44 of 45

Glenn v. Tate, 71 F.3d 1204, 1209–11 (6th Cir. 1995) (holding that the petitioner
was prejudiced by trial counsel’s failure to present evidence of his low intellectual
capacity, particularly because the jury was presented with a report stating that his
offense was not the result of “mental retardation”).
Although the state’s expert, Dr. King, testified that Mr. Reeves was in the
borderline range and was not intellectually disabled, this “does not justify
discounting [Mr. Reeves’] mitigating evidence.” Debruce, 758 F.3d at 1277. See
also Porter, 558 U.S. at 43 (holding that it was not reasonable for the Florida
Supreme Court to discount the effect that the petitioner’s expert might have had on
the jury or the sentencing judge based on the fact that the state’s expert provided
contradictory testimony).

Significantly, some of Dr. King’s testimony was

consistent with Dr. Goff’s, including that Mr. Reeves’ full-scale IQ score of 68
indicated significantly subaverage intellectual functioning and that Mr. Reeves had
low test scores in certain areas of adaptive functioning.
The state, moreover, “does not point to any additional aggravating evidence
that would have been introduced had counsel presented testimony” about Mr.
Reeves’ intellectual disability. See id. And we repeat that the trial court found only
one aggravating circumstance and four mitigating circumstances, none of which
dealt with Mr. Reeves’ intellectual ability. Accordingly, we conclude that “the
available mitigating evidence, taken as a whole, might well have influenced the

44
44a

USCA11 Case: 19-11779

Date Filed: 11/10/2020

Page: 45 of 45

jury’s [or the trial judge’s] appraisal” of Mr. Reeves’ moral culpability. See Wiggins,
539 U.S. at 538 (citation and internal quotation marks omitted).
V
For the foregoing reasons, we affirm the ruling of the district court as to Mr.
Reeves’ claim that he is intellectually disabled and thus ineligible for the death
penalty. We reverse the ruling of the district court as to Mr. Reeves’ claim of
ineffective assistance of counsel at the penalty phase and remand to the district court
for issuance of the writ in the form of a new capital sentencing hearing for Mr.
Reeves.
AFFIRMED IN PART, REVERSED IN PART, AND REMANDED.

45
45a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 1 of 105

PageID #: 7791

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
MATTHEW REEVES,
Plaintiff,
vs.
JEFFERSON D. DUNN,
Respondent.

:
:
:
:
:
:
:
:

CIVIL ACTION NO. 17-0061-KD-MU

ORDER
Petitioner, Matthew Reeves, a state prisoner currently in the custody of the
Alabama Department of Corrections, has petitioned this Court for federal habeas corpus
relief pursuant to 28 U.S.C. § 2254. Reeves challenges the validity of his 1998 conviction
for capital murder in the Circuit Court of Dallas County, Alabama. (Doc. 24). This matter
is now before the Court on Reeves’s petition, Respondent’s answer, and the briefs,
responses, and exhibits filed by the parties, as well as the 32-volume record of state-court
proceedings. Following a thorough review of the petition and record, the undersigned finds
that an evidentiary hearing is not warranted on the issues.1 For the reasons set forth below,
the Court finds that Petitioner Reeves’s petition for writ of habeas corpus is due to be
DENIED, and that if Reeves seeks the issuance of a certificate of appealability, his request
be denied, along with any request to appeal in forma pauperis.
I.

Background and Facts.

Because Reeves filed his federal habeas petition after April 24, 1996, this case is
governed by the Antiterrorism and Effective Death Penalty Act (AEDPA). "AEDPA
expressly limits the extent to which hearings are permissible, not merely the extent to which
they are required." Kelley v. Sec'y for the Dep't of Corr., 377 F.3d 1317, 1337 (11th Cir.
2004). Reeves has failed to establish that an evidentiary hearing is warranted in this case.
Birt v. Montgomery, 725 F.2d 587, 591 (11th Cir. 1984) (en banc) ("The burden is on the
petitioner . . . to establish the need for an evidentiary hearing.").
1

46a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 2 of 105

PageID #: 7792

The Alabama Court of Criminal Appeals found the facts of this case to be as
follows:2
"On November 27, 1996, the appellant (who was 18 years old at the time)
and his younger brother, Julius, visited Brenda Suttles and Suttles's 15—
year—old cousin, Emanuel, at Suttles's house on Lavender Street in Selma.
There, according to Suttles, everyone agreed to go out 'looking for some
robberies.' (R. 684.) Shortly after noon that day, the foursome left Suttles's
house on foot and walked to a nearby McDonald's restaurant, where they
saw Jason Powell driving by in his car. The appellant's brother, Julius,
flagged Powell down, and Powell agreed to give the group a ride.”
"Brenda Suttles and Emanuel Suttles testified that after the foursome got
into Powell's car, Julius Reeves suggested that they go to White Hall, a town
in neighboring Lowndes County, to rob a drug dealer. According to Brenda
Suttles, everyone in the car agreed to the plan. (Powell, who also testified
at trial, denied hearing the discussion about a robbery.) Before leaving
Selma, the group stopped at an apartment on Broad Street. Julius Reeves
went inside the apartment and returned to the car a short time later carrying
a shotgun, which he handed to the appellant. With Powell driving, the group
then headed for White Hall.”
"Before they reached White Hall, however, Powell's car broke down on a
dirt road off Highway 80. Shortly thereafter, a passing motorist, Duane
Smith, stopped and told the group that he was in a hurry to meet some
friends to go hunting, but that he would return around sunset and would take
them to get help then. For the next couple of hours, the group sat in Powell's
car and listened to music, until another passing motorist, Willie Johnson,
stopped in his pickup truck and offered to tow Powell's car to Selma. Using
some chains that he kept in his pickup truck, Johnson hooked Powell's car
to the back of his truck. With Julius Reeves riding in the truck with him and
the others in Powell's car, Johnson towed the car to the Selma residence
where the appellant and Julius lived with their mother.”
"When they arrived at the Reeveses' house, Julius Reeves got out of
Johnson's truck and told the others that Johnson wanted $25 for towing them.
However, no one had any money to pay Johnson. Julius Reeves then offered
to give Johnson a ring as payment if Johnson would drive him to his
AEDPA directs that a presumption of correctness be afforded factual findings of
state courts, "which may be rebutted only by clear and convincing evidence." Bui v. Haley,
321 F. 3d 1304, 1312 (11th Cir. 2003) (citing 28 U.S.C. § 2254(e)(1)). "This presumption
of correctness applies equally to factual determinations made by state trial and appellate
courts." Id. (citing Sumner v. Mata, 449 U.S. 539, 547, 101 S. Ct. 764, 66 L. Ed. 2d 722
(1981)). These facts are recited in the memorandum opinion of the Alabama Court of
Criminal Appeals on Reeves’s direct appeal of his trial and conviction. See Reeves v. State,
(CR-13,1504), 226 So. 3d 711, 718-22 (Ala. Crim. App. 2016) (Doc. 23-31 at 3-9).
2

2
47a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 3 of 105

PageID #: 7793

girlfriend's house to get the ring. Johnson agreed and he unhooked Powell's
car from his truck. According to Jason Powell and Emanuel Suttles, Julius
Reeves at this point told the others that Johnson was going to be
their robbery victim. While Jason Powell and Emanuel Suttles stayed
behind with Powell's car in front of the Reeveses' house, Julius Reeves got
back in the cab of the truck with Johnson, and Brenda Suttles climbed into
the rear bed of the truck. Testimony indicated that when Johnson started the
truck, the appellant jumped into the rear bed of the truck with the shotgun,
hiding the weapon behind his leg as he did so.”
"When they arrived at Julius's girlfriend's house in Johnson's truck, Julius
went inside and retrieved the ring he had promised to give Johnson as
payment. According to Brenda Suttles, when Julius came out of the house,
he walked to the rear of Johnson's truck and told her and the appellant that
he was not going to let Johnson keep the ring. After Julius got back in the
cab of the truck, Johnson drove everyone back to the Reeveses' house.
"Jason Powell and Emanuel Suttles, who had remained at the house with
Powell's car, testified that sometime around 7:00 p.m., they saw Johnson's
truck drive by the house and turn into an alley -- known as Crockett's Alley
-- behind the house. According to Brenda Suttles, who was in the rear bed
of the truck with the appellant, just as the truck came to a stop in the alley,
she heard a loud 'pow' sound. (R. 704.) Suttles testified that when she looked
up, the appellant was withdrawing the barrel of the shotgun from the open
rear window of the truck's cab. Johnson had been shot in the neck and was
slumped over in the driver's seat. Suttles testified that Julius Reeves jumped
out of the truck's cab and asked the appellant what he had done, and that the
appellant then told Julius and Suttles to go through Johnson's pockets to 'get
his money.' (R. 704.) Suttles stated that Julius then pulled Johnson out of
the truck and went through his pockets, giving the money he found in the
pockets to the appellant. After Julius had gone through Johnson's pockets,
Suttles helped him put Johnson back in the truck's cab. According to Suttles,
Johnson was bleeding heavily and making 'gagging' noises. (R. 721.)”
"Jason Powell and Emanuel Suttles testified that they heard the gunshot
after Johnson's truck pulled into Crockett's Alley and that a short time later
they saw the appellant, Julius Reeves, and Brenda Suttles run out of the
alley and into the Reeveses' house. The appellant was carrying a shotgun,
they said. They followed the appellant, Julius Reeves, and Brenda Suttles
into the Reeveses' house and saw the appellant place the shotgun under a
bed in his bedroom. The appellant told Julius and Brenda Suttles to change
out of their bloodstained clothes and shoes, and he took the clothes and
shoes and stuffed them under a dresser in his bedroom. According to
Emanuel Suttles, as the appellant, Julius, and Brenda changed their clothes,
they were 'jumping and hollering' and celebrating about 'all the stuff [they]
got' from Johnson. (R. 842.) Jason Powell testified that he heard the
appellant say, 'I made the money.' (R. 786.)”

3
48a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 4 of 105

PageID #: 7794

"After changing their clothes, the appellant, Julius Reeves, and Brenda
Suttles ran to Suttles's house. On the way, the appellant stopped to talk to
his girlfriend, telling her that if she should be questioned by the police, to
tell them that he had been with her all day. At Suttles's house, the appellant
divided the money taken from Johnson -- approximately $360 -- among
himself, Julius Reeves, and Brenda Suttles. Testimony indicated that
throughout the evening, the appellant continued to brag about having shot
Johnson. Several witnesses who were present at Suttles's house that evening
testified that they saw the appellant dancing, 'throwing up' gang signs, and
pretending to pump a shotgun. Brenda Suttles testified that as the appellant
danced, he would jerk his body around in a manner 'mock[ing] the way that
Willie Johnson had died.' (R. 713.) The appellant was also heard to say that
the shooting would earn him a 'teardrop,' a gang tattoo acquired for killing
someone. (R. 720.)”
"Yolanda Blevins, who was present during the post-shooting 'celebration' at
Suttles's house, testified that the appellant called her into the kitchen and
told her that he had shot a man in a truck after catching a ride with him.
Blevins noticed that there was what appeared to be dried blood on the
appellant's hands. LaTosha Rodgers, who was also present at Suttles's house,
testified that the appellant told her that he had 'just shot somebody' in the
alley. (R. 924.)”
"At around 2:00 a.m. on November 28, 1996 (approximately seven hours
after the shooting), Selma police received a report of a suspicious vehicle
parked in Crockett's Alley. When police officers investigated, they found
Johnson's body slumped across the seat of his pickup truck. There was a
pool of blood on the ground on the driver's side of the truck. Several
coins and a diamond ring were on the ground near the truck. On the
floorboard of the truck, police found wadding from a shotgun shell. The
pockets of Johnson's pants had been turned inside out and were empty.
Testimony at trial indicated that Johnson was a longtime employee of the
Selma Housing Authority and that on the afternoon of November 27, 1996,
he had cashed his paycheck, which had been in the amount of $500.”
"At the shooting scene on the morning of November 28, police also
discovered a trail of blood leading from Johnson's truck to the Reeveses'
house. Randy Tucker, a canine-patrol officer with the Selma Police
Department, testified that his dog tracked the blood trail from the pool of
blood next to Johnson's truck, down Crockett's Alley, through the yard at
2126 Selma Avenue (the residence next to the alley), and ultimately to the
front steps of the Reeveses' house at 2128 Selma Avenue.”
"Pat Grindle, the detective in charge of investigating Johnson's murder,
went to the Reeveses' house after learning that the blood trail led there. Det.
Grindle testified that he obtained the consent of the appellant's mother,
Marzetta Reeves, to search the house. In a bedroom shared by the
appellant and Julius, Det. Grindle found bloodstained clothes and

4
49a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 5 of 105

PageID #: 7795

bloodstained shoes; under a bed in this bedroom, Det. Grindle found a
shotgun. In searching the kitchen, Det. Grindle found a pair of bloodstained
pants. After making these discoveries, Det. Grindle questioned Marzetta
Reeves and several other persons who were in the house at that time. Det.
Grindle stated that he learned that the bloodstained clothes and shoes
belonged to Julius Reeves, Brenda Suttles, and the appellant. Det. Grindle
then went to Suttles's house in an attempt to locate the three. At Suttles's
house, Det. Grindle found the appellant lying on a couch in a front room.
The appellant was placed under arrest, and the officers seized a balled-up
bloodstained jacket he was using as a headrest on the couch. Det. Grindle
later returned to the Reeveses' residence, where he seized a 12 gauge
shotgun shell from a garbage can in the bathroom.
"An autopsy revealed that Johnson had died from a shotgun wound to his
neck that severed the carotid artery, causing him to bleed to death over a
period of several minutes. Bloodstain patterns in Johnson's truck indicated
that he was sitting upright in the driver's seat, facing forward, when he was
shot from behind, through the open rear window. The bloodstain patterns
also indicated that the driver's side door had been opened and closed shortly
after Johnson was shot.”
"Testimony indicated that the appellant's fingerprints were found on the
shotgun that Det. Grindle had seized from under the bed in the appellant's
bedroom. Brenda Suttles's and Julius Reeves's fingerprints were found on a
fender of Johnson's truck. Joseph Saloom, a firearms expert with the
Alabama Department of Forensic Sciences, testified that the shotgun shell
seized from the bathroom at the Reeveses' residence was of the type
commonly fired from the shotgun seized from the appellant's bedroom.
Saloom stated that shotgun-shell wadding found on the floorboard of
Johnson's truck was of the type commonly found in the kind of shotgun
shell seized from the bathroom at the Reeveses' residence."
Reeves v. State, (CR-13,1504), 226 So. 3d 711, 718-22 (Ala. Crim. App. 2016) (quoting
Reeves v. State, 807 So. 2d 18, 24-26 (Ala. Crim. App. 2000) (Doc. 23-31 at 3-9).
In January, 1997, Petitioner Reeves was indicted by the Dallas County, Alabama
Grand Jury of capital murder in violation of ALA. CODE § 31A-5-40(a)(2) (“Murder by the
defendant during a robbery in the first degree or an attempt thereof committed by the
defendant.”. (Doc. 23-1 at 10-11; Vol. 1, JR-1, pp. 10-11). Reeves entered a plea of not
guilty to the charges (Doc. 23-1 at 27-28; Vol. 1, JR-1, pp. 27-28), and, following a jury
trial in the Circuit Court of Dallas County, Alabama, Petitioner was convicted of the

5
50a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 6 of 105

PageID #: 7796

indicted charge. (Doc. 23-8 at 85-86; Vol. 8, JR-19). The trial judge accepted the jury’s
recommendation and, on August 20, 1998, sentenced Reeves to death. (Doc. 23-8 at 212;
Vol. 8; JR-31; Doc. 23-2 at 20-26; Vol. 2; JR-3 at 233-39).
Through representation of counsel, Reeves filed a motion for new trial which was
denied on December 8, 1998. On August 22, 2000, the Court of Criminal Appeals upheld
Reeves’s conviction and death sentence. Reeves filed an application for rehearing that was
overruled on October 27, 2000. See Reeves v. State, 807 So. 2d 18 (Ala. Crim. App. 2000)
(Doc. 23-10 at 43-104; Vol. 10, JR-35). Reeves was denied certiorari review by the
Alabama Supreme Court on June 8, 2001, and by the United States Supreme Court on
November 13, 2001. (Doc. 23-10 at 106-98; Vol. 10, JR-36; Doc. 23-11 at 136; Vol. 11,
JR-41); see also, Reeves v. Alabama, 534 U.S. 1026 (2001).
On October 30, 2002, Reeves executed a post-conviction Rule 32 petition. (Doc.
23-12 at 1758; Vol. 12, JR-42). He filed an amended petition on February 26, 2003 (Doc.
23-12 at 124-86; Vol. 12, JR-47) and a second amended and superseding petition on August
31, 2006. (Doc. 23-14 at 149-201; Doc. 23-15 at 1-17; Vol. 14, JR-60; Vol. 15, JR. 60).
The State answered the petition on October 28, 2006, and the Circuit Court conducted an
evidentiary hearing on the petition on November 28-29, 2006. (Docs. 23-24, 23-25, 23-26
at 1-10; Vols. 24-26, JR-85). On May 7, 2008, the State filed a proposed order denying
Reeves’s Rule 32 petition (Doc. 23-15 at 174-201, Doc. 23-16 at 1-57; Vols. 15-16, JR-63)
and on September 9, 2008, Reeves filed a written objection to the State’s proposed order
and a brief in support of his Rule 32 petition. (Doc. 23-16 at 58-134; Vol. 16, JR 64). The
Circuit Court denied Reeves’s Rule 32 Petition on October 26, 2009; however, the Circuit
Court Clerk did not serve the denial order on the parties, and the denial order was not

6
51a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 7 of 105

PageID #: 7797

entered into the case docket, until January 7, 2013.3 (Doc. 23-16 at 135-67; Vol. 16, JR65).
Reeves was granted an out-of-time appeal on May 30, 2014 (Doc. 23-19 at 95; Vol.
193, JR-82), and on December 10, 2014, appealed the denial of his Rule 32 petition,
asserting the following claims:
1. The Circuit Court erroneously adopted verbatim the portion of the State’s
proposed order addressing his claim of intellectual disability,
2. The Circuit Court erred in denying his claim of intellectual disability under
Atkins,
3. The Circuit Court erred in denying his claims of ineffective assistance of trial
and appellate counsel for:
(1) not hiring Dr. Goff, or another neuropsychologist, to evaluate Reeves for
intellectual disability despite having court-approved funds to do so,
(2) relying on the testimony of Dr. Ronan, the court-appointed psychologist
who examined Reeves to determine his competency to stand trial, to present
mitigation evidence during the penalty phase,
(3) failing to object during the penalty phase to Dr. Ronan’s testimony that
Reeves was not intellectually disabled,
(4) failing to conduct an adequate mitigation investigation and presenting the
evidence during the penalty phase of the trial,
(5) failing to preserve claims for direct appeal, including not objecting during
the trial to prosecutor’s urging to the jury to consider non-statutory
aggravating circumstances to impose a death sentence, prosecutor’s
argument and reference that Reeves was involved in a gang, prosecutor’s
reference during the penalty phase that the jury’s verdict was a
recommendation, and the trial court’s instruction to the jury during the
penalty phase that its verdict was a recommendation,
(6) failing to raise the aforementioned claims regarding trial counsels’
ineffectiveness on appeal.
“The record indicates that the parties were not notified of the circuit court’s ruling
until January 2013. Reeves then filed another Rule 32 petition pursuant to Rule 32.1(f),
Ala. R. Crim. P., requesting an out-of-time appeal from the circuit court’s October 26, 2009,
order denying his first petition.” Reeves v. State, 226 So 3d 711, 721 (Ala. Crim. App.
2016).
3

7
52a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 8 of 105

PageID #: 7798

4. The Circuit Court erred in summarily dismissing his claims of juror misconduct,
5. The Circuit Court erred in denying on procedural grounds that claim that lethal
injection constitutes cruel and unusual punishment in violation of the Eighth
Amendment.
(Doc. 23-29 at 2-115; Vol. 29, JR-90). The Criminal Appeals Court affirmed the Circuit
Court’s judgment and denied the application for rehearing. (Doc. 23-31 at 2-105; Vol. 31,
JR-94; Reeves v. State, 226 So 3d 711 (Ala. Crim. App. 2016), rehearing denied by, (CR13-1504), 2016 Ala. Crim. App. LEXIS 1011 (Ala. Crim. App., Oct. 14, 2016)). And,
Reeves’s petition for writ of certiorari in the Supreme Court of Alabama was denied (Docs.
23-31 at 106-299, 23-32 at 1-48; Vols. 31, 32, JR-95; Vol. 32, JR-96), as well as his petition
for writ of certiorari in the United States Supreme Court, Reeves v. Alabama, __ U.S. __,
138 S. Ct. 22, 199 L. Ed. 2d 341 (2017) (Sotomayor, J., dissenting); (Doc. 23-32 at 288301; Vol. 32, JR-100).
Reeves timely filed the instant petition for federal habeas relief on February 1, 2017,
challenging his 1998 conviction for capital murder. (Docs. 1, 24).
II.

Grounds for Relief.
In his petition for habeas relief, Reeves raises the following grounds for relief:
1. Capital sentence violates the constitutional prohibition on the execution of
intellectually disabled persons.
2. Constitutional right to Due Process was denied when the Circuit Court adopted
word-for-word language from the State’s proposed order denying Reeves’s
Atkins claim that contained serious factual omissions and relied on
inappropriate considerations.
3. Ineffective Assistance of Counsel:
a. Court of Criminal Appeals unreasonably concluded that counsel’s
testimony is required to overcome Strickland’s presumption of sound
trial strategy.

8
53a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 9 of 105

PageID #: 7799

b. Counsel failed to investigate his alleged intellectual disability.
c. Counsel failed to retain mitigating expert and failed to present crucial
mitigating evidence.
d. Counsel failed to preserve certain arguments for and present on appeal.
4. Denied a fair trial due to juror misconduct.
5. Alabama’s method of execution is unconstitutional.
6. Death sentence violates the Eighth Amendment.
7. Death sentence violates the Sixth Amendment.
(Doc. 24). The habeas petition has been fully briefed and is ripe for consideration. The
Court will consider each of Reeves’ claims in turn.
III.

Standard of Review.
This Court's review of Reeves’s petition is governed by the Antiterrorism and

Effective Death Penalty Act (AEDPA). Under AEDPA, "the role of the federal court . . .
is strictly limited." Jones v. Walker, 496 F.3d 1216, 1226 (11th Cir. 2007). Specifically,
§ 2254(d) provides:
(d) An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted with
respect to any claim that was adjudicated on the merits in State court
proceedings unless the adjudication of the claim - (1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of facts in light of the evidence presented in the State
court proceeding.
(e)(1) In a proceeding instituted by an application for a writ of habeas corpus
by a person in custody pursuant to the judgment of a State court, a
determination of a factual issue made by a State court shall be presumed to
be correct. The applicant shall have the burden of rebutting the presumption
of correctness by clear and convincing evidence.

9
54a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 10 of 105

PageID #: 7800

28 U.S.C. § 2254(d).
According to subsection (1), "[a] federal habeas court may issue the writ under the
'contrary to' clause if the state court applies a rule different from the governing law set forth
in [Supreme Court] cases, or if it decides a case differently than [the Supreme Court has]
done on a set of materially indistinguishable facts." Bell v. Cone, 535 U.S. 685, 694, 122
S. Ct. 1843, 152 L. Ed. 2d 914 (2002). "A state court's decision is not 'contrary to ... clearly
established Federal law' simply because the court did not cite our opinions." Mitchell v.
Esparza, 540 U.S. 12, 16, 124 S. Ct. 7, 157 L. Ed. 2d 263 (2003). Indeed, "a state court
need not even be aware of our precedents, so long as neither the reasoning nor the result of
the state-court decision contradicts them." Id. (internal quotes omitted).
The "clearly established Federal law" contemplated by subsection (1) "refers to the
holdings, as opposed to the dicta, of [U.S. Supreme] Court's decisions as of the time of the
relevant state-court decision." Lockyer v. Andrade, 538 U.S. 63, 71, 123 S. Ct. 1166, 155
L. Ed. 2d 144 (2003) (internal quotes omitted); accord Greene v. Fisher, 565 U.S. 34, 3738, 132 S. Ct. 38, 181 L. Ed. 2d 336 (2011). Moreover, review under Section 2254(d)(1)
is "limited to the record that was before the state court that adjudicated the claim on the
merits." Cullen v. Pinholster, 563 U.S. 170, 181, 131 S. Ct. 1388, 179 L. Ed. 2d 557 (2011).
Importantly, "[f]or purposes of § 2254(d)(1), an unreasonable application of federal
law is different from an incorrect application of federal law." Harrington v. Richter, 562
U.S. 86, 101, 131 S. Ct. 770, 178 L. Ed. 2d 624 (2011) (internal quotes omitted, emphasis
in original). Thus, "[a] state court's determination that a claim lacks merit precludes federal
habeas relief so long as fairminded jurists could disagree on the correctness of the state
court's decision." Id. (internal quotes omitted). That is, "an unreasonable application of
those holdings must be objectively unreasonable, not merely wrong; even clear error will

10
55a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 11 of 105

PageID #: 7801

not suffice." White v. Woodall, 572 U.S. 415, 419, 134 S. Ct. 1697, 1702, 188 L. Ed. 2d
698 (2014) (internal quotes omitted); Williams v. Taylor, 529 U.S. 362, 411, 120 S. Ct.
1495, 146 L. Ed. 2d 389 (2000) (A federal habeas court “may not issue the writ simply
because that court concludes in its independent judgment that the relevant state-court
decision applied clearly established federal law erroneously or incorrectly. Rather, that
the application must also be unreasonable.”). "To satisfy this high bar, a habeas petitioner
is required to show that the state court's ruling on the claim being presented in federal court
was so lacking in justification that there was an error well understood and comprehended
in existing law beyond any possibility for fairminded disagreement." Woods v. Donald,
135 S. Ct. 1372, 1376, 191 L. Ed. 2d 464 (2015) (internal quotes omitted). And "[t]he
more general the rule, the more leeway courts have in reaching outcomes in case-by-case
determinations." Harrington, 562 U.S. at 101 (internal quotes omitted). However, "even a
general standard may be applied in an unreasonable manner." Panetti v. Quarterman, 551
U.S. 930, 953, 127 S. Ct. 2842, 168 L. Ed. 2d 662 (2007). The petitioner bears the burden
of showing that the state court's ruling was contrary to, or involved an unreasonable
application of, controlling Supreme Court precedent. Harrington, 562 U.S. at 98;
Woodford v. Visciotti, 537 U.S. 19, 25, 123 S. Ct. 357, 154 L. Ed. 2d 279 (2002).
Likewise, with respect to §2254(d)(2), “a state-court factual determination is not
unreasonable merely because the federal habeas court would have reached a different
conclusion in the first instance.” Burt v. Titlow, 571 U.S. 12, 134 S. Ct. 10, 15, 187 L. Ed.
2d 348 (2013) (internal quotes omitted). In other words, "if some fair-minded jurists could
agree with the state court's decision, although others might disagree, federal habeas relief
must be denied. . .[T]he deference due is heavy and purposely presents a daunting hurdle
for a habeas petitioner to clear." Loggins v. Thomas, 654 F.3d 1204, 1220 (11th Cir. 2011);

11
56a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 12 of 105

PageID #: 7802

see also Greene v. Fisher, 565 U.S. 34, 132 S. Ct. 38, 181 L. Ed. 2d 336 (2011) (AEDPA
standard is purposely onerous because "federal habeas relief functions as a guard against
extreme malfunctions in the state criminal justice system, and not as a means of error
correction") (citations and internal quotation marks omitted); Cullen v. Pinholster, 563 U.S.
170, 181, 131 S. Ct. 1388, 1398, 179 L. Ed. 2d 557 (2011) (AEDPA standard "is a difficult
to meet ... and highly deferential standard for evaluating state-court rulings, which demands
that state-court decisions be given the benefit of the doubt")(citations and internal quotation
marks omitted); Holsey v. Warden, Georgia Diagnostic Prison, 694 F.3d 1230, 1257 (11th
Cir. 2012) ("if some fairminded jurists could agree with the state court's decision, although
others might disagree, federal habeas relief must be denied") (citation omitted).
Accordingly, in evaluating Reeves’s § 2254 petition, the Court takes great care to
abide by the stricture that "[a] federal court may not grant habeas relief on a claim a state
court has rejected on the merits simply because the state court held a view different from
its own." Hill v. Humphrey, 662 F.3d 1335, 1355 (11th Cir. 2011); see also Reese v. Sec'y,
Fla. Dep't of Corr., 675 F.3d 1277, 1286, 2012 U.S. App. LEXIS 6501 (11th Cir. 2012)
("This inquiry is different from determining whether we would decide de novo that the
petitioner's claim had merit."). "If this standard is difficult to meet, that is because it was
meant to be." Holsey, 694 F.3d at 1257 (citation omitted). "Section 2254(d) reflects the
view that habeas corpus is a guard against extreme malfunctions in the state criminal justice
systems, not a substitute for ordinary error correction through appeal." Harrington, 562
U.S. at 102-03 (citation and internal quotation marks omitted).
Additionally, when a state court refuses to decide a federal claim on state
procedural grounds, the federal habeas court is generally precluded from reviewing the
claim at all. See, e.g., Williams v. Alabama, 791 F.3d 1267, 1273 (11th Cir. 2015) ("[I]t is

12
57a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 13 of 105

PageID #: 7803

well established that federal courts will not review questions of federal law presented in a
habeas petition when the state court's decision rests upon a state-law ground that is
independent of the federal question and adequate to support the judgment.") (citation
omitted); Conner v. Hall, 645 F.3d 1277, 1287 (11th Cir. 2011) ("a federal habeas court
will not review a claim rejected by a state court if the decision of [the state] court rests on
a state law ground that is independent of the federal question and adequate to support the
judgment"). If, however, the state court's procedural ruling is not adequate to bar federal
review, then the federal habeas court must review the claim de novo, and is not confined
to the state-court record. See Williams, 791 F.3d at 1273.
Section 2254 also generally requires petitioners to exhaust all available state-law
remedies. In that regard, "[a] petitioner must alert state law courts to any federal claims to
allow the state courts an opportunity to review and correct the claimed violations of his
federal rights." Lamarca v. Secretary, Dep't of Corrections, 568 F.3d 929, 936 (11th Cir.
2009). "[T]o exhaust state remedies fully the petitioner must make the state court aware
that the claims asserted present federal constitutional issues." Lucas v. Secretary, Dep't of
Corrections, 682 F.3d 1342, 1352 (11th Cir. 2012); see also Williams v. Allen, 542 F.3d
1326, 1345 (11th Cir. 2008) (exhaustion requirement not satisfied unless "petitioner
presented his claims to the state court such that a reasonable reader would understand each
claim's ... specific factual foundation") (citation omitted). It is not sufficient "that a
somewhat similar state-law claim was made." Kelley v. Sec'y for the Dep't of Corr., 377
F.3d 1317, 1344-45 (11th Cir. 2004). Nor is it sufficient for a petitioner to present federal
claims to the state trial court; rather, "the petitioner must fairly present every issue raised
in his federal petition to the state's highest court, either on direct appeal or on collateral
review." Powell v. Allen, 602 F.3d 1263, 1269 (11th Cir. 2010) (citation and internal marks

13
58a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 14 of 105

PageID #: 7804

omitted); see also Mason v. Allen, 605 F.3d 1114, 1119 (11th Cir. 2010) ("Exhaustion
requires that state prisoners must give the state courts one full opportunity to resolve any
constitutional issues by invoking one complete round of the State's established appellate
review process.") (citations and internal quotation marks omitted). That said, "habeas
petitioners are permitted to clarify the arguments presented to the state courts on federal
collateral review provided that those arguments remain unchanged in substance." Kelley,
377 F.3d at 1344.
Having established the proper standard of review, the Court turns to the claims
asserted in Reeves’s petition.
IV.

Analysis of Claims.
In addressing Petitioner Reeves’s claims, the Court numbers them as does the

Petitioner.
1. Whether Reeves’s Capital Sentence Violates the Constitutional Prohibition of
the Execution of Intellectually Disabled Individuals
Petitioner Reeves asserts that he is intellectually disabled4 and his capital sentence,
thus, violates the Eighth Amendment pursuant to the holding of Atkins. In Atkins, the Court
held that that execution of intellectually disabled persons contravenes the Eighth
Amendment’s prohibition on cruel and unusual punishment. Atkins v. Virginia, 536 U.S.
304, 122 S. Ct. 2242, 153 L. Ed. 2d 335 (2002); see also Ford v. Wainwright, 477 U.S.

In this opinion, the court will use the terms “intellectually disabled” and
“intellectual disability” as the legal and medical fields have moved away from the terms
“mentally retarded” and “mental retardation.” See, e.g., Robert L. Schalock et al., The
Renaming of Mental Retardation: Understanding the Change to the Term Intellectual
Disability, 45 Intell. & Dev. Disabilities 116, 116-17 (2007); Hall v. Florida, __ U.S.__,
134 S. Ct. 1986, *1990, 188 L. Ed. 2d 1007 (2014); Kilgore v. Sec’y, Floida Dep’t of Corr.,
805 F.3d 1301, 1301 n.1 (11th Cir. 2015). This change in terminology is a change in name
only and for the purposes of this opinion, the terms are synonymous, referring to the same
condition.
4

14
59a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 15 of 105

PageID #: 7805

399, 405, 106 S. Ct. 2595, 91 L. Ed. 2d 335 (1986) (“[T]he execution of mentally retarded
criminals will [not] measurably advance the deterrent or the retributive purpose of the death
penalty. . . [W]e therefore conclude that such punishment is excessive and that the
constitution ‘places a substantive restriction on the State’s power to take the life’ of a
mentally retarded offender.”)(citation omitted). In reaching its holding, the Court reasoned
that intellectually disabled defendants “frequently know the difference in right and wrong
and are competent to stand trial. Because of their impairments, however, by definition they
have diminished capacities to understand and process information, to communicate, to
abstract from mistakes and learn from experience, to engage in logical reasoning, to control
impulses, and to understand the reactions of others.” Id. at 318. The Atkins noted that
“clinical definitions of mental retardation require not only subaverage intellectual
functioning, but also significant limitations in adaptive skills such as communication, selfcare, and self-direction that became manifest before age 18”5 and identified “an IQ between

5

Atkins cited to the following clinical standards:
The American Association on Mental Retardation [now known as the
"American Association on Intellectual and Developmental Disabilities"
(AAIDD)] defines mental retardation as follows: "Mental retardation refers
to substantial limitations in present functioning. It is characterized by
significantly subaverage intellectual functioning, existing concurrently with
related limitations in two or more of the following applicable adaptive skill
areas: communication, self-care, home living, social skills, community use,
self-direction, health and safety, functional academics, leisure, and work.
Mental retardation manifests before age 18." Mental Retardation: Definition,
Classification, and Systems of Supports 5 (9th ed. 1992).
The American Psychiatric Association's definition is similar: "The essential
feature of Mental Retardation is significantly subaverage general
intellectual functioning (Criterion A) that is accompanied by significant
limitations in adaptive functioning in at least two of the following skill areas:
communication, self-care, home living, social/interpersonal skills, use of
community resources, self-direction, functional academic skills, work,
leisure, health, and safety (Criterion B). The onset must occur before age 18
years (Criterion C). Mental Retardation has many different etiologies and
may be seen as a final common pathway of various pathological processes
15
60a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 16 of 105

PageID #: 7806

70 and 75 or lower” as the typical “cutoff IQ score for the intellectual function prong of
the mental retardation definition. However, the Court did not dictate a national standard
for determining whether a criminal defendant is intellectually disabled and expressly left
“to the States the task of developing appropriate ways to enforce the constitutional
restriction upon their execution of sentences.” Atkins, 536 U.S. at 309, n.5, 317-18 (internal
quotation marks and citation omitted).
In regard to establishing intellectual functioning, the first prong of the Atkins
analysis, the Supreme Court has instructed that sentencing courts must consider the
standard error of measurement (“SEM”) when assessing intellectual disability. See Hall v.
Florida, __ U.S. __, 134 S. Ct. 1986, 188 L. Ed. 2d 1007 (2014). The Supreme Court
observed that:
The professionals who design, administer, and interpret IQ tests have agreed,
for years now, that IQ test scores should be read not as a single fixed number
but as a range. See D. Wechsler, The Measurement of Adult Intelligence
133 (3d ed. 1944) (reporting the range of error on an early IQ test). Each
IQ test has a “standard error of measurement,” ibid., often referred to by the
abbreviation “SEM.” A test’s SEM is a statistical fact, a reflection of the
inherent imprecision of the test itself. See R. Furr & V. Bacharach,
Psychometrics 118 (2d ed. 2014) (identifying the SEM as “one of the most
important concepts in measurement theory”).
Hall, 134 S. Ct. at 1995-96. Accordingly, the Court determined that “a State must afford
these test scores the same studied skepticism that those who design and use the tests do,

that affect the functioning of the central nervous system." Diagnostic and
Statistical Manual of Mental Disorders 41 (4th ed. 2000). "Mild" mental
retardation is typically used to describe people with an IQ level of 50-55 to
approximately 70. Id., at 42-43.
Atkins, 536 U.S. at 309 n.3; see also AAIDD at https://aaidd.org/about-aaidd (last visited
October 29, 2018) confirming name change of the American Association on Mental
Retardation to the AAIDD.

16
61a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 17 of 105

PageID #: 7807

and understand that an IQ test score represents a range rather than a fixed number. . . .
[otherwise, the State] risks executing a person who suffers from intellectual disability.” Id.
at 2000-01. Thus, “when a defendant’s IQ test score falls within the test’s acknowledged
and inherent margin of error, the defendant must be able to present additional evidence of
intellectual disability, including testimony regarding adaptive deficits”, as well as “medical
histories, behavioral records, school tests and reports, and testimony regarding past
behavior and family circumstances.”6 Id. at 1994, 2001. Notably, Hall was decided in
2014, after the Circuit Court’s denial of Reeves’s Rule 32 petition.
In light of the reasoning and guidance of Atkins, the Alabama Supreme Court set
forth its three-prong test for intellectual disability in Ex parte Perkins:
[T]he Alabama Supreme Court has defined the test for mental retardation
that rises to the level of prohibiting execution as having three components:
(1) significant subaverage intellectual functioning (an IQ of 70 or below);
(2) significant or substantial deficits in adaptive behavior; and (3) the

In listing the types of evidence which shed light on an individual’s adaptive
functioning, the Court cited to a brief filed by the American Psychiatric Association and
noted that the medical community accepts the following as “substantial and weighty
evidence of intellectual disability, including individuals who have an IQ test score above
70”: “medical histories, behavioral records, school tests and reports, and testimony
regarding past behavior and family circumstances.” Hall, 134 S. Ct. at 1994.
In regard to establishing the second prong of Atkins, adaptive functioning, the
Supreme Court has reiterated that courts must be guided by current medical standards and
may not rely on “lay perceptions of intellectual disability”; specifically, the Court discussed
that adaptive deficits ‘[are] not outweighed by the potential strengths in some adaptive
skills.’ Moore v. Texas, __. U.S. __, 137 S. Ct. 1039, 1051, 197 L. Ed. 2d 416 (2017)
(quoting AAIDD-11 at 47).
Moore, however, was not decided until after the state courts rendered their
decisions in this case and Moore did not announce a new rule of law that must be applied
retroactively. Accordingly, Moore is not considered clearly established federal law under
AEDPA for purposes of Reeves’s petition. See Kilgore v. Sec’y, Fla. Dep’t of Corr., 805
F.3d 1301, 1310 (11th Cir. 2015) ("'[C]learly established Federal law' under § 2254(d)(1)
is the governing legal principle or principles set forth by the Supreme Court at the time the
state court renders its decision.") (quoting Lockyer v. Andrade, 538 U.S. 63, 71-72, 123 S.
Ct. 1166, 155 L. Ed. 2d 144 (2003); Smith v. Dunn, 2017 U.S. Dist. LEXIS 113682 (Ala.
N.D., July 21, 2017).
6

17
62a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 18 of 105

PageID #: 7808

manifestation of these problems during the defendant’s developmental
period (i.e., before the defendant reached age 18).
Ex parte Perkins, 851 So. 2d 453, 456 (Ala. 2002). 7
Reeves previously presented this claim in his Rule 32 post-conviction proceedings.
The Alabama Court of Criminal Appeals, in a memorandum opinion, affirmed the circuit
court’s denial of Reeves’s claim of intellectual disability. Reeves now bears the burden of
proving by clear and convincing evidence that the state court’s determination that he is not
intellectually disabled is objectively unreasonable based on the record. Fults v. GDCP
Warden, 764 F.3d 1311, 1319 (11th Cir. 2014) (the determination as to whether a person
is intellectually disabled is a finding of fact). In accordance with the State’s definition for
intellectual disability, the Court will review each prong of Alabama’s test.
a. Significantly Subaverage Intellectual Functioning.
Reeves argues that the trial court unreasonably determined that he did not have
significantly subaverage intellectual functioning because: (1) it misapplied factual
evidence, when it ignored his full-scale IQ score of 68, (2) it failed to adjust his scores of
71 and 73 downward for the Flynn Effect and SEM, and (3) it looked beyond the numerical
IQ scores to determine his intellectual functioning. Reeves presented the same argument
to the Alabama Court of Criminal Appeals during his Rule 32 proceedings, and, in its
memorandum opinion affirming the trial court’s denial of relief, the court stated:
In this case, Reeves had full-scale IQ scores of 68, 71, and 73. Considering
the SEM [Standard Error of Measurement], these scores indicate that
Reeves’s IQ could be as low as 63 or as high as 78. Reeves's expert, Dr.
Goff, concluded, based on Reeves's IQ scores as well as all other
information before him, that Reeves suffered from significantly subaverage
Likewise, Alabama’s criminal procedure law defines an intellectually disabled
person as “[a] person with significant subaverage general intellectual functioning resulting
in or associated with concurrent impairments in adaptive behavior and manifested during
the developmental period, as measured by appropriate standardize testing instruments.”
ALA. CODE § 15-24-2(3) (1975).
7

18
63a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 19 of 105

PageID #: 7809

intellectual functioning. On the other hand, the State's expert, Dr. King,
concluded, based on Reeves's IQ scores and all other information before
him, that Reeves falls within the borderline range of intellectual functioning.
The circuit court, after considering all the evidence presented at the hearing,
and after observing Reeves when Reeves testified at a pretrial hearing,
resolved the conflicting expert testimony as to Reeves's intellectual
functioning adversely to Reeves, finding that, although Reeves's intellectual
functioning was subaverage, it was not significantly subaverage as required
to meet the first prong of intellectual disability. "Conflicting evidence is
always a question for the finder of fact to determine, and a verdict rendered
thereon will not be disturbed on appeal." Padgett v. State, 668 So. 2d 78, 86
(Ala. Crim. App. 1995). There is ample evidence in the record to support
the circuit court's finding and we will not disturb the circuit court's
resolution of the conflicting expert testimony. Therefore, we find no abuse
of discretion on the part of the circuit court in concluding that Reeves failed
to prove by a preponderance of the evidence that he suffered from
significantly subaverage intellectual functioning.
Reeves v. State, 226 So. 3d 711, 741 (Ala. Crim. App. 2016); Doc. 23-31 at 61-62; Vol. 31,
JR-94, pp. 60-61). (emphasis added)
Having reviewed the record in this matter, the Circuit Court did not make an
unreasonable factual determination that Reeves did not suffer from significant subaverage
intellectual functioning. Nor is the state court decision “contrary to . . . clearly established
Federal law.” 28 U.S.C. § 2254(d)(1).
The record evidence, including school, medical, mental health, juvenile-court, and
Department of Youth Services records, supports that Reeves functioned in the range of
borderline intellectual functioning. The records indicate that Reeves was habitually truant
and exhibited emotional and behavioral problems in school. Evidence shows that Reeves
began mental health treatment when he was 8 years old, beginning with a diagnosis of
attention deficit disorder with hyperactivity, and at that time his intelligence level was
“estimated to be low average.” (Doc. 23-19 at 1037, Vol. 19-3, JR-84, p. 1515). Although
therapy services were terminated after approximately a year and a half due noncompliance
(doc. 23-19 at 1061; vol. 19-3, JR-84, p. 1539), Reeves was readmitted approximately 8

19
64a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 20 of 105

PageID #: 7810

months later and “it [wa]s estimated that his intelligence [wa]s somewhat below average,
but not within the [intellectual disability] range.” (Doc. 23-19 at 1065; Vol. 19-3, JR-84,
p. 1543). Reeves was later diagnosed with conduct disorder. (Doc. 23-19 at 1109; Vol.
19-3, JR-84, p. 1587).
The record reveals that Reeves failed and repeated the first, third, and fourth grades
and that he was "socially" promoted to the seventh grade when he was 14 years old based
only on his "level of maturity." (Doc. 23-20 at 89; Vol. 20, JR-84, p. 1688). According to
Reeves’s mother, Reeves was tested for placement into the Special Education Program at
11 years old, but he "did not qualify" (Doc. 23-19 at 1065; Vol. 19-3, JR-84, p. 1543.) and
was later placed in special-education classes for emotional conflict. (Doc. 23-20 at 55; Vol.
20, JR-84, p. 1654).
Reeves was administered the Wechsler Intelligence Scale for Children, Revised
("WISC-R") when he was 14 and half years old, and he attained a verbal IQ score of 75, a
performance IQ score of 74, and a full-scale IQ score of 73, and was classified as being in
the borderline range of intellectual functioning. (Doc. 23-20 at 57-58; Vol. 20, JR-84, pp.
1656-58). Reeves was subsequently expelled from school for behavioral reasons in the
eighth grade, after a failed attempt at homebound services.8 When Reeves was 17 years
old, the Department of Youth Services reported in its Service Plan Evaluation that
“Matthew’s background, interview, and test data indicate that he has a conduct disorder

A letter from the homebound teacher, Mrs. Betty Johnson indicates that on one visit
to the Reeves’ home, she arrived prior to Reeves and his brother Julius. Reeves’s mother
explained to Mrs. Johnson that Julius had been injured by a gunshot wound to his leg from
a drive-by-shooting. According to Mrs. Reeves, when Reeves and his brother, Julius,
entered the home, Reeves appeared “very angry” and “refused to cooperate with [her] or
his mother.” (Doc. 23-20 at 191; Vol. 20, JR-84, p.1790). Reeves walked through the
house using profanity and repeatedly asking for his gun. Homebound services were ended
shortly thereafter. (Doc. 23-20 at 200; Vol. 20; JR-84, p.1799).
8

20
65a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 21 of 105

PageID #: 7811

with borderline intelligence who is in need of intensive academic/vocational guidance and
training in anger management. There was no evidence of a major psychiatric disturbance
and he did not display symptoms of ADHD.” (Doc. 23-20 at 13; Vol. 20, JR-84, p. 1612).
At the Rule 32 hearing, Dr. King opined that Reeves’s exhibited borderline
intellectual functioning, despite Reeves’s full-scale score of 68 on the administered
Wechsler Adult Intelligence Scale, Third (“WAIS-III”).9 In his clinical judgement, Dr.
King discredited the validity of the IQ score when compared against the achieved scores
of the Wide Range Achievement Test, on which Reeves scored a 75, 74, and 70 for reading
(5th grade level), spelling (5th grade level) and arithmetic (4th grade level), respectively.10
(Doc. 23-25 at 24). According to Dr. King, Reeves’s achievement scores "indicate[d] a
level of functioning higher than the IQ scores actually indicated" which created a

Reeves argues in his petition that his score of 68 “indisputably satisfies the
significantly subaverage intellectual functioning requirement” but was ignored by the trial
court, making the court’s decision unreasonable based on the facts. (Doc. 24 at 31-32).
Indeed, the trial court failed to discuss the score of 68 in its reasoning. Tarver v. Thomas,
2012 U.S. Dist. LEXIS 137139, 2012 WL 441710 (S.D. Ala. 2012) (state court’s decision
to disregard Tarver’s IQ scores of 61 and consider only the scores of 72, 76, and 74 was
unreasonable determination in light of the facts and because the court disregarded it without
explanation); but cf., Smith v. Dunn, 2:13-CV-00557-RDP, 2017 U.S. Dist. LEXIS 45274
(N.D. Ala., S.D., March 28, 2017) (disregarded IQ score was clearly reasonable where
court detailed why it credited one expert’s calculation over another).
Review of the trial court’s order shows that the court articulated Reeves’s IQ score
of 68 and further provided a summary of Dr. King’s evaluation in the court’s Rule 32
Findings of Fact, including Dr. King’s inability to “reach a definitive conclusion regarding
Reeves’s intellectual ability” based on the score of 68, alone, and Dr. King’s ultimate
conclusion that Reeves functioned in the borderline range of intellectual ability. (Doc. 2316 at 144-45; Vol. 16, JR-65, pp. 10-11). Consequently, it cannot be said that that the court
failed to consider the score in its determination. Rather, the court appears to have credited
Dr. King’s opinion that Reeves functioned in the borderline intelligence range and
primarily relied on Reeves’s failure to satisfy the adaptive functioning prong of the analysis
in reaching its conclusion.
9

Dr. King testified that the Wide Range Achievement Test is scored with a base
score of 100 as average, like the scoring of an IQ test. Therefore, the scoring can be
categorized as a grade level or numerical score. (Doc. 23-25 at 24).
10

21
66a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 22 of 105

PageID #: 7812

discrepancy making Dr. King unable to reach a conclusion about Reeves’s intellectual
ability based on those tests alone. (Doc. 23-25 at 25-26). After completing adaptive
functioning tests, neurological functioning tests, personally observing Reeves, analyzing
Reeves’s other IQ scores (of 71, 73, and a partial score of 74 on the verbal portion) and
reviewing Reeves’s childhood and adolescent academic records, Dr. King concluded that
Reeves was functioning in the borderline intellectual range and did not exhibit significant
subaverage intellectual functioning.
Dr. Goff, on the other hand, testified that Reeves exhibited subaverage intellectual
functioning, with an achieved IQ score of 71 on the administered WAIS-III, on which
Reeves attained a verbal IQ score of 71, a performance IQ score of 76, and a full-scale IQ
score of 71. (Doc. 23-24 at 43). Dr. Goff opined that Reeves’s full-scale score of 71
should be adjusted downward to account for the SEM and the "Flynn Effect”,11 thereby,
reflecting an adjusted full-scale IQ score of 66 (subtracting three points for the "Flynn
Effect" and an additional two points for the SEM).12 (Doc. 23-24 at 43). Nonetheless,

Research has shown that IQ scores tend to increase over time, at a rate of
approximately 0.3 points a year after a test is normed - this phenomenon is known as the
“Flynn Effect”. (Doc. 23-24 at 29-31). According to Dr. Goff, the downward adjustment
for the Flynn Effect should be applied to all Reeves’s previous IQ scores, including the
WISC-R that was administered in 1992 and the WAIS-R, verbal portion, that was
administered in 1997 by Dr. Ronan. Dr. Goff testified that the full-scale IQ score of 73
should be adjusted 0.3 points for every year after the test was normed, thus to 67.6.
Similarly, the verbal score of 71 should be adjusted to 69.2, making the 1997 score
“statically identical” to the 1992 score. (Doc. 23-24 at 45-48).
However, Dr. Goff admitted on cross examination that the "scoring manual" for the
WAIS-III does not require the use of the "Flynn Effect" to get an accurate IQ score, and
that the Diagnostic and Statistical Manual of Mental Disorders, Fourth Edition ("DSM-IV")
does not mention the "Flynn Effect". (Doc. 23-24 at 84-85).
11

The court’s decision not to apply the downward score departure for the Flynn Effect
was not contrary to federal or state law. The Supreme Court, to date, has not ruled on such
issue, and the law in Alabama is clear - courts may, but are not required to, apply the Flynn
Effect in capital cases. Albarran v. State, 96 So. 3d 131, 199-200 (Ala. Crim. App. 2011)
(stating that, even though an expert testified regarding the Flynn Effect, "the circuit court
12

22
67a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 23 of 105

PageID #: 7813

Dr. Goff testified that for purposes of diagnosing Reeves as intellectually disabled "[i]t
doesn't matter" whether his full-scale IQ score was adjusted "because the criteria is that
the IQ score has to be around 70 [and] he qualifies because 71 is around 70." (Doc. 23-24
at 44-45).
To be entitled to federal habeas relief under § 2254, a petitioner must show
that the state court's ruling was "so lacking in justification that there was an
error well understood and comprehended in existing law beyond any
possibility for fairminded disagreement." Harrington v. Richter, 562
U.S. , , 131 S. Ct. 770, 786-87, 178 L. Ed. 2d 624 (2011). "A state court's
application of clearly established federal law or its determination of the facts
is unreasonable only if no 'fairminded jurist' could agree with the state
court's determination or conclusion." Holsey v. Warden, Ga. Diagnostic
Prison, 694 F.3d 1230, 1257 (11th Cir. 2012) (quoting Harrington, 562 U.S.
at , 131 S. Ct. at 780).
Lee v. Comm’r, Ala. Dep’t of Corr. 726 F.3d 1172, 1192 (11th Cir. 2013).
Although Alabama requires all three prongs of the Perkins test to be established,
when considering the first prong, “a court should not look at a raw IQ score as a precise
measurement of intellectual functioning.” 13 Thomas v. Allen, 614 F. Supp. 2d 1257, 1281

could have reasonably rejected the 'Flynn Effect' and determined that Albarran's IQ was
71); see also Ledford v. Warden, Georgia Diagnostic & Classification Prison, 818 F.3d
600, 640 (11th Cir. 2016) ("[A] district court is not required to apply a Flynn effect
reduction to an individual's IQ score in a death penalty case."). Notably, there is no uniform
consensus in the Eleventh Circuit regarding the application of the Flynn Effect. See
Thomas v. Allen, 607 F.3d 749, 757 (11th Cir. 2010); Ledford, 818 F.3d at 636.
Accordingly, the Circuit Court's determination not to apply the Flynn Effect was not
unreasonable or contrary to federal law.
“Intellectual functioning is primarily evaluated using standardized test that measures a
person’s “Intelligence Quotient,” or “IQ.” United States v. Wilson, 922 F. Supp. 2d 334,
343 (E.D. N.Y. 2013) (quoting AAIDD 2010 Manual at 31). “At the same time, the
AAIDD makes clear that IQ scores themselves do not tell the whole story about someone’s
intelligence; rather, ‘one needs to use clinical judgement’ to interpret those scores and other
relevant information. Id. (quoting AAIDD 2010 Manual at 31). The term “clinical
judgment” referenced by the AAIDD is defined as “a special type of judgment rooted in a
high level of clinical expertise and experience and judgment that emerges directly from
extensive training, experience with the person, and extensive data.” Id. at 344, n.9 (quoting
AAIDD 2010 Manual at 29).
13

23
68a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 24 of 105

PageID #: 7814

(N.D. Ala., S.D. 2009). The state appellate court correctly noted14 that Reeves’s IQ could
be anywhere in the range of 63 to 7815 and correctly identified the trial court’s struggle
with conflicting expert testimony as to Reeves’s intellectual functioning. In assessing the
credibility of the experts, the trial court credited the consistency of Reeves’s full-scale IQ
scores of 73 (from when he was 14 years old) and 71 (achieved on the test administered by
Dr. Goff). See Ledford v. Warden, Georgia Diagnostic & Classification Prison, 818 F. 3d
600, 635 (11th Cir. 2016) (When assessing credibility, the court considered the fact that
one expert’s opinion was corroborated with another expert’s opinion.). This reasoning is
substantiated by Reeves’s school records which indicate, although Reeves performed
poorly in school, he was habitually truant and that his struggles stemmed mostly from
behavioral and emotional issues, rather than lack of intellectual ability. Likewise, Reeves
did not qualify for Special Education classes in school. Additionally, evidence showed
that Reeves was capable of attaining and holding a job, of showing up on time, and
completing skilled construction tasks. See Smith v. Dunn, 2017 U.S. Dist. LEXIS 113862,
*15 (N.D. Ala. S.D., July 21, 2017) (“In light of the conflicting evidence, it was reasonable
for the Alabama Court of Criminal Appeals to look to Petitioner’s demonstrated adaptive

The Alabama Court of Criminal Appeals, quoting Ledford, correctly explained, that
application of the SEM as required by all “is a bi-directional concept that does not carry
with it a presumption that an individual’s IQ falls to the bottom of his IQ range. Ledford,
818 F.3d 600, 641.
14

Reeves argues that the trial court did not apply the SEM in violation of Hall.
Notably, the trial court was not bound to apply the SEM at the time of its decision in 2009.
Kilgore v. Sec'y, Florida Dep't of Corr., 805 F.3d 1301, 1311 (11th Cir. 2015) ("Hall's
holding was not clearly established by Atkins," and Hall "changed course by requiring the
states to recognize a margin of error of five points above or below an IQ score of 70 in
assessing intellectual disability.”). Review of the court’s decision reveals that the court
did, however, meet the requirements of Hall by allowing Reeves to present evidence of his
adaptive functioning. In fact, it is on the determination that Reeves did not exhibit
substantial adaptive deficits that the court primarily based its decision.
15

24
69a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 25 of 105

PageID #: 7815

abilities (or lack thereof) to reconcile the test scores and determine which ones were
credible.”). In light of the record evidence, the state court’s reliance on Dr. King’s expert
opinion, which was corroborated by the record, cannot be said to be an unreasonable
determination based on the facts. 16 See Smith v. State, 213 So. 3d 264, 270-71 (Ala. Crim.
App. 2009), remanded on other grounds, Ex parte Smith, 213 So. 3d 313 (Ala. 2010) (court
looked beyond test scores to the record evidence in resolving conflicting expert opinions).
Thus, the Court cannot say that “no fair minded jurist” could conclude that Reeves failed
to establish he suffered from significant sub-average intellectual functioning based on the
entirety of the record, and neither was the decision contrary to, or an unreasonable
application of, clearly established Supreme Court precedent. Accordingly, under AEDPA
this Court is barred from granting habeas relief.
b. Significant or Substantial Deficits in Adaptive Behavior.
Turning to the second prong of establishing intellectual disability, Reeves must
show that he has significant limitations in adaptive functioning in at least two skill areas.

In a factually similar case, Smith v. State, 213 So. 3d 264, 270-71 (Ala. Crim. App.
2009), the court resolved conflicting IQ scores and expert testimony by evaluating outside
evidentiary support.
Smith had full-scale IQ scores of 67, 68, and 72. The court credited the state’s
expert’s testimony, who opined Smith was of borderline intelligence, over Dr. Goff’s,
Smith’s expert, who opined that Smith was mildly mentally retarded. The experts’
opinions primarily differed in the area of adaptive functioning. Dr. Goff interviewed and
administered tests to people close to Smith to determine which tasks Smith was capable of
performing to evaluate Smith’s adaptive functioning. The state’s expert’s evaluation, on
the other hand, included testing Smith, interviewing other individuals with knowledge of
Smith’s current and past abilities and behavior (including a correctional officer who had
close contact with Smith), a review of Smith’s work history (which included construction
work, general labor and the selling of drugs), and his personal observations of and
conversations with Smith. The court concluded that Dr. Goff’s assessment focused more
of smith’s past mental -health functioning rather than his present functioning, in contrast
to the state’s expert. Additionally, the court observed Smith when he testified and
concluded Smith was articulate and found no indication that Smith was mentally retarded.
The Court of Criminal Appeals affirmed the court’s findings.
16

25
70a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 26 of 105

PageID #: 7816

Due to Reeves’s scores being within the margin of error, Atkins and Hall require that
Reeves be allowed to present evidence of his adaptive functioning – which clearly he was
allowed to do evidenced by the two-day evidentiary hearing, briefing opportunities, and
the introduction of hundreds of pages of school, medical, mental health, and detention
records. In affirming the Circuit Court’s dismissal of Reeves’s intellectual disability claim,
the Alabama Court of Criminal Appeals stated:
As for the adaptive-functioning prong of intellectual disability, Reeves
contends that he "presented evidence of significant deficits in at least six
areas of adaptive functioning and therefore [he] meets" the requirements for
the second prong of intellectual disability -- significant deficits in at least
two areas of adaptive functioning -- and that the circuit court erred in not so
finding. (Reeves's brief, p. 45.) Specifically, Reeves asserts that the circuit
court "erroneously discounted Dr. Goff's findings by pointing to anecdotal
tasks that Mr. Reeves can perform, such as his purported planning of the
crime, his earning of Job Corps certificates in welding, brick masonry, and
auto mechanics, his extremely brief construction employment, and his
purported drug selling activities," none of which, Reeves claims,
undermines or refutes Dr. Goff's opinion that Reeves suffers from
significant deficits in multiple areas of adaptive functioning. (Reeves's brief,
pp. 50-51.) At oral argument, Reeves further argued that even discounting
Dr. Goff's testimony, Dr. King testified that on the ABS-RC-II test, Reeves
scored in the 25th percentile in the prevocational/vocational, self-direction,
and domestic-activity domains, thus conclusively establishing that Reeves
suffered significant deficits in those three areas of adaptive functioning.
Therefore, Reeves concludes, the circuit court was required to find that he
suffered from significant deficits in at least two areas of adaptive
functioning.
Reeves's arguments in this regard appear to be based solely on his scores on
the ABAS test administered by Dr. Goff and the ABS-RC-II test
administered by Dr. King. However, contrary to Reeves's apparent belief, a
circuit court is not required to find that a person suffers from significant
deficits in adaptive functioning merely because that person's scores on a
standardized test indicate such deficits. Just as an IQ test is necessarily
imprecise and, therefore, not determinative of the intellectual-functioning
prong of intellectual disability, standardized tests for adaptive functioning
are also necessarily imprecise and, therefore, are not determinative of the
adaptive-functioning prong of intellectual disability. Cf., United States v.
Davis, 611 F. Supp. 2d 472, 493 (D. Maryland, 2009) (noting that "nearly
all methods of assessing an individual's adaptive functioning -- particularly
in a retroactive analysis -- are imperfect" and that, therefore, "the typical

26
71a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 27 of 105

PageID #: 7817

approach used in forensic assessments of adaptive functioning is to collect
information from a multitude of sources and look for convergence of
findings in order to confirm one's conclusions"); and Singleton v. Astrue,
[No. 2:11CV512-CSC, February 29, 2012) 2012 U.S. Dist. LEXIS 26069
(M.D. Ala. 2012) (not reported) (noting that scores on the ABAS-II test are
not determinative as to adaptive functioning for purposes of qualification
for social security disability). Although standardized tests for adaptive
functioning are certainly useful in assessing a person's adaptive functioning,
a court should assess such test scores in light of the circumstances of each
case and in light of all other relevant evidence regarding adaptive
functioning, including the person's actions at the time of the crime.
In this case, the evidence regarding Reeves's adaptive functioning was
conflicting. Although Reeves scored low in the domains of domestic
activity, self-direction, and work on the ABS-RC-II test administered by Dr.
King and in the areas of self-direction, work, leisure activities, health and
safety, self-care, and functional academics on the ABAS test administered
by Dr. Goff, thus indicating significant deficits in those areas of adaptive
functioning, other evidence was presented that either called into question
the validity of those scores and/or indicated that Reeves's deficits in those
areas were not, in fact, significant.
For example, Dr. King testified that Reeves scored in the 25th percentile in
the domain of domestic activity because Reeves had never been required to
do any type of domestic activity growing up and had been incarcerated since
he was 18 years old. Dr. Goff testified that it is not unusual for someone
who is incarcerated to have low adaptive functioning. Dr. King also testified
that he would have scored Reeves higher in the self-direction domain if he
had known at the time that he evaluated Reeves that, from an early age,
Reeves had been "involved in a lot of drug activity and was actually
directing the behaviors and activities of others in this drug related activity."
(R. 231-32.) Additionally, Reeves was described in his juvenile mentalhealth records as "extremely goal-directed," even at a young age. (C. 1556.)
Dr. King further testified that he believed that Reeves's low score in the
work domain was because Reeves "did not get to the age where he might be
able to master use of complex job tools or equipment" before he went to
prison, and because school records indicated that Reeves often missed
school and had "pretty poor school habits." (R. 230-31.) Dr. Goff concurred,
stating that Reeves's deficit in the work area "may be because he had a lack
of opportunity." (R. 62.) Dr. Goff further testified that the validity of
Reeves's low score in this area was questionable in light of the fact that
Beverly Seroy, the person to whom he administered the ABAS test, had
simply guessed on the majority of questions in this area. Additionally, as
the circuit court noted in its order, Reeves had obtained certificates in brick
masonry, welding, and automobile mechanics, all of which require some
level of technical skill, and the record indicates that Reeves held a
construction job while his brother was incarcerated and that he was a good

27
72a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 28 of 105

PageID #: 7818

employee. Furthermore, the evidence indicated that Reeves's "poor school
habits" were more a product of his defiant behavior in school than of any
deficits in adaptive functioning.
Additionally, although Reeves scored low in the health and safety, self-care,
and leisure-activity areas on the ABAS test administered by Dr. Goff, on
the ABS-RC-II test administered by Dr. King, Reeves achieved the highest
score possible in the domain of independent functioning, which included
such things as self-care and health and safety, and Reeves also scored high
in the domains of responsibility and socialization. Moreover, the evidence
indicated that Reeves sold drugs to make money and that he used that money
to buy personal belongings for himself, including a car, and to help pay the
household bills.
Finally, Reeves scored in the 5th percentile in the area of functional
academics on the ABAS test administered by Dr. Goff, and Dr. Goff
testified that Reeves was functionally illiterate and could read only at a
third-grade level and, therefore, that Reeves suffered from a significant
deficit in this area. However, Dr. Goff indicated that the ability to read at
about a fifth- or sixth-grade level would not qualify as a significant deficit
in functional academics. Dr. King testified that Reeves was able to read at
a fifth-grade level, thus indicating that Reeves did not have a significant
deficient in functional academics.
Simply put, the circuit court in this case was faced with conflicting evidence
regarding Reeves's adaptive functioning, including conflicting expert
testimony. Reeves's expert, Dr. Goff, testified that Reeves suffered from
significant deficits in six areas of adaptive functioning. On the other hand,
the State's expert, Dr. King, indicated that, although Reeves scored low on
the ABS-RC-II test in three areas of adaptive functioning, those scores were
questionable for various reasons. It was for the circuit court to resolve the
conflicting evidence and the conflicting expert testimony, and it obviously
resolved the conflicts adversely to Reeves. In doing so, the court
appropriately looked at evidence regarding Reeves's adaptive functioning
other than the expert testimony -- such as Reeves's technical abilities in
brick masonry, welding, and automobile mechanics; Reeves's ability to
work construction and do so reliably when he was not around his brother,
Julius; Reeves's participation in a drug-sale enterprise in which he was able
to make thousands of dollars a week that he then used to purchase personal
items and a car; and particularly Reeves's cold and calculated actions
surrounding the murder, including planning the robbery with his
codefendants, hiding incriminating evidence after he had shot the victim,
splitting the proceeds of the robbery with his codefendants, and bragging
about the murder, claiming that he would earn a "teardrop" — a gang tattoo
indicating that a gang member had killed someone — for the murder See,
e.g., Ex parte Smith, [Ms. 1080973, October 22, 2010] 213 So. 3d 313, 2010
Ala. LEXIS 210 (Ala. 2010) ("We find especially persuasive Smith's
behavior during the commission of these murders.") There is ample

28
73a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 29 of 105

PageID #: 7819

evidence in the record to support the circuit court's finding that Reeves did
not suffer from significant deficits in at least two areas of adaptive
functioning, and we will not disturb the circuit court's resolution of the
conflicting evidence. Therefore, we find no abuse of discretion on the part
of the circuit court in finding that Reeves failed to prove by a preponderance
of the evidence that he suffered from significant deficits in at least two areas
of adaptive functioning.
Reeves v. State, 226 So. 3d 711, 741-43 (Ala. Crim. App. 2016).
Having reviewed the record in this matter, the Circuit Court did not make an
unreasonable factual determination that Reeves failed to establish significant subaverage
intellectual functioning. “Alabama courts routinely look to factors besides test scores to
evaluate whether a defendant has met his burden of proving deficiencies in his adaptive
behavior.” Smith v. Dunn, 2:13-CV-00557-RDP, 2017 U.S. Dist. LEXIS 45274, *93-95
(N.D. Ala., S.D., March 28, 2017) (referencing Ex parte Perkins, 851 So. 2d at 456 (finding
it instructive that Perkins maintained interpersonal relationships and had a job for a short
period when analyzing his "adaptive behavior"); Lewis v. State, 889 So. 2d 623, 698 (Ala.
Crim. App. 2003) ("the nature and circumstances surrounding the crimes in this case —
including Lewis's articulate and detailed statement to the police — suggest goal-directed
behavior, thus indicating that Lewis does not suffer from deficits in adaptive behavior.")).
This practice was supported by Reeves’s expert, Dr. Goff, as well. Dr. Goff explained that
the concern regarding adaptive functioning “is whether it’s an impediment to functioning
in the community or to functioning on a day-today basis.” (Doc. 23-24 at 54-55, Vol. 24,
JR-85, pp. 53-54). Dr. Goff further explained:
If one has an IQ of 64 but is working at the Coca-cola plant, reads well
enough to read the newspaper, drives and car, does all of these other things
and doesn’t demonstrate any of these adaptive skills deficits, then you don’t
make the diagnosis. He has to have some deficits in some areas in order for
the diagnosis to hold.

29
74a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 30 of 105

PageID #: 7820

(Doc. 23-24 at 55; Vol. 24, JR-85, p. 54). Accordingly, the state courts' consideration of
the record was neither impermissible nor unreasonable. See Tharpe v. Warden, 834 F.3d
1323 (11th Cir. 2016) (overruled on other grounds) (Where expert opinions were
conflicting as to defendant’s adaptive deficiencies, state courts did not err in viewing the
entire record in making a determination regarding adaptive behavior.). Reeves has not
shown that the deficiencies in his adaptive functioning were so significant "that no fair
minded jurist could reasonably conclude" that he had failed to prove that his impaired
behavior qualified him as intellectually disabled for purposes of Alabama's death penalty
law.17 Accordingly, the state court’s decision was not unreasonable determination of the
facts in light of the evidence presented at the Rule 32 hearing and was not contrary to or
an unreasonable application of clearly established Supreme Court precedent.
c.

Function deficits manifested before age 18.

Reeves argues that his intellectual disability manifested before the age of 18, and
Respondent argues that Reeves has failed to prove the same. While the record again

Reeves asserts in his petition that his impairments in functional academics and work
are comparable to those of Glenn Holladay, whom the Eleventh Circuit determined was
intellectually disabled and ineligible for the death penalty. Holladay v. Allen, 555 F.3d
1346 (11th Cir. 2009). The Court finds Holladay easily distinguishable. Holladay’s
“school records present a picture of a child with severe learning difficulties”, whereas
Reeves’s school records are replete with borderline diagnoses, A’s and B’s earned in
repeated grades, and emotional and behavioral placements versus learning disability
placements. Similarly, Holladay’s work history consisted of “menial jobs” where
testimony confirmed that Reeves completed construction work, like “making a roof”, was
responsible on the job (Doc. 23-25 at 6; Doc. 23-24 at 14; Vol. 16, JR-65, pp. 151, 196)
obtained certifications in welding, brick masonry, and auto mechanics through Job Corps
(Doc. 23-16 at 152; Vol. 16, JR-65, p.951), and earned enough money selling drugs to
purchase a car and provide assistance for his family. (Doc. 23-25 at 7). Indeed, Dr. Goff
admitted that selling drugs could be considered work experience “depend[ing] on the level
of sophistication of the individual task that is being performed.” Drawing the distinction
between “retarded people who are standing on the corner passing out things and taking
money” and the “fellow who is doing the books.” (Doc. 23-24 at 90; Vol. 24, JR-85, p. 89).
17

30
75a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 31 of 105

PageID #: 7821

reflects conflicting expert testimony on this issue,18 the state courts failed to address the
merits of this prong. Given that Alabama requires a positive finding of all three prongs of
the Perkins test in order to establish intellectual disability, and the State determined that
Reeves has failed to establish two of the prongs (significant subaverage intellectual and
adaptive functioning), it is unnecessary for the Court to discuss the merits of the third prong.

2. Whether the Constitutional Right to Due Process was Denied by the Circuit
Court’s Verbatim Adoption of Language from the State’s Proposed Order
Denying Reeves’ Atkins Claim.
Petitioner Reeves contends that the Circuit Court adopted, word-for-word, the
State’s proposed order denying Reeves’s intellectual disability claim in its denial of his
Rule 32 petition in violation of his right to due process. Reeves presented this claim to the
Alabama Court of Criminal Appeals, and, in finding no error in the verbatim adoption, it
stated:
“Alabama courts have consistently held that even when a trial court adopts
verbatim a party's proposed order, the findings of fact and conclusions of
law are those of the trial court and they may be reversed only if they are
clearly erroneous." McGahee v. State, 885 So. 2d 191, 229-30 (Ala. Crim.
App. 2003). "While the practice of adopting the state's proposed findings
and conclusions is subject to criticism, the general rule is that even when
the court adopts proposed findings verbatim, the findings are those of the
court and may be reversed only if clearly erroneous." Bell v. State, 593 So.
2d 123, 126 (Ala. Crim. App. 1991). "[T]he general rule is that, where a
trial court does in fact adopt the proposed order as its own, deference is
owed to that order in the same measure as any other order of the trial court."
Ex parte Ingram, 51 So. 3d 1119, 1122 (Ala. 2010). Only "when the record
before this Court clearly establishes that the order signed by the trial court
denying postconviction relief is not the product of the trial court's
independent judgment" will the circuit court's adoption of the State's

Dr. King opined that Reeves functioned in the borderline range prior to the age of
18 (Doc. 23-25 at 46, 58; Vol. 25, JR-85, pp. 245, 257), while Dr. Goff testified that Reeves
was intellectually disabled before the age of 18. (Doc. 23-24 at 65-67; Vol. 24, JR-85, pp.
64-66).
18

31
76a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 32 of 105

PageID #: 7822

proposed order be held erroneous. Ex parte Jenkins, 105 So. 3d 1250, 1260
(Ala. 2012).
Reeves v. State, 226 So. 3d. 711, 723-24 (Ala. Crim. App. 2016).
“[T]he practice of adopting verbatim findings of fact prepared by the
prevailing party in the context of a death penalty case is especially troublesome, given that
factfinding procedures in capital proceedings are to "aspire to a heightened standard of
reliability," Jefferson v. Sellers, 250 F. Supp. 3d 1340, 1351-1352 (N.D. Ga. 2017) (citing
Ford v. Wignwright, 477 U.S. 399, 411, 106 S. Ct. 2595, 91 L. Ed. 2d 335 (1986). While
the practice is condemned, reasoning it leads to “an appearance of impartiality”,
Chudasama v. Mazda Motor Corp., 123 F.3d 1353, 1373 n.46 (11th Cir. 1997), Reeves
offers no authority for the proposition that the practice, in-and-of-itself, by a state
postconviction court warrants habeas relief. Clemons v. Thomas, 2:10-CV-02218-LSC,
2016 U.S. Dist. LEXIS 40104, *27-28, 2016 WL 1180113 (N.D. Ala., S.D., March 28,
2016). “[W]hen the trial judge adopts proposed findings verbatim, the findings are those
of the court and may be reversed only if clearly erroneous. Anderson v. Bessemer City,
470 U.S. 564, 572, 105 S. Ct. 1504, 84 L. Ed. 2d 518 (1985) (citation omitted).
A review of the trial court’s order reflects that the section titled, “Claim that Reeves
is Mentally Retarded” is identical to the state’s proposed order. (Doc. 23-26 at 93-95, 105114; Vol. 26, JR-87, pp. 1-3, 13-21). Reeves therefore contends that the trial court’s order
was not the independent judgment of the trial court and clearly erroneous, evidenced most
strongly by the omission of the mentioning of the IQ score of 68 and contrary to established
law because the adopted order was unsolicited and drafted before the Court reached a
conclusion on the issue of Reeves’s intellectual disability. Reeves relies on the reasoning

32
77a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 33 of 105

PageID #: 7823

of Anderson to support that the Alabama Criminal Court of Appeals unreasonably applied
federal law in upholding the Circuit Court’s verbatim adoption.
In Anderson, after a two-day trial, the trial court issued a memorandum explaining
the rationale for its findings; the trial court then “requested that petitioner’s counsel submit
proposed findings of fact and conclusions of law expanding upon those set forth in the
memorandum.” Anderson, 470 U.S. at 568. The trial court then requested and received a
response from respondent objecting to the proposed findings. Id. The Supreme Court found
the trial court’s adoption of petitioner’s proposed findings of fact and conclusions of law,
was not “uncritically accepted findings prepared without judicial guidance by the
prevailing party” because
[t]he court itself provided the framework for the proposed findings when it
issued its preliminary memorandum, which set forth its essential findings
and directed petitioner's counsel to submit a more detailed set of findings
consistent with them. Further, respondent was provided and availed itself of
the opportunity to respond at length to the proposed findings. Nor did the
District Court simply adopt petitioner's proposed findings: the findings it
ultimately issued -- and particularly the crucial findings . . . vary
considerably in organization and content from those submitted by
petitioner's counsel. Under these circumstances, we see no reason to doubt
that the findings issued by the District Court represent the judge's own
considered conclusions. There is no reason to subject those findings to a
more stringent appellate review than is called for by the applicable rules.
Id. at 572-73.
As previously mentioned, the trial court’s order is identical to the State’s proposed
order in the section titled “Claim that Reeves is Mentally Retarded”. However, there is
sufficient reason to conclude that the trial court’s order represents an independent decision
based on the additional facts that the trial court articulated in its order denying Reeves’s
Rule 32 petition. For instance, the trial court expounded on the finding of facts, adding
that Brenda Suttles testimony illustrated a premeditated plan on the part of Reeves rather
than an impulsive act. (Doc. 23-16 at 136; Vol. 16, JR-65, p. 2). The trial court then

33
78a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 34 of 105

PageID #: 7824

articulated the testimony supporting its reasoning. The trial court’s order also contains
findings of facts from the penalty phase which are absent from the State’s proposed order,
and notably summaries of the testimony of Detective Grindle, Marzetta Reeves, and Dr.
Kathaleen Ronan. (Doc. 23-16 at 137-141; Vol. 16, JR-65, pp. 3-7). Additionally, the
findings of facts from the Rule 32 hearing are completely different in organization and
wording and identify Reeves’s IQ score of 68. (Doc. 23-16 at 141-145, Vol. 16, JR-65,
pp. 7-11). As such, the trial court’s inclusion of such necessary facts (explaining the
reasoning contained in the adopted portion of the order) indicates that the trial court
independently decided the claim and provided the necessary factual evidence of record to
support the decision.
Furthermore, in keeping with Anderson, the record reveals that both parties
(although unsolicited) submitted post-hearing briefs and proposed orders to the circuit
court following the Rule 32 evidentiary hearing. Indeed, the State filed its proposed order
on May 7, 2008, and by letter waved any objection to Reeves having adequate time to
respond. (Doc. 23-15 at 173-201; Doc. 23-16 at 1-57; Vol. 15, JR-62, JR-63). On
September 9, 2008, Reeves filed a motion objecting to the State’s proposed order (Doc.
23-15 at 168), as well as a brief in support of his Second Amended Rule 32 Petition. (Doc.
23-16 at 58-134; Vol. 16, JR-64). The record reflects that the Circuit Court did not deny
the petition until October 2009, over a year from the parties’ filings. (Doc. 23-16 at 135966; Vol. 16, JR-65).
The petitioner has failed to show that the state court decision was contrary to clearly
established law or was an unreasonable determination of the facts in light of the evidence
presented. Thus, Reeves’s claim for habeas relief on this basis is denied.

34
79a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 35 of 105

PageID #: 7825

3. Whether Reeves Received Ineffective Assistance of Counsel.
In his petition, Reeves contends that he received and was prejudiced by ineffective
assistance of counsel from the outset of his trial through post-conviction proceedings. (Doc.
24 at 51-52). Reeves claims that but for counsels’ deficient performance the jury would
have been presented with evidence of Reeves’s intellectual disability and mitigating factors,
leading to a reasonable probability that the jury would have sentenced him to life in prison
rather than to death. Furthermore, Reeves’s appellate counsel failed to raise meritorious
claims on appeal, prejudicing Reeves by denying him the opportunity to have the claims
heard.
The Sixth Amendment of the Constitution guarantees every accused “the right . . .
to have Assistance of counsel for his defense.” U.S. Const. amend. VI. To establish an
ineffective assistance claim under the Sixth Amendment, a petitioner must make both
showings of the two-prong standard, discussed in Strickland v. Washington, that has been
adopted by the Supreme Court for evaluating claims of ineffective assistance of counsel.
Strickland, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984). That is, “[a] petitioner
must show that counsel's performance was deficient, and that the deficiency prejudiced the
defense." Wiggins v. Smith, 539 U.S. 510, 521, 123 S. Ct. 2527, 156 L. Ed. 2d 471 (2003)
(citing Strickland, 466 U.S. at 687). Because the failure to demonstrate either deficient
performance or prejudice is dispositive of the claim, courts applying the Strickland test
"are free to dispose of ineffectiveness claims on either of [Strickland's] two grounds." Oats
v. Singletary, 141 F.3d 1018, 1023 (11th Cir. 1998).
In order to satisfy the "performance" prong of the Strickland test, a petitioner is
required to show that his attorney's representation "fell below an objective standard of
reasonableness," which is measured by "reasonableness under prevailing professional

35
80a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 36 of 105

PageID #: 7826

norms." Strickland, 466 U.S. at 688. That is, a petitioner must show that "counsel made
errors so serious that counsel was not functioning as the 'counsel' guaranteed the defendant
by the Sixth Amendment." Id. at 687. In considering such a claim, the court "must indulge
a strong presumption that counsel's conduct fell within the wide range of reasonably
professional assistance." Smith v. Singletary, 170 F. 3d 1051, 1053 (11th Cir. 1999)
(citations omitted).

Thus, the petitioner has a difficult burden as to be considered

unreasonable, "the performance must be such that 'no competent counsel would have taken
the action that [the petitioner's] counsel did take.'" Ball v. United States, 271 F. App'x 880
(11th Cir. 2008) (citations omitted).
The petitioner must also satisfy the "prejudice" prong of the Strickland test. To that
end, the petitioner must show that a reasonable probability exists that "but for
counsel's unprofessional errors, the result of the proceeding would have been different."
Strickland, 466 U.S. at 694. "A reasonable probability is a probability sufficient to
undermine confidence in the outcome." Id. The petitioner "must affirmatively prove
prejudice because '[a]ttorney errors come in an infinite variety and are as likely to be utterly
harmless in a particular case as they are to be prejudicial.'" Butcher v. United States, 368
F.3d 1290, 1293, 95 F. App’x 1290 (11th Cir. 2004) (citations omitted). Further, it is not
enough to satisfy the prejudice prong to merely show that the alleged errors affected the
case in some imaginable way. See id. at 1293-1294. ("[T]hat the errors had some
conceivable effect on the outcome of the proceeding is insufficient to show prejudice")
(quoting Strickland, 466 U.S. at 693) (internal quotation marks omitted). Thus, "under the
exacting rules and presumptions set forth in Strickland, 'the cases in which habeas
petitioners can properly prevail on the ground of ineffective assistance of counsel are few
and far between.'" Windom v. Sec'y, Dep't of Corr., 578 F.3d 1227, 1248 (citations omitted).

36
81a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 37 of 105

PageID #: 7827

Having set forth the appropriate standard for determining an ineffective counsel
claim, the Court turns to Petitioner Reeves’s asserted challenges.
a. Claim that Alabama Court of Appeals unreasonably concluded that
counsel’s testimony is required to overcome Strickland’s presumption
of sound strategy.
Reeves argues that the state courts misapplied the Strickland standard in denying
his claims of ineffective assistance of counsel by ignoring the ample evidence of ineffective
assistance presented and determining his failure to call trial and appellate counsel to testify
at the Rule 32 hearing was “fatal” to his claims of ineffective assistance of counsel. (Doc.
24 at 54-56). The Alabama Court of Criminal Appeals, in its memorandum opinion
affirming the trial court’s denial of relief, stated:
The record from Reeves's direct appeal indicates that attorneys Blanchard
McLeod and Marvin Wiggins were initially appointed to represent Reeves.
McLeod withdrew approximately three months before trial, and Thomas
Goggans was appointed as a replacement. Reeves was represented at trial
by Goggans and Wiggins. Goggans continued to represent Reeves on appeal.
At the Rule 32 evidentiary hearing, Reeves did not call McLeod, Goggans,
or Wiggins to testify. In its order, the circuit court found that Reeves had
failed to prove his claims of ineffective assistance of trial and appellate
counsel, in part, because he had failed to call Goggans and Wiggins to
testify at the evidentiary hearing. On appeal, Reeves argues that the circuit
court erred in finding that his failure to call his attorneys to testify resulted
in his failing to prove his ineffective-assistance-of-counsel claims because,
he says, "there is no requirement that trial counsel testify." (Reeves's brief,
p. 62.) Specifically, Reeves argues that because the Strickland test is an
objective one, testimony from counsel is not necessary to prove any claim
of ineffective assistance of counsel.
However, Reeves's argument fails to take into account the requirement that
courts indulge a strong presumption that counsel acted reasonably, a
presumption that must be overcome by evidence to the contrary. In
Broadnax v. State, 130 So. 3d 1232 (Ala. Crim. App. 2013), this Court
stated:
"It is extremely difficult, if not impossible, to prove a claim
of ineffective assistance of counsel without questioning
counsel about the specific claim, especially when the claim is
based on specific actions, or inactions, of counsel that

37
82a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 38 of 105

PageID #: 7828

occurred outside the record. Indeed, 'trial counsel should
ordinarily be afforded an opportunity to explain his actions
before being denounced as ineffective.' Rylander v. State, 101
S.W.3d 107, 111 (Tex. Crim. App. 2003). This is so because
it is presumed that counsel acted reasonably:
"'The presumption impacts on the burden of proof
and continues throughout the case, not dropping out
just because some conflicting evidence is introduced.
"Counsel's competence ... is presumed, and the
[petitioner] must rebut this presumption by proving
that his attorney's representation was unreasonable
under prevailing professional norms and that the
challenged action was not sound strategy."
Kimmelman v. Morrison, 477 U.S. 365, 106 S. Ct.
2574, 2588, 91 L.Ed.2d 305 (1986) (emphasis added)
(citations omitted). An ambiguous or silent record is
not sufficient to disprove the strong and continuing
presumption. Therefore, "where the record is
incomplete or unclear about [counsel]'s actions, we
will presume that he did what he should have done,
and that he exercised reasonable professional
judgment." Williams [v. Head,] 185 F.3d [1223,]
1228 [(11th Cir. 1999)]; see also Waters [v. Thomas,]
46 F.3d [1506,] 1516 [(11th Cir. 1995)] (en banc)
(noting that even though testimony at habeas
evidentiary hearing was ambiguous, acts at trial
indicate that counsel exercised sound professional
judgment).'
"Chandler v. United States, 218 F.3d 1305, 1314 n.15 (11th
Cir. 2000). '"If the record is silent as to the reasoning behind
counsel's actions, the presumption of effectiveness is
sufficient to deny relief on [an] ineffective assistance of
counsel claim."' Dunaway v. State, 198 So. 3d 530, 547,
2009 Ala. Crim. App. LEXIS 174 (Ala. Crim. App. 2009)
(quoting Howard v. State, 239 S.W.3d 359, 367 (Tex. App.
2007))."
130 So. 3d at 1255-56.
Subsequently, in Stallworth v. State, 171 So. 3d 53 (Ala. Crim. App. 2013)
(opinion on return to remand), this Court explained:
"Further, the presumption that counsel performed effectively
'"is like the 'presumption of innocence' in a criminal trial,"'
and the petitioner bears the burden of disproving that
presumption. Hunt v. State, 940 So. 2d 1041, 1059 (Ala.

38
83a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 39 of 105

Crim. App. 2005) (quoting Chandler v. United States, 218
F.3d 1305, 1314 n.15 (11th Cir. 2000) (en banc)). 'Never
does the government acquire the burden to show competence,
even when some evidence to the contrary might be offered
by the petitioner.' Id. '"'An ambiguous or silent record is not
sufficient to disprove the strong and continuing presumption
[of effective representation]. Therefore, "where the record is
incomplete or unclear about [counsel]'s actions, [a court]
will presume that he did what he should have done, and that
he exercised reasonable professional judgment."'"' Hunt, 940
So. 2d at 1070-71 (quoting Grayson v. Thompson, 257 F.3d
1194, 1218 (11th Cir. 2001), quoting in turn Chandler, 218
F.3d at 1314 n.15, quoting in turn Williams v. Head, 185
F.3d 1223, 1228 (11th Cir. 1999)). Thus, to overcome the
strong presumption of effectiveness, a Rule 32 petitioner
must, at his evidentiary hearing, question trial counsel
regarding his or her actions and reasoning. See, e.g.,
Broadnax v. State, 130 So. 3d 1232, 1255-56 (Ala. Crim.
App. 2013) (recognizing that '[i]t is extremely difficult, if not
impossible, to prove a claim of ineffective assistance of
counsel without questioning counsel about the specific claim,
especially when the claim is based on specific actions, or
inactions, of counsel that occurred outside the record[, and
holding that] circuit court correctly found that Broadnax, by
failing to question his attorneys about this specific claim,
failed to overcome the presumption that counsel acted
reasonably'); Whitson v. State, 109 So. 3d 665, 676 (Ala.
Crim. App. 2012) (holding that a petitioner failed to meet his
burden of overcoming the presumption that counsel were
effective because the petitioner failed to question appellate
counsel regarding their reasoning); Brooks v. State, 929 So.
2d 491, 497 (Ala. Crim. App. 2005) (holding that a petitioner
failed to meet his burden of overcoming the presumption that
counsel were effective because the petitioner failed to
question trial counsel regarding their reasoning); McGahee
v. State, 885 So. 2d 191, 221-22 (Ala. Crim. App. 2003)
('[C]ounsel at the Rule 32 hearing did not ask trial counsel
any questions about his reasons for not calling the additional
witnesses to testify. Because he has failed to present any
evidence about counsel's decisions, we view trial counsel's
actions as strategic decisions, which are virtually
unassailable.'); Williams v. Head, 185 F.3d at 1228; Adams
v. Wainwright, 709 F.2d 1443, 1445-46 (11th Cir. 1983)
('[The petitioner] did not call trial counsel to testify ... [;
therefore,] there is no basis in this record for finding that
counsel did not sufficiently investigate [the petitioner's]
background.'); Callahan v. Campbell, 427 F.3d 897, 933
(11th Cir. 2005) ('Because [trial counsel] passed away before

39
84a

PageID #: 7829

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 40 of 105

PageID #: 7830

the Rule 32 hearing, we have no evidence of what he did to
prepare for the penalty phase of [the petitioner's] trial. In a
situation like this, we will presume the attorney "did what he
should have done, and that he exercised reasonable
professional judgment."')."
171 So. 3d at 92-93 (emphasis added). See also Clark v. State, [Ms. CR-121965, March 13, 2015] 196 So. 3d 285, 2015 Ala. Crim. App. LEXIS 19
(Ala. Crim. App. 2015) (holding that Rule 32 petitioner had failed to prove
that his appellate counsel was ineffective for not raising issues on appeal
where the petitioner did not call his appellate counsel to testify at the Rule
32 evidentiary hearing regarding counsel's reasons for not raising those
issues).
In this case, Reeves's failure to call his attorneys to testify is fatal to his
claims of ineffective assistance of counsel.
...
The decisions by counsel that Reeves challenges in claims . . . -- what
experts to hire, what witnesses to call to testify, what mitigation evidence
to present, what objections to make and what issues to raise at trial, and
what issues to raise on appeal -- are typically considered strategic decisions,
and do not constitute per se deficient performance. See, e.g., Walker v. State,
[Ms. CR-11-0241, February 6, 2015] 194 So. 3d 253, 2015 Ala. Crim. App.
LEXIS 8 (Ala. Crim. App. 2015) ("'An attorney's decision whether to retain
witnesses, including expert witnesses, is a matter of trial strategy.' People v.
Payne, 285 Mich. App. 181, 190, 774 N.W.2d 714, 722 (2009). '[I]n general,
the "decision not to hire experts falls within the realm of trial strategy."'
State v. Denz, 232 Ariz. 441, 445, 306 P.3d 98, 102 (2013), quoting Yohey
v. Collins, 985 F.2d 222, 228 (5th Cir. 1993)."); Johnson v. State, [Ms. CR05-1805, September 28, 2007] So. 3d , , 2007 Ala. Crim. App. LEXIS
178 (Ala. Crim. App. 2007) ("'[I]n the context of an ineffective assistance
claim, "a decision regarding what witnesses to call is a matter of trial
strategy which an appellate court will not second-guess."' Curtis v. State,
905 N.E.2d 410, 415 (Ind. Ct. App. 2009). '[T]he decision of which
witnesses to call is quintessentially a matter of strategy for the trial attorney.'
Boyle v. McKune, 544 F.3d 1132, 1139 (10th Cir. 2008)."); Dunaway v.
State, 198 So. 3d 530, 547, 2009 Ala. Crim. App. LEXIS 174 (Ala. Crim.
App. 2009) ("'The decision of what mitigating evidence to present during
the penalty phase of a capital case is generally a matter of trial strategy.' Hill
v. Mitchell, 400 F.3d 308, 331 (6th Cir. 2005)."), rev'd on other grounds,
[Ms. 1090697, April 18, 2014] 198 So. 3d 567, 2014 Ala. LEXIS 59 (Ala.
2014); Lane v. State, 708 So. 2d 206, 209 (Ala. Crim. App. 1997) ("This
court has held that '[o]bjections are a matter of trial strategy, and an
appellant must overcome the presumption that "conduct falls within the
wide range of reasonable professional assistance," that is, the presumption
that the challenged action "might be considered sound trial strategy."'
Moore v. State, 659 So. 2d 205, 209 (Ala. Cr. App. 1994)."); and Thomas v.

40
85a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 41 of 105

PageID #: 7831

State, 766 So. 2d 860, 876 (Ala. Crim. App. 1998) ("[A]ppellate counsel
has no constitutional obligation to raise every nonfrivolous issue. ...
Appellate counsel is presumed to exercise sound strategy in the selection of
issues most likely to afford relief on appeal."), aff'd, 766 So. 2d 975 (Ala.
2000), overruled on other grounds, Ex parte Taylor, 10 So. 3d 1075 (Ala.
2005).
The burden was on Reeves to prove by a preponderance of the evidence that
his counsel's challenged decisions were not the result of reasonable strategy,
i.e., the burden was on Reeves to present evidence overcoming the strong
presumption that counsel acted reasonably. However, because Reeves failed
to call his counsel to testify, the record is silent as to the reasons trial counsel
(1) chose not to hire Dr. Goff or another neuropsychologist to evaluate
Reeves for intellectual disability and chose not to present testimony from
such an expert during the penalty phase of the trial that Reeves was
intellectually disabled in order to establish a mitigating circumstance; (2)
chose to rely during the penalty phase of the trial on the testimony of Dr.
Ronan to present mitigation evidence; (3) chose not to object to Dr. Ronan's
testimony on cross-examination during the penalty phase of the trial that
Reeves was not intellectually disabled; and (4) chose not to object at trial to
the prosecutor's allegedly urging the jury during closing arguments at the
penalty phase of the trial to consider nonstatutory aggravating
circumstances to impose a death sentence, to the prosecutor's introducing
evidence and making argument during both the guilt and penalty phases of
the trial that Reeves was involved in a gang, to the prosecutor's allegedly
referring to the jury's penalty-phase verdict as a recommendation, and to the
trial court's instructing the jury that its penalty-phase verdict was a
recommendation. The record is also silent as to the reasons appellate
counsel chose not to raise on appeal the claims that the prosecutor
improperly urged the jury during closing arguments at the penalty phase of
the trial to consider non-statutory aggravating circumstances to impose a
death sentence, that the prosecutor improperly introduced evidence and
argued during both the guilt and penalty phases of the trial that Reeves was
involved in a gang, that the prosecutor improperly referred to the jury's
penalty-phase verdict as a recommendation, and that the trial court
improperly instructed the jury that its penalty-phase verdict was a
recommendation. Where "'"the record is silent as to the reasoning behind
counsel's actions, the presumption of effectiveness is sufficient to deny
relief on [an] ineffective assistance of counsel claim."'" Broadnax, 130 So.
3d at 1256 (citations omitted).
Reeves, 226 So. 3d 711, 746-52.
Reeves has failed to overcome the AEDPA burden of establishing that the state
court decision was contrary to or based on an unreasonable application of Strickland. See
Cullen v. Pinholster, 563 U.S. 170, 190, 196 (“The Court of Appeals was required not

41
86a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 42 of 105

PageID #: 7832

simply to ‘give [the] attorneys the benefit of the doubt,’ but to affirmatively entertain the
range of possible ‘reasons Pinholster’s counsel may have had for proceeding as they did.’”)
(alteration in original) (internal citation omitted).
Pursuant to Strickland, “a court must indulge a strong presumption that counsel’s
conduct falls within the wide range of reasonable professional assistance; that is, the
defendant must overcome the presumption that, under the circumstances, the challenged
action ‘might be considered sound trial strategy.’” 466 U.S. at 689 (citation omitted). “In
making this determination, a court hearing an ineffectiveness claim must consider the
totality of the evidence before the judge or jury.” Id. “Surmounting Strickland’s high bar
is never an easy task”, Padilla v. Kentucky, 559 U.S. 356, 371, 130 S. Ct. 1473, 176 L. Ed.
2d 284 (2010), but it is even more daunting in the habeas context where state courts have
adjudicated the ineffective assistance claim on the merits in post-conviction proceedings,
as is the case here, making § 2254(d) applicable. The question now is not whether
counsel’s actions were reasonable, but “whether there is any reasonable argument
that counsel satisfied Strickland’s deferential standard.” Harrington v. Richter, 562 U.S.
86, 105, 131 S. Ct. 770, 178 L. Ed. 2d 624 (2011)(emphasis added). Put another way,
Reeves must not only satisfy the two Strickland prongs, but he must also “show that the
State court applied Strickland to the facts of his case in an objectively unreasonable
manner.” Williams v. Allen, 598 F.3d 778, 789 (11th Cir. 2010) (citations and internal
quotation marks omitted). “Although courts may not indulge ‘post hoc rationalization’ for
counsel’s decision making that contradicts the available evidence of counsel’s actions,
Wiggins[ v. Smith, 539 U.S. 510], 526-527, 123 S. Ct. 2527, 156 L. Ed. 2d 471[ (2003)],
neither may they insist counsel confirm every aspect of the strategic basis for his or her
actions.” Harrington v. Richter, 562 U.S. 86, 109, 131 S. Ct. 770, 178 L. Ed. 2d 624 (2011).

42
87a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 43 of 105

PageID #: 7833

Accordingly, the state court appropriately reviewed Reeves’s ineffective assistance
claims - giving deference to counsel’s decisions, as it must. Strickland, supra at 689
(“Judicial scrutiny of counsel’s performance must be highly deferential. It is all too
tempting for a defendant to second-guess counsel’s assistance after conviction or adverse
sentence, and it is all too easy for a court, examining counsel’s defense after it has proved
unsuccessful, to conclude that a particular act or omission of counsel was unreasonable.”).
Without the testimony of counsel explaining their strategy, Reeves was left to show that
counsel’s decisions were unreasonable and prejudiced the outcome of his case, Harvey v.
Warden, Union Corr. Inst., 629 F.3d 1228, 1245 (11th Cir. 2011) (“To give trial counsel
proper deference, this circuit presumes that trial counsel provided effective assistance. . . .
and it is the petitioner’s burden to persuade us otherwise.”), and Reeves failed to carry his
burden.
In support of his proposition that counsel’s testimony is not required to rebut the
presumption of correctness, Reeves relies on Ex parte Whited – this reliance, however, is
misplaced. Most notably, Whited’s trial counsel did testify regarding the decision to wave
closing argument. Ex parte Whited, 180 So. 3d 69 (Ala. 2015). In that case, trial counsel
indicated that he “did not recall” the specifics of that decision, yet he was able to recall
other aspects of the case, like the strategy to continue the case until victim was of age, the
strategy to present an alibi, and the strategy to impeach the victim’s testimony. Based on
counsel’s testimony, the court was unable to reconcile the challenged decision against the
total evidence of the case. Consequently, the court found counsel’s testimony failed to
support that the decision to waive closing argument was in fact “strategic”. Id. at 82. In
the case at hand, Reeves certainly put forth briefs and argument regarding what trial
decisions counsel made; however, this evidence sheds no light on the reasoning behind

43
88a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 44 of 105

PageID #: 7834

counsel’s action and, standing alone, this evidence is insufficient to prove counsel was
ineffective.19
Review of the trial court’s decision reveals that the court considered the total
evidence of record for each claim and concluded it fell short of objectively establishing
deficient performance.20 (See, infra, section IV, 3, b through e discussing the state court’s
denial of Reeves’s claims of ineffective assistance of counsel). With the record void of
evidence (including the testimony of counsel) that the complained of actions were not the
result of reasonable strategy, the court interpreted the evidence, as required, with deference
to counsel’s decisions and competency.

Considering the evidence in such a light

demonstrates that counsel’s actions “might be considered sound trial strategy.” Strickland,
supra at 689. Thus, it cannot be said that the Alabama Court of Criminal Appeals
unreasonably applied the Strickland standard to the facts of Reeves’s ineffective assistance
claims. See Wiggins, 539 U.S. at 520-21 (“The state court’s application [of Supreme Court
precedent] must have been ‘objectively unreasonable’” to obtain habeas relief on a claim

In dissenting to the Unites States Supreme Court’s denial for writ of certiorari,
Justice Sotomayor concluded that the Alabama Court of Criminal Appeals unreasonably
applied Strickland by requiring counsel’s testimony to establish that his counsel’s
performance was deficient. Reeves v. Alabama, __ U.S. __, 138 S. Ct. 22, 199 L. Ed. 2d
341 (2017)(Sotomayor, J., dissenting). The dissent explained that “Reeves presented
ample evidence in support of his claim that his counsel’s performance was deficient, but
the court never considered or explained why, in light of that evidence, his counsel’s
strategic decisions were reasonable. It rested its decision solely on the fact that Reeves had
not called his counsel to testify at the postconviction hearing.” 138 S. Ct. at 28.
19

In denying Reeves’s ineffective assistance of counsel claim, the Circuit Court stated:
The Court notes at this point that the Petitioner during his Evidentiary
Hearing, failed to call either Goggans or Wiggins in support of their claim
of ineffective assistance of counsel. Therefore, this Court will review this
claim in light of this failure and consider only that which is in the Record.
(Doc. 23-16 at 154-55, Vol. 16, JR-__, pp. 20-21).
20

44
89a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 45 of 105

PageID #: 7835

that was previously decided on the merits by the state courts.) (internal citation omitted).
Consequently, Reeves’s claim for habeas relief on this basis is denied.

b. Claim that counsel failed to investigate Reeves’s alleged intellectual
disability.
In his petition, Reeves asserts that trial counsel had a duty to investigate his mental
capacity and background where record materials indicated the possibility of mitigating
evidence of intellectual disability. (Doc. 24 at 58). Respondent contends the merits of this
claim were addressed and denied by the state courts in post-conviction proceedings. In
denying the claim in Reeves’s Rule 32 petition, the trial court state:
This Court by Order dated October 20, 1997, approved funds for the
purpose of hiring a neuropsychologist. Soon after the funds were approved,
Defense Counsel McLeod withdrew, and the Court appointed Goggans and
Wiggins.
The Court notes at this point that the Petitioner during his Evidentiary
Hearing, failed to call either Goggans or Wiggins in support of their claim
of ineffective assistance of counsel. Therefore, this Court will review this
claim in light of this failure and consider only which is in the Record.
Trial Counsel made a decision to rely on the testimony of Dr. Kathy Ronan
rather than retain Dr. John Goff.
When Dr. Ronan’s testimony is considered in its entirety together with the
records collected by Trial Counsel, there was no indication of a diagnosis
of mental retardation. As a matter of fact, Dr. Ronan on cross-examination
by Assistant District Attorney Wilson was asked,
“Q.

So he wasn’t actually mentally retarded?

A.

He was not in a level that they would call him mental
retardation, no.”

Furthermore, the Reeves Trial took place four years before the United States
Supreme Court issued its Opinion in Atkins v. Virginia, 536 U.S. 304 (2002).
Therefore, the Court nor the Jury would have been required to consider
mental retardation as a mitigating circumstance. The Court finds that the
Petitioner failed to prove by a preponderance of the evidence ineffective

45
90a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 46 of 105

PageID #: 7836

assistance of counsel as alleged in Sec. II(a), Failure to prove necessary
expert assistance.
(Doc. 23-16 at 154-55, Vol. 16, JR-65, pp. 20-21). The Alabama Court of Criminal
Appeals, in its memorandum opinion affirming the trial court’s denial of Reeves’s claim,
stated:
The burden was on Reeves to prove by a preponderance of the evidence that
his counsel's challenged decisions were not the result of reasonable strategy,
i.e., the burden was on Reeves to present evidence overcoming the strong
presumption that counsel acted reasonably. However, because Reeves failed
to call his counsel to testify, the record is silent as to the reasons trial counsel
(1) chose not to hire Dr. Goff or another neuropsychologist to evaluate
Reeves for intellectual disability and chose not to present testimony from
such an expert during the penalty phase of the trial that Reeves was
intellectually disabled in order to establish a mitigating circumstance . . .
Reeves v. State, 226 So. 2d at 750-51.
“It is unquestioned that under the prevailing professional norms at the time of
[Reeves’s] trial, counsel had an ‘obligation to conduct a thorough investigation of the
defendant’s background.’” Porter v. McCollum, 558 U.S. 30, 39, 130 S. Ct. 447, 175 L.
Ed. 2d 398 (2009) (quoting Williams v. Taylor, 529 U.S. 362, 396, 120 S. Ct. 1495, 146 L.
Ed. 2d 389 (2000). Where counsel has reason to know of potential mitigating evidence
they are required to investigate. See Wiggins v. Smith, 539 U.S. 510, 524-25, 123 S. Ct.
2527, 156 L. Ed. 2d 471 (2003) (held that counsel “fell short of . . . professional standards”
for not expanding their investigation beyond the presentence investigation report and one
set of records they obtained, given the facts discovered in the two documents); Daniel v.
Comm’r., 822 F.3d 1248 (11th Cir. 2016) (counsel’s performance was deficient where
mitigation investigation ended after “acquir[ing] only rudimentary knowledge of
[petitioner’s] history from a narrow set of sources.”). “In any ineffectiveness case, a
particular decision not to investigate must be directly assessed for reasonableness in all the
circumstances, applying a heavy measure of deference to counsel’s judgment.” Strickland,

46
91a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 47 of 105

PageID #: 7837

466 U.S. at 691. At some point during trial preparation, counsel “will reasonably decide
that another strategy is in order, thus ‘mak[ing] particular investigations unnecessary.’”
Pinholster, 131 S. Ct. at 1407 (quoting Strickland, 466 U.S. at 691). The “strategic choices
[of counsel] made after thorough investigation of law and facts relevant to plausible options
are virtually unchallengeable,” while those “made after a less than complete investigation
are reasonable precisely to the extent that reasonable professional judgments support the
limitation on investigation.” Strickland, 466 U.S. at 690-91.
Unlike the cases cited by Reeves in his petition, the record confirms trial counsel
engaged in investigating Reeves’s mental capacity – thus, this claim more appropriately
characterized as a question of the scope of counsel’s investigation and trial strategy. It is
undisputed from the trial record that counsel obtained substantial evidence of Reeves’s
educational history, medical history, juvenile correctional experience, family and social
history, and work experience. See doc. 23-1 at 2-9, Vol. 1, JR-1 docketing counsel’s
requests for production of records. In addition, Reeves makes no claim that counsel were
unaware of any of the information concerning his background or mental health history
contained in these voluminous records. Indeed, these records raised red flags regarding
substantial issues, including Reeves’s mental capacity, prompting attorneys McLeod and
Wiggins to petition the court, on September 16, 1997, for funds to hire an expert, Dr. Goff,
to evaluate Reeves and assist in preparation of mitigation evidence for the penalty phase.
(See Doc. 23-1 at 70-73; Vol. 1, JR-2, pp. 64-67). The trial court initially denied the Motion
for Appointment of Clinical Neuropsychologist for Interview, Testing, Evaluation, and
Trial Testimony Regarding Defendant and for Funds to Pay Such Expert, and counsel
argued in their Application for Rehearing that they “possesse[d] hundreds of pages of
psychological, psychometric and behavioral analysis material” and “[t]hat a clinical

47
92a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 48 of 105

PageID #: 7838

neuropsychologist or a person of like standing and expertise [was] the only avenue open to
the defense to compile [and] correlate this information, interview [Reeves,] and present
this information in an orderly and informative fashion to the jury during the mitigation
phase of the trial.” (Doc. 23-1 at 74; Vol. 1, JR-2 p. 68). Counsel was granted a hearing
on the motion to appoint and presented to the court:
We have, however, filed a motion by recommendation of the Capital
Mitigation Resources Program which has been assisting us with this matter
because of the tremendous conflicting information we have received
through probably I would anticipate more than 150 to 200 pages of material
with reference to psychological and psychiatric evaluations, et certera, for
the mitigation phase of this proceeding, we would need the services of a
neuropsychiatrist and neuropsychologist that has previously been ordered
in other capital cases as Mr. Greene so adequately reminded me. And we
are asking for the same because in this instance the State has put us on notice
that they are going for the death penalty. And the amount of material that
we have received through discovery from the school and the Department of
Youth Services is beyond our ability to deal with and feel that Dr. Goff
would be competent to deal with that matter.
(Doc. 23-3 at 91; Vol. 1, JR-5, p. 7).21 On October 16, 1997, the court granted counsel’s
motion and approved the funding for and appointment of John R. Goff, Ph.D. (Doc. 23-1
at 81; Vol. 1, JR-2, p. 75). Subsequently, Attorney McLeod withdrew as counsel22 and
was replaced by attorney Thomas Goggans. (Doc. 23-1 at 3, 78-80, Vol. 1, JR-1, p. 2; Vol.

At the hearing on the motion to appoint, the prosecution argued against the
appointment of Dr. Goff reasoning that Dr. Goff was essentially “an expensive helper” and
that the defense attorney could read the discovered reports himself. (Doc. 23-3 at 95, Vol.
1, JR-2, p. 11). Specifically, the prosecution opined that “ask[ing] Dr. Goff to review
school records about [Reeves’s] maladjustment” was unproductive and inappropriate
spending for “an incidental witness”. (Id.).
21

Review of Attorney McLeod’s motion to withdraw as counsel indicates an inability
“to establish a meaningful attorney-client working relationship” as the reason for his
withdrawal. (Doc. 23-1 at 78; Vol. 1, JR-2, p. 72). According to McLeod, “defendant
ha[d] been combative, argumentative and ha[d] totally refused to assist [McLeod] in any
manner with the trial of his cause.” (Id.).
22

48
93a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 49 of 105

PageID #: 7839

1, JR-2, pp. 72-75). Attorneys Wiggins and Goggans, thereafter, on December 3, 1997,
petitioned the court for and were granted access to the complete mental health records of
the Taylor Harden Secure Medical Facility in connection with its evaluation and treatment
of Reeves, including the records related to Dr. Kathy Ronan’s June 3, 1997, evaluation of
Reeves. (Doc. 23-1 at 88, 150; Vol. 1, JR- 2, pp. 82, 144). The record, however, remains
silent as to why Wiggins and Goggans never contacted Dr. Goff or hired any other expert
to evaluate Reeves for intellectual disability.23
As reasoned by the state court and previously discussed, supra, the record is void
of information related to trial counsel’s ultimate decision not to hire Dr. Goff or further
investigate Reeves’s intellectual disability; the decision is, therefore, presumed reasonable
unless rebutted by the total record evidence. In this case, the record reveals that counsel
not only obtained extensive documentation from Reeves’s childhood and adolescent years
but counsel presented the information contained in the documents at the trial and penalty
phase. The voluminous records indicate that Reeves was within the borderline range of
intellectual functioning (represented by the full-scale score achieved when he was 14 years
old and the verbal score achieved from the testing of Dr. Ronan), and these records further
evidence that Reeves was denied special education services for intellectual disability and
was instead recommended for emotional conflict and behavioral services. As such,
Reeves’s trial counsel cannot reasonably be faulted for failing to pursue further expert
inquiry into Reeves’s intellectual functioning where the evidence objectively indicated

Dr. Goff testified at the Rule 32 evidentiary hearing that Lucia Penland, from the
Rison Project, notified him in 1997 that he his appointment had been approved by the court
to interview and evaluate Reeves; however, he was never contacted by counsel. (Doc. 2324 at 67-68; Vol. 24, JR-85, pp. 66-67). Dr. Goff exclaimed that he assumed the case “had
pled out”, but years later, during a conversation with Ms. Penland, he inquired about the
case and Ms. Penland “said that they just never called [her]. (Doc. 23-24 at 68; Vol. 24,
JR-85, p. 67).
23

49
94a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 50 of 105

PageID #: 7840

Reeves was not intellectually disabled. In light of the total circumstances, trial counsel’s
decision not to expand its investigation further into Reeves’s intellectual disability cannot
be viewed as unreasonable, as the question is not “what the best lawyers” or “even what
most good lawyers would have done. We ask only whether some reasonable lawyer at the
trial could have acted, in the circumstances, as defense counsel acted at trial.” Grayson v.
Thompson, 257 F.3d 1194, 1216 (11th Cir. 2001) (internal citation omitted). Consequently,
Reeves has failed to satisfy the deficient performance prong of establishing ineffective
assistance of counsel, and the state court’s decision was not contrary to, or involved an
unreasonable application of, clearly established federal law, nor was the decision based on
an unreasonable determination of the facts in light of the evidence presented.
Additionally, Reeves has failed to show that he was prejudiced by the failure of
counsel to hire Dr. Goff or to further investigate his intellectual disability. 24 While “the
demonstrated availability of undiscovered mitigating evidence clearly me[ets] the
prejudice requirement”, Armstrong v. Dugger, 833 F.2d 1430, 1434 (11th Cir. 1987), the
trial record evidences that Reeves’s intellectual functioning was in the borderline range,
and the jury was informed of Reeves’s lower intellectual functioning multiple times during

Where counsel ignores “red flags” “alerting them to the need for more
investigation”, counsel performs deficiently. Rompilla, 545 U.S. at 392; see also Jefferson
v. Sellers, 250 F. Supp. 3d 1340 (N.D. Ga. 2017) (counsel was ineffective for failing to
obtain neuropsychological testing following mental health expert’s recommendation and
knowledge of head trauma (petitioner was struck by a car when he was 2 years old));
Blanco v. Singletary, 943 F.2d 1477, 1503 (11th Cir. 1991) (counsel rendered ineffective
assistance where he failed to put forth any mitigating evidence despite that an investigation
would have uncovered an impoverished childhood, epileptic seizures, and organic brain
damage); Ferrell v. Hall, 640 F.3d 1199 (11th Cir. 2011) (counsel’s failure to conduct a
mitigation investigation beyond petitioner’s character was ineffective where “obvious
evidence of serious mental illness” was undiscovered). However, Reeves’s case is
distinguishable from such cases, as Reeves’s counsel initiated investigation and discovery
of voluminous background information regarding Reeve and presented evidence of the
same at trial.
24

50
95a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 51 of 105

PageID #: 7841

the penalty phase, including in defense counsel’s opening statement, through the testimony
of Marzetta Reeves and Dr. Kathy Ronan, and during counsel’s closing statement. Daniel
v. Comm’r, 822 F.3d 1248 (11th Cir. 2016) (The Court explained that “borderline
intellectual disability that does not rise to the level of intellectual disability under Atkins is
still powerful mitigation.”) (citing Williams, 529 U.S. at 398, 120 S. Ct. at 1515 ("[T]he
reality that [Mr. Williams] was 'borderline mentally retarded,' might well have influenced
the jury's appraisal of his moral culpability."); Wiggins 539 U.S. at 535, 123 S. Ct. at 2542
(noting that "diminished mental capacities" is among "the kind of troubled history . . .
relevant to assessing a defendant's moral culpability.")).

Because post-conviction

investigation further confirmed this borderline level of functioning and the jury was
informed of the same, Reeves has failed to carry his burden of establishing that he was
prejudiced by counsel’s failure to further pursue investigating his intellectually functioning.
For these reasons, the claim for habeas relief on this basis is denied.
c. Claim that trial counsel failed to retain a mitigation expert and failed
to present crucial mitigating evidence.
In his petition, Reeves asserts that trial counsel unreasonably relied on a courtappointed competency expert, Dr. Ronan, to provide mitigation evidence during the
penalty phase, rather than retaining an experienced and qualified mitigation expert. (Doc.
24 at 58-59). In support of his claim, Reeves argues that Dr. Ronan never interviewed
any family members, friends, or professionals in his life, and never spoke with counsel
until the day prior to trial. This claim was previously presented to the Alabama Court of
Criminal, which stated, in its memorandum opinion affirming the circuit court’s denial of
Reeves’s Rule 32 petition:
As for Reeves's claim that his trial counsel were ineffective for not
conducting an adequate mitigation investigation and for not presenting what

51
96a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 52 of 105

PageID #: 7842

he claimed was substantial mitigation evidence during the penalty phase of
the trial, . . . we point out that Reeves's claim in this regard is not that
counsel failed to conduct any mitigation investigation or that counsel failed
to present any mitigation evidence during the penalty phase of the trial.
Rather, Reeves's claim is that counsel did not conduct an adequate
investigation and either did not present during the penalty phase of the trial
all mitigating evidence that may have been available or did not present the
mitigating evidence in the manner he believes would have been most
appropriate.
"[T]rial counsel's failure to investigate the possibility of mitigating evidence
[at all] is, per se, deficient performance." Ex parte Land, 775 So. 2d 847,
853 (Ala. 2000), overruled on other grounds, State v. Martin, 69 So. 3d 94
(Ala. 2011). However, "counsel is not necessarily ineffective simply
because he does not present all possible mitigating evidence." Pierce v.
State, 851 So. 2d 558, 578 (Ala. Crim. App. 1999), rev'd on other grounds,
851 So. 2d 606 (Ala. 2000). When the record reflects that counsel presented
mitigating evidence during the penalty phase of the trial, as here, the
question becomes whether counsel's mitigation investigation and counsel's
decisions regarding the presentation of mitigating evidence were reasonable.
"'[B]efore we can assess the reasonableness of counsel's
investigatory efforts, we must first determine the nature and
extent of the investigation that took place....' Lewis v. Horn,
581 F.3d 92, 115 (3d Cir. 2009). Thus, '[a]lthough [the]
claim is that his trial counsel should have done something
more, we [must] first look at what the lawyer did in fact.'
Chandler v. United States, 218 F.3d 1305, 1320 (11th Cir.
2000)."
Broadnax, 130 So. 3d at 1248 (emphasis added).
At the evidentiary hearing, Reeves presented testimony from Karen Salekin,
a forensic clinical psychologist who performed a mitigation investigation,
regarding the mitigation evidence he believes his counsel should have
presented and the manner in which he believes that evidence should have
been presented. However, Reeves presented no evidence at the evidentiary
hearing regarding what mitigation investigation his trial counsel conducted,
because Reeves failed to call trial counsel to testify. Although Reeves
argues that counsel's investigation was not adequate, because the record is
silent as to the extent of counsel's actual investigation, we must presume
that counsel exercised reasonable professional judgment in conducting the
investigation and that counsel's decisions resulting from their investigation
were also reasonable. The silent record before this Court regarding counsel's
investigation and their resulting decisions as to what evidence to present
during the penalty phase of the trial and how to present that evidence is not
sufficient to overcome the strong presumption of effective assistance. See,
e.g., Woods v. State, 13 So. 3d 1, 37 (Ala. Crim. App. 2007) (holding, on

52
97a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 53 of 105

PageID #: 7843

appeal from four capital-murder convictions and a sentence of death, that
the appellant had failed to establish that his counsel's mitigation
investigation constituted deficient performance where the record contained
"no evidence about the scope of counsel's mitigation investigation" but
contained indications that counsel had at least conducted some mitigation
investigation).
For the reasons set forth above, Reeves failed to satisfy his burden of proof
as to his claims of ineffective assistance of counsel. Therefore, the circuit
court properly denied those claims.
Reeves, 226 So 3d. at 751-52; (Doc. 23-31 at 89-92; Vol. 31, JR-94, pp. 88-91). After a
review of the record, it is clear that Reeves’ counsel did present mitigating evidence at the
penalty phase. While more mitigation evidence may have been available, Reeves has failed
to present evidence sufficient to rebut the presumption that counsel exercised reasonable
professional judgment in constructing their mitigation strategy.
We emphasize that Strickland does not require counsel to investigate every
conceivable line of mitigating evidence no matter how unlikely the effort
would be to assist the defendant at sentencing. Nor does Strickland require
defense counsel to present mitigating evidence at sentencing in every case.
Both conclusions would interfere with the "constitutionally protected
independence of counsel" at the heart of Strickland. 466 U.S., at 689, 80 L
Ed 2d 674, 104 S Ct 2052. We base our conclusion on the much more
limited principle that "strategic choices made after less than complete
investigation are reasonable" only to the extent that "reasonable
professional judgments support the limitations on investigation." Id., at 690691, 80 L Ed 2d 674, 104 S Ct 2052. A decision not to investigate thus
"must be directly assessed for reasonableness in all the circumstances." Id.,
at 691, 80 L Ed 2d 674, 104 S Ct 2052.
Wiggins v. Smith, 539 U.S. 510, 533, 123 S. Ct. 2527, 2541, 156 L. Ed. 2d 471 (2003)
(counsel’s failure to investigate defendant’s background was unreasonable “in light of the
evidence counsel uncovered in the social services records--evidence that would have led a
reasonably competent attorney to investigate further”); see also Rompilla v. Beard, 545
U.S. 374, 125 S. Ct. 2456, 162 L. Ed. 2d 360 (2005) (counsel’s failure to review previous
conviction files for aggravating details and mitigation leads which might have influenced

53
98a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 54 of 105

PageID #: 7844

the jury’s appraisal of petitioner’s culpability was unreasonable given that counsel had
notice that the prosecution sought to prove petitioner had a violent criminal history).
Review of the record reveals that counsel conducted a mitigation investigation by
seeking information related to Reeves’s background, evidenced by the various motions
filed for Release of Records. (Doc. 23-1 at 5; Vol. 1, JR-1). Counsel further received the
records, evidenced by the production of records from Carraway Methodist Medical Center,
Selma Public Schools (including disciplinary reports, letters from teachers, standardized
tests, special education assessments, and administration records and letters), Cahaba
Mental Health Center (including counseling reports), Mobile Group Home. (Doc. 23-2 at
61-221; Doc. 23-3 at 1-85). Counsel comprehended the gravity of establishing a mitigation
defense in a capital case, evidenced by counsel’s obtained assistance of the Alabama Prison
Project’s Mitigation and Investigation Program25 (doc. 23-1 at 17, Vol. 1, JR- 1; Doc. 233 at 91; Vol. 1, JR-5, p. 7) and counsel’s petition to the court for the hiring of a mitigation
expert. (Doc. 23-1a t 70-77). Counsel also presented this information to the jury and judge
through the testimony of three witnesses and through its opening and closing statements at
the penalty phase. The documents were also admitted into evidence and presented to the
Jury as mitigation evidence. (Doc. 23-16 at 159). Thus, without evidence to the contrary,
Reeves that the state court decision resulted in a decision contrary to, or involved an
unreasonable application of, Strickland. Neither has Reeves shown that decision was based
on an unreasonable determination of the facts in light of the evidence presented in the State
Court proceedings.

On February 10, 1997, attorney McLeod petitioned the court for the approval of
funds to obtain assistance from the Alabama Prison Project’s Mitigation and Investigation
Program. (Doc. 23-1 at 16-18). Counsel asserted that the assistance would be used to
evaluate the reports and information received in the case. (Id. at 17).
25

54
99a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 55 of 105

PageID #: 7845

Also, Reeves has failed to establish that he was prejudiced by counsel’s failure to
retain a mitigation expert. “When a defendant challenges a death sentence such as the one
at issue in this case, the question is whether there is a reasonable probability that, absent
the errors, the sentencer -- including an appellate court, to the extent it independently
reweighs the evidence -- would have concluded that the balance of aggravating and
mitigating circumstances did not warrant death.” Strickland, 466 U.S. at 695. In Alabama,
the sentencing judge makes the determination as to the existence and weight of aggravating
and mitigating circumstances and the punishment, but he must give the jury verdict of life
or death "consideration". Ala. Code § 13A-5-46 (1975)(a); see also Harris v. Alabama,
513 U.S. 504, 115 S. Ct. 1031, 130 L. Ed. 2d 1004 (1995) (discussing the “weight” that
must be afforded to a jury’s advisory sentencing verdict). Accordingly, to establish his
claim, Reeves must show that but for his counsel's deficiency there is a reasonable
probability he would have received a different sentence. In assessing that probability,
courts consider "the totality of the available mitigation evidence--both that adduced at trial,
and the evidence adduced in the habeas proceeding" --and "reweig[h] it against the
evidence in aggravation." Porter, 558 U.S. at 40-41 (quoting Williams, supra, at 397-398,
120 S. Ct. 1495, 146 L. Ed. 2d 389).
During the penalty phase, trial counsel presented in its opening statement to the
jury that evidence would be presented regarding Reeves upbringing, intellectual
functioning, and environment that would help explain what would cause Reeves to commit
the murder for which he was convicted. (Doc. 23-8 at 92-96). Trial counsel stated:
You’ll hear evidence that Matthew Reeves is what psychologists or
psychiatrists call borderline intellectual functioning. . . It means he is right
on the borderline of being classified as retarded, not insane or anything like
that. But he’s on the borderline.
You will hear that that has a lot to [sic] with how people act in
different environmental situations. You’ll hear about the environment that

55
100a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 56 of 105

PageID #: 7846

Matthew Reeves grew up in. You will hear about lack of resources from all
kinds of different places. You’ll hear about lack of parental resources, lack
of parental involvement. You’ll hear of lack of school resources. The
school just ran out of resourced for Matthew Reeves. You’ll hear about lack
of social services resources. You’ll essentially hear about the lack of
resources that are needed to raise somebody, to raise somebody up in the
way that they will behave the way people should behave. And you put these
things together with somebody who is borderline functioning, and you are
going to have problems.
Everybody is going to gravitate toward something. Everybody
makes choices. The question is how capable is this person of making a
choice in any situation. The evidence here will be Matthew Reeves has
borderline intellectual functioning. It’s probably not going to be great in
any sense. But the choices that are made will be influenced by the
environment factors, how people are raised, et cetera.
You will hear evidence that people of his mental functioning are
going to gravitate towards something. Everybody gravitates towards
something, and some people are going to gravitate towards sports or Boy
Scouts or church or whatever is out there that the appropriate resources
provide for the child growing up. And Matthew Reeves’ situation - - all of
these things that we might normally think of as every day activities, every
day resources you or I might have or we provide for our children weren’t
there. The thing out there for Matthew Reeves, the only structure of any
sort if you can call it that was a structure of violence, gangs, thug life. The
other resources just weren’t there for him for somebody with borderline
intellectual functioning.
(Doc. 23-8 at 94-96; Vol. 8, JR-22, JR23, pp. 1114-1116). Trial counsel then called
Detective Grindle, Marzetta Reeves, and Dr. Kathy Ronan to present mitigation testimony.
Detective Grindle testified as to the dilapidated condition of Reeves’s family home,
which included graffiti on the front door, the lack of interior doors, open sections in the
ceiling, and 16 photographs of the house were entered into evidence. (Doc. 23-8 at 98102).
Marzetta Reeves, Reeves’s mother, testified as to Reeves’s background. She
explained that Reeves has never known his father, indicating that Reeves first met his father
around age 14 and once again at 16 years of age. She described that she relied solely on
government assistance for income and identified at least ten (10) people who occupied the
family’s three-bedroom home (as the fourth bedroom was unusable due to a hole in the

56
101a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 57 of 105

PageID #: 7847

roof which leaked water when it rained). According to Ms. Reeves, Matthew Reeves failed
several grades, including first and third or fourth, and was socially promoted to seventh
grade. She stated that Matthew Reeves began receiving mental health services in second
or third grade, namely medication for hyperactivity and some counseling, but that in his
early grades teachers would comment that Reeves was “doing really good” and “he was
making good grades.” (Doc. 23-8 at 108). Ms. Reeves further testified that Reeves was
kicked out of school in the eighth grade, although she maintained she was unaware of why.
She indicated that Reeves thereafter attended some GED classes, but when he was placed
into a group home, he went entered the Job Corps and earned certificates in welding and
auto mechanics. Upon his return home, Reeves went to work for Mr. Ellis’s construction
company, performing roofing and carpentry work. She further detailed that Reeves did well
at the job and would wake up at 5:30/6:00 a.m. and be ready when his ride arrived to take
him to work. Ms. Reeves further confirmed that approximately three months prior to the
committed crime, Reeves was shot in the head on her front porch.
On cross examination, Ms. Reeves admitted Reeves had been in legal trouble
multiple times prior to the incident in question for “lots of things”, including stealing cars,
breaking into homes, assault and drug offenses. The prosecution presented evidence that
Reeves had been using marijuana since he was twelve and that he had numerous
disciplinary actions at school (including cussing at teachers, threatening teachers, refusing
to obey teachers, and hitting students) which caused him to be expelled. Ms. Reeves further
opined that Reeves’s behavior and conduct was better when Reeves was separated from
his brother Julius, i.e., in group homes or when Julius was away in juvenile detention.

57
102a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 58 of 105

PageID #: 7848

Dr. Kathy Ronan, clinical psychologist and forensic expert, then testified as to her
examination, diagnosis, and opinion of Reeves.26 In evaluating Reeves’s mental state at
the time of the crime and his competency to stand trial, Dr. Ronan stated that she relied on
as much information as the parties had available, including investigative reports, police
reports, witnesses’ statements, coroner’s statements, psychiatric history, juvenile history,
scholastic history, as well as interviewing the defendant personally. In Reeves’s case, she
claimed that both the prosecution and defense provided her with these records and she also
requested medical records from Carraway Medical Center and Selma Medical Center
regarding treatment of Reeves’s gunshot wound and psychiatric hospitalization,
respectively.27
Review of the received records revealed and Dr. Ronan testified that Reeves “came
from a very turbulent upbringing”, which lacked “structure in the home or guidance or
supervision.” (Doc. 23-8 at 140; Vol. 8, JR-24, p. 1160). The jury further heard from Dr.
Ronan that Reeves “presented with a number of behavioral difficulties in school. There
[were] constant attempts on the part of the school to communicate with his mother - - the
father was not present in the home - - in order to try and get him into appropriate programs
and to control his behaviors.” (Id.). The school records reviewed indicated “extreme
truancy” and it was discovered that Reeves, and his brother, were roaming the streets. (Id.
at 141). Documentation evidenced Reeves’s mother suffered from a drinking problem and

Dr. Ronan confirmed she has completed approximately 700 forensic examinations
in her eleven (11) years of practice. (Doc. 23-8 at 133).
26

According to Dr. Ronan, the medical records related to psychiatric treatment at
Selma Medical Center were never received, but no information was discovered to indicate
that Reeves ever suffered from any type of major psychiatric disorder (doc. 23-8 at 15758; Vol. 8, JR-24, pp. 1177-78), nor did medical records support that the gunshot wound
to Reeves caused any neurological damage (doc. 23-8 at 157; Vol. 8, JR-24, p. 1177).
27

58
103a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 59 of 105

PageID #: 7849

failed to “follow up” with: school recommendations to come in and discuss problems,
mental health counseling appointments, and mental health treatment, including medication
for attention deficient disorder. Dr. Ronan described that Reeves was twice placed in a
group home by the Department of Youth Services subsequent to being adjudicated as a
serious juvenile offender (for assault offenses), and while in the structured environment,
Reeves “responded positively”. (Doc. 23-8 at 146; Vol. 8, JR-24, p. 1166). Dr. Ronan
further described how Reeves often followed the lead of his younger brother, Julius Reeves,
and was involved in gang activity – which she explained was “not uncommon . . . to see
individuals who may have a lot of loose structure at home become heavily involved in gang
activities.” (Doc. 23-8 at 147; Vol. 8, JR-24, p. 1167). Dr. Ronan expounded that gangs
for such individuals become a “subculture”, “[a]nd because this is who they are relating
with, you know, going out shooting someone becomes nothing to them. It doesn’t have
the same meaning as it does for you and me.” (Doc. 23-8 at 147-48; Vol. 8., JR-24, pp.
1167-68).
Dr. Ronan further testified that she conducted intellectual testing during her
evaluation; specifically, she administered the verbal portion of the adult version of the
Wexler Intelligence Scale. (Doc. 23-8 at 144-45; Vol. 8, JR-24, p. 1164-65). Dr. Ronan
explained that she gave the verbal portion because it dealt with one’s ability to understand
and reason more so than the eye, hand coordination portion of the test, on which Reeves
scored a 74 and fell within the borderline range of intellectual functioning. (Doc. 23-8 at
145, Vol. 8, JR-24, p. 1165). She opined that this verbal IQ score was comparable to the
verbal score of 75 Reeves received when he was administered the child’s version of the
test at 14 years of age. (Id.). When questioned about the affect Reeves’s lower intelligence,
lack of parenting, and lack of discipline had on Reeves’s decision to participate in gang

59
104a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 60 of 105

PageID #: 7850

activity, Dr. Ronan affirmed that such factors “most certainly” made Reeves “more
susceptible to [the] influence of gangs.” (Doc. 23-8 at 148; Vol. 8. JR-24, p. 1168). She
also opined that Reeves developed a personality disorder, which included adaptive
paranoia due to his exposure to and need to survive in a dangerous environment, and that
this disorder may not have occurred had Reeves been raised in what would be termed a
“normal environment”. (Doc. 23-8 at 149-50; Vol. 8; JR-24, pp. 1169-70). Dr. Ronan
diagnosed Reeves as having a personality disorder mixed with anti-social paranoia
(characterized as one who would repeatedly violate legal and social boundaries coupled
with a mistrust of things around them) and borderline features (characterized as one who
misreads social cues or has difficulty establishing close bonds with people). (Id). Dr.
Ronan affirmed that the combination of Reeves’ environmental and intelligence factors
must be considered together when assessing “how [Reeves] got to where he is.” (Doc. 238 at 151; Vol. 8, JR-24, p. 1171).28

As supporting evidence to Reeves’s Rule 32 petition, Reeves submitted the
affidavit of Dr. Kathy Ronan, in which she affirms that although she testified at Reeves’s
penalty phase hearing, a more thorough evaluation is necessary for mitigation in a capital
case. Specifically, Dr. Ronan stated:
28

The evaluation for Capital sentencing would contain different components
than those for the trial phase evaluations, and would be more extensive in
terms of testing and background investigation. These components were not
completed in the case of Mr. Reeves in that I responded to the Court order
and completed only evaluation of those areas I was requested to respond to,
namely Competence to Stand Trial and Mental State at the Time of Offense.
(Doc. 23-15 at 11; Vol. 15, JR-60, p. 4). Dr. Ronan opined that due to Reeves’s borderline
intelligence range, an extensive neuropsychological evaluation and thorough background
investigation would be clinically appropriate when considering a diagnosis of Mental
Retardation and mitigation evidence for Capital sentencing. (Doc. 23-15 at 10-12; Vol. 15,
JR-60, pp. 3-5).
The trial court considered Dr. Ronan’s affidavit “in it’s entirety” and concluded:
Dr. Ronan’s testimony during the sentencing phase of the Trial when
considered with all exhibits and documents available to her at the time
60
105a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 61 of 105

PageID #: 7851

Turning to the post-conviction Rule 32 hearing, Reeves presented the testimony of
Dr. Karen Salekin, a forensic psychologist, in support of his claim that counsel
unreasonably failed to retain a mitigation expert and put forth crucial mitigation evidence.
Dr. Salekin opined that the mitigation evidence presented at the penalty phase was “a
hodgepodge of information put out without context.” (Doc. 23-24 at 132). She noted that
testimony was provided as “single items” but “the whole story” was not present, i.e., “how
the risk factors come together, how they play out in terms of protective factors and
resilience”; according to Dr. Salekin, Dr. Ronan and Marzetta Reeves did not testify as to
how the risk factors affected Reeves’s development over time. (Doc. 23-24 at 132). In
conducting her mitigation investigation, Dr. Salekin reviewed the records of Reeves’s
childhood and adolescent years, mental health records of Reeves’s mother, Marzetta
Reeves, criminal court records of Reeves’s brother, Julius Reeves, interviewed Reeves’s
mother, his aunt, his previous employer, Jerry Ellis, and friends of the family, Beverley
Seroy and Charles Morgan, and reviewed the trial transcript in her evaluation for mitigation
evidence.

Dr. Salekin illuminated the importance of early intervention in assisting

individuals with numerous risk factors to help them develop coping strategies. (Doc. 2324 at 134-136). Dr. Salekin identified and expounded on ten developmental risk factors
related to Reeves: (1) multi-generational dysfunction, (2) maternal mental illness, (3) home
environment, (4) father absence, (5) child neglect, (6) neuropsychological deficits, (7)

including the Report prepared by her, establishes that it was reasonable for
Defense Counsel to rely on her testimony and work as the sole source of
mitigation evidence during the sentencing phase of his Trial. “The fact that
Petitioner can find a professional witness years after his Trial that is willing
to testify favorably at a post-conviction hearing in no way establishes that
Trial Counsel’s performance was deficient.” Horsley vs. Alabama, 45
Fed.3rd 1486, 1495 (11th Cir. 1995).
(Doc. 23-16 at 157; Vol. 16, JR-65, p. 956).
61
106a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 62 of 105

deficient

academic

performance,

(8)

childhood

psychological

PageID #: 7852

disorder,

(9)

institutionalization during adolescence, and (10) socioeconomic status.
Dr. Salekin testified that Reeves’s mother was raised in a dangerous environment
of abuse and neglect, with parents involved in illicit activities, and this negative pattern
influenced Marzetta Reeves, causing her to develop a mental illness, specifically
depression, and the dysfunction perpetuated downward to the next generation. Dr. Salekin
testified as to the negative influence Reeves’s brother Julius had on him and noted when
Reeves was by himself, in group homes, “he had the capacity to be a kind, considerate
person, follow[ed] order . . . yet when he got out of that environment and faced with Julius
again, the same pattern of behavior came through. And again people attributed that to
Julius.” (Doc. 23-24 at 141). Salekin’s investigation revealed that Reeves was brought up
in an overcrowded, physically dilapidated structure that was filthy, rodent infested and
falling apart (in part due to a fire that was set by Julius Reeves which rendered a room
unusable because of an unfixed hole in the ceiling that went straight to the outdoors) and
located in an extremely dangerous part of town referred to as Crack City”. (Doc. 23-24 at
143). Ten to fourteen people would occupy the home simultaneously - creating a chaotic,
argumentative, confrontational and violent environment, which negatively modeled to
Reeves how to be involved in crime and deal with people. (Doc. 23-24 at 145). Weapons,
alcohol and illicit substance abuse were mainstays of the house, and it was reported that
children in the home often had easy access to guns and alcohol. Dr. Salekin testified that
Reeves was often left at home with his grandmother, who did not want Marzetta to have
Reeves at the age of 17 and encouraged her to abort him. And, the mental health,
counseling records noted that Reeves had no positive reinforcement or emotional support
at home or consistent discipline from his mother.

62
107a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 63 of 105

PageID #: 7853

Records further revealed that Marzetta Reeves’s depression was often untreated due
to her noncompliance with medication, which can render one unable to parent appropriately
and hinder the ability of a parent to attach to children. According to Dr. Salekin, Marzetta
Reeves admitted, and Marzetta’s sister confirmed, that she would often put her needs
before her children and was unaware of her children’s whereabouts, including their gang
activity.
According to Dr. Salekin, Reeves’s father, who was absent from Reeves’s life until
Reeves first had contact with him at age 15 (and once thereafter) was involved in criminal
activity including the usage and selling of drugs. Dr. Salekin opined that Reeves likely
idolized his father and speculated that Reeves may have modeled his father’s criminal
behavior. Additionally, Dr. Salekin opined that the three boyfriends of Marzetta Reeves
also had a negative impact on Reeves. (Doc. 23-24 at 169-172).
In Dr. Salekin’s opinion, these combined factors set Reeves on a path for conduct
disorder which impacted his ability to function in school and in society. She explained that
the combination of learning difficulties and conduct problems, like Reeves’s, require early
intervention or “there is a high likelihood that the behavior is going to worsen.” (Doc. 2324 at 178). Dr. Salekin confirmed this is exactly what happened to Reeves; his lower
intellectual functioning was looked over and his dysfunctional behavior became the
primary focus. Reeves, who was noncompliant with his attention deficit disorder and
receiving low grades, began to act out to get attention. (Doc. 23-24 at 184-87). She
affirmed that “the end result for someone with so many risk factors is often in the criminal
justice system because there is nothing there to support the individual.” (Doc. 23-24 at
164).

63
108a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 64 of 105

PageID #: 7854

A comparison of the testimony presented at the penalty phase to that of the Rule 32
hearing demonstrates that the evidence produced in post-conviction proceedings by
mitigation expert Dr. Salekin was more detailed but did not reveal completely unknown
facts from those presented during the trial.29 See Walker v. State, 194 So. 3d 253, 288 (Ala.
Crim. App. 2015) ("[A] claim of ineffective assistance of counsel for failing to investigate
and present mitigation evidence will not be sustained where the jury was aware of most
aspects of the mitigation evidence that the defendant argues should have been presented.")
(quoting Frances v. State, 143 So. 3d 340, 356 (Fla. 2014). Instead the Rule 32 evidence
was merely cumulative to that presented at the penalty phase. But cf., Williams v. Alabama,
791 F.3d 1267 (11th Cir. 2015) (“because the sentencing judge and jury never heard
evidence that Mr. Williams was a victim of sexual abuse, such evidence is not
‘cumulative’. . . [and] can be powerful mitigating evidence, and is precisely the type of
evidence that is ‘relevant to assessing a defendant’s moral culpability.’”) (internal citation
omitted).
Additionally, review of the sentencing order in light of the total evidence presented
reveals that Reeves has failed to establish prejudice due to the failure of counsel to retain
a mitigation expert. A single aggravating factor is articulated in the sentencing order (that
being that the capital offense was committed while the defendant was engaged in the
commission of a robbery), along with two mitigating factors: (1) that Reeves has no
significant history of prior criminal activity, because juvenile adjudications may not be
used to rebut the mitigating circumstance, and (2) Reeves’ age at the time of the crime.
The sentencing judge noted that the evidence was overwhelming that Reeves was the leader

Notably, Dr. Salekin identified information related to Marzetta Reeves’s life history
and expounded on her neglectful parenting; additionally, Reeves’s early exposure to guns,
alcohol, and drug abuse due to its presence in the home was discussed.
29

64
109a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 65 of 105

PageID #: 7855

of the crime and that despite Reeves’s “low intellectual level, there was no evidence to
show that he did not appreciate the criminality of his conduct, and there was no credible
evidence presented to show that he could not conform his conduct to the requirements of
law.” (Doc. 23-2 at 24-25; Vol. 2, JR-3, p. 5-6). While acknowledging that Reeves “grew
up in a poor home environment and that he lacked appropriate developmental resources in
growing up”, the sentencing judge maintained that evidence established “when placed in a
structured environment, he responds positively”, supporting that Reeves “had the ability to
conduct himself properly and not engage in criminal conduct. He, however, voluntarily
chose that course of conduct.” (Doc. 23-2 at 25; Vol. 2, JR-3, p. 6). This assessment of
aggravating and mitigating factors articulated in the sentencing order indicates “the new
evidence” in Reeves’s case “‘would barely have altered the sentencing profile presented to
the sentencing judge’”, distinguishing this case from those where the “judge and jury at
[the] original sentencing heard almost nothing that would humanize [the defendant] or
allow them to accurately gauge his moral culpability.” Porter, 558 U.S. at 41 (quoting
Strickland, supra, at 700); see also Evans v. Secretary, Dep’t of Corr., 703 F.3d 1316, 1327
(11th Cir. 2013) (en banc) (To satisfy the prejudice prong, the likelihood of a different
result must be substantial, not just conceivable.). After reviewing the omitted mitigation
evidence and that which was presented, it cannot be said that counsel was unreasonable in
their decision not to retain a mitigation expert nor was Reeves prejudiced by the decision.
Therefore, the state court’s decision was not contrary to or an unreasonable application of
federal law. Consequently, the claim for habeas relief on this basis is denied.

d. Claim that counsel failed to preserve error for appellate review and
appellate counsel failed to raise claims on direct appeal.

65
110a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 66 of 105

PageID #: 7856

Reeves challenges in his petition that trial counsel failed to preserve the following
errors for appellate review and appellate counsel failed to raise the same arguments on
direct appeal: (1) instructional errors by the Circuit Court (that the jury’s verdict was
advisory); (2) prosecution’s misconduct and improper arguments during trial;30 and (3)
unconstitutionality of Alabama’s sentencing scheme. (Doc. 24 at 60). Respondent asserts
that this claim was addressed and denied by the Alabama Court of Criminal Appeals on
post-conviction appeal and, additionally, that the claim lacks merit. (Doc. 25 at 85-89).
The Alabama Court of Criminal Appeals, in its memorandum opinion affirming the
circuit court’s denial of Reeves’s Rule 32 petition, reasoned:
“The decisions by counsel that Reeves challenges . . what objections to
make and what issues to raise at trial, and what issues to raise on appeal - are typically considered strategic decisions, and do not constitute per se
deficient performance. See, e.g., . . .Lane v. State, 708 So. 2d 206, 209 (Ala.
Crim. App. 1997) ("This court has held that '[o]bjections are a matter of trial
strategy, and an appellant must overcome the presumption that "conduct
falls within the wide range of reasonable professional assistance," that is,
the presumption that the challenged action "might be considered sound trial
strategy."' Moore v. State, 659 So. 2d 205, 209 (Ala. Cr. App. 1994)."); and
Thomas v. State, 766 So. 2d 860, 876 (Ala. Crim. App. 1998) ("[A]ppellate
counsel has no constitutional obligation to raise every nonfrivolous issue. . . .
Appellate counsel is presumed to exercise sound strategy in the selection of
issues most likely to afford relief on appeal."), aff'd, 766 So. 2d 975 (Ala.
2000), overruled on other grounds, Ex parte Taylor, 10 So. 3d 1075 (Ala.
2005)).”

In his habeas petition and response to the State’s answer, Reeves fails to specify
the “prosecution’s misconduct and improper arguments” being challenged (Doc. 24 at 6061; Doc. 28 at 29-32). Review of Reeves’s Rule 32 Petition, where he first presented this
claim, raises challenges to the prosecution’s reference to Reeves as a gang member during
the trial and penalty phase (doc. 23-14 at 189-192; Vol. 14, JR-60, pp. 41-45), to the
prosecution’s repeated comments and the court’s instruction to the jury that its verdict was
a recommendation (doc. 23-14 at 193-194; Vol. 14, JR-60, pp. 45-46), and to the
prosecution’s argument to the jury to consider non-statutory aggravating circumstances
(doc. 23-14 at 194-197; Vol. 14, JR-60, pp. 47-49). Given that Reeves’s habeas filings
provide argument and citation support related only to the questions regarding the comments
to the jury diminishing its sentencing role by referring to its verdict as “advisory” and
challenges to Alabama’s sentencing scheme, the Court, thus, interprets Reeves’s
ineffective assistance claim to be related to the same.
30

66
111a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 67 of 105

PageID #: 7857

Reeves, 226 So. 3d at 750; Doc. 23-31 at 85; Vol. 31, JR-94, p. 84. The Court of Criminal
Appeals further stated:
“[T]he record is silent as to the reasons trial counsel. . . chose not to object
at trial to the prosecutor's allegedly urging the jury during closing arguments
at the penalty phase of the trial to consider nonstatutory aggravating
circumstances to impose a death sentence, to the prosecutor's introducing
evidence and making argument during both the guilt and penalty phases of
the trial that Reeves was involved in a gang, to the prosecutor's allegedly
referring to the jury's penalty-phase verdict as a recommendation, and to the
trial court's instructing the jury that its penalty-phase verdict was a
recommendation. The record is also silent as to the reasons appellate
counsel chose not to raise on appeal the claims that the prosecutor
improperly urged the jury during closing arguments at the penalty phase of
the trial to consider non-statutory aggravating circumstances to impose a
death sentence, that the prosecutor improperly introduced evidence and
argued during both the guilt and penalty phases of the trial that Reeves was
involved in a gang, that the prosecutor improperly referred to the jury's
penalty-phase verdict as a recommendation, and that the trial court
improperly instructed the jury that its penalty-phase verdict was a
recommendation. Where "'"the record is silent as to the reasoning behind
counsel's actions, the presumption of effectiveness is sufficient to deny
relief on [an] ineffective assistance of counsel claim."'" Broadnax, 130 So.
3d at 1256 (citations omitted).”
Id. at 751.
Counsel's competence … is presumed, and the [petitioner] must rebut this
presumption by proving that his attorney's representation was unreasonable
under prevailing professional norms and that the challenged action was not
sound strategy." Kimmelman v. Morrison, 477 U.S. 365, 106 S. Ct. 2574,
2588, 91 L. Ed. 2d 305 (1986) (emphasis added) (citations omitted). An
ambiguous or silent record is not sufficient to disprove the strong and
continuing presumption. Therefore, "where the record is incomplete or
unclear about [counsel]'s actions, we will presume that he did what he
should have done, and that he exercised reasonable professional judgment."
Williams, 185 F.3d at 1228; see also Waters, 46 F.3d at 1516 (en
banc)(noting that even though testimony at habeas evidentiary hearing was
ambiguous, acts at trial indicate that counsel exercised sound professional
judgment).
Chandler v. United States, 218 F.3d 1305, 1314 n.15 (11th Cir. 2000) (emphasis in
original).

The state court’s decision was not contrary to, or involved an unreasonable

application of Strickland.

67
112a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 68 of 105

PageID #: 7858

Furthermore, Reeves has failed to establish prejudice under Strickland. As
discussed, infra, at section IV., 6., the trial court’s instructions to the jury and the
prosecution’s comments to the jury that its sentencing verdict was “advisory” or a
“recommendation” were in fact accurate based on state law. Doster v. State, 72 So. 3d 50
(Ala. Crim. App. 2010) (trial court did not diminish jury’s role in sentencing by referring
to its verdict as a recommendation), cert. denied by, 132 S. Ct. 760, 181 L. Ed. 2d 490
(2011). Moreover, telling the jury that their decision is advisory is not contrary to
Caldwell v. Mississippi, 472 U.S. 320 (1985). In Caldwell the court held it is
“constitutionally impermissible to rest a death sentence on a determination made by a
sentencer who has been led to believe that the responsibility for determining the
appropriateness of the defendant's death rests elsewhere. Caldwell at 328–29 (emphasis
added). In Alabama, the “sentencer” is not the jury, it is the judge. Because the court’s
instructions to the jury were proper, counsel is not ineffective for failing to object to the
instructions at trial or raise such a claim on appeal. Chandler v. Moore, 240 F.3d 907,
917 (11th Cir. 2001) (counsel is not ineffective for failing to raise a non-meritorious
objection or claim).
Likewise, as discussed, infra, in section IV., 7., an objection to Alabama’s
“sentencing scheme” would have been without merit. Consequently, Reeves cannot
establish that but for counsel’s deficient performance, the result of his trial or appeal
would have been different. Thus, the state court did not err in its application of
Strickland.

4. Whether the Constitutional Right to a Fair Trial was Denied Due to Juror
Misconduct.
68
113a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 69 of 105

PageID #: 7859

Reeves asserts in his petition that he was denied a fair trial, in violation of the Sixth
and Fourteenth Amendments, because the jury which convicted him considered extraneous
evidence and engaged in extraneous conversations. Thus Reeves concludes that the
Criminal Court of Appeals’ decision that ruled otherwise, was based on an unreasonable
determination of the facts and involved an unreasonable application of Supreme Court
precedent. He asserts in his petition that “he is now entitled to relief in this Court and an
evidentiary hearing.” (Doc. 24 at 69). Specifically, Reeves alleges that during the trial,
Juror Jane Doe observed media reports regarding the trial and spoke with her husband
about the trial; furthermore, during the penalty phase deliberations, Juror Jane Doe made
statements to the jury that it did not matter how the jury voted because the sentencing
decision lay with the judge, made statements to the members of the jury that Reeves’s
family “would “come after” the jurors after the trial31 and spoke with another juror outside
of jury deliberations to persuade her to change her vote. Reeves supports this challenge
with the affidavit of Ms. Blackmon, one of the jurors, who avers these same facts. (Doc.
23-15 at 15).
The record reveals that Reeves presented this claim in his post-conviction Rule 32
petition. The Circuit Court, in summarily dismissing the claim and denying Reeves an
evidentiary hearing, held that the juror misconduct claim was procedurally barred pursuant
to Rules 32.2(a)(3) and (a)(5) of the Alabama Rules of Criminal Procedure, because the
claim could have been but was not raised at trial or on appeal.32 (Doc. 23-16 at 20). In

As noted by the Court of Criminal Appeals, Reeves does not allege that “Juror Jane
Doe’s statement to the jury that Reeves’s family would “come after” the jurors after trial
was based on extraneous information she had received.” Reeves, 226 So. 3d at 754, n. 19.
32
Juror misconduct claims are cognizable under Rule 32.1(a), Ala. R. Crim. P., as an
alleged constitutional violation. See also, Ex parte Pierce, 851 So. 2d 606, 613 (Ala. 2000).
Such claims are subject to the preclusions of Rule 32.2, including the denial of relief for
31

69
114a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 70 of 105

PageID #: 7860

affirming the Circuit Court’s decision, the Alabama Court of Criminal Appeals found that
the court erred in holding that the claims were procedurally barred pursuant to 32.2(a)(3)
and (a)(5)33 but determined the error did not require a remand, because Reeves’s juror
misconduct “claims were not sufficiently pleaded to warrant an evidentiary hearing and,
therefore, that the circuit court properly refused to allow Reeves to present evidence on this

claims which could have been but were not raised at trial or on appeal. Ala. R. Crim. P.
32.2(a)(3) and (a)(5).
33
Citing to Ex parte Hodge, 147 So. 3d 973 (Ala. 2011); Ex parte Harrison, 61 So.
3d 986 (Ala. 2010); and Ex parte Burgess, 21 So. 3d 746 (Ala. 2008), the Court of Criminal
Appeals determined that the preclusions of Rule 32.2(a)(3) and (a)(5) were not applicable.
Alabama law dictates that these preclusions are only applicable when there is evidence in
the record indicating the petitioner should have been aware before filing his motion for a
new trial or direct appeal of juror misconduct. Ex parte Harrison, 61 So. 3d 986, 990 (Ala.
2010) (“Placing a requirement on a defendant to uncover any and all possible juror
misconduct without reason to know what type of misconduct the defendant might be
looking for or, in fact, whether any misconduct occurred, would require criminal
defendants to embark on a broad-ranging fishing expedition at the conclusion of every
criminal trial or waive the right to complain of any juror misconduct the defendant might
ultimately discover.” ) (citing Ex parte Burgess, 21 So. 3d 746 (Ala. 2008); see also
Waldrop v. Thomas, 3:08-CV-515-WKW [WO], 2014 U.S. Dist. LEXIS 43168, *302-313
(M.D. Ala., E.D., March 31, 2014) (juror misconduct claim was not procedurally defaulted
as “petitioner’s counsel was not obligated to undertake a “fishing expedition” in the form
of interviews with the jurors in time to raise his claim in a motion for new trial or on direct
appeal.”).
A review of the record reveals that in his Rule 32 petition, Reeves plead that “trial
counsel could not have objected to jury misconduct during Mr. Reeves’ trial and could not
have raised it on direct appeal because counsel did not and could not have known about the
misconduct” (doc. 23-14 at 187) and further contends in his response to the State’s Answer
that “counsel became aware of the juror misconduct only during counsel’s post-conviction
investigation. (Doc. 23-16 at 131). The record further shows that the State nor the Circuit
Court articulated what further action should have been taken by Reeves to discover his
claim sooner, and the record is void of facts to support that counsel was put on notice of
juror misconduct during the trial or prior to bringing the claim. Therefore, there is no
evidence in the record indicating that Reeves knew of a potential juror misconduct claim
prior to post-conviction proceedings. See Ex parte Burgess, 21 So. 3d 746 (Ala. 2008)
(there is no evidence in the record indicating that Burgess should have been aware that
some jurors provided untruthful or inaccurate answers during voir dire examination); Gillis
v. Frazier, 214 So. 3d 1127, 1139-40 (Ala. 2014) (no evidence in record indicating that
Gillis had reason to know of juror misconduct earlier than pleaded). Accordingly, based
on state law, it appears that Reeves’s juror misconduct claim was not procedurally
defaulted pursuant to 32.2(a)(3) and (a)(5).

70
115a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 71 of 105

PageID #: 7861

claim at the Rule 32 hearing.”34 Reeves, 226 So. 3d 711, 753. The Court of Criminal
Appeals stated in its memorandum opinion:
Rule 32.3, Ala. R. Crim. P., states that "[t]he petitioner shall have the burden
of pleading and proving by a preponderance of the evidence the facts
necessary to entitle the petitioner to relief." Rule 32.6(b), Ala. R. Crim. P.,
states that "[t]he petition must contain a clear and specific statement of the
grounds upon which relief is sought, including full disclosure of the factual
basis of those grounds. A bare allegation that a constitutional right has been
violated and mere conclusions of law shall not be sufficient to warrant any
further proceedings." To sufficiently plead a claim of juror-misconduct, a
Rule 32 petitioner must, at a minimum, identify the juror who the petitioner
believes committed the misconduct, must allege specific facts indicating
what actions that juror took that the petitioner believes constituted
misconduct, and must allege specific facts indicating how that juror's
actions denied the petitioner a fair trial. See, e.g., Moody v. State, 95 So. 3d
827, 859 (Ala. Crim. App. 2011) (holding that Rule 32 petitioner had failed
to satisfy his burden of pleading his claim of juror misconduct when the
petitioner "failed to identify a single juror who he believed did not answer
questions truthfully during voir dire," failed to "identify which questions he
believe[d] the jurors did not answer truthfully," and "failed to plead what
'extraneous' information he believes was considered during the jury's
deliberations or how that information prejudiced him.").
In this case, Reeves failed to identify in his petition the juror he believed
committed the misconduct; he referred to the juror only as "Juror Jane Doe."
(C. 584-85.) He also failed to identify the juror who allegedly changed her
vote during the penalty-phase deliberations after allegedly speaking with
Juror Jane Doe privately. G.B.'s affidavit also failed to identify Juror Jane
Doe or the juror who allegedly changed her vote during the penalty-phase
deliberations. In a footnote in his petition, Reeves admitted that he knew the
identity of both jurors; he alleged that "[s]ignificant efforts have been
undertaken to identify Juror Jane Doe" and that "by speaking with certain
jurors who served on Mr. Reeves's trial and have been willing to speak with
Mr. Reeves's current counsel, the identities of these jurors are believed to
be known." (C. 585.) Nonetheless, Reeves failed to identify either juror in
his petition. In addition, although Reeves alleged that Juror Jane Doe had
spoken to her husband about the case and had watched and read media
reports about the case, Reeves failed to identify exactly what information
Juror Jane Doe received from her husband or from the media reports or how
this unidentified information prejudiced him.

“[T]here exists a long-standing and well-reasoned principle that [Criminal Court of
Appeals] may affirm the denial of a Rule 32 petition if the denial is correct for any reason.”
McNabb v. State, 991 So. 2d 313, 333 (Ala. Crim. App. 2007).
34

71
116a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 72 of 105

PageID #: 7862

Because Reeves failed to identify in his petition Juror Jane Doe, the juror
he believed was improperly influenced during the penalty phase of the trial,
or the specific "extraneous" information he believed Juror Jane Doe
improperly considered, all of Reeves's juror-misconduct claims were
insufficient to satisfy the pleading requirements in Rule 32.3 and Rule
32.6(b). Moreover, Reeves's claim that Juror Jane Doe repeatedly told the
other members of the jury that Reeves's family "would 'come after' the
jurors after the trial" and stressed to the other jurors that "the decision to
impose the death penalty truly belonged to the judge rather than the jury"
also fails to state a material issue of fact or law upon which relief could be
granted. (C. 585.) Reeves's claim in this regard is based on the debates and
discussions of the jury, not on extraneous facts considered by it. As this
Court explained in Bryant v. State, 181 So. 3d 1087 (Ala. Crim. App. 2011):
"It is well settled that 'matters that the jurors bring up in their
deliberations are simply not improper under Alabama law,
because the law protects debates and discussions of jurors and
statements they make while deliberating their decision.'
Sharrief v. Gerlach, 798 So. 2d 646, 653 (Ala. 2001). 'Rule
606(b), Ala. R. Evid., recognizes the important "distinction,
under Alabama law, between 'extraneous facts,' the
consideration of which by a jury or jurors may be sufficient
to impeach a verdict, and the 'debates and discussions of the
jury,' which are protected from inquiry."' Jackson v. State,
133 So. 3d 420, 431 (Ala. Crim. App. 2009) (quoting Sharrief,
supra at 652). '[T]he debates and discussions of the jury,
without regard to their propriety or lack thereof, are not
extraneous facts.' Sharrief, 798 So. 2d at 653. Thus,
'affidavit[s or testimony] showing that extraneous facts
influenced the jury's deliberations [are] admissible; however,
affidavits concerning "the debates and discussions of the case
by the jury while deliberating thereon" do not fall within this
exception.' CSX Transp., Inc. v. Dansby, 659 So. 2d 35, 41
(Ala. 1995) (quoting Alabama Power Co. v. Turner, 575 So.
2d 551, 557 (Ala. 1991))."
181 So. 3d at 1126-27. To allow “consideration of this claim of juror
misconduct – which is based entirely on the debate and deliberations of the
jury – ‘would destroy the integrity of the jury system, encourage the
introduction of the unduly influenced juror testimony after trial, and
discourage jurors from freely deliberating, and inhibit their reaching a
verdict without fear of post-trial harassment, publicity, or scrutiny.’”
Bryant[ v. State], 181 So. 3d [1087,] 1128 [(Ala. Crim. App. 2011) (quoting
Jones v. State, 753 So. 2d 1174, 1204 (Ala. Crim. App. 1999)).
For these reasons, the circuit court properly dismissed Reeves’s claim of
juror misconduct without affording Reeves an opportunity to present
evidence.

72
117a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 73 of 105

PageID #: 7863

Reeves, 226 So. 3d at 753-755.
The Alabama Court or Criminal Appeals based its dismissal of Reeves’s juror
misconduct claim pursuant to 32.6(b), which is considered an adjudication on the merits.
Borden v. Allen, 646 F.3d 785, 816 (11th Cir. 2011) (a ruling “under Rule 32.6(b) is . . . a
ruling on the merits”); Daniel v. Comm’r Ala. Dep’t of Corr., 822 F.3d 1248, 1261 (11th
Cir. 2016) (dismissal pursuant to 32.6(b) is evaluated under AEDPA’s “contrary to, or
involved an unreasonable application of clearly established Federal law’ standard); Frazier
v. Bouchard, 661 F.3d 519, 525 (11th Cir. 2011) ("[B]ecause a dismissal ... for failure to
sufficiently plead a claim under Rule 32.6(b) requires an evaluation of the merits of the
underlying federal claim, the Court of Criminal Appeals's determination was insufficiently
'independent' to foreclose federal habeas review. Accordingly, the district court was not
barred from considering the merits of the relevant claim." (footnote omitted)); Lee v.
Comm’r, Ala. Dep’t of Corr., 726 F.3d 1172, 1208 (11th Cir. 2013) (“We have held
repeatedly that a state court’s rejection of a claim under the state’s heightened-fact pleading
rule in Alabama Rule of Criminal Procedure 32.6(b) is a ruling on the merits.”); Alvarez v.
Stewart, 2016 U.S. Dist. LEXIS 124074, *27 (Ala. N.D., Aug. 1, 2016) (“The Eleventh
Circuit has concluded that state-court dismissals for failure to plead facts with specificity
amounts to a merits determination, not a procedural default.”). Under AEDPA, the Court
must therefore ask whether “fairminded jurists could disagree on the correctness of the
state court’s decision”, that is that Reeves failed to plead facts sufficient to demonstrate a
possibility of constitutional error. Harrington v. Richter, 562 U.S. 86, 101, 131 S. Ct. 770,
178 L. Ed, 2d 624 (2011); see also Daniel, 822 F.3d at 1261 (Under AEDPA review, the
court must “answer two questions to resolve th[e] habeas appeal. First whether [the] . .
Rule 32 petition and its attached exhibits pleaded enough specific facts that, if proven,

73
118a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 74 of 105

PageID #: 7864

amount to a valid . . . claim. Second, if we answer the first question in the affirmative, we
must determine whether the Alabama Court of Criminal Appeal’s decision to the contrary
was unreasonable under § 2254(d)).
The Sixth Amendment to the United States Constitution guarantees the right to trial
by an impartial jury. U.S. CONST. amend. VI. “[E]mbraced in the constitutional concept
of trial by jury” is the requirement that a jury’s verdict “must be based upon the evidence
developed at the trial.” Turner v. Louisiana, 379 U.S. 466, 472, 85 S. Ct. 546, 549, 13 L.
Ed. 2d 424, 428 (1965) (internal quotation omitted) (a jury must base its verdict on
evidence coming "from the witness stand in a public courtroom where there is full judicial
protection of the defendant's right of confrontation, of cross-examination, and of counsel.").
“[T]here is[, however,] no constitutional right to a perfect trial,” United States v. Alvarez,
755 F.2d 830, 859 (11th Cir. 1985) (quoting United States v. Ragsdale, 438 F.2d 21 (5th
Cir. 1971)), as “it is virtually impossible to shield jurors from every contact or influence
that might theoretically affect their vote. Smith v. Phillips, 455 U.S. 209, 217, 102 S. Ct.
940, 71 L. Ed. 2d 78 (1982). When a petitioner challenges the impartiality of a jury
resulting from juror exposure to extraneous information, he bears the burden of making a
colorable showing that the exposure actually occurred. United States v. Ayarza-Garcia,
819 F.2d 1043, 1051 (11th Cir. 1987).
To be sure, where "a colorable showing of extrinsic influence is made, a
trial court ... must make sufficient inquiries or conduct a hearing to
determine whether the influence was prejudicial." United States v. Barshov,
733 F.2d 842, 851 (11th Cir.1984) (citation omitted). But "there is no per
se rule requiring an inquiry in every instance. The duty to investigate arises
only when the party alleging misconduct makes an adequate showing of
extrinsic influence to overcome the presumption of jury impartiality." Id.
(citations omitted). Where allegations are "speculative or unsubstantiated,"
the "burden to investigate" does not arise. See United States v. Caldwell,
776 F.2d 989, 998 (11th Cir.1985). "In other words, there must be
something more than mere speculation." Barshov, 733 F.2d at 851.

74
119a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 75 of 105

PageID #: 7865

United States v. Alexander, 782 F.3d 1251, 1258 (11th Cir. 2015) (emphasis added).
Importantly, the burden of pleading is distinguishable from the burden of proof necessary
to establish a meritorious claim. See, e.g., Ex parte Hodges, 147 So. 3d 973, 976-977 (Ala.
2011) (The burden of pleading requites “a clear and specific statement of the grounds upon
which relief is sought”). ‘Once a petitioner has met his burden of pleading so as to avoid
summary disposition pursuant to Rule 32.7(d) Ala. R. Crim. P., he is then entitled an
opportunity to present evidence in order to satisfy his burden of proof.’ Id. (quoting Ford
v. State, 931 So. 2d 641, 644 (Ala. Crim. App. 2001); see Schriro v. Landrigan, 550 U.S.
465, 473 (2007) (“In deciding whether to grant an evidentiary hearing, a federal court must
consider whether such a hearing could enable an applicant to prove the petition’s factual
allegations, which, if true, would entitle the applicant to federal habeas relief; United States
v. Cuthel, 903 F.2d 1381, 1383 (11th Cir. 1990) (The party requesting a hearing must first
make an initial showing “[t]o justify a post-trial hearing involving the trial’s jurors. . . .”).
In support of this claim, Reeves presents the affidavit of Juror Ms. Blackmon. The
affidavit states in relevant part:
There was one member of the jury that was very controlling during our
deliberations. I do not remember this juror’s name, but this juror was female
with dark hair. The juror repeatedly stated to the other jurors that she was
afraid that Mr. Reeves’ family would “come after” the jurors after the trial.
This juror also repeatedly stated that she had discussed the case with her
husband and had read newspaper articles and watched television news
coverage of the case during the trial. This juror stated that she did not care
what the judge said regarding not talking about the case with others and not
learning about the case from media coverage.
After our initial deliberations, the jury vote 9-3 in favor of the death penalty.
There was a young woman on the jury who was very emotional and crying
after the vote. This young woman stated that she did not think that the codefendants’ testimony added up and that there were too many
inconsistencies in their testimony.
At this point, the controlling juror began to try to persuade the young juror
to change her vote to death. She repeatedly stated to the entire jury that the

75
120a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 76 of 105

PageID #: 7866

decision regarding a death sentence was really for the judge and not for the
jury, so it did not matter how they voted. The controlling juror then
suggested that she and the younger juror leave the jury room. She took the
young juror into the hallway outside the jury room. I believe they were
alone in the hallway because there was no guard and the courthouse was
mostly empty because it was a Saturday.
Immediately upon their return to the jury room, the controlling juror
suggested that the jury vote again. The result was 10-2 in favor of death,
and the young jury had changed her vote from life in prison without the
possibility of parole to the death penalty.
As soon as the vote was over, the controlling juror slammed her hands on
the table and exclaimed, “Ring the bell, let’s go home.” She also repeated
her statement that the decision regarding the death penalty was up to the
judge, not the jury.
(Doc. 23-15 at 15-16).
“[A]llegations of juror misconduct concerning outside influences must be fully
investigated to determine the scope of the misconduct and to ensure no prejudice results.”
United States v. Bradley, 644 F.3d 1213, 1276 (11th Cir. 2011). A petitioner, however, is
not entitled to an evidentiary hearing when his claims are merely “conclusory allegations
unsupported by specifics.” Blackledge v. Allison, 431 U.S. 63, 74, 97 S. Ct. 1621, 52 L.
Ed. 2d 136 (1977). To make an ‘adequate showing,’ a defendant “must show clear, strong,
substantial and incontrovertible evidence . . . that a specific, nonspeculative impropriety
has occurred.” Cuthel, 903 F.2d at 1383 (internal quotations omitted) (quoting United
States v. Ianniello, 866 F.2d 540, 543 (2d Cir. 1989)). The duty to investigate juror
misconduct has been described by the Eleventh Circuit as existing on a spectrum. United
States v. Caldwell, 776 F.2d 989, 998 (11th Cir. 1985). The duty to investigate is at its
nadir when the allegations are speculative or unsubstantiated. Id. (“The more speculative
or unsubstantiated the allegation of misconduct, the less the burden to investigate.”).
Conversely, the duty to investigate reaches its zenith the more certain the allegations. Id.
(“At one end of the spectrum the cases focus on the certainty that some impropriety has

76
121a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 77 of 105

PageID #: 7867

occurred.”). In sum, as the certainty of potential jury contamination increases so too does
the duty to investigate. The evidence for Reeves’s claim surely rests on the lower end of
this spectrum.
Alabama requires that “[e]ach claim in the [Rule 32] petition must contain a clear
and specific statement of the grounds upon which relief is sought, including full disclosure
of the factual basis of those grounds. A bare allegation that a constitutional right has been
violated and mere conclusions of law shall not be sufficient to warrant any further
proceedings.” Ala. R. Crim. P. Rule 32.6(b) (emphasis added). “An evidentiary hearing
on a [Rule 32] petition is required only if the petition is ‘meritorious on its face.’” Boyd v.
State, 913 So.2d 1113, 1125 (Ala. Crim. App. 2003) (quoting Ex parte Boatwright, 471 So.
2d 1257 (Ala. Crim. App. 1985) (alteration in original). Stated another way, the petitioner
must allege facts in the pleading, which if true, entitle a petitioner to relief. Id. "'Where a
simple reading of the petition for post-conviction relief shows that, assuming every
allegation of the petition to be true, it is obviously without merit or is precluded, the circuit
court [may] summarily dismiss that petition.'" Id. at 1126 (quoting Tatum v. State, 607 So.
2d 383, 384 (Ala. Crim. App. 1992)).
Taking the allegations of Reeves’s Rule 32 petition as true, Reeves’s pleading lacks
sufficient facts to warrant a hearing. Reeves’s failure to plead the name of the juror alleged
to have engaged in the misconduct35, coupled with the failure to disclose the subject of the
extraneous information that Juror Jane Doe acquired from the media coverage36 or from

Although Reeves contends he has sufficiently identified characteristics of this juror,
the Court finds the facts that the juror was “a female with dark hair” to be demonstrably
indistinct and, therefore, insufficient to identify the juror. (Doc. 23-15 at 15).
36
Where a juror or jury has been exposed to media coverage, there is no presumed
prejudice until “it is shown [that] such information was disclosed in the jury room.” United
States v. Gaffney, 676 F. Supp. 1544, 1551 (11th Cir. 1987). Even then, it may be
demonstrated that the extrinsic evidence was not prejudicial. See United States v. Bolinger,
35

77
122a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 78 of 105

PageID #: 7868

conversations with her husband (or even if such information was shared with the other
jurors), supports a finding of an insufficient pleading pursuant to 32.6(b). Accord., Hyde
v. State, 950 So. 2d 344, 356 (ala. Crim. App. 2006) (“The full factual basis for the claim
must be included in the petition itself.”). The absence of details plead regarding the
extrinsic influence creates an unfillable void for the court in determining the nature of what
reached the jury or may have influenced the verdict vote. Reeves’s blanket assertions are
impossible for the State to defend against. See Brown v. State, 807 So. 2d 1, 5-7 (Ala.
Crim. App. 1999) (Pleading is insufficient pursuant to 32.6(b) where petitioner makes a
“blanket assertions that jurors failed to answer questions” and does “not identify specific
questions or jurors”); see also Bryant v. State, 181 So. 3d 1087 (Ala. Crim. App. 2011)
(bare allegations that extraneous information coerced reluctant jurors to vote for death was
insufficient to satisfy pleading requirements of 32.3 and 32.6(b)); Stallworth v. State, 171
So. 3d 53 (Ala. Crim. App. 2013) (insufficiently pleaded due to failure to identify juror);
Mashburn v. State, 148 So. 3d 1094 (Ala. Crim. App. 2013) (summary dismissal for bare
assertion that “a majority” of the venire had heard about the case but failed to identify a
single juror that had read or heard about the case); Williams v. Alabama, 2010 U.S. Dist.
LEXIS 51850 (N.D. Ala. April 12, 2012) (summary dismissal upheld for failure to state
facts to support claim, like which juror was untruthful, . . .); Woods v. State, 221 So. 3d
1125 (Ala. Crim. App. 2016) (finding failure to plead adequately where Woods vaguely

837 F.2d 436 (11th Cir., cert. denied, 486 U.S. 1009, 108 S. Ct. 1737, 100 L. Ed.2d 200
(1988) (juror’s reading of a newspaper article containing information that had been
suppressed as evidence was not prejudicial to the verdict considering the weight of
evidence produced at trial against the defendant); United States v. Guida, 792 F.2d 1087,
1094 (11th Cir. 1986); (no prejudice in where extraneous information was merely
duplicative of trial evidence); but cf., United States v. Williams, 568 F.2d 464 (5th Cir.
1978) (several jurors’ hearing television report that defendant had previously been
convicted of same offenses was prejudicial).

78
123a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 79 of 105

PageID #: 7869

alleged “all of the jurors” were exposed to pretrial publicity); United States v. Gaffney, 676
F. Supp. 1544, 1551 (11th Cir. 1987) (“As a threshold matter, defendants must establish
that extraneous material did in fact make its way into the jury room.).
Additionally, Reeves’s remaining claims, that Juror Jane Doe improperly
communicated with the jury, influencing the verdict, fall under the general exclusionary
provision of Ala. R. Evid. 606(b), as the claims do not involve extrinsic or outside
information reaching the jury. Accord., Avarza-Garcia, 819 F.2d at 1051 (“[p]ost-verdict
inquiries into the existence of impermissible extraneous influences on a jury's deliberations
are allowed under appropriate circumstances, but inquiries that seek to probe the mental
processes of jurors are impermissible.”). “A general rule has evolved to give substantial
protection to verdict finality and to assure jurors that, once their verdict has been entered,
it will not later be called into question based on the comments or conclusions they
expressed during deliberations.” Pena-Rodriguez v. Colorado, 137 S. Ct. 855, 861, (2017)
(examining the history of the “no-impeachment rule”). This “near-universal and firmly
established common-law rule in the United States flatly prohibit[s] the admission of juror
testimony to impeach a jury verdict.” Tanner v. United States, 483 U.S. 107,]117, 107 S.
Ct. 2739, 97 L. Ed. 2d 90 (1987).
Courts recognize few exceptions to this common-law rule and allow juror
testimony on the jury's activities only in situations in which an extraneous
influence been shown. Id. "In situations that did not fall into this exception
for external influence, however, the [Supreme] Court [has] adhered to the
common-law rule against admitting juror testimony to impeach a verdict."
Id. On more than one occasion, the Supreme Court has considered and
affirmed the wisdom of this approach and in so doing has discussed the
numerous and substantial policy considerations supporting this approach.
See, e.g., Tanner, 483 U.S. at 117-21 (collecting cases). Indeed, the
Eleventh Circuit and the Supreme Court have repeatedly found that district
courts did not abuse their discretion in denying motions for new trial or in
rejecting defendants' demands for the examination of jurors predicated on

79
124a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 80 of 105

PageID #: 7870

arguments of a variety of types of juror misconduct not encompassing
external influence on the jury.
United States v. Siegelman, 467 F. Supp. 2d 1253, 1270 (M.D. Ala. 2006). This commonlaw rule is supported by Alabama statutory law:
Inquiry into validity of verdict or indictment. Upon an inquiry into the
validity of a verdict or indictment, a juror may not testify in impeachment
of the verdict or indictment as to any matter or statement occurring during
the course of the jury's deliberations or to the effect of anything upon that
or any other juror's mind or emotions as influencing the juror to assent to or
dissent from the verdict or indictment or concerning the juror's mental
processes in connection therewith, except that a juror may testify on the
question whether extraneous prejudicial information was improperly
brought to the jury's attention or whether any outside influence was
improperly brought to bear upon any juror. Nor may a juror's affidavit or
evidence of any statement by the juror concerning a matter about which the
juror would be precluded from testifying be received for these purposes.
Nothing herein precludes a juror from testifying in support of a verdict or
indictment.
Ala. R. Evid. Rule 606(b), and federal statutory law:
(b) Inquiry into validity of verdict or indictment.
(1) Prohibited Testimony or Other Evidence. During an inquiry into the
validity of a verdict or indictment, a juror may not testify about any
statement made or incident that occurred during the jury's deliberations; the
effect of anything on that juror’s or another juror’s vote; or any juror’s
mental processes concerning the verdict or indictment. The court may not
receive a juror’s affidavit or evidence of a juror’s statement on these matters.
(2) Exceptions. A juror may testify about whether:
(A) extraneous prejudicial information was improperly brought to
the jury's attention;
(B)
an outside influence was improperly brought to bear upon
any juror; or
(C)
a mistake was made in entering the verdict on the verdict
form.
Fed. R. Evid. 606(b).37

37

Rule 606(b) applies to § 2254 proceedings pursuant to Fed. R. Evid. 1101(e).
80
125a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 81 of 105

PageID #: 7871

In his petition, Reeves claims that Juror Jane Doe stated to the jury that Reeves’s
family “would come after the jurors after the trial” and that “the decision to impose the
death penalty truly belonged to the judge rather than the jury”. (Doc. 24 at 68. Reeves
contends that these comments injected unfounded speculation into the jury’s deliberations.
However, he fails to plead or allege that the comments were made based on outside
influence or extrinsic information.

Therefore, Reeves’s allegations are inadmissible

pursuant to Rule 606(b). Likewise, Reeves essentially pleads that Juror Jane Doe coerced
a “younger juror” into changing her vote, resulting in the verdict vote change to 10-2, in
favor of the death penalty, but he fails to allege that any extraneous information was used
to sway the vote. Therefore, Reeves has failed to establish that his claims meet an
exception to the firm rule that “a juror may not testify in impeachment of the verdict or
indictment as to any matter or statement occurring during the course of the jury's
deliberations or to the effect of anything upon that or any other juror's mind or emotions as
influencing the juror to assent to or dissent from the verdict”, and he has failed to
sufficiently plead a claim for relief. Ala. R. Evid. Rule 606(b). See also, Sharrief v.
Gerlach, 798 So.2d 646, 652 (Ala. 2001) (affidavits containing accounts of jurors’
discussions did not fall under the extraneous information exception); United States v.
Campbell, 221 App. D.C. 367, 684 F.2d 141, 151 (D.C. Cir. 1982) (jury's verdict will not
be upset on basis of juror's post-trial report of jury deliberations unless extraneous influence
is shown; evidence of discussion among jurors, intimidation of one juror by another, and
other intra-jury influences on the verdict are not competent to impeach the verdict.); United
States v. Norton, 867 F.2d 1354, 1366 (11th Cir. 1989) (noting that "alleged harassment or
intimidation of one juror by another would not be competent evidence to impeach the guilty
verdict"); United States v. Barber, 668 F.2d 778, 786 (4th Cir. 1982) (no basis to impeach

81
126a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 82 of 105

PageID #: 7872

verdict where juror claimed that foreman "scared [her] to death"); United States v. Bassler,
651 F.2d 600, 602 (8th Cir. 1981) (“Intrinsic influences include discussions and even
intimidation or harassment among jurors", and intrinsic influences are not competent to
impeach verdict). Consequently, Reeves’s juror misconduct claims related to Juror Jane
Doe’s comments to the jury are excluded from review pursuant to Rule 606(b) as they do
not involve extrinsic communications or information affecting the jury’s verdict.
Accordingly, the Alabama Court of Criminal Appeals’ decision was not contrary to, or an
unreasonable application of, clearly established federal law, and the claim is denied.
To the extent Reeves seeks an evidentiary hearing in this Court, such relief is denied
pursuant to 28 U.S.C. § 2254(e). According to §2254, the factual determinations made by
a State court shall be presumed to be correct, and the failure to develop the factual basis of
a claim in State court proceedings will not entitle petitioner to an evidentiary hearing,
unless the claim relies on “a new rule of constitutional law, made retroactive to cases on
collateral review by the Supreme Court, that was previously unavailable” or “a factual
predicate that could not have been previously discovered through the exercise of due
diligence.” §2254(e)(A)(i) and (ii). Reeves has failed to overcome this threshold and is,
thus, barred from a hearing in this Court.
5. Whether the State of Alabama’s Method of Execution is Unconstitutional.
In his petition, Reeves argues that the State of Alabama’s undisclosed procedures
for administering lethal injection, including the risk of improper sedation, pose a
substantial risk of inflicting unnecessary pain in violation of the Eighth Amendment.
Respondent asserts that this claim: (1) is outside the Court’s habeas jurisdiction and is
properly raised pursuant to 42 U.S.C. § 1983; (2) lacks merit, and (3) was previously
reviewed and denied by the Alabama Court of Criminal Appeals.

82
127a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 83 of 105

PageID #: 7873

"Federal law opens two main avenues to relief on complaints related to
imprisonment: a petition for habeas corpus, 28 U.S.C. § 2254, and a
complaint under the Civil Rights Act of 1871, Rev. Stat. § 1979, as amended,
42 U.S.C. § 1983. Challenges to the validity of any confinement or to
particulars affecting its duration are the province of habeas corpus."
Muhammad v. Close, 540 U.S. 749, 750, 124 S. Ct. 1303, 158 L. Ed. 2d 32
(2004) (per curiam) (citing Preiser, 411 U.S. at 500, 93 S. Ct. 1827, 36 L.
Ed. 2d 439). An inmate's challenge to the circumstances of his confinement,
however, may be brought under § 1983. 540 U.S., at 750, 124 S. Ct. 1303,
158 L. Ed. 2d 32.
Hill v. McDonough, 547 U.S. 573, 579, 126 S. Ct. 2096, 2101, 165 L. Ed. 2d 44, 51 (2006).
The Eleventh Circuit has explained that "[t]he line of demarcation between a § 1983
civil rights action and a § 2254 habeas claim is based on the effect of the claim on the
inmate's conviction and/or sentence." Hutcherson v. Riley, 468 F.3d 750, 754 (11th Cir.
2006). "When an inmate challenges the 'circumstances of his confinement' but not the
validity of his conviction and/or sentence, then the claim is properly raised ... under §
1983." Id.; see also Nelson v. Campbell, 541 U.S. 637, 124 S. Ct. 2217, 158 L. Ed. 2d 924
(2004) (method-of-execution challenge was properly brought pursuant to § 1983 as success
of the claim would not prevent the State from executing inmate); Hill v. McDonough, 547
U.S. 573, 126 S. Ct. 2096, 165 L. Ed. 2d 44 (2006) (challenge to method-of-execution was
appropriately brought pursuant to § 1983 because success of the claim would not prevent
the State from executing inmate). By contrast, "[f]ederal habeas corpus law exists to
provide a prisoner an avenue to attack the fact or duration of physical imprisonment and to
obtain immediate or speedier release." Valle v. Secretary, Florida Dep't of Corrections,
654 F.3d 1266, 1267 (11th Cir. 2011); see also Heck v. Humphrey, 512 U.S. 477, 144 S.
Ct. 2364, 129 S. Ct. 2364, 129 L. Ed. 2d 383 (1994) (if success of claim would invalidate
one’s sentence, then the claim is only actionable through a writ of habeas corpus).
Reeves’s method-of-execution claim is not attacking the validity of his conviction
or death sentence. He is not challenging the fact or duration of his physical imprisonment

83
128a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 84 of 105

PageID #: 7874

by the State of Alabama and is not requesting immediate or speedier release. Rather,
Reeves is challenging the manner in which the State of Alabama intends to carry out that
sentence, which is plainly a circumstance of his confinement. For this reason, Claim 5 is
denied because it is not properly raised in a § 2254 petition.38
6. Whether Reeves’ Death Sentence Violates the Eighth Amendment
Reeves claims in his petition that the trial court’s instructions to the jury were
constitutionally deficient because they misled the jury about the importance of its
sentencing phase deliberation. (Doc. 24 at 73). Specifically, Reeves argues that the trial
court’s instructions to the jury regarding the “advisory” nature of its verdict were in
violation of the Eighth Amendment and Supreme Court precedent because it diminished
the jury’s sense of responsibility. (Id.).
Respondent answered the petition asserting that this claim is procedurally barred
from review because Reeves failed to raise the substantive claim at trial, on direct appeal,

In Hill v. McDonough, 547 U.S. 573, (2006), the Court concluded inmate’s
challenge to the adequacy of the first-drug in the lethal injection protocol was properly
brought pursuant to 42 U.S.C. § 1983. The Court distinguished claims seeking to
permanently enjoin the use of lethal injection, which may challenge the sentence itself,
from a question regarding the procedure used in carrying out a lethal injection. Hill, 547
U.S. at 579. Following the same reasoning, the Eleventh Circuit has deemed such
execution challenges as properly brought pursuant to 42 U.S.C. § 1983 rather than § 2254.
See Boyd v. Warden, Holman Corr. Facility, 856 F.3d 853, 856 (11th Cir. 2017) (citing
e.g., Jones v. Comm'r, Ga. Dep't of Corr., 811 F.3d 1288, 1295 (11th Cir.), cert. denied sub
nom. Jones v. Bryson, 136 S. Ct. 998, 194 L. Ed. 2d 16 (2016); Brooks v. Warden, 810
F.3d 812, 819 (11th Cir.), cert. denied sub nom. Brooks v. Dunn, 136 S. Ct. 979, 193 L. Ed.
2d 813 (2016); Arthur v. Comm'r, Ala. Dep't of Corr., 840 F.3d 1268 (11th Cir. 2016), cert
denied sub nom. Arthur v. Dunn, 137 S. Ct. 725, 197 L. Ed. 2d 225 (2017)); see also,
McNabb v. Comm’r Ala. Dep’t of Corr., 722 F.3d 1334, 1344 (11th Cir. 2013)(“A § 1983
lawsuit, not a habeas proceeding, is the proper way to challenge lethal injection
procedures.”) (internal citation omitted).
38

84
129a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 85 of 105

PageID #: 7875

in his amended Rule 32 petition, or on appeal from the denial of his Rule 32 petition. (Doc.
25 at 100). Reeves contends, however, that he “asserted – nearly verbatim – his standalone Eighth Amendment claim in his Rule 32 petition.” (Doc. 28 at 38-39).
A review of the record reveals that Reeves asserted the following related claims in
his Rule 32 petition:
(1) that the trial court denied Reeves a fair trial and appropriate sentencing
determination when it repeatedly commented and instructed the jury that its
sentence decision was only “a recommendation regarding the sentence that Mr.
Reeves would receive.” (Doc. 23-26 at 60-61),
(2) that the prosecution unconstitutionally diminished the jury’s sense of
responsibility for its sentencing verdict by referring to the jury’s verdict as a
“recommendation” in violation of the Fifth, Sixth, Eighth, and Fourteenth
Amendments to the constitution,
(3) that trial counsel’s failure to object to trial court’s instructions and
prosecution’s comments to jury regarding the jury’s sentencing verdict as being
merely “advisory” was constitutionally ineffective,
(4) that appellate counsel was ineffective because he failed to challenge “the trial
court’s charges that diminished the jury’s responsibility for its verdict” in
violation of the Fifth. Sixth, Eighth, and Fourteenth Amendment of the
constitution, and
(5) that Alabama’s statutory sentencing scheme violates the Fifth, Sixth, Eighth,
and Fourteenth Amendments to the constitution.
(Doc. 23-26 at 66-67; Vol. 26, JR-86, pp. 39, 45-46, 49-54).
As to the claims (1), (2), and (5), regarding Alabama’s capital sentencing scheme,
instructional errors of the trial court to the jury, and the prosecutor’s comments to the jury
regarding the advisory nature of its sentencing decision, the trial court stated that each
claim was “procedurally barred from post-conviction review because it could have been
but was not raised at Trial, and because it could have been but was not raised on direct
appeal.” (Doc. 23-16 at 162-63, 167; Vol. 16, JR-65, pp. 28-29).

85
130a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 86 of 105

PageID #: 7876

As to claims (3) and (4), regarding trial counsel’s failure to preserve alleged errors
for appellate review and appellate counsel’s failure to raise the same on appeal, the trial
court determined that such decision by counsel was “often a matter of trial strategy and is
presumed to be reasonable” and “[found] that [Reeves] failed to call trial counsel at the
Evidentiary Hearing, and further finds that [Reeves] has abandoned these claims for
ineffective assistance of counsel.” (Doc. 23-16 at 163).
The trial court also determined Reeves’s claim regarding appellate counsel was
without merit because “it was a correct statement of the law” to inform the jury that its
verdict was a recommendation. (Doc. 23-16 at 166). The trial court further maintained
that the substantive allegation was without merit as the law in Alabama is well established
“that informing jurors their penalty phase verdict is a recommendation, is not improper.
There is no impropriety in the trial court’s reference to the Jury that its sentencing verdict
is a recommendation.” (Doc. 23-16 at 165).
On appeal, Reeves claimed that his trial counsel was ineffective for failing to
preserve certain arguments for appeal, including:
(1) the instructional errors of the trial court to the jury,
(2) prosecution’s misconduct and improper arguments during the trial, and
(3) the unconstitutionality of Alabama’s sentencing scheme.
(Doc. 23-29 at 98-99). Similarly, Reeves argued that appellate counsel rendered ineffective
assistance by failing raise these same claims on appeal. (Id. at 100-102).
Identifying that Reeves challenged the constitutionality of Alabama’s sentencing
scheme before the trial court and asserted that appellate counsel was ineffective for failing
to raise this claim on direct appeal, the Alabama Court of Criminal Appeals noted that “[a]
substantive challenge to the constitutionality of a statute is not the same as a claim of

86
131a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 87 of 105

PageID #: 7877

ineffective assistance of counsel.” Reeves, 226 So. 3d at 749, n.16; (Doc. 23-31 at 85 n.16;
Vol. 31, JR-94, p. 84, n. 16).
The Court notes that Reeves presented the constitutionality of Alabama’s
sentencing claim in his Rule 32 petition, where the trial court denied the claim as
procedurally barred because it could have been but was not brought at trial or on direct
appeal. However, on appeal of his Rule 32, Reeves failed to raise the substantive claim,
arguing only that trial and appellate counsel were deficient in failing to preserve the claim
and appeal the claim, respectively. Consequently, issues of both procedural default and
exhaustion are implicated.
Pursuant to Rule 32.2(a), Ala. R. Crim. P., a Rule 32 petitioner "will not be given
relief under this rule based upon any ground . . . [w]hich could have been but was not raised
at trial," or "[w]hich could have been but was not raised on appeal," subject to an exception
that has no application here. Rule 32.2(a)(3) & (5), Ala.R.Crim.P. Alabama courts
routinely follow the procedural default doctrine of Rule 32.2. See Siebert v. Allen, 455
F.3d 1269, 1271 (11th Cir. 2006) (“[T]he Alabama statute of limitation in Rule 32.2 is
firmly established and regularly followed for purposes of applying the procedural default
doctrine.") (citing Hurth v. Mitchem, 400 F.3d 857, 862-63 (11th Cir. 2005) (holding
consistently with the earliest prior panel opinion that "Alabama's Rule 32.2(c) statute of
limitations is firmly established and regularly followed in the courts of that state")). “[I]t
is well established that federal courts will not review questions of federal law presented in
a habeas petition when the state court's decision rests upon a state-law ground that is
independent of the federal question and adequate to support the judgment." Williams v.
Alabama, 791 F.3d 1267, 1272-73 (11th Cir. 2015)(citation omitted); Conner v. Hall, 645
F.3d 1277, 1287 (11th Cir. 2011) ("a federal habeas court will not review a claim rejected

87
132a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 88 of 105

PageID #: 7878

by a state court if the decision of [the state] court rests on a state law ground that is
independent of the federal question and adequate to support the judgment"). If, however,
the state court's procedural ruling is not adequate to bar federal review, then the federal
habeas court must review the claim de novo, and is not confined to the state-court record.
See Williams, 791 F.3d at 1273. For a state procedural rule to bar federal review, the rule
must be “firmly established and regularly followed” by the state courts. Lee v. Karmna,
534 U.S. 362, 375, 122 S. Ct. 877, 151 L. Ed. 2d 820 (2002) (quoting James v. Kentucky,
466 U.S. 341, 348, 104 S. Ct. 1830, 80 L. Ed. 2d 346 (1984).
There are basically three circumstances in which an otherwise valid statelaw ground will not bar a federal habeas court from considering a
constitutional claim that was procedurally defaulted in state court: i.e., (i)
where the petitioner demonstrates that he had good "cause" for not
following the state procedural rule, and, that he was actually "prejudiced"
by the alleged constitutional violation; or (ii) where the state procedural rule
was not "firmly established and regularly followed"; or (iii) where failure
to consider the petitioner's claims will result in a "fundamental miscarriage
of justice." See Edwards v. Carpenter, 529 U.S. 446, 455, 120 S. Ct. 1587,
146 L. Ed. 2d 518 (2000) (Breyer, J., concurring); see also, e.g., Coleman,
501 U.S. at 749-50 (holding that a state procedural default "will bar federal
habeas review of the federal claim, unless the habeas petitioner can show
cause for the default and prejudice attributable thereto, or demonstrate that
failure to consider the federal claim will result in a fundamental miscarriage
of justice") (citations and internal quotation marks omitted); Murray v.
Carrier, 477 U.S. 478, 496, 106 S. Ct. 2639, 91 L. Ed. 2d 397 (1986)
("[W]here a constitutional violation has probably resulted in the conviction
of one who is actually innocent, a federal habeas court may grant the writ
even in the absence of a showing of cause for the procedural default.")
(alteration added); Smith v. Murray, 477 U.S. 527, 537, 106 S. Ct. 2661, 91
L. Ed. 2d 434 (1986) (same); Davis v. Terry, 465 F.3d 1249, 1252 n.4 (11th
Cir. 2006) ("It would be considered a fundamental miscarriage of justice if
'a constitutional violation has probably resulted in the conviction of one who
is actually innocent.'") (quoting Schlup v. Delo, 513 U.S. 298, 327, 115 S.
Ct. 851, 130 L. Ed. 2d 808 (1995) (in turn quoting Murray, 477 U.S. at
496)).
Jenkins v. Allen, 2016 U.S. Dist. LEXIS 116977, *37-38 (Ala. N.D., Aug. 31, 2016).

88
133a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 89 of 105

PageID #: 7879

Additionally, section 2254, as previously discussed, requires a habeas petitioner to
exhaust all available state law remedies prior to receiving federal review. “[T]o exhaust
state remedies fully the petitioner must make the state court aware that the claims asserted
present federal constitutional issues." Lucas v. Secretary, Dep't of Corrections, 682 F.3d
1342, 1352 (11th Cir. 2012) (citations omitted); see also Williams v. Allen, 542 F.3d 1326,
1345 (11th Cir. 2008) (to satisfy exhaustion requirement, "we do require that a petitioner
presented his claims to the state court such that a reasonable reader would understand each
claim's ... specific factual foundation") (citation omitted). It is not sufficient "that a
somewhat similar state-law claim was made." Kelley v. Secretary, Dep't of Corrections,
377 F.3d 1317, 1344-45 (11th Cir. 2004). What is necessary is that "the petitioner must
fairly present every issue raised in his federal petition to the state's highest court, either on
direct appeal or on collateral review." Powell v. Allen, 602 F.3d 1263, 1269 (11th Cir. 2010)
(citation and internal marks omitted). That said, "habeas petitioners are permitted to clarify
the arguments presented to the state courts on federal collateral review provided that those
arguments remain unchanged in substance." Kelley, 377 F.3d at 1344. Such clarifications
cannot alter the nature or legal theory of the claim. See, e.g., Pietri v. Florida Dep't of
Corrections, 641 F.3d 1276, 1289 (11th Cir. 2011) (affirming dismissal of unexhausted
claim of ineffectiveness of appellate counsel, which was separate and distinct from
substantive claim that petitioner had raised in state court).
Reeves’s Claim 6 was last reviewed by the Circuit Court on Reeves’s Rule 32
petition and was deemed procedurally barred; coupled with Reeves’s failure to assert the
same substantive claim in his appeal to the Alabama Court of Criminal Appeals, the Court
is thus barred from review of Reeves’s claim.39 See Boyd v. Commissioner, Alabama Dep’t.

39

Reeves makes no argument in attempt to overcome his procedural default or failure
89
134a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 90 of 105

PageID #: 7880

of Corrs., 697 F. 3d 1320, 1355 (11th Cir. 2012) (The Eleventh Circuit has “squarely held
that claims barred under Rule 32.2(a)(3) and (a)(5) are procedurally defaulted from federal
habeas review.” ) (citations omitted); O’Sullivan v. Boerckel, 526 U.S. 838, 842-43, 119 S.
Ct. 1728, 144 L. Ed. 2d 1 (1999) (holding unexhausted claim was procedurally defaulted
pursuant to §2254(c) and barred from federal habeas review). Accordingly, Reeves’s claim
is due to be dismissed as it is unexhausted and procedurally barred.
In the alternative, Reeves’s claim is without merit.

to raise the claim in his appeal, rather he contends the claim was fully presented in the state
courts. Specifically, Reeves asserts that he raised the claim in his appeal to the Court of
Criminal Appeals, citing his brief at Vol. 29, JR-90, pp. 86-87. (Doc. 23-29 at 100-101).
A review of Reeves’s appeal indicates, however, that the cited portion is in fact under
Section B., 5., Appellate Counsel was Deficient in Failing to Raise Claims on Direct
Appeal. Without a showing of “cause and prejudice”, federal review is precluded.
"[A] habeas petitioner may overcome a procedural default if he can show adequate
cause and actual prejudice, or, alternatively, if the failure to consider the merits of his claim
would result in a fundamental miscarriage of justice." Borden v. Allen, 646 F.3d 785, 808
n.26 (11th Cir. 2011); see also Bishop v. Warden, GDCP, 726 F.3d 1243, 1258 (11th Cir.
2013). "As a general matter, 'cause' for procedural default exists if the prisoner can show
that some objective factor external to the defense impeded counsel's efforts to comply with
the State's procedural rule." Bishop, 726 F.3d at 1258 (citations and internal quotation
marks omitted). While ineffective assistance of counsel can constitute cause, McCleskey
v. Zant, 499 U.S. 467, 493-94, 111 S. Ct. 1454, 113 L.Ed.2d 517 (1991) ("constitutionally
ineffective assistance of counsel is cause"), Reeves must also show prejudice. "To
establish 'prejudice,' a petitioner must show that there is at least a reasonable probability
that the result of the proceeding would have been different." Spencer v. Sec'y, 609 F.3d
1170, 1180 (11th Cir. 2010) (citation omitted); see also Lucas v. Warden, Georgia
Diagnostic and Classification Prison, 771 F.3d 785, 801 (11th Cir. 2014) ("For prejudice,
Lucas must demonstrate a reasonable probability that his conviction or sentence would
have been different ...."). As an alternative to showing cause and prejudice, a prisoner may
overcome a procedural default by showing a fundamental miscarriage of justice. "For a
state prisoner to establish a fundamental miscarriage of justice, he must prove that he is
innocent." Spencer v. United States, 773 F.3d 1132, 1139 (11th Cir. 2014) (citations
omitted).
Notably, Reeves makes no argument that he is innocent and the Court’s
determination that Reeves’s claim lacks merit prevents him from establishing prejudice.

90
135a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 91 of 105

PageID #: 7881

A review of the trial transcript, namely the penalty phase, is replete with references
to the jury’s verdict as a recommendation or advisory. 40 According to Reeves, these
instructions and comments mislead the jury as to its role in the sentencing process and
violated his rights under the Fifth, Sixth, Eighth, and Fourteenth Amendments and the
precedent of Caldwell, Ring, and Hurst. In Caldwell v. Mississippi, 472 U.S. 320, 105 S.
Ct. 2633, 86 L. Ed. 2d 231 (1985), the Court held the capital sentence was invalid when
the sentencing jury was lead to believe that the responsibility for determining the
appropriate of a death sentence rested with the appellate court’s later review instead of with
the jury. In Ring v. Arizona, 536 U.S. 584, 589 (2002) the Court held the aggravating factor
necessary for sentencing must be established by jury. And in Hurst v. Florida, 577 U.S. __,
136 S. Ct. 616, 622 (2016), the Court held Florida’s capital-sentencing scheme was
unconstitutional because it authorized a sentence of death based on a finding by the trial
judge, rather than by the jury, that an aggravating circumstance existed. Reeves’s claim
focuses primarily on the holding in Caldwell v. Mississippi.
In Caldwell, the Supreme Court “conclude[d] that it is constitutionally
impermissible to rest a death sentence on a determination made by a sentencer who has
been led to believe that the responsibility for determining the appropriateness of the
defendant's death rests elsewhere.” Caldwell v. Mississippi, 472 U.S. 320, 328-329, 105 S.
Ct. 2633, 2639, 86 L. Ed. 2d 231, 239 (1985). The jury in Caldwell was instructed by the
prosecution at trial that their decision was “not the final decision” and that their decision
was automatically reviewable by the Supreme Court. Id. at 325-26. The Court found that

During the penalty phase, the trial court instructed the jury no less than thirteen
times that its verdict was a recommendation. (See Doc. 23-8 at 195; Vol. 8, TR 1215,
1221-26)
40

91
136a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 92 of 105

PageID #: 7882

the prosecution’s argument was inaccurate because it was “misleading as to the nature of
the appellate court’s review and because it depicted the jury’s role in a way fundamentally
at odds with the role that a capital sentence must perform.” Id. at 336. The Court further
found the prosecution’s comments “urged the jurors to view themselves as taking only a
preliminary step toward the actual determination of the appropriateness of death - - a
determination which would eventually be made by others and for which the jury was not
responsible.” Id.
To establish a Caldwell violation, "a defendant necessarily must show that
the remarks to the jury improperly described the role assigned to the jury by
local law." Romano v. Oklahoma, 512 U.S. 1, 9, 114 S. Ct. 2004, 129 L. Ed.
2d 1 (1994) (quoting Dugger v. Adams, 489 U.S. 401, 407, 109 S. Ct. 1211,
103 L. Ed. 2d 435 (1989)). "The infirmity identified in Caldwell is simply
absent" in a case where "the jury was not affirmatively misled regarding its
role in the sentencing process." Romano, 512 U.S. at 9. In this case, Miller's
claim of Caldwell error must fail because the court correctly informed the
jurors of their advisory function under Alabama law.
Miller v. Dunn, No. 2:13-00154-KOB, U.S. Dist. LEXIS 46132, *209, 2017 WL 1164811
(Ala. N.D., March 29, 2017). Reeves fails to establish a Caldwell violation as the jury
instructions given comply with the Alabama sentencing statute and, thus, did not
“affirmatively mislead” the jury in its role nor “improperly describe the role assigned to
the jury.” Ramano, 512 U.S. at 9. The court provided the jury with instructions such as:
Now you’re going to render an advisory verdict recommending one of those
two sentences that the Defendant shall receive based on the law I give you
now and later and based on the evidence presented to you in this hearing. . . .
The final responsibility under the law for sentencing will be mine.”
(Doc. 23-8 at 87-88, TR 1107). And,
Now in the state of Alabama the jury merely makes the recommendation.
The ultimate decision is left to the Court as to whether or not the court will
follow the jury’s recommendation at a later phase in which the jury is not
involved.”

92
137a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 93 of 105

PageID #: 7883

(Doc. 23-4 at 41; Vol. 4, JR-8, TR 173). Such instructions correctly state the sentencing
law of Alabama which refers to the jury’s verdict as a “recommendation”. See ALA. CODE
§ 13A-5-46 (1975) (defining the role of “the jury to return a verdict recommending a
sentence”). Notably, until 2017 the statute used the term “advisory verdict” in the place of
“verdict” throughout the majority of the statute. See id., amend. notes; see also Miller v.
Dunn, 2017 U.S. Dist. LEXIS at *209-210, 2017 WL 1164811 (N.D. Ala., S.D., March 29,
2017) (explaining Alabama’s sentencing statute as “describing the jury's sentencing role as
‘advisory’ ten separate times”). None of the instructions or comments made during the
trial can be read as misleading the jury as to its responsibility to decide a verdict or diminish
the gravity of it. Indeed, the trial court instructed the jury:
The fact that the determination of whether ten or more of you can agree to
recommend a sentence of death or seven or more of you can agree to
recommend a sentence of life in prison without parole can be reached by a
single ballot should not influence you to act hastily or without due regard to
the seriousness of this proceeding. You should hear and consider the views
of your fellow jurors. Before you vote you should carefully weigh, sift, and
consider the evidence and all of it realizing that a human life is at stake.
(Doc. 23-8 at 204; Vol. 8, JR-28, p. 1224). “It is well established [in Alabama] that ‘the
comments of the prosecutor and the instructions of the trial court accurately informing the
jury of the extent of its sentencing authority and that its sentence verdict was ‘advisory’
and a ‘recommendation’ and that the trial court would make the final decision as to
sentence does not violate Caldwell.’” Taylor v. Culliver, No. 4:09-cv-00251-KOB-TMP,
2012 U.S. Dist. LEXIS 1381021, *293, 2012 WL 4479151 (N.D. Ala., M.D., Sept. 26,
2012) (citing Martin v. State, 548 So.2d 488, 494 (Ala. Crim. App.), affirmed, 548 So.2d
496 (Ala. 1988), cert. denied, 493 U.S. 970, 110 S. Ct. 419, 107 L. Ed. 2d 383 (1989);
White v. State, 587 So.2d 1218 (Ala. Crim. App. 1990), affirmed, 587 So.2d 1236 (Ala.
1991); cert. denied, 502 U.S. 1076, 112 S. Ct. 979, 117 L. Ed. 2d 142 (1992); Kuenzel v.

93
138a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 94 of 105

PageID #: 7884

State, 577 So.2d 474 (Ala. Crim. App. 1990), affirmed, 577 So.2d 531 (Ala. 1991), cert.
denied, 502 U.S. 886, 112 S. Ct. 242, 116 L. Ed. 2d 197 (1991)).
Accordingly, the court’s instruction and the prosecution’s comments were not
misleading in violation of Caldwell nor the Eighth Amendment. See also, Phillips v. State,
2018 Ala. LEXIS 105 (prosecutor’s statements nor trial court’s instructions improperly
described jury’s role); Doster v. State, 72 So. 3d 50 (Ala. Crim. App. 2010) (trial court did
not diminish jury’s role in sentencing by referring to its verdict as a recommendation), cert.
denied by, 132 S. Ct. 760, 181 L. Ed. 2d 490 (2011); Miller v. Dunn, 2:13-00154-KOB,
2017 U.S. Dist. LEXIS 46132, 2017 WL 1164811 (N.D. Ala., S.D., March 29, 2017)
(finding proper the court’s instructions to jury that sentencing verdict was “advisory” under
Alabama law). Thus, this claim lacks merit.

7. Whether Death Sentence Violates the Sixth Amendment.
In his petition, Reeves claims that his death sentence violates the Supreme Court’s
holding, in Hurst v. Florida and Ring v. Arizona, that allowing a judge to make the factual
findings necessary to support a death sentence violates the Sixth Amendment. (Doc. 24 at
74). Specifically, Reeves argues that “although the jury found Mr. Reeves guilty of capital
murder, he was not “death eligible” unless and until one or more aggravating circumstances
were found by the court to have been proven beyond a reasonable doubt” and that the jury
verdict form does not allow the jury to specify the aggravating factor(s) found. (Doc. 24
at 78). This claim was presented in Reeves’s Rule 32 petition, and the state court found it
was procedurally barred from post-conviction review because it could have been and was
not raised at trial or on direct appeal. (Doc. 23-16 at 167; Vol. 16, JR-65, p. 33).
Affirming the Circuit Court’s denial, the Alabama Court of Criminal Appeals stated:

94
139a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 95 of 105

PageID #: 7885

In affirming the circuit court's judgment, we recognize that the United States
Supreme Court recently vacated this Court's judgment in Johnson v. State,
[Ms. CR-10-1606, May 20, 2014] So. 3d , 2014 Ala. Crim. App. LEXIS
35 (Ala. Crim. App. 2014), a case in which the death penalty had been
imposed, and remanded the cause for further consideration in light of its
opinion in Hurst v. Florida, 577 U.S. , 136 S. Ct. 616, 193 L. Ed. 2d 504
(2016). See Johnson v. Alabama, ___ U.S. ___, 136 S. Ct. 1837, 194 L. Ed.
2d 828, 2016 U.S. LEXIS 3041 (2016). In Hurst, the United States Supreme
Court held unconstitutional Florida's capital-sentencing scheme on the
ground that it violated its holding in Ring v. Arizona, 536 U.S. 584, 122 S.
Ct. 2428, 153 L. Ed. 2d 556 (2002), because Florida's statute authorized a
sentence of death based on a finding by the trial judge, rather than by the
jury, that an aggravating circumstance existed. The impact, if any, of Hurst
on Alabama's capital-sentencing scheme has not yet been addressed by this
Court or by the Alabama Supreme Court. We need not address it here
because Hurst is not applicable in this case.
The United States Supreme Court's opinion in Hurst was based solely on its
previous opinion in Ring, an opinion the United States Supreme Court held
did not apply retroactively on collateral review to cases that were already
final when the decision was announced. See Schriro v. Summerlin, 542 U.S.
348, 124 S. Ct. 2519, 159 L. Ed. 2d 442 (2004). Because Ring does not
apply retroactively on collateral review, it follows that Hurst also does not
apply retroactively on collateral review. Rather, Hurst applies only to cases
not yet final when that opinion was released, such as Johnson, supra, a case
that was still on direct appeal (specifically, pending certiorari review in the
United States Supreme Court) when Hurst was released. Reeves's case,
however, was final in 2001, 15 years before the opinion in Hurst was
released. Therefore, Hurst is not applicable here.
Based on the foregoing, the judgment of the circuit court is affirmed.
Reeves, 226 So. 3d at 756-57; (Doc. 23-31 at 104-105; Vol. 31, JR-94, p. 103-104).
The Supreme Court has declared that "Ring announced a new procedural rule that
does not apply retroactively to cases already final on direct review." Schriro v. Summerlin,
542 U.S. 348, 358, 124 S. Ct. 2519, 159 L.Ed.2d 442 (2004). The Ring opinion was handed
down on June 24, 2002. By contrast, the U.S. Supreme Court denied Reeves’s petition for
writ of certiorari, effectively concluding his direct appeals and rendering his conviction

95
140a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 96 of 105

PageID #: 7886

and sentence final on direct review, nearly seven months earlier, on November 13, 2001.41
(Doc. 23-11 at 136; Vol. 11, JR-41.) Thus, as a matter of law, the new procedural rule
announced in Ring has no retroactive application to Reeves's case, which was already final
on direct review when Ring was announced. See, e.g., Battle v. United States, 419 F.3d
1292, 1301 (11th Cir. 2005) ("Ring was decided after Battle's case was final on direct
review. And Ring announced a new procedural rule that does not apply retroactively to
cases already final on direct review. ... Thus, Ring — even if it otherwise extends to the
facts of a case like this one — could not invalidate Battle's conviction and sentence now.");
Sibley v. Culliver, 377 F.3d 1196, 1208 (11th Cir. 2004) ("[A] petitioner may not ... bring
a habeas attack based on Ring violations that occurred before Ring was handed down.").
Accordingly, the Court finds no error in the Alabama courts' rejection of Reeves's Ring
claim on non-retroactivity grounds.42

For purposes of determining retroactivity, “[a] state conviction and sentence
become final . . . when the availability of direct appeal to the state courts has been exhausted
and the time for filing a petition for a writ of certiorari has elapsed or a timely filed petition
has been finally denied.” Glock v. Singletary, 65 F. 3d 878, 838 (11th Cir. 1995) (citation
omitted).
42
The specific legal effect of Ring was to overrule prior Supreme Court jurisprudence
that "allows a sentencing judge, sitting without a jury, to find an aggravating circumstance
necessary for imposition of the death penalty." Id. at 609. "The holding of Ring is narrow:
the Sixth Amendment's guarantee of jury trials requires that the finding of an aggravating
circumstance that is necessary to imposition of the death penalty must be found by a jury."
Lee v. Commissioner, Alabama Dep't of Corrections, 726 F.3d 1172, 1198 (11th Cir 2013).
Indeed, the Ring Court made clear that it was not deciding whether the Sixth Amendment
(1) required a jury to make findings as to mitigating circumstances, (2) required the jury to
make the ultimate determination as to whether to impose a death sentence, or (3) forbade
the state court from reweighing aggravating and mitigating circumstances. Ring, 536 U.S.
at 597 n.4.
In Reeves's case, by its guilty verdict, the jury found one aggravating circumstance
beyond a reasonable doubt, "[t]he capital offense was committed while the defendant was
engaged or was an accomplice in the commission of ... robbery …" Ala. Code § 13A-549(4) (Doc. 23-2 at 6-7, 23; Vol. 2, JR-2, TR 219-220, JR-3, TR 236). Alabama law
dictates that “any aggravating circumstance which the verdict convicting the defendant
establishes was proven beyond a reasonable doubt at trial shall be considered as proven
beyond a reasonable doubt for purposes of the sentencing hearing." Ala. Code § 13A-5-45;
41

96
141a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 97 of 105

PageID #: 7887

On January 12, 2016,43 the Supreme Court decided Hurst v. Florida, 136 S. Ct. 616,
193 L. Ed. 2d 504, 193 L.Ed.3d 504 (2016). In Hurst, the Court applied Ring to Florida's
capital sentencing scheme and found it to be unconstitutional. The Hurst opinion stressed
that "[l]ike Arizona at the time of Ring, Florida does not require the jury to make the critical
findings necessary to impose the death penalty. Rather, Florida requires a judge to find
these facts." 136 S. Ct. at 622. Therefore, "[i]n light of Ring, we hold that Hurst's sentence
violates the Sixth Amendment." Id. The Court reasoned:
"The Sixth Amendment protects a defendant's right to an impartial jury.
This right required Florida to base Timothy Hurst's death sentence on a
jury's verdict, not a judge's factfinding. Florida's sentencing scheme, which
required the judge alone to find the existence of an aggravating
circumstance, is therefore unconstitutional."
Id. at 624 (emphasis added).
The Eleventh Circuit and multiple district court opinions in this Circuit have found,
Hurst is not retroactively applicable on collateral review. 44 See Lambrix v. Secretary,

see also Lee, 726 F.3d at 1198 ("Nothing in Ring — or any other Supreme Court decision
— forbids the use of an aggravating circumstance implicit in a jury's verdict."). Because
the Alabama capital-sentencing scheme requires the jury to find the existence of at least
one aggravating circumstance as a prerequisite to a death sentence, and because the jury in
this case actually found Reeves guilty beyond a reasonable doubt of Robbery in the first
degree, the state court did not err in finding that Reeves has no viable claim under Ring
even if that decision applied to him (which it does not).
43
The Alabama Court of Appeals denied Reeves’s Rule 32 petition on June 10, 2016.
(Vol. 30, JR-94).
The framework set forth in Teague v. Lane, 489 U.S. 288, 109 S. Ct. 1060, 103
L.Ed.2d 334 (1989) establishes why Hurst cannot be applied retroactively. "Under the
Teague framework, an old rule applies both on direct and collateral review, but a new rule
is generally applicable only to cases that are still on direct review," with two narrow
exceptions. Id. Those exceptions are that "[n]ew substantive rules generally apply
retroactively" and that retroactive effect is given to a "small set of watershed rules of
criminal procedure implicating the fundamental fairness and accuracy of the
criminal proceeding." Schriro v. Summerlin, 542 U.S. 348, 351-52, 124 S. Ct. 2519, 159
L.Ed.2d 442 (2004) (citations and internal quotation marks omitted). Hurst did not
announce a "new rule" at all, but simply applied Ring v. Arizona to Florida's capital
sentencing statute. See Hurst, 136 S. Ct. at 622 ("In light of Ring, we hold that Hurst's
44

97
142a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 98 of 105

PageID #: 7888

Florida Dep't of Corrections, 851 F.3d 1158, 1165 n.2 (11th Cir. 2017) ("Lambrix's two
capital convictions and death sentences became final in 1986, sixteen years before Ring
was decided. ... [T]here is no Hurst claim, much less a viable one, because under federal
law Hurst, like Ring, is not retroactively applicable on collateral review."); Miller v. Dunn,
2:13-00154-KOB, 2017 U.S. Dist. LEXIS 46132, 2017 WL 1164811, *72 (N.D. Ala. Mar.
29, 2017) ("Hurst does not apply retroactively to Miller, because his conviction was final
before the decision in Hurst was announced. ... Hurst, which applied Ring in Florida, is not
retroactive."); Smith v. Dunn, 2:13-CV-00557-RDP, 2017 U.S. Dist. LEXIS 45274, 2017
WL 1150618, *69 (N.D. Ala. Mar. 28, 2017) ("Hurst did not articulate a new rule of law;
rather, it applied Ring's analysis to Florida's sentencing scheme," such that the retroactivity
of Hurst tracks that of Ring). Thus, the Court finds no error in the Alabama courts' rejection
of Reeves's Hurst claim on non-retroactivity grounds
Furthermore, Hurst, if applied, to Reeves's § 2254 Petition, would not alter the
result of Reeves’s Claim 7, which appears to stretch the holding of Hurst. To be clear,
Hurst did not say that any capital scheme vesting the final sentencing decision in a judge,
rather than a jury, is unconstitutional. Hurst did not make sweeping pronouncements that
any system of judicial override is per se unconstitutional, nor did it hold that advisory
verdicts in the penalty phase of capital cases are impermissible. Instead, Hurst is properly
viewed as striking down one narrow feature of the Florida capital sentencing scheme - that
which "required the judge alone to find the existence of an aggravating circumstance."
Hurst, 136 S. Ct. at 624. To the extent that Reeves would read Hurst as standing for a

sentence violates the Sixth Amendment."). Because Hurst v. Florida is simply a
straightforward application of Ring, it does not announce a new rule of law; rather, its
retroactivity is tethered to Ring.

98
143a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 99 of 105

PageID #: 7889

broader proposition or a more sweeping denunciation of judicial-override provisions in
capital sentencing statutes, the Court finds such a construction to be unwarranted and
unsupported by the clear language of the opinion.
To the detriment of Reeves’s claim, the Alabama capital sentencing scheme under
which he was sentenced to death is materially different from the Florida statute at issue in
Hurst. In Alabama, unlike in Florida at the time of Hurst, a defendant is not death-eligible
unless a jury finds beyond a reasonable doubt the existence of an aggravating circumstance.
See In re Bohannon v. State, 222 So.3d 525, 534 (Ala. 2016) ("the finding required by
Hurst to be made by the jury, i.e., the existence of the aggravating factor that makes a
defendant death-eligible, is indeed made by the jury, not the judge, in Alabama"). Thus,
the portion of the Florida capital sentencing scheme deemed constitutionally objectionable
in Hurst is simply not present in Alabama. Multiple federal and state courts applying Hurst
to the Alabama scheme have so concluded.45

See, e.g., Dallas v. Dunn, 2017 U.S. Dist. LEXIS 109749, 2017 WL 3015690, *28
(M.D. Ala. July 14, 2017) ("What distinguishes Petitioner's trial from the constitutionally
defective capital murder trial[] in Hurst ... is the fact Petitioner's capital sentencing jury
made all the factual determinations at the guilt-innocence phase of Petitioner's trial
(unanimously and beyond a reasonable doubt) necessary to render Petitioner eligible for
the death penalty under Alabama law .... The jury's factual findings at the guilt-innocence
phase of Petitioner's capital murder trial rendered Petitioner eligible for the death penalty
within the meaning of the Supreme Court's Eighth Amendment jurisprudence."); Miller,
2017 U.S. Dist. LEXIS 46132, 2017 WL 1164811, at *72 ("even if Hurst were to apply
retroactively to Miller, this claim lacks merit" because "Alabama's capital sentencing
scheme complies with the Sixth Amendment"); Smith, 2017 U.S. Dist. LEXIS 45274, 2017
WL 1150618, at *70 ("Hurst found fault with Florida's scheme specifically because Florida
trial judges were tasked with independently finding the existence of aggravating
circumstances. ... However, consistent with Ring, Alabama juries must find an aggravating
circumstance beyond a reasonable doubt before a defendant is eligible to receive the death
penalty. Alabama's capital sentencing scheme does not run afoul of Ring ...."); Bohannon,
222 So.3d at 532 ("Ring and Hurst require only that the jury find the existence of the
aggravating factor that makes a defendant eligible for the death penalty — the plain
language in those cases requires nothing more and nothing less. ... [B]ecause in Alabama
a jury, not the judge, determines by a unanimous verdict the critical finding that an
aggravating circumstance exists beyond a reasonable doubt to make a defendant death45

99
144a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 100 of 105
7890

PageID #:

In Reeves’s case, the record reflects he was charged with murder in commission of
a robbery in the first degree, in violation of ALA. CODE § 13A-5-40(a)(2). (Doc. 23-1 at
10-11; Vol. 1, JR-1). This capital offense has a corresponding aggravating circumstance
in the Alabama statutory scheme. Indeed, the robbery-murder offense described at § 13A5-40(a)(2) pairs with the statutory aggravating circumstance that "[t]he capital offense was
committed while the defendant was engaged or was an accomplice in the commission of ...
robbery." ALA. CODE § 13A-5-49(4).

By the terms of the Alabama statute, "any

aggravating circumstance which the verdict convicting the defendant establishes was
proven beyond a reasonable doubt at trial shall be considered as proven beyond a
reasonable doubt for purposes of the sentence hearing." ALA. CODE § 13A-5-45(f). What
this means is that when Reeves's jury unanimously found beyond a reasonable doubt that
he was guilty of robbery-murder under § 13A-5-40(a)(2), they also unanimously found
beyond a reasonable doubt the aggravating circumstance set forth at § 13A-5-49(4). Those
jury findings as to the existence of aggravating circumstances are what made Reeves deatheligible in the Alabama capital sentencing scheme.46 Thus, there is no Hurst v. Florida

eligible, Alabama's capital-sentencing scheme does not violate the Sixth Amendment.").
46

The jury was specifically instructed by the trial court:
The law of this state provides a list of aggravating circumstances which may
be considered by the jury in deciding the punishment if the jury is convinced
beyond a reasonable doubt from the evidence that such aggravating
circumstance exists in the case. If the jury is not convinced beyond a
reasonable doubt based upon the evidence that one or more of the
aggravating circumstances exists, then the jury must sentence the Defendant
to life imprisonment without parole regardless of whether there are any
mitigating circumstances in the case.
...
Th[e] issue is for you to determine. The aggravating circumstance which
you may consider in this case if you find from the evidence that it has been
proven beyond a reasonable doubt is that the capital offense was committed
while the Defendant was engaged in the commission of robbery in the first
100
145a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 101 of 105
7891

PageID #:

problem here because Reeves's jury found the aggravating circumstance of robbery (which
rendered him eligible for the death penalty) beyond a reasonable doubt. See Evans v. Sec'y,
Fla. Dep't Of Corr., 699 F.3d 1249, 1260 (11th Cir. 2012) ("The jury's verdict necessarily
contained [findings than an aggravating circumstance existed] because the jury was
instructed that it could not recommend a death sentence unless it found beyond a reasonable
doubt that one or more aggravating circumstances existed . . . ."); United States v.
Townsend, 630 F.3d 1003, 1013-14 (11th Cir. 2011) (finding that because the court
instructed the jury that it must make a prerequisite finding as to the existence of an element
before convicting the defendant, the jury's guilty verdict necessarily meant the jurors found
the element).
In his petition, Reeves also generally attacks the constitutionality of Alabama’s
death penalty statute. Reeves maintains that “Alabama is now an outlier in that it gives a
judge the ultimate authority to sentence a defendant to death. Only in Alabama is a judge
permitted to impose a death sentence in spite of a contrary jury recommendation.” (Doc.
24 at 85). More than two decades ago, the Supreme Court rejected this argument, finding
that the Alabama capital sentencing scheme "adequately channels the sentencer's discretion
so as to prevent arbitrary results" because "[c]onsistent with established constitutional law,
Alabama has chosen to guide the sentencing decision by requiring the jury and judge to
weigh aggravating and mitigating circumstances." Harris v. Alabama, 513 U.S. 504, 511,
115 S. Ct. 1031, 130 L.Ed.2d 1004 (1995). In so finding, the Harris Court expressly held

degree. . . .
Your finding that the Defendant is guilty of capital murder entailed the
finding that the Defendant was guilty of robbery in the first degree. . . It is
for you to determine how much weight to give to that particular matter.
(Doc. 23-8 at 192-94; Vol. 8, JR-28, p. 1212-14).
101
146a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 102 of 105
7892

PageID #:

that "the Eighth Amendment does not require the State to define the weight the sentencing
judge must accord an advisory jury verdict." Id. at 512.
The Court finds no authority suggesting that the U.S. Supreme Court or the
Eleventh Circuit has changed course from the Harris holding. See Waldrop v. Comm’r,
Ala. Dep’t of Corr., 711 F. App’x 900 (11th Cir. 2017), cert. denied, 2018 U.S. LEXIS
5613 (U.S. , Oct. 1, 2018) (petitioner’s death sentence, imposed by judicial override over
the jury’s recommended sentence of life imprisonment, was upheld); Madison v. Comm'r,
677 F.3d 1333, 1336 (11th Cir. 2012) ("we find that Madison's claim that Alabama's
judicial override scheme violates the Eighth Amendment and the Due Process Clause of
the Fourteenth Amendment is foreclosed by precedent"); Brownlee v. Haley, 306 F.3d 1043,
1077 (11th Cir. 2002) (recognizing that "Alabama's capital sentencing system is consonant
with the Eighth Amendment even though it does not specify the precise weight that a judge
must give to the jury's verdict"); Hays v. State of Ala., 85 F.3d 1492, 1501 (11th Cir. 1996)
(rejecting petitioner's argument that "the Alabama sentencing scheme dividing the
responsibilities of jury and trial judge at the time he was sentenced was standardless," and
concluding that "there was adequate channeling of discretion" in the Alabama scheme).
Accordingly, this claim is foreclosed by binding precedent.
This claim is, thus, without merit.
V.

Certificate of Appealability
Pursuant to Rule 11(a) of the Rules Governing § 2254 Cases, "[t]he district court

must issue or deny a certificate of appealability when it enters a final order adverse to the
applicant." Rule 11(a) of the Rules Governing 2254 Cases (December 1, 2009). A
certificate of appealability may issue only where "the applicant has made a substantial
showing of the denial of a constitutional right." 28 U.S.C. § 2253(c)(2). As to claims

102
147a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 103 of 105
7893

PageID #:

rejected on the merits, a certificate of appealability should issue only when the petitioner
demonstrates "that reasonable jurists would find the district court's assessment of the
constitutional claims debatable or wrong." Slack v. McDaniel, 529 U.S. 473, 484, 120 S.
Ct. 1595, 146 L. Ed. 2d 542 (2000). As to claims rejected on procedural grounds, a COA
should issue when the prisoner shows, at least, that jurists of reason would find it debatable
whether the petitioner states a valid claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the district court was correct in its
procedural ruling.” Id. The Court concludes that jurists of reason would not find debatable
either the court’s procedural rulings or its assessment of the constitutional claims as to
Reeves’s claims, with the exception of whether Reeves’s trial counsel was ineffective for
failing to hire an expert to investigate his intellectual disability.
“It is unquestioned that under the prevailing professional norms at the time of
[Reeves’s] trial, counsel had an ‘obligation to conduct a thorough investigation of the
defendant’s background.’” Porter v. McCollum, 558 U.S. 30, 39, 130 S. Ct. 447, 175 L.
Ed. 2d 398 (2009) (internal quotation omitted). It is undisputable that where counsel has
reason to know of potential mitigating evidence, they are required to investigate. It is
further undisputable that the trial court approved funds to hire an expert to investigate
Reeves’s intellectual disability, but the approved expert was never contacted. Reeves, thus,
argues that counsel was ineffective for failing to investigate his intellectual disability. In
dismissing his claim, the Court of Criminal Appeals concluded that based on the totality of
the of the evidence before it, Reeves failed to overcome the “strong presumption that
counsel’s conduct falls within the wide range of reasonable professional assistance” and
failed to establish that counsel’s decision was not a reasonable strategic decision.

103
148a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 104 of 105
7894

PageID #:

Strickland, 466 U.S. at 689. The state court primarily supported its decision on Reeves’s
failure to present the testimony of trial counsel at the Rule 32 hearing.
The Court concludes that jurists of reason could find it debatable whether Reeves’s
trial counsel was ineffective pursuant to Strickland for failing to hire an expert to
investigate his intellectual disability. This determination is supported by the dissenting
opinion of Justice Sotomayor to the United States Supreme Court’s denial for writ of
certiorari of Reeves’s Rule 32 petition. Reeves v. Alabama, __ U.S. __, 138 S. Ct. 22, 199
L. Ed. 2d 341 (2017) (Sotomayor, J., dissenting). Justice Sotomayor, joined by Justices
Ginsburg and Kagan, questioned the reasonableness of counsel’s decision not to hire the
court approved expert to investigate Reeves’s intellectual disability, pursuant to the
Strickland. Justice Sotomayor stated, “Reeves presented ample evidence in support of his
claim that his counsel’s performance was deficient, but the [Court of Criminal Appeals]
never considered or explained why, in light of that evidence, his counsel’s strategic
decisions were reasonable.” Id. at 28. The dissent further reasons that “[t]he Alabama
Court of Criminal Appeals was not free to ignore this evidence simply because Reeves did
not call his counsel to testify at the postconviction hearing.” Id. Thus, the Court finds that
Reeves has meet his burden to demonstrate that reasonable jurists could find debatable the
district court’s assessment of Reeves’s ineffective assistance, Claim 3.b., for failing to hire
an expert to investigate his intellectual disability. Therefore, Reeves is entitled to a
Certificate of Appealability as to Claim 3.b.
Accordingly, any certificate of appealability filed by Reeves is DENIED, except as
to Claim 3.b., which is hereby GRANTED. Since the Court has found that Reeves is
entitled to a Certificate of Appealability as to Claim 3.b., if he appeals, and if he is indigent,
he would be entitled to appeal in forma pauperis.

104
149a

Case 1:17-cv-00061-KD-MU Document 29 Filed 01/08/19 Page 105 of 105
7895

VI.

PageID #:

Conclusion.
Based on the foregoing, the Court concludes that Reeves’s petition for habeas

corpus relief be denied, that this action be dismissed, and that judgment be entered in favor
of the Respondent, and against the Petitioner, Matthew Reeves. It is further recommended
that any motion for a Certificate of Appealability or for permission to appeal in forma
pauperis be denied, except as to Claim 3.b., which is granted.
DONE and ORDERED this the 8th day of January, 2019.
_s/Kristi K. DuBose
CHIEF UNITED STATES DISTRICT JUDGE

105
150a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 1 of 27

PageID #: 7988

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
MATTHEW REEVES,
Plaintiff,

:
:
:
:
:
:
:
:

vs.
JEFFERSON D. DUNN,
Respondent.

CIVIL ACTION NO. 17-0061-KD-MU

ORDER
This matter is before the Court on Petitioner’s Federal Rule of Civil Procedure 59(e)
Motion to Alter or Amend the Court’s Judgment denying his Petition for Writ of Habeas Corpus.1
(Docs. 31, 43). For the reasons discussed herein, the motion is DENIED.
I.

Procedural Background.
On January 8, 2019, the undersigned entered an Order (doc. 29) and Judgment (doc. 30)

denying Matthew Reeves’s Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254, in
its entirety. (Docs. 1, 24). The ruling did grant a certificate of appealability (“COA”) on one
presented issue, Claim 3.b., whether counsel rendered ineffective assistance for failing to hire an
expert to investigate his intellectual disability.
Reeves now moves for reconsideration of three specifically enumerated aspects of the
January 8 Order and Judgement. Reeves requests the following relief: (1) reconsideration of the

1

At the same time he filed his Rule 59(e) motion, Petitioner also filed a notice of appeal,
which generally divests a district court of jurisdiction to take any action in a case except in aid of
the appeal. United States v. Diveroli, 729 F.3d 1339, 1341 (11th Cir. 2013). However, the filing
of a timely Rule 59(e) motion renders a notice of appeal ineffective until the district court enters
an order dismissing the motion. See Fed. R. App. P. 4(a)(4)(B)(i); Stansell v. Revolutionary Armed
Forces of Columbia, 771 F.3d 713, 745-46 (11th Cir. 2014). Thus, a district court retains
jurisdiction to consider a timely Rule 59(e) motion despite a Petitioner's filing of a notice of appeal.

151a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 2 of 27

PageID #: 7989

finding that Reeves is not intellectually disabled under Atkins v. Virginia, 536 U.S. 304 (2002),
Claim 1; (2) reconsideration that the Alabama Court of Criminal Appeals reasonably rejected
Reeves’s claim that he received ineffective assistance of counsel during the penalty phase, Claim
3.c.; and (3) reconsideration that the Alabama Court of Criminal Appeals reasonably rejected
Reeves’s juror misconduct claim at the pleading stage without an evidentiary hearing, Claim 4.
(Docs. 31, 43). Alternatively, Reeves requests that if Rule 59(e) relief is not granted, that the Court
expand its Certificate of Appealability to include the presented issues to the Court of Appeals.
(Id.).
II.

Legal Standard for Motion to Reconsider.
The Eleventh Circuit has summarized the limited scope of relief that is available to a

litigant under Rule 59(e):
"The only grounds for granting [a Rule 59] motion are newly-discovered evidence
or manifest errors of law or fact." In re Kellogg, 197 F.3d 1116, 1119 (11th Cir.
1999). "[A] Rule 59(e) motion [cannot be used] to relitigate old matters, raise
argument or present evidence that could have been raised prior to the entry of
judgment." Michael Linet, Inc. v. Village of Wellington, Fla., 408 F.3d 757, 763
(11th Cir. 2005).
Arthur v. King, 500 F.3d 1335, 1343 (11th Cir. 2007); see also Jacobs v. Tempur-Pedic Int'l, Inc.,
626 F.3d 1327, 1344 (11th Cir. 2010) ("Reconsidering the merits of a judgment, absent a manifest
error of law or fact, is not the purpose of Rule 59."); Stone v. Wall, 135 F.3d 1438, 1442 (11th Cir.
1998) ("The purpose of a Rule 59(e) motion is not to raise an argument that was previously
available, but not pressed."); Hughes v. Stryker Sales Corp., 2010 U.S. Dist. LEXIS 64439, 2010
WL 2608957, *2 (S.D. Ala. June 28, 2010) (rejecting notion that motions to reconsider "are
appropriate whenever the losing party thinks the District Court got it wrong"). "They are neither
appeal substitutes nor a 'dry run' to test arguments in anticipation of a forthcoming appeal." Lee,
2012 U.S. Dist. LEXIS 107328, 2012 WL 3137901, at *2.

2
152a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 3 of 27

PageID #: 7990

To prevail on a motion to reconsider, '[t]he losing party must do more than show that a
grant of the motion might have been warranted; he must demonstrate a justification for relief so
compelling that the court was required to grant the motion.' Maradiaga v. United States, 679 F.3d
1286, 1291 (11th Cir. 2012) (citations and internal marks omitted)." Lee v. Thomas, No. CIV.A.
10-0587-WS-M, 2012 U.S. Dist. LEXIS 107328, 2012 WL 3137901, at *2 n.1 (S.D. Ala. Aug. 1,
2012) (Steele, J.).
III.

Analysis.
Turning to Reeves’s current motion, it is imperative to keep in mind the posture of this

case – that is, Reeves petitioned this Court for habeas relief pursuant to 28 U.S.C. § 2254. This
statute “imposes important limitations on the power of federal courts to overturn the judgments of
state courts in criminal cases.” Shoop v. Hill, 139 S. Ct. 504, 506, 202 L. Ed. 2d 461 (2019). A
federal habeas court "may not issue the writ simply because that court concludes in its independent
judgment that the relevant state-court decision applied clearly established federal law erroneously
or incorrectly." Greene v. Upton, 644 F.3d 1145, 1154 (11th Cir. 2011) (citation omitted). Rather,
"[t]o obtain habeas relief a state prisoner must show that the state court's ruling on the claim being
presented in the federal court was so lacking in justification that there was an error well understood
and comprehended in existing law beyond any possibility for fairminded disagreement." Evans v.
Secretary, Dep't of Corrections, 703 F.3d 1316, 1326 (1th Cir. 2013) (citations omitted). Under §
2254(d) deference, "only if there is no possibility fairminded jurists could disagree that the state
court's decision conflicts with the Supreme Court's precedents may relief be granted." Johnson v.
Secretary, DOC, 643 F.3d 907, 910 (11th Cir. 2011) (citation and internal quotation marks
omitted); see also Holsey v. Warden, Georgia Diagnostic Prison, 694 F.3d 1230, 1257 (11th Cir.
2012) ("if some fairminded jurists could agree with the state court's decision, although others might

3
153a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 4 of 27

PageID #: 7991

disagree, federal habeas relief must be denied") (citation omitted). "If this standard is difficult to
meet, that is because it was meant to be." Holsey, 694 F.3d at 1257 (citation omitted); see also
Loggins v. Thomas, 654 F.3d 1204, 1220 (11th Cir. 2011) ("[T]he deference due is heavy and
purposely presents a daunting hurdle for a habeas petitioner to clear."). "Section 2254(d) reflects
the view that habeas corpus is a guard against extreme malfunctions in the state criminal justice
systems, not a substitute for ordinary error correction through appeal." Harrington, 562 U.S. at
102-03 (citation and internal quotation marks omitted).
It is under this highly deferential standard that Reeves’s habeas petition was denied.
A. Reconsideration of Intellectual Disability under Atkins.
Petitioner Reeves’s first ground for seeking relief under Rule 59(e) relates to Claim 1 of
his habeas petition. In his habeas petition, Reeves alleges that he is intellectually disabled and his
capital sentence, thus, violates the Eighth Amendment pursuant to the holding of Atkins v. Virginia,
536 U.S. 304 (2002). The record reveals that Reeves received IQ scores within a standard error of
measurement (“SEM”) range of 63 to 78, that the experts presented conflicting opinions at the
Rule 32 hearing as to whether Reeves is intellectually disabled, and the state court credited the
opinion of Dr. King over Dr. Goff in concluding that Reeves is not intellectually disabled. In the
January 8 Order, this Court found that Reeves failed to carry his burden of proving that the state
court’s determination was “contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States” or that the
decision “was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.” 28 U.S.C. § 2254(d)(1) and (2). Relying primarily on
Moore v. Texas, for the first time, Reeves asserts in his motion for reconsideration that the Court’s
rejection of his Atkins claim rested on manifest errors of law and fact because it impermissibly

4
154a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 5 of 27

PageID #: 7992

relied on extrinsic factors unrelated to determining intellectual functioning to disregard the lower
SEM range of IQ scores2 and emphasized Reeve’s perceived strengths in adaptive functioning over
the acknowledged deficits.
In Moore, the Supreme Court vacated a Texas Criminal Court of Appeals judgment which
determined Moore was not intellectually disabled based on evidentiary factors announced in Ex
parte Briseno, 135 S.W. 3d 1 (Tex. Crim. App. 2004), rather than current medical diagnostic
standards. Moore v. Texas, 137 S. Ct. 1039. Briseno utilized an outdated definition and diagnostic
standard for assessing intellectual disability from the 1992 edition of the American Association on
Mental Retardation’s (“AAMR”) manual. The Briseno test required that adaptive deficits be
related to intellectual functioning deficits and identified seven evidentiary factors (“without
citation to any medical or judicial authority”) relevant to determining intellectual disability. 137
S. Ct. at 1046-47. The Texas appellate court utilized the Briseno factors in determining Moore
failed to prove significant subaverage intellectual functioning with IQ scores of 78 and 74
(rejecting 5 of 7 IQ tests as unreliable). The appellate court “discounted the lower end of the
standard-error range associated with” the score of 74 “observ[ing] that Moore’s history of
academic failure, and the fact that he took the test while ‘exhibit[ing] withdrawn and depressive
behavior’ on death row might have hindered his performance.” Id. at 1047. The appellate court
then concluded Moore failed to prove he suffered significant limitations in adaptive functioning
due to Moore’s adaptive strengths, which included living on the streets, playing pool and mowing
lawns for money, committing the crime in a sophisticated way and then fleeing, testifying and
representing himself at trial, and developing skills in prison. Id. The Court granted certiorari to

2

Reeves argues that like Moore, the court credited Dr. King’s testimony regarding factors
unrelated to IQ instead of relying solely on his IQ score of 68. (Doc. 31-1 at 8).
5
155a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 6 of 27

PageID #: 7993

determine whether the appellate court’s adherence to superseded medical standards and reliance
on Briseno complied with the Eighth Amendment and Court precedent and held it did not.
The Moore Court found the appellate court considered “the presence of other sources of
imprecision in administering the [IQ] test to [Reeves]” and noted that such unique factors “cannot
narrow the test-specific standard-error range” and the appellate court was required based on the
SEM range “to move on to consider Moore’s adaptive functioning”. Id. at 1049-50. The Court
further concluded that the appellate court overemphasized Moore’s perceived adaptive strengths
in determining he did not suffer significant adaptive deficits. In particular, the Court identified
traumatic experiences in Moore’s life which the Texas appellate court discounted, like childhood
abuse and academic failure, that clinicians consider “risk factors” and rely on in determining
intellectual disability. Similarly, the Court found the appellate court “departed from clinical
practice by requiring Moore to show that his adaptive deficits were not related to ‘a personality
disorder’”, id. at 1051, when the medical community acknowledges the coexistence of personality
disorders and mental health issues in the intellectually disabled. Lastly, the Court viewed the
Briseno factors as “exceedingly subjective” and deemed such factors as “lay perceptions of
intellectual disability.” Id. In rejecting the Briseno factors, the Court indicated that no other state
legislature approved the Briseno factors or anything similar and that Texas itself failed to follow
Briseno in contexts other than the death penalty. The Court maintained that while states have
flexibility in enforcing Atkins, they do not have ‘unfettered discretion’ or ‘complete autonomy to
define intellectual disability as they wished’. Id. at 1053 (quoting Hall, 134 S. Ct. at 1998-99).
Specifically, “[t]he medical community’s current standards supply one constraint on States’
leeway in this area.” Id. The Court thus held that:
By rejecting the habeas court’s application of medical guidance and clinging to the
standard it laid out in Briseno, including the wholly nonclinical Briseno factors, the

6
156a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 7 of 27

PageID #: 7994

CCA failed adequately to inform itself of the “medical community’s diagnostic
framework,” Hall, 572 U. S., at ___-___, 134 S. Ct. 1986, 2000, 188 L. Ed. 2d 1007,
1025. Because Briseno pervasively infected the CCA’s analysis, the decision of
that court cannot stand.
Id. at 1053.
Notably, the 2017 decision of Moore was decided after the trial and appellate court
determined Reeves was not intellectually disabled in 2009 and 2016, respectively, and cannot be
considered “clearly established law” pursuant to § 2254(d)(1). See Shoop v. Hill, __ U.S.__, 139
S. Ct. 504, 502, 202 L. Ed. 2d 461, 465 (2019) (“The Court of Appeals’ reliance on Moore was
plainly improper under § 2254(d)(1), and we therefore vacate that decision and remand so that
Hill’s claim regarding intellectual disability can be evaluated based solely on holdings of this Court
that were clearly established at the relevant time.”). Consequently, Reeves’s reliance on Moore v.
Texas is misplaced and improper. Nevertheless, Reeves contends that Moore is applicable because
the holding did not establish a new rule of law but “merely applied the law that the Supreme Court
established in Hall.” (Doc. 31-1 at 7, n.2). Such suggestion, however, extends Hall (and Atkins)
beyond what the case(s) actually held, and this Court is bound to “determine whether its
conclusions can be sustained based strictly on legal rules that were clearly established in the
decisions of [the Supreme] Court at the relevant time.” Shoop, 139 S. Ct. at 509. Accordingly,
this Court is required to analyze Reeves’s habeas petition and this motion based on that which was
“clearly established” at the time the Alabama Court of Criminal Appeals rejected Reeves’s
intellectual disability claim. 28 U.S.C. § 2254(d)(1).
Based on the laws in place at the time of the state court’s decision, denial of Reeves’s
intellectual disability claim does not rest on manifest errors of law or fact and Reeves’s arguments
are simply a rehash of old arguments. There is no “binding Supreme Court precedent, [that] only
IQ tests that account for the SEM are relevant to the first prong [in determining significant

7
157a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 8 of 27

PageID #: 7995

subaverage intellectual functioning.]” 3 (Doc. 31-1 at 9-10) (emphasis added). Nor did federal law
exist condemning consideration of adaptive strengths when evaluating adaptive functioning.
Rather, the law at the time of Reeves’s decision instructed that:
[t]he legal determination of intellectual disability is distinct from a medical
diagnosis, but it is informed by the medical community's diagnostic framework.
Atkins itself points to the diagnostic criteria employed by psychiatric professionals.
And the professional community's teachings are of particular help in this case,
where no alternative definition of intellectual disability is presented and where this
Court and the States have placed substantial reliance on the expertise of the medical
profession.
Hall, 572 U.S. 701, 134 S. Ct. 1986, 2000, 188 L. Ed. 2d 1007 (2014) (emphasis added); see also
Kansas v. Crane, 534 U.S. 407, 413, 122 S. Ct. 867, 151 L. Ed. 2d 856 (2002) (“[T]he science of
psychiatry . . . informs but does not control ultimate legal determinations . . .”). Indeed, the record
reflects that the state court relied on the expertise of medical professionals, namely Drs. Goff and
King, in determining Reeves is not intellectually disabled. Both doctors testified at the Rule 32
hearing as to their experience, testing procedures, and provided a diagnostic opinion based on
clinical judgment. In accordance with the law at the time, the state court properly recognized that
Reeves’s IQ fell within “a range of scores on either side of the recorded score” and that his “true
IQ score lies” somewhere within this SEM range. Hall, 572 U.S. at 712-13 (“The professionals
who design, administer, and interpret IQ tests have agreed, for years now, that IQ test scores should

3

Reeves contends that IQ tests are the sole measure to be utilized in determining the
intellectual functioning of an individual and cites to Atkins, Hall, and Brumfield as support. Such
a rule, however, cannot be drawn from the holding of these cases or dicta within. Notably, Atkins
recognized that an IQ score of 70 to 75 or lower is typically considered the cutoff IQ score for the
intellectual function prong, Atkins v. Virginia, 536 U.S. 304, 305 n.5 (2002); Hall held that a strict
cutoff IQ score of 70 violated the Eighth Amendment and the inherent imprecision of IQ scores
meant that when IQ scores fall within the test’s standard error of measurement defendant’s must
be allowed to present additional evidence of intellectual disability, Hall, U.S. 572 U.S. 701; and
Brumfield declared that an IQ score of 75 “was squarely in the range of potential intellectual
disability”, Brumfield v. Cain, 135 S. Ct. 2269, 2278 (2015). None held that an IQ test score was
the single, deciding factor in a court’s determination of a defendant’s intellectual functioning.
8
158a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 9 of 27

PageID #: 7996

be read not as a single fixed number but as a range.”). Based on this SEM range, as instructed by
the established law at the time, Reeves was allowed to “present additional evidence of intellectual
disability, including testimony regarding adaptive deficits.” Id at 713. The findings of these tests
were interpreted by expert medical professionals. The medical experts, however, offered opposing
diagnoses based on their clinical judgment,4 and the court credited Dr. King’s testimony over Dr.

4

The medical community routinely applies clinical judgment in diagnosing intellectual
disability. In fact, the most current edition of the Diagnostic and Statistical Manual of Mental
Disorders, Fifth Edition (“DSM-5) provides that:
IQ test scores are approximations of conceptual functioning but may be insufficient
to assess reasoning in real life situations and mastery of practical tasks. . . . Thus,
clinical judgment is needed in interpreting the results of IQ test. . . . Adaptive
functioning is assessed using both clinical evaluation and individualized, culturally
appropriate, psychometrically sound measures. . . . Additional sources of
information include educational, developmental, medical, and mental health
evaluations. Scores from standardized measures and interview sources must be
interpreted using clinical judgment.
DSM-5 at 37-38. Reeves’s own expert, Dr. Goff, indicated that he too applies clinical judgment
when assessing an individual’s intellectual disability – he testified that he reviewed school records
and medical records “to try and get an understanding of the individual.” (Doc. 23-24 at 33). In
explaining the necessity for and reasoning behind such review, Dr. Goff stated, “it’s difficult to
get an understanding of someone just spending five or six hours with them. . . . [S]ince we are
talking about his cognitive status, it was important to look at all the school records that we had and
any medical records that might reflect on his situation during the developmental period to
determine whether or not he was having difficulties during the developmental period.” (Doc. 2324 at 33); see also James W. Ellis, Evaluating Intellectual Disability: Clinical Assessments in
Atkins Cases, 46 Hofstra L. Rev. 1307 (Summer 2018) citing the following support for the need
for clinical judgment in intellectual disability assessments:
Keith F. Widaman, Concepts of Measurement, in The Death Penalty and Intellectual
Disability 55, 59 (Edward A. Polloway ed., 2015) ("The need for clinical judgment
to combine all information to arrive at important diagnostic decisions is always a
component of this assessment task."); Clinical Judgment 2014, supra note 253, at 7
("The purpose of clinical judgment is to enhance the quality, validity, and precision
of the clinician's decision or recommendation in situations related to diagnosis,
classification, and planning supports."); see also American Educational Research
Association, American Psychological Association & National Council on
Measurement in Education, Standards for Educational and Psychological Testing,
std. 10.1 comment at 164 (2d ed., 2014) ("Test score interpretation requires
9
159a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 10 of 27

PageID #: 7997

Goff’s.5 Consequently, it cannot be said that the state court’s decision (centered on Dr. King’s
clinical judgment that Reeves is not intellectually disabled (and that he does not suffer significant
subaverage intellectual functioning nor substantial deficits in adaptive functioning)) was contrary
to establish federal law or based on an unreasonable determination of the facts in light of the
evidence presented in the state court proceeding.6

professionally responsible judgment that is exercised within the boundaries of
knowledge and skill afforded by the professional's education, training, and
supervised experience, as well as the context in which the assessment is being
performed."); APA, DSM-5, supra note 65, at 37 ("Clinical training and judgment
are required to interpret test results and assess intellectual performance."); Ruth
Luckasson & Robert L. Schalock, Standards to Guide the Use of Clinical Judgment
in the Field of Intellectual Disability, 53 Intellectual & Developmental Disabilities
240, 247 (2015) ("The clinical judgment standards … provide the basis for valid and
precise decisions and recommendations … .").
James W. Ellis, Evaluating Intellectual Disability: Clinical Assessments in Atkins Cases, 46
Hofstra L. Rev. 1307, 1416 n.431 (Summer 2018).
5
Recognizing that intellectually disability is a condition, not a number”, Hall, 572 U.S. at
723, Dr. King applied clinical judgment in diagnosing that Reeves did not suffer significant
subaverage intellectual or adaptive functioning and, ultimately, that Reeves was not intellectually
disabled. See Hall, 572 U.S. at 723 (instructing that IQ scores are helpful “[b]ut in using these
scores to assess a defendant’s eligibility for the death penalty, a State must afford these test scores
the same studied skepticism that those who design and use the tests do. . .”).
6
As discussed in the January 8 Order, the trial court credited the consistency of Reeves’s
full-scale IQ scores of 73 (administered when he was 14 years of age) and 71 (administered by
Reeves’s expert in preparation for the Rule 32 hearing) and Dr. King’s opinion offered at the Rule
32 hearing. Dr. King testified that Reeves’s full-scale IQ score of 68 was inconsistent with the
administered Wide Range Achievement Test scores (showing Reeves read and spelled on a fifthgrade level and performed math on a fourth-grade level), suggesting Reeves functioned at a higher
level than the IQ score indicated. (Doc. 23-25 at 24-26). Based on the WAIS and Wide Range
Achievement Test, Dr. King was unable to reach a definitive conclusion regarding Reeves’
intellectual ability but stated, “I was leaning in the direction of borderline intellectual
functioning. . . . But considering all of the other test data, I came up with a conclusion that he
functions in the borderline range of ability.” (Doc. 23-25 at 26). According to Dr. King, the “other
test data” included the battery of tests he administered, his clinical interview with Reeves, Dr.
Goff’s data, previous intellectual tests done on Mr. Reeves, and review of Reeves’s records. (Doc.
23-25 at 35, 46). Dr. King concluded that Mr. Reeves intellectually functions in the borderline
range of intellectual ability, a range of 70-84; such individuals “are able to take care of themselves
and are educable and typically end up developing certain kinds of abilities and activities so that
they can support themselves independently in society.” (Doc. 23-25 at 35). Dr. King testified that
10
160a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 11 of 27

PageID #: 7998

Reeves has failed to establish newly discovered evidence or manifest errors of law or fact.
At best, Reeves reiterates arguments already made, which the Court already rejected. Rule 59(e)
is not an appropriate vehicle to “relitigate old matters, raise argument or present evidence that
could have been raised prior to the entry of judgment.” Frantz v. Walled, 513 F. App’x 815, 822
(11th Cir. 2013). In short, Reeves has not set forth any basis for Rule 59(e) relief, and his motion
is denied as to this claim. Additionally, Reeves has failed to put forth a substantial showing of the
denial of a constitutional right; thus, a Certificate of Appealability is not warranted as to this claim.
Slack v. McDaniel, 529 U.S. 473, 483-484, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000).
B. Reconsideration of Ineffective Assistance of Counsel during Penalty Phase.
Petitioner Reeves’s second ground for seeking relief relates to Claim 3.c. of his habeas
petition. Reeves contends that the Court incorrectly concluded that trial counsel’s decision not to

such a finding was consistent with the previous intellectual tests done. (Doc. 23-25 at 46); see
also Brumfield, 135 S. Ct. at 2278 (holding IQ score of 75 to be within the range of potential
intellectual disability” and finding state court’s contrary determination to be unreasonable were
there was no “evidence of any higher IQ test score”).
In concluding that Reeves does not suffer substantial adaptive deficits, the trial court
wrestled with the conflicting opinions of experts and reconciled the discrepancy by analyzing the
record evidence beyond administered tests, including:
[Reeves’s] technical abilities in brick masonry, welding, and automobile mechanics;
Reeves’s ability to work construction and do so reliably when he was not around
his brother, Julius; Reeves’s participation in a drug-sale enterprise in which he was
able to make thousands of dollars a week that he then used to purchase personal
items and a car; and particularly Reeves’s cold and calculated actions surrounding
the murder, including planning the robbery with his codefendants, hiding
incriminating evidence after he had shot the victim, splitting the proceeds of the
robbery with his codefendants, and bragging about the murder, claiming that he
would earn a “teardrop” – a gang tattoo indicating that a gang member had killed
someone – for the murder.
(Doc. 29 at 28, quoting the Alabama Court of Criminal Appeals).

11
161a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 12 of 27

PageID #: 7999

hire a mitigation expert was not objectively unreasonable under Strickland and that he was not
prejudiced by the decision. Specifically, Reeves argues that the Court should reconsider its
holding that counsel was not ineffective during the penalty phase of the trial for three reasons: (1)
that evidence of the reason for trial counsel’s decision is not necessary to establish ineffective
assistance of counsel; (2) that ample evidence was presented that established counsel did not make
an informed or strategic decision; (3) that counsel possessed records concerning Reeves’s
background does not preclude a finding of deficient performance. These claims have previously
been presented to the Court through Reeves’s §2254 habeas petition and appear to be nothing more
than an attempt to reargue previously dismissed claims. Arthur v. King, 500 F.3d 1335, 1343-44
(11th Cir. 2007) (“A Rule 59(e) motion cannot be used to relitigate old matters….”). The Court
finds that relief was properly denied as reasoned in its January 8 Order but briefly addresses
Reeves’s claims for the sake of clarity.
To start, Reeves contends that the Court “contorted the Strickland test when it held Reeves
must provide evidence that ‘sheds . . . light on the reasoning behind counsel’s actions’ to prevail
on his ineffective-assistance claim” and “that only ‘evidence . . . that the complained of actions
were not the result of reasonable strategy’ can rebut Strickland’s presumption of reasonableness.”
(Doc. 31-1 at 13, 15) (quoting the January 8 Order at p. 44). These misquotations of the January
8 Order are out of context and ignore the fundamental analysis conducted therein – that is that
Reeves failed to carry his burden of showing that there was “[no] reasonable argument that counsel
satisfied Strickland’s deferential standard.” Harrington v. Richter, 562 U.S. 86, 105, 131 S. Ct.
770, 178 L. Ed. 2d 624 (2011). In fact, Reeves misconstrues this Court’s review standard pursuant
to §2254 in his motion to reconsider.

12
162a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 13 of 27

PageID #: 8000

Importantly, under AEDPA, federal courts are prohibited from granting habeas relief for
any claim adjudicated on the merits on state court, unless one of the exceptions listed in § 2254(d)
applies. Relevant to Reeves’s claim, is §2254(d)(1)’s exception that this Court is permitted to
grant habeas relief if the state court decision “was contrary to, or involved an unreasonable
application of, clearly established federal law.” 28 U.S.C. § 2254(d)(1). The applicable federal
law in question here is Strickland. To establish a claim of ineffective assistance of trial counsel
under Strickland, the petitioner "must show both deficient performance by counsel and prejudice."
Premo v. Moore, 562 U.S. 115, 121, 131 S. Ct. 733, 178 L. Ed. 2d 649 (2011) (internal quotes
omitted). "To establish deficient performance, a person challenging a conviction must show that
counsel's representation fell below an objective standard of reasonableness," and "[a] court
considering a claim of ineffective assistance must apply a strong presumption that counsel's
representation was within the wide range of reasonable professional assistance." Id. (internal
quotes omitted). "The question is whether an attorney's representation amounted to incompetence
under prevailing professional norms, not whether it deviated from best practices or common
custom." Harrington v. Richter, 562 U.S. 86, 105, 131 S. Ct. 770, 178 L. Ed. 2d 624 (2011)
(internal quotes omitted). To establish prejudice for purposes of Strickland, the petitioner must
show "a reasonable probability that, but for counsel's unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is a probability sufficient to
undermine confidence in the outcome." Strickland v. Washington, 466 U.S. 668, 694, 104 S. Ct.
2052, 80 L. Ed. 2d 674 (1984).
When challenging counsel’s effectiveness pursuant to § 2254(d), as is Reeves, however,
the burden of proof is “all the more difficult” because the petitioner must “[e]stablish[] that the
state court’s application of Strickland was unreasonable[.]” Richter, 562 U.S. at 105.

13
163a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 14 of 27

PageID #: 8001

The standards created by Strickland and § 2254(d) are both “highly deferential,”
id., at 689, 104 S. Ct. 2052, 80 L. Ed. 2d 674; Lindh v. Murphy, 521 U.S. 320, 333,
n. 7, 117 S. Ct. 2059, 138 L. Ed. 2d 481 (1997), and when the two apply in tandem,
review is “doubly” so, Knowles, 556 U.S., at 123, 129 S. Ct. 1411, 173 L. Ed. 2d
251. The Strickland standard is a general one, so the range of reasonable
applications is substantial. 556 U.S., at 123, 129 S. Ct. 1411, 173 L. Ed. 2d 251.
Federal habeas courts must guard against the danger of equating unreasonableness
under Strickland with unreasonableness under § 2254(d). When § 2254(d) applies,
the question is not whether counsel's actions were reasonable. The question is
whether there is any reasonable argument that counsel satisfied Strickland's
deferential standard.
Id. (emphasis added).
In the January 8 Order, the Court reviewed the state court decision pursuant to the standard
laid out above and determined that counsel conducted a mitigation investigation (obtaining
voluminous records related to Reeves’s academic, medical, and mental health background) and
presented the discovered evidence during the penalty phase, such that there was a reasonable
argument that counsel satisfied Strickland’s deferential standard, and Reeves failed to satisfy his
burden of arguing or showing otherwise. The Court explained:
Without the testimony of counsel explaining their strategy, Reeves was left to show
that counsel’s decisions were unreasonable and prejudiced the outcome of his case,
Harvey v. Warden, Union Corr., Inst., 629 F.3d 1228, 1245 (11th Cir. 2011) (“To
give trial counsel proper deference, this circuit presumes that trial counsel provided
effective assistance. . . and it is the petitioner’s burden to persuade us otherwise.”),
and Reeves failed to carry his burden. . . . Reeves certainly [attempted to provide
facts to demonstrate counsel’s unreasonableness, as he] put forth briefs and
argument regarding what trial decisions counsel made; however, this evidence
sheds no light on the reasoning behind counsel’s action and, standing alone, this
evidence is insufficient to prove counsel was ineffective. Review of the trial court’s
decision reveals that the court considered the total evidence of record for each
[ineffective assistance] claim and concluded it fell short of objectively establishing
deficient performance. . . . With the record void of evidence (including the
testimony of counsel) that the complained of actions were not the result of
reasonable strategy, the court interpreted the evidence, as required, with deference
to counsel’s decisions and competency.
(Doc. 29, 43-44; January 8 Order). In short, the Court concluded that Reeves failed to show that
counsel’s decision to not hire a mitigation expert was objectively unreasonable given the totality

14
164a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 15 of 27

PageID #: 8002

of the record evidence.7 Put another way, one could conclude based on the volumes of evidence
counsel obtained and the contents of those documents, along with the evidence actually put forth
during the penalty phase, that counsel’s decision not to hire a mitigation expert was objectively
reasonable. See Richter, 562 U.S. at 105 (discussing “whether there is any reasonable argument
that counsel satisfied Strickland’s deferential standard”).
Reeves disputes this conclusion, asserting that counsel’s petitioning of funds to hire a
mitigation expert and subsequent failure to do so, coupled with counsel’s failure to interview Dr.
Ronan prior to her testimony confirms “trial counsel could not have reasonably decided to rely on
Dr. Ronan’s testimony as the sole expert in the penalty phase rather than retaining Dr. Goff or
another mitigation expert, as the Court suggests.” (Doc. 31-1 at 16). This rationale, however,
ignores or overlooks the totality of the facts of record. In determining whether counsel’s decision

7

Relying on Wiggins and Porter, Reeves asserts that deficient performance can be found
despite counsel’s testimony that a decision made was a strategic choice, and he argues the Court’s
holding in the January 8 Order was therefore a manifest error of law. (Doc. 31-1 at 13). In Wiggins
v. Smith, 539 U.S. 510 (2003), the Supreme Court held the decision not to expand mitigation
investigation was unreasonable in light of what was discovered in the records, and the record of
the sentencing proceedings underscored the unreasonableness of counsel’s conduct and suggested
inattention rather than strategic decisions. The Court concluded that "strategic choices made after
less than complete investigation are reasonable" only to the extent that "reasonable professional
judgments support the limitations on investigation." Id. at 533. In Porter v. McCullum, 558 U.S.
30, 40 (2009) (per curiam), reviewing de novo, the Court unanimously held counsel’s failure to
uncover and present any evidence of Porter’s mental health or mental impairment, his family
background, or his military service was deficient performance.
Again, Reeves misconstrues the Court’s reasoning and his burden of proof. Unlike Wiggins
and Porter, the record shows that Reeves’s counsel performed a mitigation investigation and
presented substantial mitigating facts to the jury during the penalty phase. While more mitigation
evidence may have been available, Reeves has failed to establish that “[c]ounsel’s investigation
into [his] background did not reflect reasonable professional judgment.” Wiggins, 539 U.S. at 534.
Additionally, the record provides ample support that it was reasonable for counsel to not hire a
mitigation expert given the volumes of information counsel obtained, the contents of the
information gathered, and that it was presented to the jury during the penalty phase.

15
165a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 16 of 27

PageID #: 8003

to not hire a mitigation expert was ineffective assistance, the Court “begins with the premise that
‘under the circumstances, the challenged action[] might be considered sound trial strategy.’”
Cullen v. Pinholster, 563 U.S. 170, 190 (2011) (quoting Strickland, supra, at 689).
The state court record reflects that Blanchard McLeod, Jr. and Marvin W. Wiggins were
appointed as defense counsel for Reeves by the trial court. Attorney McLeod first petitioned the
trial court on September 16, 1997, for approval of funds for the hiring of a clinical
neuropsychologist, Dr. Goff, “to evaluate, test, and interview [Reeves] for testimony at the trial”.
(Doc. 23-1 at 70). Argument was heard regarding the motion on September 17, 1997, where
Attorney McLeod voiced his reasoning for requesting the funds and the State questioned the value
and necessity of such appointment. The following are excerpts from the proceeding:
McLEOD:
We have, however, filed a motion by recommendation of the Capital
Mitigation Resources Program which has been assisting us with this matter because
of the tremendous conflicting information we have received through probably I
would anticipate more than 150 to 200 pages of material with reference to
psychological and psychiatric evaluations, et cetera, for the mitigation phase of this
proceeding, we would need the services of a neuropsychiatrist and
neuropsychologist that has previously been ordered in other capital cases as Mr.
Greene so adequately reminded me. And we are asking for the same because in
this instance the State has put us on notice that they are going for the death penalty.
And the amount of material that we have received through discovery from the
school and the Department of Youth Services is beyond our ability to deal with and
feel that Dr. Goff would be competent to deal with that matter. . . .
(Doc. 23-3 at 91).
...
GREENE [(State Prosecutor)]:
I am still taking the same position. This is a
helper. I mean the defense attorney can’t read the reports and do whatever he
intends to do?
(Doc. 23-3 at 93).
...
GREENE:
[M]y point is you are asking for a whole lot of money to what avail,
to help this man testify that the kid didn’t do well in school or something? I mean
you’ve got teachers who can testify to that if that’s true. If all we are doing is hiring
a very expensive investigator as to his background and psychology, I think we are
wasting everybody’s time. And it looks like that’s what we did last time. And
that’s the reason I challenge it. . . . If we are over here to hire you an expensive

16
166a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 17 of 27

PageID #: 8004

helper, I think we are paying the two of y’all who are very competent, especially
you with your background.
(Doc. 23-3 at 94-95).
...
McLEOD:
To testify to this Defendant’s prior problems, to testify as to the prior
treatment that has been given to him, to testify as to what logic and justification we
can have as to why rather than the death penalty life would be a very - (Doc. 23-3 at 96-97).
...
GREENE:
I go back to my same point. [No] psychologist or psychiatrist is
going to get up here and testify that this man should or should not get a penalty of
death because of some psychological reason. He can testify about what he found,
what problems the man had. Whatever benefit that has to the jury is fine. The
problem is he’s going to be trying to - - what you want to try to do is offer him as
some sort of person who is going to tell them because of psychological reasons he
should get this or that, and that’s for the jury and the Judge. He’s not going to be
allowed to testify to that. . . . But you can get that same testimony from whoever
prepared these records or whoever did these tests. You are trying to just get another
expensive helper.
(Doc. 23-3 at 97-98).
...
McLEOD:
Fifteen years of records of which I can’t even - - the State just simply
dumped them on me.
(Doc. 23-3 at 98).
The motion was ultimately denied on September 17, 1997. (Doc. 23-1 at 73). McLeod, however,
filed an Application for Rehearing of the appointment on September 30, 1997, which was granted
on October 16, 1997. (Id. at 74-77, 81). In between the filing of the Application of Rehearing on
the Motion to Hire a Neuropsychologist, attorney McLeod filed a motion to withdraw from the
case on October 13, 1997 (id. at 78-79), and Attorney Thomas Goggans was appointed to replace
McLeod on October 27, 1997. (Id. at 80).
In analyzing the objective reasonableness of counsel’s decision not to hire a mitigation
expert, the record supports that such a hiring cannot be deemed commonplace at the time of

17
167a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 18 of 27

PageID #: 8005

Reeves’s trial. First, the motion was initially denied where other petitions for funds were granted.8
Second, the exchange between the State prosecutor and defense counsel at the motion hearing
evidences that reasonable attorneys could - and did - disagree about the necessity and benefit of
such an appointment. Indeed, the State prosecutor implied that the hiring of a mitigation expert
would be excessive and nothing more than a hiring a “helper”, and defense counsel indicated that
he needed assistance in deciphering and sorting through the voluminous records concerning
Reeves’s background. Additionally, the record reflects that the attorney who desired and pursued
the appointment of a mitigation expert, McLeod, withdrew as defense counsel, and attorney
Thomas Goggans subsequently petitioned the court to order the release of all of Reeves’s mental
health records from Taylor Harding Secure Medical Facility, including Dr. Kathy Ronan’s court
ordered evaluation. (Doc. 23-1 at 88). Attorney Groggans also submitted discovery requests of
any and all inculpatory and exculpatory evidence possessed by the State. (Doc. 23-1 at 90-98).
One could reasonably conclude, based on Groggans’ discovery motions related to obtaining
mitigation evidence, that attorney Groggans chose a different route than attorney McLeod and
decided to personally be responsible for investigating and putting forth a mitigation defense.
Given the totality of the circumstances (including the depth of information contained in the records
and the lack of new information discovered by Dr. Goff and Dr. Salekin at the Rule 32 hearing),
counsel’s actions reveal a thorough investigation into Reeves’s background and reasonable
professional judgment in construction of their mitigation strategy. See Wiggins v. Smith, 539 U.S.
510, 533, 123 S. Ct. 2527, 156 L. Ed. 2d 471 (2003) (noting Strickland does not require counsel
to investigate every conceivable line of mitigating evidence).

8

The trial court approved the request for extraordinary funds for the services of
investigators with the Alabama Prison Project’s Mitigation and Investigation Program, as well as
funds for the hiring of a criminologist. (Doc. 23-1 at 15, 21, 59).
18
168a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 19 of 27

PageID #: 8006

Reeves also asks this Court to reconsider its ruling that he failed to carry his burden of
establishing that he was prejudiced by counsel’s decision not to hire a mitigation specialist. Reeves
asserts: (1) that if counsel had hired a mitigation specialist, “there is no dispute that the jury would
have heard that Reeves is intellectually disabled, which is a mitigating factor under Alabama law,
and that Reeves suffered from a number of risk factors that either were never presented to the jury
or were inadequately explained”; and (2) that the Court failed to weigh the “totality of mitigating
evidence”, that is both Drs. Goff and Salekin’s testimony, against the evidence in aggravation.
(Doc. 43 at 10-12). Reeves argues that had counsel hired a mitigation expert, the judge and jury
would have heard the following:
Weapons, alcohol, and illegal drugs were often present in Reeves’s house, giving
him easy access to guns and alcohol. (Doc. 23-24 at 146).
Reeves’s mother . . . had depression, which often went untreated and rendered her
unable to parent appropriately. (Id. at 152-53).
The three male figures in Reeves’s life taught him anti-social and violent behavior,
and one of these figures handed him a loaded gun. (Doc. 23-15 at 129-30; Doc. 2324 at 168-71).
At a young age, Reeves head banged in order to abuse himself and Reeve’s mother
failed to follow the recommendations of mental health clinicians, was unaware of
how much medication she gave Reeves, and often forgot to provide him with
prescribed medication. (Doc. 23-24 at 185; Doc. 23-15 at 136-37).
Reeves contends that there is a “reasonable probability” the jury would have recommended life
imprisonment without parole instead of the death penalty had it heard the above testimony. (Doc.
43 at 15-16).
At the penalty phase, counsel informed the jury that it would hear testimony describing
Reeves’s background and explaining what led him to become a person who could commit murder.
(Doc. 23-8 at 92-96). Counsel called three witnesses. First, a detective, who testified to the

19
169a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 20 of 27

PageID #: 8007

deplorable physical conditions of Reeves’s home and the neighborhood and environment in which
he was raised. Second, his mother, who testified to the family’s poverty, his mental health, his
academic history, his work history, his criminal history, and his family relationships. Third, Dr.
Ronan, who testified as to her psychological opinion of Reeves based on her clinical evaluation
for competency, as well as her interview with Reeves, and her full review of the record evidence
(including mental health records, scholastic records, juvenile criminal records, and medical
records). Through Dr. Ronan’s testimony, the judge and jury heard much of the same information
provided by Drs. Goff and Salekin. Specifically, Dr. Ronan testified that Reeves’s mother was an
alcoholic, that his mother “didn’t follow up” with the treatment offered from Cahaba Heath Center
or in “insuring that he continued to receive the medication” for his diagnosed condition of ADHD.
(Doc. 23-8 at 142). Dr. Ronan further explained the chemical imbalance of ADHD and the
negative consequences of noncompliance with medication treatment. (Id. at 144). The penalty
phase judge and jury also heard that Reeves was sent off to jail as a juvenile for stealing cars,
breaking in houses, fighting, and drugs (doc. 23-8 at 122); that he had numerous adult arrests for
class C felonies (id. at 152); that Reeves had been smoking marijuana since he was twelve (id. at
123); that Reeves “had a lot of problems at school”, like cussing at teachers and hitting other
children (id. at 123-24); that Reeves’s life aspiration was to sell drugs (id. at 124).
Dr. Ronan assessed Reeves’s intelligence through the administration of the verbal portion
of the Wexler Intelligence scale. Her findings were consistent with the results of the only previous
IQ test Reeves had taken. (Id. at 144-146, 149). She further explained “that a person’s intelligence
and environment work together in affecting that person’s life.” (Id. at 149). She further opined
that Reeves’s lower intelligence and environment led to a personality disorder. (Id. at 151). This
personality disorder included features of “repeatedly . . . violat[ing] legal boundaries or social

20
170a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 21 of 27

PageID #: 8008

boundaries with disregard to consequences;” misreading social cues; difficulties in getting or
establishing normal close bonds with people. (Doc. 23-8 at 150-51). She reasoned that his lower
intelligence and personality disorder resulted in his being “where he is.” (Doc. 23-8 at 151).
Additionally, the judge instructed the jury during the penalty phase on the types of evidence it
should consider mitigating circumstances, stating:
I will now read to you a list of some of the mitigating circumstances which you
may consider if you find from the evidence in trial or in sentencing hearing that
such mitigating circumstances exist in this case, . . . the capacity of the Defendant
to appreciate the criminality of his conduct or to conform his conduct to the
requirements of the law were substantially impaired could be a mitigating
circumstance. . . . that the Defendant grew up in a poor home environment, . . .
lacked appropriate developmental resources in growing up, . . . that the Defendant’s
level of intelligence is on the borderline, . . . that the Defendant when placed in a
structured environment has responded positively, . . . . In addition to the mitigating
circumstances that were specified by the law and those that I just read to you,
mitigating circumstances shall include any aspect of a Defendant’s character or
record and any circumstance through the defense that the Defendant offers as a
basis for a sentence of life imprisonment without parole instead of death.
(Doc. 23-8 at 196-97).
The Eleventh Circuit has consistently held that counsel is ineffective for failing to conduct
a reasonable investigation, not for failing to seek the assistance of experts. Reaves v. Sec’y, Fla.
Dep’t of Corr., 872 F.3d 1137, 1160 (11th Cir. 2017) (citing Barwick v. Sec'y, Fla. Dep't of Corr.,
794 F.3d 1239, 1244 (11th Cir. 2015) ("When mental health is at issue, counsel does not offer
ineffective assistance when it later becomes apparent that an expert who would have testified more
favorably than the expert who was actually called may have existed.") (internal citation omitted).9

9

[S]ee also Elledge v. Dugger, 823 F.2d 1439, 1447 n.17 (11th Cir.), opinion
withdrawn in part on denial of reh'g, 833 F.2d 250 (11th Cir. 1987) ("We emphasize
that the duty is only to conduct a reasonable investigation. Counsel is not required
to 'shop' for a psychiatrist who will testify in a particular way."); cf. Byram v.
Ozmint, 339 F.3d 203, 210 (4th Cir. 2003) ("[A] failure to 'shop around' for a
favorable expert opinion after an evaluation yields little in mitigating evidence does
not constitute ineffective assistance."); Walls v. Bowersox, 151 F.3d 827, 835 (8th
21
171a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 22 of 27

PageID #: 8009

Unlike the cases cited by Reeves, this is a case in which the new evidence of Drs. Goff and Salekin
“would barely have altered the sentencing profile presented to the sentencing judge.” Strickland,
supra, at 700; see also Glock v. Moore, 195 F.3d 625, 636 (11th Cir. 1999) (concluding petitioner
cannot show prejudice “where much of the new evidence that [petitioner] presents is merely
repetitive and cumulative to that which was presented at trial.”). While Dr. Ronan may not have
discovered or testified to every detail discussed by Dr. Salekin, she did similarly identify many
mitigating facts and explain to the jury how Reeves’s background and lower intelligence must be
considered when assessing how Reeves “got to where he is.” (Doc. 23-8 at 151). Despite hearing
testimony of Reeves’s “dysfunctional” upbringing and home life and being instructed on how such
factors are mitigating circumstances to be taken into consideration when determining the sentence
to impose on a defendant, the jury nevertheless recommended a sentence of death. (Doc. 23-8 at
149). The distinguishing facts laid out by Drs. Goff and Salekin fail to paint a different picture of
Reeves than that known to the jury; at best, their testimony simply adds a few shades of color. See
Holsey v. Warden, Georgia Diagnostic Prison, 694 F.3d 1230, 1260-61 (11th Cir. 2012) ("[T]he
United States Supreme Court, this Court, and other circuit courts of appeals generally hold that
evidence presented in postconviction proceedings is 'cumulative' or 'largely cumulative' to
or 'duplicative' of that presented at trial when it tells a more detailed version of the same story told
at trial or provides more or better examples or amplifies the themes presented to the jury.").

Cir. 1998) ("Counsel is not required to continue looking for experts just because
the one he has consulted gave an unfavorable opinion.") (quotation marks omitted);
Poyner v. Murray, 964 F.2d 1404, 1419 (4th Cir. 1992) ("The mere fact that his
counsel did not shop around for a psychiatrist willing to testify to the presence of
more elaborate or grave psychological disorders simply does not constitute
ineffective assistance.").
Reaves v. Sec’y, Fla. Dep’t of Corr., 872 F.3d 1137, 1160 (11th Cir. 2017).
22
172a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 23 of 27

PageID #: 8010

Consequently, the state court’s rejection of Reeves’s penalty phase ineffective assistance claim
was not an unreasonable application of clearly established law. White v. Woodall, 572 U.S. 118,
134 S. Ct. 1377, 1702, 188 L. Ed. 2d 392 (2014) (“[A]n unreasonable application of [Supreme
Court] holdings must be objectively unreasonable, not merely wrong; even clear error will not
suffice.”); Williams v. Taylor, 529 U.S. 362, 411, 120 S. Ct. 1495, 146 L. Ed. 2d 389 (2000) (Under
2254(d)(1)’s ‘unreasonable application’ clause . . . a federal habeas court may not issue the writ
simply because that court concludes in its independent judgment that the relevant state-court
decision applied clearly established federal law erroneously or incorrectly. Rather, that application
must also be unreasonable.”).
Likewise, the state court’s “factual determination is not unreasonable merely because the
federal habeas court would have reached a different conclusion in the first instance,” Wood v. Allen,
558 U.S. 290, 301, 130 S. Ct. 841, 175 L. Ed. 2d 738 (2010), or because jurist of reason could
disagree about the court’s conclusion. Brumfield v. Cain, 576 U.S. __, 135 S. Ct. 2269, 2277, 192
L. Ed. 2d 356 (2015) (“If reasonable minds reviewing the record might disagree about the finding
in question, on habeas review that does not suffice to supersede the trial court’s determination.”)
(internal quotation marks and alterations omitted). “[T]he fact that other witnesses could have
been called or other testimony elicited usually proves at most the wholly unremarkable fact that
with the luxury of time and the opportunity to focus resources on specific parts of a made record,
post-conviction counsel will inevitable identify shortcomings in the performance of prior counsel.”
Ledford v. Warden, Ga. Diagnostic & Classification Prison, 818 F.3d 600, 647 (11th Cir. 2016)
(quotation marks omitted).
Accordingly, Reeves has failed to identify manifest errors of law or fact, newly discovered
evidence, or changes in law germane to his petition. For these reasons, Reeves’s motion to

23
173a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 24 of 27

PageID #: 8011

reconsider Claim 3.c is denied and no Certificate of Appealability is warranted as to this claim for
relief.
C. Reconsideration of Juror-Misconduct Claim.
Petitioner Reeves’s final ground for relief relates to Claim 4 of his habeas petition. Reeves
argues that the Court misapplied clearly established law and seeks reconsideration of his juror
misconduct claim. Specifically, Reeves asserts that the Court reversed the burden applicable to
his claim by requiring him to not only plead but prove that the alleged juror misconduct affected
the verdict by holding in its January 8 Order that “Reeves did not allege ‘the nature of what reached
the jury or may have influenced the verdict or vote.’” (Doc. 43 at 17). This, however, is a
misstatement of the Court’s holding.
The state court determined that Reeves’s juror misconduct claims were insufficiently plead
to warrant an evidentiary hearing pursuant to Ala. R. Crim. P. Rule 32.6(b). Rule 32.6(b) requires
a petitioner to plead his claim with specificity, instructing:
Each claim in the petition must contain a clear and specific statement of the grounds upon
which relief is sought, including full disclosure of the factual basis of those grounds. A
bare allegation that a constitutional right has been violated and mere conclusions of law
shall not be sufficient to warrant any further proceedings.
In applying the statutory rule, the Alabama Court of Criminal Appeals relied heavily on Moody v.
State, 95 So. 3d 827 (Ala. Crim. App. 2011), and concluded that “at a minimum, [Reeves must]
identify the juror who . . . committed the misconduct, must allege specific facts indicating what
actions that juror took that the petitioner believes constituted the misconduct, and must allege
specific facts indicating how that juror’s actions denied the petitioner a fair trial.” (Doc. 29 at 71).
The appellate court reasoned that Reeves, in presenting his juror misconduct claim, failed to satisfy
his burden of pleading with specificity when: (1) he failed to identify the juror who committed the

24
174a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 25 of 27

PageID #: 8012

misconduct (other than by the reference of “Juror Jane Doe”); (2) failed to identify the juror who
allegedly changed her sentencing vote due to Juror Jane Doe’s private communication with he; (3)
failed to identify what information Juror Jane Doe received from extraneous sources; and (4) failed
to allege how the information prejudiced him. (Id.). On federal habeas review, this Court was
required to “answer two questions . . . . First, whether [Reeves’s] . . . Rule 32 petition and its
attached exhibits pleaded enough specific facts that, if proven, amount to a valid . . . claim. Second,
if [the court] answer[s] the first question in the affirmative, [it] must determine whether the
Alabama Court of Criminal Appeals’s decision to the contrary was unreasonable under §2254(d).”
Daniel v. Comm’r., 822 F.3d 1248, 1261 (11th Cir. 2016).
“[W]e are mindful that ‘at the pleading stage of Rule 32 proceedings in Alabama, a Rule
32 petitioner does not have the burden of proving his claims” and that the facts alleged in his
petition are assumed to be true. Id. (quotation and alterations omitted). We are also cognizant that
“[t]o obtain habeas relief a state prisoner must show that the state court’s ruling on the claim . . .
was so lacking in justification that there was an error well understood and comprehended in
existing law beyond any possibility for fairminded disagreement.” Evans v. Sec’y, Dep’t of Corr.,
703 F.3d 1316, 1326 (11th Cir. 2013) (citations omitted). “[I]f some fairminded jurists could agree
with the state court’s decision, although others might disagree, federal habeas relief must be
denied.” Holsey v. Warden, Georgia Diagnostic Prison, 694 F. 3d 1230, 1257 (11th Cir. 2012)
(citation omitted). Review of Reeves’s claim reveals that the pleading lacks full disclosure of
necessary details to make “a colorable showing that the exposure actually occurred.” United States
v. Ayarza-Garcia, 819 F.2d 1043, 1051 (11th Cir. 1987); accord., Hyde v. State, 950 So. 2d 344,
356 (Ala. Crim. App. 2006) (“The full factual basis for the claim must be included in the petition
itself.”). Review also reveals that the state court did not hold, and neither does this Court, that

25
175a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 26 of 27

PageID #: 8013

Reeves must provide or prove any of these factors in his pleading. Instead, the state court pointed
out unidentified facts and determined the cumulative vagueness of the affidavit fell on the side of
a conclusory allegation rather than full disclosure of the factual basis for the claim (as required by
§ 32.6(b)) and was insufficient to sustain his pleading burden. This Court explained that the duty
to investigate juror misconduct claims exists on a spectrum and concluded the evidence provided
by Reeves rested on the lower end of that spectrum. The Court, similarly, identified the missing
details from Reeves’s pleading and stated that “[t]he absence of details plead regarding the
extrinsic influence creates an unfillable void for the court in determining the nature of what reached
the jury or may have influenced the verdict vote.” (January 8 Order, Doc. 29 at 76-77). In other
words, Reeves failed to provide enough specific information to “make[] an adequate showing of
extrinsic influence to overcome the presumption of jury impartiality.” United States v. Barshov,
733 F.2d 842, 851 (11th Cir. 1984). The evidence presented supports that fairminded jurists could
disagree as to whether or not Reeves provided a “clear and specific statement [of his claim] . . .,
including full disclosure of the factual basis” of the claim as required by Alabama’s pleading
statute; thus, the Court held federal habeas relief was not warranted based on the deferential
standard of §2254(d).
In his current Rule 59(e) motion, Reeves fails to identify manifest errors of law or fact,
newly discovered evidence, or changes in law germane to his petition. Reeves primarily rehashes
previously considered and rejected contentions relating to his claims of ineffective assistance. Rule
59(e) relief is not warranted where a party simply reiterates arguments previously considered and
rejected in the underlying ruling. See, e.g., Mincey v. Head, 206 F.3d 1106, 1137 n.69 (11th Cir.
2000) (explaining that "[t]he function of a motion to alter or amend a judgment is not to serve as
a vehicle to relitigate old matters"); Atl. Specialty Ins. Co. v. Mr. Charlie Adventures, LLC, 2015

26
176a

Case 1:17-cv-00061-KD-MU Document 44 Filed 05/01/19 Page 27 of 27

PageID #: 8014

U.S. Dist. LEXIS 58859, 2015 WL 2095650, at *2 (S.D. Ala. May 5, 2015) (explaining that it "is
improper to utilize a motion to reconsider to ask a district court to rethink a decision once made,
merely because a litigant disagrees" with the outcome). For these reasons, Rule 59(e) relief is
denied.
In the alternative to reconsideration of his juror misconduct claim, Reeves requests that a
COA be issued. This motion is also DENIED.
IV.

Conclusion.
For the foregoing reasons, Petitioner Reeves’s Motion to Alter or Amend the Court’s

Judgment is DENIED.
DONE and ORDERED this the 1st day of May, 2019.

s/Kristi K. DuBose
CHIEF UNITED STATES DISTRICT JUDGE

27
177a

Cite as: 583 U. S. ____ (2017)

1

SOTOMAYOR, J., dissenting

SUPREME COURT OF THE UNITED STATES
MATTHEW REEVES v. ALABAMA
ON PETITION FOR WRIT OF CERTIORARI TO THE COURT OF
CRIMINAL APPEALS OF ALABAMA
No. 16–9282.

Decided November 13, 2017

The petition for a writ of certiorari is denied.
JUSTICE SOTOMAYOR, with whom JUSTICE GINSBURG
and JUSTICE KAGAN join, dissenting from the denial of
certiorari.
Petitioner Matthew Reeves was convicted by an Alabama jury of capital murder and sentenced to death. He
sought postconviction relief in state court based on, as
relevant here, several claims of ineffective assistance of
trial and appellate counsel. 1 Among those claims, Reeves
argued that his trial counsel was ineffective for failing to
hire an expert to evaluate him for intellectual disability,
despite having sought and obtained funding and an appointment order from the state trial court to hire a specific
neuropsychologist.
His postconviction counsel subsequently hired that same neuropsychologist, who concluded
that Reeves was, in fact, intellectually disabled. Reeves
contended that this and other evidence could have been
used during the penalty phase of his trial to establish
mitigation.
The Alabama Circuit Court held an evidentiary hearing
on Reeves’ postconviction petition, at which Reeves pre——————

1 Reeves also argued in his postconviction petition that he was constitutionally ineligible for the death penalty pursuant to Atkins v. Virginia, 536 U. S. 304 (2002). The Alabama Court of Criminal Appeals
rejected that claim, and Reeves does not challenge that decision in his
petition for writ of certiorari. Instead, he maintains that regardless of
whether he is ineligible for execution under Atkins, he has the right to
effective assistance in presenting evidence of his intellectual disability
as mitigation during the penalty phase of his trial. Pet. for Cert. 10,
n. 2.

178a

2

REEVES v. ALABAMA
SOTOMAYOR, J., dissenting

sented substantial evidence regarding his intellectual
disability and his counsel’s performance. He did not,
however, call his trial or appellate counsel to testify. The
court denied the petition, and the Alabama Court of Criminal Appeals affirmed. In doing so, the Court of Criminal
Appeals explained that a petitioner seeking postconviction
relief on the basis of ineffective assistance of counsel must
question his counsel about his reasoning and actions.
Without considering the extensive record evidence before
it regarding Reeves’ counsel’s performance or giving any
explanation as to why that evidence did not prove that his
counsel’s actions were unreasonable, the Court of Criminal
Appeals held that Reeves’ failure to call his attorneys to
testify was fatal to his claims of ineffective assistance of
counsel. The Alabama Supreme Court denied review.
There can be no dispute that the imposition of a categorical rule that counsel must testify in order for a petitioner
to succeed on a federal constitutional ineffectiveassistance-of-counsel claim contravenes our decisions
requiring an objective inquiry into the adequacy and
reasonableness of counsel’s performance based on the full
record before the court. Even Alabama does not defend
such a rule. Instead, the dispute here is whether the
Alabama Court of Criminal Appeals in fact imposed such a
rule in this case. I believe it plainly did so. For that
reason, I respectfully dissent from the denial of certiorari.
I
At his capital trial, Reeves was initially appointed two
attorneys, Blanchard McLeod, Jr., and Marvin Wiggins, to
represent him. Before trial, McLeod and Wiggins filed a
motion requesting that the court appoint Dr. John R. Goff,
a clinical neuropsychologist, as an expert “to evaluate,
test, and interview” Reeves and require the State to provide them with the necessary funds to hire Dr. Goff. 1
Record in No. 98–77 (Ala. Crim. App.), pp. 64–65 (Direct

179a

Cite as: 583 U. S. ____ (2017)

3

SOTOMAYOR, J., dissenting

Appeal Record). The trial court denied the motion, id., at
67, and McLeod and Wiggins requested rehearing. In the
rehearing request, the attorneys explained that they
“possesse[d] hundreds of pages of psychological, psychometric and behavioral analysis material” and “[t]hat a
clinical neuropsychologist or a person of like standing and
expertise [was] the only avenue open to the defense to
compile [and] correlate this information, interview
[Reeves,] and present this information in an orderly and
informative fashion to the jury during the mitigation
phase of the trial.” Id., at 68–69.
During a hearing on the request, McLeod represented
that hiring Dr. Goff was critical to the attorneys’ preparation for the mitigation phase of Reeves’ trial. He urged the
importance of retaining Dr. Goff right away, as Dr. Goff
would require time to review the existing records, interview people familiar with Reeves, and meet with Reeves
several times prior to testifying. 3 Direct Appeal Record,
Tr. in No. CC–97–31 (C. C. Dallas Cty., Ala.), pp. 9–10. As
support for that point, McLeod recounted that, in a recent
capital case in which another trial court had granted an
“identical” motion to appoint Dr. Goff, the counsel there
had filed “at a very late date” such that Dr. Goff “did not
have the time to adequately prepare” for that defendant’s
hearing, and the death penalty was imposed. Id., at 10.
The trial court reconsidered and granted the funding and
appointment requests. 1 id., at 75.
Shortly thereafter, McLeod withdrew as counsel and
was replaced by Thomas Goggans. Wiggins, however,
remained as counsel on the case, and he and Goggans
represented Reeves at trial.
Despite having received funding and an appointment
order from the court, Reeves’ trial counsel never contacted
Dr. Goff, nor did they hire any other expert to evaluate
Reeves for intellectual disability, notwithstanding the
“hundreds of pages” of materials they possessed. 13 Rec-

180a

4

REEVES v. ALABAMA
SOTOMAYOR, J., dissenting

ord in No. CC–97–31.60 (Rule 32 Record), pp. 66–67; 4 id.,
at 697; 5 id., at 862.
After the guilt phase of the trial concluded, the jury
convicted Reeves of capital murder. During the penalty
phase, Reeves’ trial counsel called three mitigation witnesses. First, they called Detective Pat Grindle, the officer
in charge of investigating the murder, who gave a physical
description of Reeves’ childhood home based on his search
of the house during the investigation. 8 Direct Appeal
Record, Tr. 1118–1122; ___ So. 3d ___, 2016 WL 3247447,
*3 (Ala. Crim. App., June 10, 2016). Next, petitioner’s
mother testified about Reeves’ childhood, including that he
had repeated two grades, was put in “special classes,”
received mental health services starting in second or third
grade, and was expelled in eighth grade. 8 Direct Appeal
Record, Tr. 1127. She also testified that, when he was
young, Reeves had “little blackout spells” and would report
“seeing things,” and that he was shot in the head a few
months before the murder for which he was convicted. Id.,
at 1127, 1131, 1137, 1120–1150. Finally, Reeves’ counsel
called Dr. Kathleen Ronan, a court-appointed clinical
psychologist, with whom counsel met and spoke for the first
time shortly before she took the witness stand. 4 Rule 32
Record 609. Dr. Ronan had evaluated Reeves for the
purposes of assessing his competency to stand trial and
his mental state at the time of the offense, but had not
conducted a penalty-phase evaluation or evaluated Reeves
for intellectual disability. Ibid. Dr. Ronan testified that
she had given Reeves only the verbal part of an intelligence test, noting that this was the “portion [of the test
that] taps into the issues that were being asked by the
Court,” and had concluded based on that partial assessment that he was at “the borderline of mental retardation.” 8 Direct Appeal Record, Tr. 1165.
The jury deliberated for less than an hour. 8 Direct
Appeal Record 1227. By a vote of 10 to 2, they recom-

181a

Cite as: 583 U. S. ____ (2017)

5

SOTOMAYOR, J., dissenting

mended that Reeves be sentenced to death. 2 2 id., at 233.
The trial judge then considered the aggravating and mitigating circumstances and found two mitigating factors:
Reeves’ age and lack of significant prior criminal history.
Id., at 236. He expressly refused to find that Reeves’
“capacity . . . to appreciate the criminality of his conduct or
to conform his conduct to the requirements of law was
substantially impaired.” Ala. Code §13A–5–51(6) (2015); 2
Direct Appeal Record 237. The trial judge found that the
aggravating circumstances outweighed the two mitigating
ones and sentenced Reeves to death. Id., at 239.
After his conviction and sentence were affirmed on
direct appeal, during which Goggans continued to represent him, Reeves, with the assistance of new counsel,
sought postconviction relief in state court pursuant to
Rule 32 of the Alabama Rules of Criminal Procedure. He
alleged, inter alia, ineffective assistance of both his trial
and appellate counsel. Among his claims were that his
trial counsel were ineffective for failing to hire Dr. Goff or
another neuropsychologist to evaluate him for intellectual
disability, failing to present expert testimony of intellectual disability during the penalty phase to establish a mitigating circumstance, and failing to conduct an adequate
mitigation investigation.
The Alabama Circuit Court held a 2-day hearing on
Reeves’ Rule 32 petition. Reeves did not call McLeod,
Wiggins, or Goggans to testify. 3 He did, however, call Dr.
Goff, who had evaluated Reeves for purposes of his post——————
2 Had

only one more juror voted against imposing the death penalty,
the jury could not have recommended death. Ala. Code §13A–5–46(f )
(2015).
3 Reeves implies in his petition for writ of certiorari that one reason
he did not call Wiggins to testify was that Wiggins had become a statecourt judge by the time the Rule 32 proceedings had started and thus
would have had to testify before one of his judicial colleagues about
whether his prior professional conduct had been deficient.

182a

6

REEVES v. ALABAMA
SOTOMAYOR, J., dissenting

conviction petition. Dr. Goff testified based on his review
of Reeves’ childhood and adolescent records and the results of a battery of tests designed to assess IQ, neuropsychological functioning, cognitive abilities, and adaptive
functioning. He concluded that Reeves had significantly
subaverage intellectual functioning and significant deficits
in multiple areas of adaptive functioning, both of which
manifested before Reeves was 18 years old, and that
Reeves therefore was intellectually disabled. 2016 WL
3247447, *11–*12. Dr. Goff further testified that, had
Reeves’ trial counsel asked him to evaluate Reeves years
earlier for purposes of testifying at trial, he would have
performed similar evaluations and reached the same
conclusion. 13 Rule 32 Record 21–22, 66–68; 4 id., at 704.
Reeves also introduced testimony from Dr. Ronan about
the limitations of her earlier evaluation. She stated in an
affidavit that even though she had been asked “only to
evaluate [Reeves] for the purposes of Competence to Stand
Trial and Mental State at the Time of Offense, i.e., for the
trial phase of the case,” and “was not requested to complete a sentencing phase evaluation” or “extensive clinical
evaluation regarding mental retardation,” Reeves’ counsel
nonetheless “called [her] to testify at the sentencing
phase.” Id., at 609. Dr. Ronan explained that “[t]he evaluation for [c]apital sentencing would contain different
components than those for the trial phase evaluations, and
would be more extensive in terms of testing and background investigation.” Id., at 610. She confirmed that
Reeves’ counsel would have known about these differences, because she “informed [them] as to the limitations
of any testimony during [c]apital sentencing, in that the
original evaluation was not performed for that purpose.”
Id., at 609.
In addition, Reeves presented a report and testimony
from Dr. Karen Salekin, a forensic and developmental
psychologist who conducted a mitigation evaluation. 13

183a

Cite as: 583 U. S. ____ (2017)

7

SOTOMAYOR, J., dissenting

id., at 111, 118, 125. Dr. Salekin testified about her assessment of the risk factors in Reeves’ life and stated that,
based on her review of the evidence presented at trial, Dr.
Ronan and Reeves’ mother had failed to identify several of
those factors and had inadequately addressed the impact
of others during their testimony at the sentencing hearing.
Id., at 130–190. Among those factors were the harmful
influence of Reeves’ brother and Reeves’ exposure to domestic violence, guns, and substance abuse as a child. Id.,
at 140, 144–150.
The State presented one rebuttal witness, Dr. Glen
David King, a clinical and forensic psychologist who testified that, based on his testing and the information available to him, Reeves “was in the borderline range of intellectual ability, but was not intellectually disabled.” 2016 WL
3247447, *18. On cross-examination, Dr. King acknowledged that Reeves had achieved a score of 68 on an IQ test
Dr. King administered, and on that basis, suffered from
significant subaverage intellectual functioning. Ibid. Dr.
King also testified on cross-examination that his testing
revealed that Reeves’ adaptive functioning skills in three
categories—domestic activity, prevocational/vocational
activity, and self-direction—were in the 25th percentile of
developmentally disabled individuals. Id., at *17–*18; 14
Rule 32 Record 265–268, 273–280; 2 id., at 385.
Following the Rule 32 hearing, the Circuit Court held
that Reeves failed to prove his ineffective-assistance
claims. The Alabama Court of Criminal Appeals affirmed
on the basis that Reeves did not present testimony of his
former counsel. The court stressed that “ ‘to overcome the
strong presumption of effectiveness, a Rule 32 petitioner
must, at his evidentiary hearing, question trial counsel
regarding his or her actions and reasoning.’ ” 2016 WL
3247447, *29 (quoting Stallworth v. State, 171 So. 3d 53,
92 (Ala. Crim. App. 2013); emphasis in original). “The
burden was on Reeves to prove by a preponderance of the

184a

8

REEVES v. ALABAMA
SOTOMAYOR, J., dissenting

evidence that his counsel’s challenged decisions were not
the result of reasonable strategy,” the court explained.
2016 WL 3247447, *31. “[B]ecause Reeves failed to call
his counsel to testify, the record is silent as to the reasons
trial counsel” made various decisions, including the choice
“not to hire Dr. Goff or another neuropsychologist to evaluate Reeves for intellectual disability” and the choice “not
to present testimony from such an expert during the penalty phase of the trial . . . in order to establish a mitigating
circumstance.” Ibid. The court therefore concluded, without any consideration of the ample evidence before it of
Reeves’ counsel’s actions and reasoning, that the presumption of effectiveness had not been disturbed and rejected
Reeves’ ineffective-assistance claims. Id., at *32. The
Alabama Supreme Court denied review.
Reeves petitioned for a writ of certiorari. He contended
that the state appellate court’s position that a defendant
must present his counsel’s testimony to establish that his
counsel’s performance was deficient is unreasonable under
and at odds with Strickland v. Washington, 466 U. S. 668
(1984). I agree. Because I further agree that the proceeding below was tainted by this constitutional error, I would
grant the petition and summarily reverse.
II
A
Strickland established the legal principles governing
ineffective-assistance-of-counsel claims. Namely, a defendant must show both deficient performance and prejudice. Id., at 687. It is the first prong of the Strickland test
that is at issue here. In assessing deficiency, a court
presumes that counsel “rendered adequate assistance and
made all significant decisions in the exercise of reasonable
professional judgment.” Id., at 690. The burden to rebut
that strong presumption rests with the defendant, id., at
687, who must present evidence of what his counsel did or

185a

Cite as: 583 U. S. ____ (2017)

9

SOTOMAYOR, J., dissenting

did not do, see Burt v. Titlow, 571 U. S. ___, ___ (2013).
This Court has never, however, required that a defendant present evidence of his counsel’s actions or reasoning
in the form of testimony from counsel, nor has it ever
rejected an ineffective-assistance claim solely because the
record did not include such testimony. Rather, Strickland
and its progeny establish that when a court is presented
with an ineffective-assistance-of-counsel claim, it should
look to the full record presented by the defendant to determine whether the defendant satisfied his burden to
prove deficient performance. The absence of counsel’s
testimony may make it more difficult for a defendant to
meet his burden, but that fact alone does not absolve a
court of its duty to look at the whole record and evaluate
the reasonableness of counsel’s professional assistance in
light of that evidence.
That Strickland does not require testimony from counsel
to succeed on an ineffective-assistance claim is clear from
past decisions in which this Court has found deficient
performance despite such testimony, based on review of
the full record. For example, in Wiggins v. Smith, 539
U. S. 510 (2003), the Court considered the decision of two
attorneys “to limit the scope of their investigation into
potential mitigating evidence.” Id., at 521. Counsel justified their limited investigation as reflecting a tactical
judgment to pursue an alternative strategy, ibid., but the
Court did not simply accept that explanation at face value.
Instead, it “conduct[ed] an objective review of their performance.” Id., at 523. In reviewing “[t]he record as a
whole,” id., at 531, the Court considered, among other
evidence, that the State had made funds available for the
retention of a forensic social worker to prepare a social
history report, yet counsel had decided not to commission
such a report, id., at 516–517, 524. Based on the record,
the Court concluded that the attorneys’ conduct was unreasonable, “not reasoned strategic judgment” as they had

186a

10

REEVES v. ALABAMA
SOTOMAYOR, J., dissenting

testified. Id., at 526.
In Porter v. McCollum, 558 U. S. 30 (2009) (per curiam),
the Court again addressed a claim of an attorney’s alleged
failure to investigate and present mitigating evidence.
Counsel there also testified at the postconviction hearing
about his preparation for the penalty phase, but the Court
still looked at the full record to assess whether the defendant had nevertheless demonstrated deficient performance. For instance, the Court pointed to court-ordered
competency evaluations in the record that discussed the
defendant’s academic history, military service, and
wounds sustained during combat, and observed, based on
that evidence, that counsel had “ignored pertinent avenues for investigation of which he should have been
aware.” Id., at 40. Again, here, trial counsel’s testimony
about his reasoning did not defeat the ineffectiveassistance-of-counsel claim, given the Court’s consideration of the evidence in the record as a whole.
As Porter and Wiggins illustrate, trial counsel’s testimony is not sufficient to find adequate performance when the
full record rebuts the reasonableness of the proffered
justification. It cannot be, then, that such testimony is
necessary in every case. Where counsel does not testify
but the defendant offers other record evidence, a court can
simply presume that counsel would have justified his
actions as tactical decisions and then consider whether the
record rebuts the reasonableness of that justification.
Not only is the imposition of a per se rule requiring
testimonial evidence from counsel inconsistent with our
precedent, it is also at odds with the Court’s observation in
Massaro v. United States, 538 U. S. 500 (2003), that ineffective-assistance claims need not always be brought on
collateral review because “[t]here may be cases in which
trial counsel’s ineffectiveness is so apparent from the
record that appellate counsel will consider it advisable to
raise the issue on direct appeal” or an appellate court will

187a

Cite as: 583 U. S. ____ (2017)

11

SOTOMAYOR, J., dissenting

address the deficiencies sua sponte. Id., at 508. As a
challenge on direct appeal is made without any further
factual development, Massaro necessarily recognized that
an ineffective-assistance-of-counsel claim can be proved
even absent counsel’s testimony.
Lastly, that courts have a duty to look to the whole
record when considering whether a defendant has met his
burden makes good practical sense. There are many
reasons why counsel may be unable or unwilling to testify
about his reasoning, including death, illness, or memory
loss. Such circumstances should not in and of themselves
defeat an ineffective-assistance claim.
B
Alabama rightly does not attempt to defend the Court of
Criminal Appeals’ rule on its merits. Instead, the State
asserts that Reeves misreads the decision below. The
Court of Criminal Appeals, it maintains, did not hold that
trial counsel’s testimony is required to prove an ineffective-assistance claim. Brief in Opposition 14. Rather, in
the State’s view, the court “made the sound decision that
Reeves failed to prove his ineffective assistance of counsel
claims” because he “failed to present any evidence, including the testimony of trial counsel, to prove that his attorney’s strategic decisions were unreasonable.” Id., at 16.
That position, however, is belied by the record before the
court and the decision’s express language and analysis.
Reeves presented ample evidence in support of his claim
that his counsel’s performance was deficient, but the court
never considered or explained why, in light of that evidence, his counsel’s strategic decisions were reasonable. It
rested its decision solely on the fact that Reeves had not
called his counsel to testify at the postconviction hearing.
In the course of explaining the requirement that a defendant must overcome the strong presumption that counsel acted reasonably with “evidence to the contrary,” 2016

188a

12

REEVES v. ALABAMA
SOTOMAYOR, J., dissenting

WL 3247447, *28 (emphasis in original), the decision
below plainly stated, with emphasis, that “ ‘to overcome
the strong presumption of effectiveness, a Rule 32 petitioner must, at his evidentiary hearing, question trial
counsel regarding his or her actions and reasoning,’ ” id.,
at *29 (quoting Stallworth, 171 So. 3d, at 92). That pronouncement was followed by citations to other Alabama
Court of Criminal Appeals cases with explanatory parentheticals noting that those decisions had held “that a
petitioner failed to meet his burden of overcoming the
presumption that counsel were effective because the petitioner failed to question . . . counsel regarding their reasoning.” 2016 WL 3247447, *29 (citing Broadnax v. State,
130 So. 3d 1232, 155–156 (2013); Whitson v. State, 109 So.
3d 665, 676 (2012); Brooks v. State, 929 So. 2d 491, 497
(2005); McGahee v. State, 885 So. 2d 191, 221–222 (2003)).
This was not mere stock language. The appellate court
unquestionably applied this requirement to Reeves’
claims. At the outset of its analysis, it announced that
“Reeves’s failure to call his attorneys to testify is fatal to
his claims of ineffective assistance of counsel.” 2016 WL
3247447, *30. As described above, the court explained
that “because Reeves failed to call his counsel to testify,
the record [was] silent” as to his counsel’s reasons and
actions, and the presumption of effective assistance therefore could not be rebutted. Id., at *31, *32. In total, the
court emphasized that Reeves did not call his counsel to
testify at five different points in the opinion. Id., at *4,
*28, *30, *31, *32.
Unlike the whole-record analysis undertaken in Wiggins
and Porter, the Alabama Court of Criminal Appeals never
considered whether the other, non-counsel-testimony
evidence before it could rebut the presumption of reasonable professional assistance. Its failure to do so is baffling
given that there was ample such evidence in the record
below, all of which Reeves pointed the court to in his brief.

189a

Cite as: 583 U. S. ____ (2017)

13

SOTOMAYOR, J., dissenting

See Brief for Appellant in No. CR–13–1504, pp. 58–82.
For instance, the Court of Criminal Appeals had before
it trial counsel’s two motions for the appointment and
funding of Dr. Goff, in which they explained why his assistance and testimony would be critical to the case;
the representations made by Reeves’ counsel during the
pretrial hearing on the rehearing motion; and the trial
court’s order granting the request. From those motions
and representations, the court knew that trial counsel had
in their possession voluminous materials bearing on
Reeves’ intellectual impairments. The court further knew
from the record and Dr. Goff’s testimony at the Rule 32
hearing that, despite the appointment order and funding,
Reeves’ counsel never contacted him and never obtained
any other intellectual disability evaluation in preparation
for trial.
The court also knew from Dr. Ronan’s affidavit that the
first time Reeves’ counsel spoke with her was shortly
before she took the stand and that she had not conducted
a penalty-stage evaluation, evaluated Reeves for intellectual disability, or administered a complete IQ test. Moreover, it knew that a capital sentencing evaluation would
have involved different components and been more extensive, and that Reeves’ attorneys were informed as to such
differences.
The court, too, knew that Dr. Salekin had presented
significant mitigation evidence at the Rule 32 hearing that
was not set forth in any testimony during the sentencingphase hearing.
The Alabama Court of Criminal Appeals was not free to
ignore this evidence simply because Reeves did not call his
counsel to testify at the postconviction hearing. On this
point, Strickland could not be more clear:
“[A] court deciding an actual ineffectiveness claim
must judge the reasonableness of counsel’s challenged

190a

14

REEVES v. ALABAMA
SOTOMAYOR, J., dissenting

conduct on the facts of the particular case, viewed as
of the time of counsel’s conduct. A convicted defendant making a claim of ineffective assistance must
identify the acts or omissions of counsel that are alleged not to have been the result of reasonable professional judgment. The court must then determine
whether, in light of all the circumstances, the identified acts or omissions were outside the wide range of
professionally competent assistance.” 466 U. S., at 690.
Reeves identified the omissions of his counsel that he
alleged were constitutionally deficient. He presented
evidence of what his counsel knew, which included several
red flags indicating intellectual disability; what his counsel believed to be necessary for his defense, which included
funding for an expert to evaluate him for intellectual
disability; what his counsel did, which included repeatedly
asking for and securing such funding; and what his counsel did not do, which included failing to then use that
funding to hire such an expert and failing to present evidence of intellectual disability as mitigation. In so doing,
Reeves upheld his end of the evidentiary bargain. The
Alabama Court of Criminal Appeals, on the other hand,
did not. It never explained, in light of the substantial
record before it, why the choices Reeves’ counsel made
were reasonable.
Strickland and its progeny demand more. In light of the
constitutional error below, I would grant the petition for
writ of certiorari, reverse, and remand so that the Court of
Criminal Appeals could explain why, given the full factual
record, Reeves’ counsel’s choices constituted reasonable
performance. Instead, the Court has cleared the way for
Reeves’ execution. That is a result with which I cannot
agree.
I respectfully dissent from the denial of certiorari.

191a

REL: 06/10/2016

Notice: This opinion is subject to formal revision before publication in the advance
sheets of Southern Reporter. Readers are requested to notify the Reporter of Decisions,
Alabama Appellate Courts, 300 Dexter Avenue, Montgomery, Alabama 36104-3741 ((334)
229-0649), of any typographical or other errors, in order that corrections may be made
before the opinion is printed in Southern Reporter.

ALABAMA COURT OF CRIMINAL APPEALS
OCTOBER TERM, 2015-2016
_________________________
CR-13-1504
_________________________
Matthew Reeves
v.
State of Alabama
Appeal from Dallas Circuit Court
(CC-97-31.60)
KELLUM, Judge.
Matthew Reeves appeals the circuit court's denial of his
petition for postconviction relief filed pursuant to Rule 32,
Ala. R. Crim. P., in which he attacked his capital-murder
conviction and sentence of death.

192a

CR-13-1504
In 1998, Reeves was convicted of murder made capital
because it was committed during the course of a robbery in the
first degree, see § 13A-5-40(a)(2), Ala. Code 1975. By a vote
of 10-2, the jury recommended that Reeves be sentenced to
death for his capital-murder conviction.

The trial court

followed the jury's recommendation and sentenced Reeves to
death.

This Court affirmed Reeves's conviction and sentence

on appeal.
2000).

Reeves v. State, 807 So. 2d 18 (Ala. Crim. App.

The Alabama Supreme Court denied certiorari review,

and this Court issued a certificate of judgment on June 8,
2001.

The United States Supreme Court subsequently denied

certiorari review on November 13, 2001.

Reeves v. Alabama,

534 U.S. 1026 (2001).
In

our

opinion

affirming

Reeves's

conviction

and

sentence, this Court set out the facts of the crime as
follows:
"The State's evidence tended to show the
following. On November 27, 1996, the appellant (who
was 18 years old at the time) and his younger
brother,
Julius,
visited
Brenda
Suttles
and
Suttles's 15–year–old cousin, Emanuel, at Suttles's
house on Lavender Street in Selma. There, according
to Suttles, everyone agreed to go out 'looking for
some robberies.' (R. 684.) Shortly after noon that
day, the foursome left Suttles's house on foot and
walked to a nearby McDonald's restaurant, where they
2

193a

CR-13-1504
saw Jason Powell driving by in his car.
The
appellant's brother, Julius, flagged Powell down,
and Powell agreed to give the group a ride.
"Brenda Suttles and Emanuel Suttles testified
that after the foursome got into Powell's car,
Julius Reeves suggested that they go to White Hall,
a town in neighboring Lowndes County, to rob a drug
dealer.
According to Brenda Suttles, everyone in
the car agreed to the plan.
(Powell, who also
testified at trial, denied hearing the discussion
about a robbery.) Before leaving Selma, the group
stopped at an apartment on Broad Street.
Julius
Reeves went inside the apartment and returned to the
car a short time later carrying a shotgun, which he
handed to the appellant. With Powell driving, the
group then headed for White Hall.
"Before they reached White Hall, however,
Powell's car broke down on a dirt road off Highway
80. Shortly thereafter, a passing motorist, Duane
Smith, stopped and told the group that he was in a
hurry to meet some friends to go hunting, but that
he would return around sunset and would take them to
get help then. For the next couple of hours, the
group sat in Powell's car and listened to music,
until another passing motorist, Willie Johnson,
stopped in his pickup truck and offered to tow
Powell's car to Selma. Using some chains that he
kept in his pickup truck, Johnson hooked Powell's
car to the back of his truck. With Julius Reeves
riding in the truck with him and the others in
Powell's car, Johnson towed the car to the Selma
residence where the appellant and Julius lived with
their mother.
"When they arrived at the Reeveses' house,
Julius Reeves got out of Johnson's truck and told
the others that Johnson wanted $25 for towing them.
However, no one had any money to pay Johnson.
Julius Reeves then offered to give Johnson a ring as
payment if Johnson would drive him to his
3

194a

CR-13-1504
girlfriend's house to get the ring. Johnson agreed
and he unhooked Powell's car from his truck.
According to Jason Powell and Emanuel Suttles,
Julius Reeves at this point told the others that
Johnson was going to be their robbery victim. While
Jason Powell and Emanuel Suttles stayed behind with
Powell's car in front of the Reeveses' house, Julius
Reeves got back in the cab of the truck with
Johnson, and Brenda Suttles climbed into the rear
bed of the truck.
Testimony indicated that when
Johnson started the truck, the appellant jumped into
the rear bed of the truck with the shotgun, hiding
the weapon behind his leg as he did so.
"When they arrived at Julius's girlfriend's
house in Johnson's truck, Julius went inside and
retrieved the ring he had promised to give Johnson
as payment.
According to Brenda Suttles, when
Julius came out of the house, he walked to the rear
of Johnson's truck and told her and the appellant
that he was not going to let Johnson keep the ring.
After Julius got back in the cab of the truck,
Johnson drove everyone back to the Reeveses' house.
"Jason Powell and Emanuel Suttles, who had
remained at the house with Powell's car, testified
that sometime around 7:00 p.m., they saw Johnson's
truck drive by the house and turn into an alley -known as Crockett's Alley -- behind the house.
According to Brenda Suttles, who was in the rear bed
of the truck with the appellant, just as the truck
came to a stop in the alley, she heard a loud 'pow'
sound. (R. 704.) Suttles testified that when she
looked up, the appellant was withdrawing the barrel
of the shotgun from the open rear window of the
truck's cab. Johnson had been shot in the neck and
was slumped over in the driver's seat.
Suttles
testified that Julius Reeves jumped out of the
truck's cab and asked the appellant what he had
done, and that the appellant then told Julius and
Suttles to go through Johnson's pockets to 'get his
money.' (R. 704.) Suttles stated that Julius then
4

195a

CR-13-1504
pulled Johnson out of the truck and went through his
pockets, giving the money he found in the pockets to
the appellant.
After Julius had gone through
Johnson's pockets, Suttles helped him put Johnson
back in the truck's cab. According to Suttles,
Johnson was bleeding heavily and making 'gagging'
noises. (R. 721.)
"Jason Powell and Emanuel Suttles testified that
they heard the gunshot after Johnson's truck pulled
into Crockett's Alley and that a short time later
they saw the appellant, Julius Reeves, and Brenda
Suttles run out of the alley and into the Reeveses'
house. The appellant was carrying a shotgun, they
said. They followed the appellant, Julius Reeves,
and Brenda Suttles into the Reeveses' house and saw
the appellant place the shotgun under a bed in his
bedroom.
The appellant told Julius and Brenda
Suttles to change out of their bloodstained clothes
and shoes, and he took the clothes and shoes and
stuffed them under a dresser in his bedroom.
According to Emanuel Suttles, as the appellant,
Julius, and Brenda changed their clothes, they were
'jumping and hollering' and celebrating about 'all
the stuff [they] got' from Johnson.
(R. 842.)
Jason Powell testified that he heard the appellant
say, 'I made the money.' (R. 786.)
"After changing their clothes, the appellant,
Julius Reeves, and Brenda Suttles ran to Suttles's
house. On the way, the appellant stopped to talk to
his girlfriend, telling her that if she should be
questioned by the police, to tell them that he had
been with her all day.
At Suttles's house, the
appellant divided the money taken from Johnson -approximately $360 -- among himself, Julius Reeves,
and Brenda Suttles.
Testimony indicated that
throughout the evening, the appellant continued to
brag about having shot Johnson. Several witnesses
who were present at Suttles's house that evening
testified that they saw the appellant dancing,
'throwing up' gang signs, and pretending to pump a
5

196a

CR-13-1504
shotgun.
Brenda Suttles testified that as the
appellant danced, he would jerk his body around in
a manner 'mock[ing] the way that Willie Johnson had
died.' (R. 713.) The appellant was also heard to
say that the shooting would earn him a 'teardrop,'
a gang tattoo acquired for killing someone.
(R.
720.)
"Yolanda Blevins, who was present during the
post-shooting 'celebration' at Suttles's house,
testified that the appellant called her into the
kitchen and told her that he had shot a man in a
truck after catching a ride with him.
Blevins
noticed that there was what appeared to be dried
blood on the appellant's hands. LaTosha Rodgers,
who was also present at Suttles's house, testified
that the appellant told her that he had 'just shot
somebody' in the alley. (R. 924.)
"At around 2:00 a.m. on November 28, 1996
(approximately seven hours after the shooting),
Selma police received a report of a suspicious
vehicle parked in Crockett's Alley.
When police
officers investigated, they found Johnson's body
slumped across the seat of his pickup truck. There
was a pool of blood on the ground on the driver's
side of the truck. Several coins and a diamond ring
were on the ground near the truck.
On the
floorboard of the truck, police found wadding from
a shotgun shell. The pockets of Johnson's pants had
been turned inside out and were empty. Testimony at
trial indicated that Johnson was a longtime employee
of the Selma Housing Authority and that on the
afternoon of November 27, 1996, he had cashed his
paycheck, which had been in the amount of $500.
"At the shooting scene on the morning of
November 28, police also discovered a trail of blood
leading from Johnson's truck to the Reeveses' house.
Randy Tucker, a canine-patrol officer with the Selma
Police Department, testified that his dog tracked
the blood trail from the pool of blood next to
6

197a

CR-13-1504
Johnson's truck, down Crockett's Alley, through the
yard at 2126 Selma Avenue (the residence next to the
alley), and ultimately to the front steps of the
Reeveses' house at 2128 Selma Avenue.
"Pat Grindle, the detective in charge of
investigating
Johnson's
murder,
went
to
the
Reeveses' house after learning that the blood trail
led there. Det. Grindle testified that he obtained
the consent of the appellant's mother, Marzetta
Reeves, to search the house. In a bedroom shared by
the appellant and Julius, Det. Grindle found
bloodstained clothes and bloodstained shoes; under
a bed in this bedroom, Det. Grindle found a shotgun.
In searching the kitchen, Det. Grindle found a pair
of bloodstained pants.
After making these
discoveries, Det. Grindle questioned Marzetta Reeves
and several other persons who were in the house at
that time. Det. Grindle stated that he learned that
the bloodstained clothes and shoes belonged to
Julius Reeves, Brenda Suttles, and the appellant.
Det. Grindle then went to Suttles's house in an
attempt to locate the three. At Suttles's house,
Det. Grindle found the appellant lying on a couch in
a front room.
The appellant was placed under
arrest, and the officers seized a balled-up
bloodstained jacket he was using as a headrest on
the couch.
Det. Grindle later returned to the
Reeveses' residence, where he seized a 12 gauge
shotgun shell from a garbage can in the bathroom.
"An autopsy revealed that Johnson had died from
a shotgun wound to his neck that severed the carotid
artery, causing him to bleed to death over a period
of several minutes.
Bloodstain patterns in
Johnson's truck indicated that he was sitting
upright in the driver's seat, facing forward, when
he was shot from behind, through the open rear
window. The bloodstain patterns also indicated that
the driver's side door had been opened and closed
shortly after Johnson was shot.

7

198a

CR-13-1504
"Testimony indicated that the appellant's
fingerprints were found on the shotgun that Det.
Grindle had seized from under the bed in the
appellant's bedroom.
Brenda Suttles's and Julius
Reeves's fingerprints were found on a fender of
Johnson's truck. Joseph Saloom, a firearms expert
with the Alabama Department of Forensic Sciences,
testified that the shotgun shell seized from the
bathroom at the Reeveses' residence was of the type
commonly fired from the shotgun seized from the
appellant's bedroom.
Saloom stated that the
shotgun-shell wadding found on the floorboard of
Johnson's truck was of the type commonly found in
the kind of shotgun shell seized from the bathroom
at the Reeveses' residence."
Reeves, 807 So. 2d at 24-26.1
Reeves timely filed his Rule 32 petition on October 30,
2002.2

He filed an amended petition on February 26, 2003, and

a second amended petition on August 31, 2006.

The circuit

court, Reeves, and the State treated the second amended
petition as superseding the previous petitions, and we do the

1

This Court may take judicial notice of its own records,
and we do so in this case. See Nettles v. State, 731 So. 2d
626, 629 (Ala. Crim. App. 1998), and Hull v. State, 607 So. 2d
369, 371 n.1 (Ala. Crim. App. 1992).
2

Rule 32.2(c), Ala. R. Crim. P., was amended effective
August 1, 2002, to reduce the limitations period from two
years to one year. However, in cases in which the certificate
of judgment was issued before July 31, 2001, as here, the twoyear limitations period applies. See Ex parte Gardner, 898
So. 2d 690, 691 (Ala. 2004).
8

199a

CR-13-1504
same.3

See, e.g., Smith v. State, 160 So. 3d 40, 47-49 (Ala.

Crim. App. 2010).

In his petition, Reeves raised claims of

ineffective assistance of both trial and appellate counsel, of
trial court error, and of juror misconduct.
alleged

that

therefore,

he

his

was

death

intellectually
sentence

was

disabled

Reeves also
and

that,

unconstitutional

under

Atkins v. Virginia, 536 U.S. 304 (2002).4

The State filed an

answer to the petition on October 28, 2006. The circuit court
conducted an evidentiary hearing on the petition on November
28-29, 2006.

At the hearing, Reeves called two witnesses to

testify, and the State called one witness.

Reeves did not

call his trial and appellate attorneys to testify.

The

3

All references in this opinion to the petition shall be
considered references to the second amended petition filed on
August 31, 2006.
4

In Atkins, the United States Supreme Court used the term
"mental retardation."
However, more recently in Hall v.
Florida, 572 U.S. ___, 134 S.Ct. 1986 (2014), the United
States Supreme Court recognized that psychiatrists and other
experts had stopped using the term "mental retardation" and
had begun using the term "intellectual disability," and the
Court
used
the
terms
"intellectual
disability"
and
"intellectually disabled" throughout its opinion in Hall and
again in its subsequent opinion in Brumfield v. Cain, ___ U.S.
___, 135 S.Ct. 2269 (2015). This Court followed that trend in
Lane v. State, [Ms. CR-10-1343, April 29, 2016] ___ So. 3d ___
(Ala. Crim. App. 2016) (opinion after remand by the United
States Supreme Court), and we do so in this opinion.
9

200a

CR-13-1504
parties also submitted numerous documentary exhibits.

On May

7, 2008, the State filed a proposed order denying Reeves's
petition.

On September 9, 2008, Reeves filed a written

objection to the State's proposed order and a post-hearing
brief. On October 26, 2009, the circuit court issued an order
denying Reeves's petition.
The record indicates that the parties were not notified
of the circuit court's ruling until January 2013. Reeves then
filed another Rule 32 petition pursuant to Rule 32.1(f), Ala.
R. Crim. P., requesting an out-of-time appeal from the circuit
court's October 26, 2009, order denying his first petition.
The circuit court ultimately granted Reeves an out-of-timeappeal on May 30, 2014.

This appeal followed.

In a Rule 32 proceeding, both the burden of pleading and
the burden of proof are on the petitioner.

See Rule 32.3,

Ala. R. Crim. P. ("The petitioner shall have the burden of
pleading and proving by a preponderance of the evidence the
facts necessary to entitle the petitioner to relief.").

"On

direct appeal we reviewed the record for plain error; however,
the plain-error standard of review does not apply to a Rule 32
proceeding attacking a death sentence." Ferguson v. State, 13

10

201a

CR-13-1504
So. 3d 418, 424 (Ala. Crim. App. 2008).

Therefore, "[t]he

general rules of preservation apply to Rule 32 proceedings,"
Boyd v. State, 913 So. 2d 1113, 1123 (Ala. Crim. App. 2003),
and this Court "will not review issues not listed and argued
in brief."

Brownlee v. State, 666 So. 2d 91, 93 (Ala. Crim.

App. 1995).

Additionally, "[i]t is well settled that 'the

procedural bars of Rule 32 apply with equal force to all
cases, including those in which the death penalty has been
imposed.'"

Nicks v. State, 783 So. 2d 895, 901 (Ala. Crim.

App. 1999) (quoting State v. Tarver, 629 So. 2d 14, 19 (Ala.
Crim. App. 1993)).
The general rule is that "when the facts are undisputed
[or] an appellate court is presented with pure questions of
law, that court's review in a Rule 32 proceeding is de novo."
Ex parte White, 792 So. 2d 1097, 1098 (Ala. 2001).
other

hand,

"where

there

are

disputed

facts

On the
in

a

postconviction proceeding and the circuit court resolves those
disputed facts, '[t]he standard of review on appeal ... is
whether the trial judge abused his discretion when he denied
the petition.'"

Boyd v. State, 913 So. 2d 1113, 1122 (Ala.

Crim. App. 2003) (quoting Elliott v. State, 601 So. 2d 1118,

11

202a

CR-13-1504
1119 (Ala. Crim. App. 1992)).

Even when the disputed facts

arise from a combination of oral testimony and documentary
evidence, we review the circuit court's findings for an abuse
of discretion and afford those findings a presumption of
correctness.

See Parker Towing Co. v. Triangle Aggregates,

Inc., 143 So. 3d 159, 166 (Ala. 2013) (noting that the ore
tenus rule "applies to 'disputed issues of fact,' whether the
dispute is based entirely upon oral testimony or upon a
combination

of

oral

(citation omitted)).

testimony

and

documentary

evidence"

Moreover, with limited exceptions not

applicable here, this Court may affirm a circuit court's
judgment on a Rule 32 petition if it is correct for any
reason. See Bryant v. State, 181 So. 3d 1087 (Ala. Crim. App.
2011); Moody v. State, 95 So. 3d 827, 833 (Ala. Crim. App.
2011), and McNabb v. State, 991 So. 2d 313, 333 (Ala. Crim.
App. 2007), and the cases cited therein.
With these principles in mind, we address each of the
issues Reeves raises on appeal.
I.
Reeves

contends

that

the

circuit

court

erroneously

adopted verbatim that portion of the State's proposed order

12

203a

CR-13-1504
addressing his claim of intellectual disability.

Reeves

concedes that the circuit court did not adopt the State's
proposed order in its entirety.

Nonetheless, he argues that

the circuit court's verbatim adoption of the language from the
State's proposed order as to even one claim indicates "an
absence of careful and independent judicial consideration" of
that claim and requires reversal.

(Reeves's brief, p. 36.)

Reeves maintains that the circuit court's findings on his
intellectual-disability claim are not that of the circuit
court itself, but solely of the State and, therefore, cannot
stand.

We disagree.

"Alabama courts have consistently held that even when a
trial court adopts verbatim a party's proposed order, the
findings of fact and conclusions of law are those of the trial
court and they may be reversed only if they are clearly
erroneous." McGahee v. State, 885 So. 2d 191, 229–30 (Ala.
Crim. App. 2003). "While the practice of adopting the state's
proposed findings and conclusions is subject to criticism, the
general rule is that even when the court adopts proposed
findings verbatim, the findings are those of the court and may
be reversed only if clearly erroneous."

13

204a

Bell v. State, 593

CR-13-1504
So. 2d 123, 126 (Ala. Crim. App. 1991).

"[T]he general rule

is that, where a trial court does in fact adopt the proposed
order as its own, deference is owed to that order in the same
measure as any other order of the trial court."
Ingram, 51 So. 3d 1119, 1122 (Ala. 2010).

Ex parte

Only "when the

record before this Court clearly establishes that the order
signed by the trial court denying postconviction relief is not
the product of the trial court's independent judgment" will
the circuit court's adoption of the State's proposed order be
held erroneous. Ex parte Jenkins, 105 So. 3d 1250, 1260 (Ala.
2012).
For example, in Ex parte Ingram, supra, the circuit court
adopted

verbatim

the

State's

proposed

order

summarily

dismissing Robert Shawn Ingram's Rule 32 petition.

In the

order, the court stated that it had considered "'the events
within the personal knowledge of the Court'" and that it had
"'presided over Ingram's capital murder trial and personally
observed the performance of both lawyers throughout Ingram's
trial and sentencing.'"

Ex parte Ingram, 51 So. 3d at 1123

(citation and emphasis omitted).

However, the judge who

summarily dismissed the petition had not, in fact, presided

14

205a

CR-13-1504
over Ingram's trial and had no personal knowledge of the
trial.

The Alabama Supreme Court described these errors in

the court's adopted order as "the most material and obvious of
errors," 51 So. 3d at 1123, and "patently erroneous," 51 So.
3d at 1125, and concluded that the errors "undermine[d] any
confidence

that

the

trial

court's

findings

of

fact

and

conclusions of law [we]re the product of the trial judge's
independent judgment."

51 So. 2d at 1125.

In Ex parte Scott, [Ms. 1091275, March 18, 2011] ___ So.
3d ___ (Ala. 2011), the circuit court adopted verbatim as its
order the State's answer to Willie Earl Scott's Rule 32
petition.

The Alabama Supreme Court stated:

"[A]n answer, by its very nature, is adversarial and
sets forth one party's position in the litigation.
It
makes
no
claim
of
being
an
impartial
consideration of the facts and law; rather it is a
work of advocacy that exhorts one party's perception
of the law as it pertains to the relevant facts."
Ex parte Scott, ___ So. 3d at ___.

The Court then held that

"[t]he trial court's verbatim adoption of the State's answer
to Scott's Rule 32 petition as its order, by its nature,
violates this Court's holding in Ex parte Ingram" that the
findings and conclusions in a court's order must be those of
the court itself.

Ex parte Scott, ___ So. 3d at ___.
15

206a

CR-13-1504
Unlike Ex parte Ingram and Ex parte Scott, the record in
this case does not clearly establish that the portion of the
circuit court's order denying Reeves's intellectual-disability
claim was not the product of the court's own independent
judgment.

The circuit court's order contains no patently

erroneous statements as was the case in Ex parte Ingram,5 and
the circuit court here adopted a portion of the State's
proposed order, not a portion of the State's answer, as was
the case in Ex parte Scott.

After thoroughly reviewing the

record, we conclude that the circuit court's findings on
Reeves's intellectual-disability claim were its own and were
not merely an unexamined adoption of the proposed order
submitted by the State.

See, e.g., Ex parte Jenkins, 105 So.

3d at 1260; Van Pelt v. State, [Ms. CR-12-0703, August 14,
2015] ___ So. 3d ___ (Ala. Crim. App. 2015); Spencer v. State,
[Ms. CR-12-1837, February 6, 2015] ___ So. 3d ___ (Ala. Crim.
App. 2015); and Mashburn v. State, 148 So. 3d 1094 (Ala. Crim.
App. 2013).

Therefore, we find no error on the part of the

circuit court in adopting verbatim that portion of the State's

5

In fact, in this case, unlike Ex parte Ingram, the
circuit judge who ruled on the petition was the same judge who
had presided over Reeves's trial.
16

207a

CR-13-1504
proposed order addressing Reeves's intellectual-disability
claim.
II.
Reeves also contends that the circuit court erred in
denying his claim of intellectual disability under Atkins v.
Virginia, 536 U.S. 304 (2002). He argues that he suffers from
significantly
significant

subaverage
deficits

in

intellectual
multiple

functioning

areas

of

and

adaptive

functioning, all of which manifested before he reached the age
of 18, and that the circuit court's findings and conclusions
to the contrary were erroneous.

Therefore, Reeves concludes,

his death sentence is unconstitutional, and the circuit court
erred

in

petition.

not

granting

him

relief

on

this

claim

in

We disagree.

"'"In the context of an Atkins claim, the
defendant
has
the
burden
of
proving
by
a
preponderance of the evidence that he or she is
mentally retarded."'
Byrd [v. State], 78 So. 3d
[445,] 450 [(Ala. Crim. App. 2009)] (quoting Smith
[v. State, [Ms. 1060427, May 25, 2007]], ___ So. 3d
[___, ___ (Ala. 2007)]). 'The question of [whether
a capital defendant is mentally retarded] is a
factual one, and as such, it is the function of the
factfinder, not this Court, to determine the weight
that should be accorded to expert testimony of that
issue.'
Byrd, 78 So. 3d at 450 (citations and
quotations omitted). As the Alabama Supreme Court
has explained, questions regarding weight and
17

208a

his

CR-13-1504
credibility determinations are better left to the
circuit courts, '"which [have] the opportunity to
personally observe the witnesses and assess their
credibility."' Smith, ___ So. 3d at ___ (quoting
Smith v. State, [Ms. CR–97–1258, Sept. 29, 2006] ___
So. 3d. ___, ___ (Ala. Crim. App. 2006) (Shaw, J.,
dissenting) (opinion on return to third remand)).
"'This court reviews the circuit court's
findings of fact for an abuse of discretion.' Byrd,
78 So. 3d at 450 (citing Snowden v. State, 968 So.
2d 1004, 1012 (Ala. Crim. App. 2006)). '"'"'A judge
abuses his discretion only when his decision is
based on an erroneous conclusion of law or where the
record contains no evidence on which he rationally
could have based his decision.'"'"' Byrd, 78 So. 3d
at 450–51 (quoting Hodges v. State, 926 So. 2d 1060,
1072 (Ala. Crim. App. 2005), quoting in turn State
v. Jude, 686 So. 2d 528, 530 (Ala. Crim. App. 1996),
quoting in turn Dowdy v. Gilbert Eng'g Co., 372 So.
2d 11, 12 (Ala. 1979), quoting in turn Premium Serv.
Corp. v. Sperry & Hutchinson, Co., 511 F.2d 225 (9th
Cir. 1975))."
Carroll v. State, [Ms. CR-12-0599, August 14, 2015] ___ So. 3d
___, ___ (Ala. Crim. App. 2015).
In Atkins, the United States Supreme Court held that the
execution of intellectually disabled persons violates the
prohibition against cruel and unusual punishment in the Eighth
Amendment to the United States Constitution.

The Court in

Atkins did not establish a national standard for determining
whether a person is intellectually disabled for purposes of
the Eighth Amendment, but left to the states "'the task of

18

209a

CR-13-1504
developing appropriate ways to enforce the constitutional
restriction upon [their] execution of sentences.'"

Atkins,

536 U.S. at 317 (quoting Ford v. Wainwright, 477 U.S. 399,
416–17 (1986)).

The Court did note, however, the following

clinical definitions of intellectual disability:
"The American Association on Mental Retardation
(AAMR)[6] defines mental retardation as follows:
'Mental
retardation
refers
to
substantial
limitations in present functioning.
It is
characterized
by
significantly
subaverage
intellectual functioning, existing concurrently with
related limitations in two or more of the following
applicable adaptive skill areas: communication,
self-care, home living, social skills, community
use, self-direction, health and safety, functional
academics, leisure, and work.
Mental retardation
manifests before age 18.'
Mental Retardation:
Definition, Classification, and Systems of Supports
5 (9th ed. 1992).
"The
American
Psychiatric
Association's
definition is similar: 'The essential feature of
Mental Retardation is significantly subaverage
general intellectual functioning (Criterion A) that
is accompanied by significant limitations in
adaptive functioning in at least two of the
following skill areas: communication, self-care,
home living, social/interpersonal skills, use of
community resources, self-direction, functional
academic skills, work, leisure, health, and safety
(Criterion B). The onset must occur before age 18
years (Criterion C).
Mental Retardation has many

6

In 2007, the American Association on Mental Retardation
changed its name to the American Association on Intellectual
and Developmental Disabilities.
19

210a

CR-13-1504
different etiologies and may be seen as a final
common pathway of various pathological processes
that affect the functioning of the central nervous
system.'
Diagnostic and Statistical Manual of
Mental Disorders 41 (4th ed. 2000). 'Mild' mental
retardation is typically used to describe people
with an IQ level of 50–55 to approximately 70. Id.,
at 42–43."
536

U.S.

at

308

n.3.

The

Court

also

noted

that

an

intelligence quotient ("IQ") between 70 and 75 "is typically
considered the cutoff IQ score for the intellectual function
prong of the mental retardation definition."

Id. at 309 n.5.

Subsequently, in Hall v. Florida, 572 U.S. ___, 134 S.Ct.
1986 (2014), the United States Supreme Court recognized that
IQ test scores, alone, are not determinative of intellectual
disability or even of the intellectual-functioning prong of
intellectual disability because IQ testing has a margin of
error or standard error of measurement ("SEM").

The Court

held unconstitutional Florida's strict IQ score cutoff of 70
for establishing intellectual disability. The Florida Supreme
Court had held that a person who attained an IQ score above 70
was, as a matter of law, not intellectually disabled and was
prohibited from presenting any further evidence to support a
claim of intellectual disability.

See Hall v. State, 109 So.

3d 704 (Fla. 2012), citing Cherry v. State, 959 So. 2d 702,
20

211a

CR-13-1504
712-13 (Fla. 2007).
70

In holding this strict IQ score cutoff of

unconstitutional,

the

United

States

Supreme

Court

recognized that IQ test scores are "imprecise" and have a
"'standard error of measurement'" that "is a statistical fact
[and] a reflection of the inherent imprecision of the test
itself."

Hall, 572 U.S. at ___, 134 S.Ct. at 1995.

The Court

noted that the SEM, which the Court recognized to be plus or
minus five points on standard IQ tests, "reflects the reality
that

an

individual's

intellectual

functioning

cannot

be

reduced to a single numerical score," Hall, 572 U.S. at ___,
134 S.Ct. at 1996, and that, therefore, IQ test scores are not
"final and conclusive evidence of a defendant's intellectual
capacity," and "should be read not as a single fixed number
but as a range."

Hall, 572 U.S. at ___, 134 S.Ct. at 1995.

Because of the inherent imprecision in IQ testing, the
Court noted, "[f]or professionals to diagnose -- and for the
law then to determine -- whether an intellectual disability
exists once the SEM applies and the individual's IQ score is
75 or below the inquiry would consider factors indicating
whether the person had deficits in adaptive functioning."
Hall, 572 U.S. at ___,

134 S.Ct. at 1996.

21

212a

In other words,

CR-13-1504
"an individual with an IQ test score 'between 70 and 75 or
lower,' Atkins, [536 U.S.] at 309 n.5, may show intellectual
disability

by

presenting

additional

evidence

regarding

difficulties in adaptive functioning." 572 U.S. at ___, 134
S.Ct. at 2000.

The Court concluded that

"when a defendant's IQ test score falls within the
test's acknowledged and inherent margin of error,
the defendant must be able to present additional
evidence of intellectual disability, including
testimony regarding adaptive deficits.
"It is not sound to view a single factor as
dispositive of a conjunctive and interrelated
assessment. See DSM-5, at 37 ('[A] person with an
IQ score above 70 may have such severe adaptive
behavior problems ... that the person's actual
functioning is comparable to that of individuals
with a lower IQ score.')."
572 U.S. at ___, 134 S.Ct. at 2001.7

See also Brumfield v.

Cain, ___ U.S. ___, ___, 135 S.Ct. 2269, 2278 (2015) (holding

7

In a two-sentence passing argument in its brief on
appeal, the State asserts that Hall, decided in 2014, does not
apply retroactively to cases on collateral review. In support
of its position, the State relies on In re Henry, 757 F.3d
1151, 1158 (11th Cir. 2014), in which the United States Court
of Appeals for the Eleventh Circuit held that Hall
"announce[d] a new rule of constitutional law," but held that
the new rule does not apply retroactively on collateral review
for purposes of 28 U.S.C. § 2244(b). We disagree with the
Eleventh Circuit's characterization of Hall as a new rule of
constitutional law.
We view Hall, not as a new rule of
constitutional law, but simply as an application of existing
law, i.e., Atkins, to a specific set of facts.
22

213a

CR-13-1504
that

the

petitioner

was

entitled

to

a

hearing

on

his

intellectual-disability claim because, when accounting for the
SEM, his IQ score of 75 was "squarely in the range of
potential intellectual disability").
Shortly after Atkins was first released, the Alabama
Supreme

Court

adopted

"the

broadest

definition"

of

intellectual disability based on "[t]hose states with statutes
prohibiting

the

defendants.

Ex parte Perkins, 851 So. 2d 453, 456 (Ala.

2002).

execution

of"

intellectually

disabled

The Court explained:

"Those
states
with
statutes
prohibiting
the
execution of a mentally retarded defendant require
that a defendant, to be considered mentally
retarded,
must
have
significantly
subaverage
intellectual functioning (an IQ of 70 or below), and
significant or substantial deficits in adaptive
behavior.
Additionally, these problems must have
manifested themselves during the developmental
period (i.e., before the defendant reached age 18)."
Ex parte Perkins, 851 So. 2d at 456.
Later, in Smith v. State, [Ms. 1060427, May 25, 2007] ___
So. 3d ___ (Ala. 2007), the Alabama Supreme Court reiterated
and clarified Alabama's definition of intellectual disability:
"In Ex parte Perkins, [851 So. 2d
2002),] we concluded that the 'broadest'
of mental retardation consists of the
three
factors:
(1)
significantly
23

214a

453 (Ala.
definition
following
subaverage

CR-13-1504
intellectual functioning (i.e., an IQ of 70 or
below); (2) significant or substantial deficits in
adaptive behavior; and (3) the manifestation of
these problems during the defendant's developmental
period (i.e., before the defendant reached age 18).
851 So. 2d at 456. All three factors must be met in
order for a person to be classified as mentally
retarded for purposes of an Atkins claim. Implicit
in
the
definition
is
that
the
subaverage
intellectual functioning and the deficits in
adaptive behavior must be present at the time the
crime was committed as well as having manifested
themselves before age 18.
This conclusion finds
support in examining the facts we found relevant in
Ex parte Perkins and Ex parte Smith[, [Ms. 1010267,
March 14, 2003] ___ So. 3d ___ (Ala. 2003),] and
finds further support in the Atkins decision itself,
in which the United States Supreme Court noted: 'The
American Association on Mental Retardation (AAMR)
defines mental retardation as follows: "Mental
retardation refers to substantial limitations in
present functioning."'
536 U.S. at 308 n.3, 122
S.Ct. 2242 (second emphasis added). Therefore, in
order for an offender to be considered mentally
retarded in the Atkins context, the offender must
currently
exhibit
subaverage
intellectual
functioning, currently exhibit deficits in adaptive
behavior, and these problems must have manifested
themselves before the age of 18.
"The definition set forth in Ex parte Perkins is
in accordance with the definitions set forth in the
statutes of other states and with recognized
clinical definitions, including those found in the
American Psychiatric Association, Diagnostic and
Statistical Manual of Mental Disorders (4th ed.
1994). The Manual of Mental Disorders lists four
degrees of mental retardation: mild, moderate,
severe, and profound.
Id. at 40–41.
All four
degrees of mental retardation require that all three
prongs of the Ex parte Perkins test be satisfied
before an individual can be diagnosed as mentally
24

215a

CR-13-1504
retarded; thus, if the defendant proves that he or
she suffers any degree of mental retardation, the
defendant is ineligible for the death penalty.
However,
a
classification
of
'borderline
intellectual functioning' describes an intelligence
level that is higher than mental retardation, id. at
45 and, thus, does not render a person ineligible
for the death penalty."
___ So. 3d at ___ (emphasis added).
The Alabama Supreme Court's definition of intellectual
disability adopted in Ex parte Perkins comports with both
Atkins and Hall, supra. Although the definition references an
IQ score of 70, that referenced score is not a strict cutoff
for intellectual disability, and Alabama does not preclude a
court's consideration of the SEM when considering a person's
IQ score. See Lane v. State, [Ms. CR-10-1343, April 29, 2016]
___ So. 3d ___ (Ala. Crim. App. 2016) (opinion after remand by
the United States Supreme Court).
a

person

from

presenting

Nor does Alabama preclude

additional

evidence

regarding

intellectual disability merely because that person attained an
IQ score above 70. Indeed, this Court, subsequent to Ex parte
Perkins, twice recognized that a person may be intellectually
disabled even if that person attains an IQ score above 70 on
a test, see Jackson v. State, 963 So. 2d 150 (Ala. Crim. App.
2006) (holding that Rule 32 petitioner was intellectually
25

216a

CR-13-1504
disabled even though he achieved a score above 70 on one of
four IQ tests he had taken), and Tarver v. State, 940 So. 2d
312, 318 (Ala. Crim. App. 2004) (remanding for a hearing to
determine intellectual disability where record indicated that
Rule 32 petitioner had IQ scores of 76, 72, and 61), and we
three times recognized the SEM in evaluating an Atkins claim.
See Smith v. State, 112 So. 3d 1108 (Ala. Crim. App. 2012);
Byrd v. State, 78 So. 3d 445 (Ala. Crim. App. 2009); and Brown
v.

State,

982

So.

2d

565

(Ala.

Crim.

App.

2006).

Additionally, in Ex parte Smith, [Ms. 1010267, March 14, 2003]
___ So. 3d ___, ___ (Ala. 2003), the Alabama Supreme Court
noted

that

conclusion

an

IQ score

that

[a

of

72

person]

"seriously

suffers

from

undermines

any

significantly

subaverage intellectual functioning as contemplated under even
the broadest definitions," but it did not hold that an IQ
score of 72 precludes a finding that a person suffers from
significantly subaverage intellectual functioning or precludes
a finding of intellectual disability.

Both this Court's and

the Alabama Supreme Court's post-Atkins opinions make clear
that a court should look at all relevant evidence in assessing
an intellectual-disability claim and that no one piece of

26

217a

CR-13-1504
evidence, such as an IQ test score, is conclusive as to
intellectual disability.8
At the evidentiary hearing, Reeves introduced a plethora
of records from his childhood and adolescent years, including
school

records,

medical

records,

mental-health

records,

juvenile-court records, Department of Youth Services records,
and county-health-department records.

Those records reflect

that Reeves was habitually truant and engaged in defiant and
aggressive behavior in school, that he had a lengthy criminal
history, and that he had been committed to the Department of
Youth Services. The records further reflect that Reeves began

8

Although in Hall the United States Supreme Court cited
Alabama as a state that "also may use a strict IQ score cutoff
at 70," 572 U.S. at ___, 134 S.Ct. at 1996 (emphasis added),
it did so based on a single comment by this Court in Smith v.
State, 71 So. 3d 12, 20 (Ala. Crim. App. 2008), that the
Alabama Supreme Court's definition of intellectual disability
did not include consideration of the SEM. However, this Court
held in Smith that the petitioner had failed to plead his
claim of intellectual disability, and our statement that
consideration of the SEM was precluded was entirely dicta. In
any event, this Court recently recognized in Lane v. State,
[Ms. CR-10-1343, April 29, 2016] ___ So. 3d ___ (Ala. Crim.
App. 2016) (opinion after remand by the United States Supreme
Court), that this Court's statement in Smith was not supported
by the Alabama Supreme Court's post-Atkins opinions and was
erroneous, and we overruled Smith "[t]o the extent that Smith
... precludes a trial court from considering a margin of error
or SEM when evaluating a defendant's IQ test score for
purposes of an Atkins claim." ___ So. 3d at ___.
27

218a

CR-13-1504
mental-health treatment in 1986, when he was 8 years old.
Reeves was initially diagnosed with attention deficit disorder
with hyperactivity and was later also diagnosed with conduct
disorder.

Nonetheless, Reeves was described as "extremely

goal-directed."

(C. 1556.)

When Reeves began treatment, his

intelligence level was "estimated to be low average range."
(C. 1515.)

Two years later, "it [wa]s estimated that his

intelligence is somewhat below average, but not within the
[intellectual-disability] range."

(C. 1543.)

The records further reflect that Reeves had to repeat the
first, third, and fourth grades and that he was "socially"
promoted to the seventh grade when he was 14 years old based
only on his "level of maturity."

(C. 1688.)

However, the

records indicate that although Reeves failed the first grade,
when he repeated that grade, he got A's and B's and made the
honor

roll.

(C.

1513.)

Additionally,

Reeves's

mother

reported that when he was 11 years old, Reeves was tested for
placement into special-education classes, but that he "did not
qualify." (C. 1543.)

Reeves was later placed in special-

education classes for emotional conflict.

When he was 14

years old, Reeves was administered the Wechsler Intelligence

28

219a

CR-13-1504
Scale for Children, Revised ("WISC-R"), and he attained a
verbal IQ score of 75, a performance IQ score of 74, and a
full-scale

IQ

score

of

73.

At

that

time,

Reeves

was

classified as being in the borderline range of intellectual
functioning, but was described as having "severe deficiencies
in non-verbal social intelligence skills and his ability to
see consequences."

(C. 1590.)

Reeves was subsequently

expelled from school for behavioral reasons.
Reeves also presented testimony from John R. Goff, a
neuropsychologist who evaluated Reeves for purposes of the
postconviction proceedings to determine whether Reeves was
intellectually disabled.
examined

Reeves's

As part of his evaluation, Dr. Goff

childhood

and

adolescent

administered a battery of tests to Reeves.

records

and

First, Dr. Goff

administered the Wechsler Adult Intelligence Scale, Third
Edition ("WAIS-III"), on which Reeves attained a verbal IQ
score of 71, a performance IQ score of 76, and a full-scale IQ
score of 71.
However, Dr. Goff stated that Reeves's full-scale IQ
score of 71 should be adjusted downward for the SEM, which he
initially said was plus or minus 2 points but later said on

29

220a

CR-13-1504
cross-examination was plus or minus 5 points, and for the
"Flynn Effect." Dr. Goff explained that the first requirement
for a diagnosis of intellectual disability is significantly
subaverage intellectual functioning, which generally requires
the person to have an IQ of approximately 70 or below.
However, Dr. Goff said that research had shown that scores on
IQ tests tend to get higher year after year by approximately
0.3 points per year.

According to Dr. Goff, this increase in

scores, known as the "Flynn Effect," requires that the IQ test
be "normed" periodically so that the mean score on the test
stays the same. Dr. Goff testified that the WAIS-III was last
"normed" in 1996, 10 years before he administered the test to
Reeves.

According to Goff, the "Flynn Effect" is recognized

as valid and requires that 0.3 points be deducted from the
full-scale IQ score achieved on an IQ test for each year since
the test was last normed.
Reeves's "adjusted" full-scale IQ score on the WAIS-III,
Dr. Goff said, was 66.

To reach this conclusion, Dr. Goff

subtracted three points for the "Flynn Effect" and subtracted
an additional two points for the SEM.

However, Dr. Goff said

that for purposes of diagnosing Reeves as intellectually

30

221a

CR-13-1504
disabled "[i]t doesn't matter" whether his full-scale IQ score
was adjusted "because the criteria is that the IQ score has to
be around 70 [and] he qualifies because 71 is around 70."9
(R. 43.)

Dr. Goff also testified that Reeves's full-scale IQ

score of 73 on the WISC-R that was administered to him in
1992, if adjusted solely for the "Flynn Effect," would have
been 67.6.

Dr. Goff testified that Reeves's IQ score in 1992

was "statistically identical" to his IQ score in 2006.
45.)

(R.

Additionally, Dr. Goff said, Dr. Kathy Ronan, who had

evaluated Reeves in 1997 before Reeves's trial to determine
Reeves's competency to stand trial and his mental state at the
time of the offense, had administered the verbal portion of
the Wechsler Adult Intelligence Scale, Revised ("WAIS-R"), the
predecessor to the WAIS-III, and that Reeves had achieved a
verbal IQ score of 74 at that time.

Dr. Goff said that if

that score were adjusted for the "Flynn Effect," it would be
69.2.
On cross-examination, Dr. Goff admitted that an article
had been published in 2006, the year the evidentiary hearing

9

We note that, in his written report, Dr. Goff stated that
Reeves's full-scale IQ score of 71 placed him "within the
borderline range of psychometric intelligence." (C. 699.)
31

222a

CR-13-1504
was held, by Dr. James Flynn, the psychologist after whom the
"Flynn Effect" was named, in which Dr. Flynn admitted that the
"Flynn Effect" had not, in fact, been generally accepted as
scientifically valid.

Dr. Goff also admitted on cross-

examination that he did not begin adjusting IQ scores for the
"Flynn Effect" until approximately a year and a half before
the evidentiary hearing, even though the first article about
the phenomenon was published in 1984, some 22 years before the
hearing.

He also admitted that the "scoring manual" for the

WAIS-III does not require the use of the "Flynn Effect" to get
an accurate IQ score, and that the Diagnostic and Statistical
Manual of Mental Disorders, Fourth Edition ("DSM-IV") does not
mention the "Flynn Effect"; the DSM-IV mentions only the SEM
of plus or minus five points.

Dr. Goff also said that he

would not have adjusted Reeves's IQ score for the "Flynn
Effect" if he had evaluated Reeves in 1997, before Reeves's
trial, but he maintained that he would still have concluded
that Reeves was intellectually disabled.

Without the "Flynn

Effect," but considering the SEM, Dr. Goff said, Reeves's
full-scale IQ score would fall between 66 and 76.
Dr.

Goff

stated

that

Reeves

32

223a

would

not

Finally,

qualify

to

be

CR-13-1504
institutionalized for intellectual disability based on his IQ
scores, although Reeves "might qualify" for placement in a
group home for the intellectually disabled.

(R. 85.)

Dr. Goff testified that he also administered two tests to
Reeves to determine whether he was malingering on the IQ test
-- the "Test of Malingered Memory" and the "21-Item Test."
(R. 48.) Dr. Goff said that these tests indicated that Reeves
was not malingering, but "was putting forth a genuine effort."
(R. 49.)
Dr. Goff also administered a portion of the HalsteadReitan

Neuropsychological

person's
abilities.

Test

neuropsychological

battery,
functioning

which
and

assesses

a

cognitive

Dr. Goff said that Reeves scored poorly on those

tests and that Reeves did not even complete one of the tests
because "[h]alfway through ... he had made enough errors so
that it wasn't necessary to continue the test because we had
come to the conclusion that he couldn't do it."

(R. 39.)

Dr.

Goff said that Reeves's performance on the Halstead-Reitan
tests was "not inconsistent with" and "would tend to" support
a conclusion that Reeves was intellectually disabled.
40.)

33

224a

(R.

CR-13-1504
Dr. Goff further testified that he administered "the
abbreviated version of the second edition of the Wechsler
Individual

Achievement

Test,"

which

assesses

functional

academics, one of the areas of adaptive functioning considered
in evaluating whether someone is intellectually disabled. (R.
37.)

Dr. Goff stated that this test indicated that Reeves

could read at a third-grade level, that he could do math at a
fourth-grade level, and that he could spell at a fifth-grade
level, thus showing a deficit in functional academics.
Goff described

Dr.

Reeves as illiterate because Reeves could not

read at a fifth-grade level.

Dr. Goff stated that Reeves was

able to do basic multiplication and two-digit subtraction and
addition,

but

stated

that

he

could

not

do

multi-digit

multiplication, use decimals, or do division. When questioned
by the circuit court, Dr. Goff said that generally a person
with a low IQ will also have deficits in functional academics.
However, Dr. Goff said, most mildly intellectually disabled
people can learn to read at about a fifth- or sixth-grade
level and that that level of reading would not qualify as a
significant deficit in functional academics.

34

225a

CR-13-1504
Dr.

Goff

testified

that

another

test

for

adaptive

functioning is the Adaptive Behavior Assessment System Test
("ABAS test"), which Dr. Goff said, is administered not to the
individual being evaluated but to someone who is close to and
familiar with the individual being evaluated.

The ABAS test

is "normed against the general population" to determine how a
person's abilities compare to the general population, as
opposed to just the intellectually disabled population.
59.)

(R.

Dr. Goff administered this test to Beverly Seroy, who

appears

to

have

been

the

former

stepmother

of

Reeves's

brother, Julius, and with whom Reeves had lived off and on for
a period of time before the murder.

Dr. Goff testified that

he interviewed Seroy for 45 minutes before administering the
test to her to determine whether she knew Reeves well enough
to complete the test.

Dr. Goff said that Seroy had told him

that "she thought she knew [Reeves] very well."

(R. 62.)

Dr.

Goff also said that Seroy was able to provide him with "some
historical information" about Reeves.

(R. 62.)

Thus, Dr.

Goff concluded, Seroy was an appropriate person to whom to

35

226a

CR-13-1504
administer the ABAS test.10

Dr. Goff further testified that

he did not administer the ABAS test to Reeves's mother because
(1) he did not know how to contact her; (2) he had been told
that

she

was

necessarily"

mentally

the

best

ill;

and

people

to

(3)

mothers

administer

are

the

"not

test

to

because, he said, they either tend to "overestimate the
capacities of their offspring" or tend to "underestimate the
capacities of their offspring."

(R. 70.)

When questioned by

the circuit court about the ABAS test, which indicated that
Seroy had "simply guessed" on 19 of the 24 questions regarding
the "work" area of adaptive functioning, Dr. Goff stated that
Seroy's guessing "does cast some doubt as to the validity of
that particular finding," i.e., the finding by Dr. Goff that
Reeves had significant deficits in the work area of adaptive
functioning.

(R. 71.)

Dr. Goff testified that the results of the ABAS test
indicated

that

Reeves

had

significant

deficits

in

the

following areas of adaptive functioning: health and safety,

10

In contrast, in his written report, Dr. Goff stated that
Seroy "was not present for the most part during [Reeves's]
formative years" and "[i]t was, therefore, necessary to obtain
a substantial amount of information from [Reeves] and from the
records in regard to the history." (C. 697.)
36

227a

CR-13-1504
which Dr. Goff described as whether a person looks both ways
before crossing the street, whether a person knows how to get
to a hospital if necessary, and whether a person can take care
of personal health needs, such as brushing teeth, taking
medications, and getting an annual physical; self-care, which
Dr. Goff said overlaps with health and safety, but also
includes such things as whether the person can prepare food,
can pay the bills, or can get a haircut when necessary without
being told; self-direction; functional academics; leisure
activities, which Dr. Goff described as how a person spends
his or her free time, i.e., whether the person spends it
productively or in goal-directed activities or whether the
person "just kind of like hang[s] out and do[esn't] ever do
anything in [his or her] leisure time activities" (R. 57);
and work, which Dr. Goff described as whether the person has
a job, whether the person arrives on time to the job, and
whether the person gets along with coworkers.

Dr. Goff's

written report indicates that Reeves scored in the 16th
percentile in the area of communication; in the 9th percentile
in the areas of community use and home living; in the 5th
percentile

in

the

areas

of

functional

37

228a

academics,

self-

CR-13-1504
direction, leisure, and social skills; in the 4th percentile
in the area of work; and in the 2nd percentile in the areas of
health and safety and self-care. (C. 701.) Dr. Goff admitted
on cross-examination that he did not consider Reeves's actions
surrounding

the

murder

in

assessing

Reeves's

adaptive

functioning; Dr. Goff said that Reeves's actions surrounding
the murder were not relevant to determining whether Reeves was
intellectually disabled.
examination

that

it

Dr. Goff also admitted on cross-

was

"not

surprising"

that

Reeves's

adaptive functioning was "low" because, he said, "[m]ost
people in prison have low adaptive skills."

(R. 88.)

Based on Reeves's "adjusted" IQ scores, the results of
the ABAS test, and all the other information before him, Dr.
Goff

concluded

that

Reeves

suffered

from

significantly

subaverage intellectual functioning and significant deficits
in multiple areas of adaptive functioning and that both
manifested

themselves

before

Reeves

was

18

years

old.

Therefore, Dr. Goff concluded that Reeves was intellectually
disabled.
Reeves also presented testimony from Karen Salekin, a
forensic

and

developmental

psychologist,

38

229a

who

conducted

a

CR-13-1504
mitigation investigation for purposes of the postconviction
proceedings.

Dr. Salekin's testimony centered around her

investigation

of

mitigating

evidence,

specifically,

her

assessment of risk factors in Reeves's life -- i.e., factors
that

negatively

influenced

Reeves's

development

--

and

protective factors in Reeves's life -- i.e., factors that
positively influenced Reeves's development.

The bulk of that

testimony need not be repeated for purposes of this issue.
Pertinent

to

Reeves's

intellectual-disability

claim,

Dr.

Salekin testified that Reeves's school records indicated that
he had struggled in school from an early age and that he had
"lower intelligence."

(R. 179.) However, she said that

Reeves's largely "untreated" attention-deficit disorder with
hyperactivity contributed to his struggles in school.
179.)

(R.

Dr. Salekin also testified that Reeves had attained a

full-scale IQ score of 73 in 1992.

She concurred with Dr.

Goff that the "Flynn Effect" is recognized as valid and
requires that IQ scores be adjusted downward.
Dr. Salekin further testified that Reeves's brother,
Julius,

had

had

a

negative

impact

on

Reeves,

and

that,

although younger than Reeves, Julius was the leader of the

39

230a

CR-13-1504
two. Dr. Salekin stated that her investigation revealed that
Reeves was kind and considerate and that he could follow
directions when he was not around Julius and that it was only
when he was around Julius that his behavior deteriorated. For
example, Dr. Salekin testified that Jerry Ellis had employed
Reeves at his construction company for approximately three
months around the time of the crime.

Dr. Salekin said that

Ellis reported that Reeves was a good employee -- Reeves
arrived at work on time, was responsive to directions, was
motivated,

had

responsible."

a

"really

(R. 140.)

good

work

ethic,"

and

"was

However, Reeves was employed by

Ellis only during the time Julius was in a juvenile-detention
facility. Dr. Salekin said that once Julius was released from
juvenile detention, Reeves never went back to work.

Dr.

Salekin also testified that her investigation revealed that
Reeves lived "intermittently" with Beverly Seroy because his
mother's house was too crowded.

(R. 193.)

Dr. Salekin said

that Seroy provided Reeves with structure when he lived with
her, requiring that Reeves obey the rules, do his homework, do
chores, and abide by a curfew.

Dr. Salekin said that Seroy

reported that Reeves did well when he lived with her, often

40

231a

CR-13-1504
helping her take care of her own children, and that Seroy
"trusted [Reeves] implicitly" to babysit her children.
194.)

(R.

At one point, Dr. Salekin said, Seroy even hired a

tutor to help Reeves with his schoolwork and would drive
Reeves to the library so that he could earn his GED.11
In rebuttal, the State called Glen David King, a clinical
and forensic psychologist who also evaluated Reeves for the
postconviction proceedings to determine whether Reeves was
intellectually disabled.

Dr. King, like Dr. Goff, had looked

at various records relating to Reeves and administered a
battery of tests to Reeves.

Dr. King also had looked at the

testimony of Reeves's mother during Reeves's trial and at Dr.
Goff's data.

Dr. King testified that he administered to

Reeves the WAIS-III and that Reeves attained a verbal IQ score
of 69, a performance IQ score of 73, and a full-scale IQ score
of

68.

Dr.

theoretical

King

described

position"

that

the
there

"Flynn
is

Effect"

"an

as

"a

increase

in

performance" on IQ tests "such that IQ scores seem to rise
gradually over a period of time."

11

(R. 242.)

However, Dr.

No evidence was presented that Reeves, in fact, earned
his GED.
41

232a

CR-13-1504
King said that the "Flynn Effect" is not required to be taken
into

account

when

evaluating

someone

for

intellectual

disability and that the "Flynn Effect" is "not settled" in the
"psychological community."

(R. 244-45.)

Dr. King also administered the Wide Range Achievement
Test

to

determine

abilities.

Reeves's

reading,

spelling,

and

math

Dr. King said that the test indicated that Reeves

could read at a fifth-grade level, that he could spell at a
fifth-grade level, and that he could do arithmetic at a
fourth-grade level.
said,

Reeves

was

With respect to arithmetic, Dr. King
able

to

do

addition,

multiplication, and simple division.

subtraction,

Dr. King said that

Reeves's scores on the achievement test were "higher than
ordinarily

would

be

predicted

administered to Reeves.

by

(R. 224.)

the

IQ

test"

he

had

In other words, Reeves's

achievement-test scores "indicate[d] a level of functioning
higher than the IQ scores actually indicated." (R. 224.) Dr.
King said that because of the discrepancy between Reeves's
scores on the IQ test and the achievement test, those scores
were

not

adequate,

by

themselves,

for

him

to

reach

a

conclusion as to whether Reeves was intellectually disabled.

42

233a

CR-13-1504
Dr. King also administered all but one of the tests that
are included in the Halstead-Reitan Neuropsychological Test
battery.12

The Halstead-Reitan tests, Dr. King said, are used

to determine if a person has any impairment in brain function.
Dr. King said that Reeves had no impairment in "sensory
perceptional functioning," which he said indicates whether a
person is properly receiving external stimuli. (R. 236.) Dr.
King

said

that

functioning.
upper

Reeves

had

some

impairment

in

his

motor

Although he had "good motor strength in his

limb[s],"

Reeves

had

impairment

in

fine

motor

coordination, such as tapping his fingers. (R. 237.) Dr. King
stated that he could not explain "exactly why" Reeves had
impairment in fine motor coordination, although sometimes
deficits

in

this

test

will

appear

when

administered to a person with lower IQ.

the

test

is

With respect to

attention, concentration, and memory, Dr. King testified that
Reeves had good attention and concentration, but that he
scored "below average" with respect to memory.

(R. 239.)

Nonetheless, Dr. King said, Reeves was able to recall in

12

Dr. King said that he did not administer the tactileform-recognition test.
43

234a

CR-13-1504
"fairly good detail ... historical events such as where he
went to school and what happened when and who represented him
at trial and things of that nature."
to

"language

skills,"

Dr.

King

(R. 239.)

said,

Reeves

With respect
was

"below

average." (R. 240.) With respect to "visual spacial skills,"
which Dr. King described as "[t]he ability to copy designs,"
Dr. King testified that Reeves had "some impairment."
240.)

(R.

Specifically, Dr. King said that Reeves was "actually

able to copy designs very accurately most of the time [but he
had] problems with more complex designs."

(R. 240-41.)

As

for "reasoning and logical analysis," which Dr. King described
as "higher cortical functioning, ability to engage in abstract
reasoning, concept formation, problem solving, taking new
information and being able to apply it to solve problems,"
Reeves "performed well below average."

(R. 241.)

Dr. King

stated that this indicated only that Reeves was "slower to
learn new things," not that he "can't learn," and that, in his
opinion, Reeves had "some impairment" in this area. (R. 241.)
Dr. King testified that Reeves's results on the HalsteadReitan tests were consistent with Reeves's being in the

44

235a

CR-13-1504
borderline range of intellectual functioning, as opposed to
the intellectual-disability range of functioning.
Dr.

King

also

administered

to

Reeves

the

Adaptive

Behavior Scale, Residential and Community, Second Edition
("ABS-RC-II").

Dr. King stated that this test is one of the

tests recommended by the American Association on Intellectual
and

Developmental

functioning.

Disabilities

The

test

different "domains."

for

measures

(R. 226.)

measuring

skill

level

in

adaptive
several

To score the test, Dr. King

said, the test giver uses information provided by the test
subject, the test giver's observations, and information from
other individuals who know the test subject.

Dr. King stated

that the ABS-RC-II is "normed" or scored, not against the
population as a whole, but against those in the borderline
range

of

intellectual

intellectually disabled.

functioning

and

those

who

are

Dr. King said that this is because

"the AAMR has taken the position that in order to diagnose
somebody as mentally retarded, their adaptive abilities have
to be substantially below that particular group for which [the
test] is normed."

(R. 267.)

However, on cross-examination,

Dr. King conceded that the Mental Retardation Definition

45

236a

CR-13-1504
Classification and Systems of Support, 10th edition, a text
published by the American Association on Intellectual and
Developmental
significant

Disabilities,

limitations

in

states:
adaptive

"For

diagnosis,

behaviors

should

be

established through the use of standardized measures normed on
the general population including people with disabilities and
people without disabilities."

(R. 274.)

Dr. King obtained scores on the ABS-RC-II from Reeves in
10 different "domains" of adaptive functioning.

Dr. King

testified that Reeves scored in the 99th percentile in the
domain of independent functioning, which Dr. King described as
"behaviors that have to do with things like use of table
utensils, personal hygiene, being able to dress oneself, and
a sense of direction, for example, use of transportation,"
essentially

things

"that

an

individual

who

can

function

independently would have to engage in every day in order to
take care of themselves."

(R. 227.)

Reeves

scored in the

98th percentile in the domain of physical development, which
Dr.

King

said

simply

physical disability.

examines

whether

a

person

has

any

In the numbers and time domain, Reeves

also scored in the 98th percentile.

46

237a

Reeves was able to tell

CR-13-1504
time and do addition, subtraction and multiplication.

As

noted previously, Dr. King also testified that Reeves was able
to do simple division.
In the domain of language development, Reeves scored in
the 84th percentile.

Dr. King said that Reeves has much

better verbal communication than written communication, but
that Reeves was nonetheless able "at least to get his idea
across" in written form.
cited

a

letter

Reeves

(R. 229.)
had

written

For example, Dr. King
in

which

Reeves

had

indicated that he was not interested in going to school
because he could make more money selling drugs.

Dr. King

stated that, although "[t]he syntax of the letter was not
really very good," Reeves was nonetheless able to get his
"message across" in the letter.
Reeves

also

scored

in

(R. 229.)

the

84th

percentile

responsibility and socialization domains.

in

the

The responsibility

domain, Dr. King said, includes such things as "[t]aking care
of

personal

belongings,

general

responsibility,

personal

responsibility, like maintaining self control, understanding
concepts of being on time."
King

said,

included

(R. 232.)

such

things

47

238a

Socialization, Dr.
as

"[c]ooperation,

CR-13-1504
consideration for others, awareness of others, interaction
with others, participation in group activities."

(R. 233.)

Dr. King also said that in the many hours he spent with
Reeves, Reeves was "quite cooperative and easy to get along
with." (R. 233.)
Reeves scored in the 63rd percentile in the domain of
economic activity, which "has to do with the handling of
money,

banking

errands,

activities,

purchasing

resources."

budgeting,

things,

(R. 228.)

being

being

able

to

able
use

to

run

shopping

With respect to this domain, Dr. King

said that Reeves was able to handle his own money, to pay
bills, and to purchase personal items, but that Reeves had
never used a credit card.
In the domestic-activity domain, Reeves scored in the
25th percentile.

Dr. King said the domestic-activity domain

includes such things a "room cleaning, doing laundry, table
setting, food preparation, table clearing."

(R. 230.)

Dr.

King said that, based on all the information he had, Reeves
had never been required to do any type of domestic activity
growing up and had been incarcerated since he was 18 years
old.

Therefore, Dr. King said, "he scored very low on those

48

239a

CR-13-1504
kinds of activities because I couldn't in good conscience rate
him highly on those things.
it."

I didn't have any data to support

(R. 230.)
Reeves also scored in the 25th percentile in the domains

of

prevocational/vocational

activity

and

self-direction.

Prevocational/vocational activity, Dr. King said, "has to do
with job complexity, work, school, job performance and work
school habits."

(R. 230.)

Dr. King said that Reeves scored

low in this domain because "[h]e did not get to the age where
he might be able to master use of complex job tools or
equipment" and because school records indicated that Reeves
often missed school and had "pretty poor school habits."

(R.

230-31.)
Self-direction, Dr. King said, "has to do with showing
initiative, attention, persistence and directing one's own
activities."

(R. 231.)

Dr. King said that he scored Reeves

low in this domain but that since the testing, he had had the
opportunity to speak with Detective Pat Grindle, an officer
with the Selma Police Department, who had known Reeves "quite
well" since Reeves was about nine years old.

(R. 231.)

Dr.

King said that Det. Grindle told him that from an early age,

49

240a

CR-13-1504
Reeves "was involved in a lot of drug activity and was
actually directing the behaviors and activities of others in
this drug related activity."

(R. 231-32.)

The degree of

Reeves's involvement in drug activity, including not only what
Det. Grindle reported but also Reeves's admission to Dr. King
that he made between $1500 and $2000 a week selling drugs and
was able to purchase his own car, Dr. King said, "would
indicate much more self-direction than the way that I rated
him."

(R. 232.)

Based

on

his

testing

of

Reeves

and

all

the

other

information before him, Dr. King concluded that Reeves was in
the borderline range of intellectual ability, but was not
intellectually disabled.
On cross-examination, Dr. King admitted that he did not
speak to any of Reeves's family members in conducting his
evaluation.

However, he said that there was information in

many of the records he examined that was inconsistent with a
finding of intellectual disability.

Specifically, Dr. King

said that Reeves's repeated IQ scores of over 70, and his
placement in "emotional conflict classes" in school as opposed
to placement in "special education for mental retardation

50

241a

CR-13-1504
services" were inconsistent with a finding of intellectual
disability.

(R. 253.)

examination

that,

based

Dr. King also stated on crossstrictly

on

the

IQ

test

he

administered, Reeves satisfied the first prong for determining
intellectual

disability

--

significantly

subaverage

intellectual functioning -- because Reeves achieved a fullscale IQ score of 68.
In its order, the circuit court found that Reeves had
failed

to

satisfy

his

intellectually disabled.

burden

of

proving

that

he

was

After summarizing the testimony

presented at the hearing and the relevant law, the court
explained:
"There is no dispute that Reeves's IQ is
sub-average.
However, the expert testimony about
Reeves's adaptive functioning was conflicting.
Before addressing the merits of Reeves's mental
retardation claim, this Court believes it should
first discuss the conflicting expert testimony about
the Flynn Effect.
"Dr. Goff and Dr. Salekin indicated that the
Flynn Effect is accepted in the scientific community
while Dr. King stated that it was not. The Court
notes that Dr. Goff testified that Dr. Flynn
published his findings in 1984. However, Dr. Goff
did not start utilizing the Flynn Effect until 2005
-- years after the Flynn Effect came into existence.
There was no dispute that neither the publishers of
the IQ tests administered on Reeves nor the DSM-IV
require that the Flynn Effect must be utilized in
51

242a

CR-13-1504
determining a person's intellectual functioning.
While there was testimony that appellate courts
outside of Alabama have addressed the application of
the Flynn Effect, this Court is unaware of any
Alabama caselaw requiring use of the Flynn
Effect.[13] It does not appear to this Court that
the issue of whether the Flynn Effect should be
considered when reviewing an individual's IQ score,
at least in Alabama, is settled in the scientific
community.
"Reeves achieved a full scale IQ score of 73 on
a test administered when he was 14 years old. The
full scale IQ score of 71 achieved by Reeves on the
test administered by Dr. Goff is consistent with his
prior IQ score of 73.
See Ex parte Smith, [Ms.
1010267, March 14, 2003] ___ So. 3d ___ (Ala. 2003)
(holding that a full scale IQ score of 72 'seriously
undermines any conclusion that [a defendant] suffers
from
significantly
sub-average
intellectual
functioning contemplated under even the broadest
definitions [of mental retardation]').
Further,
Reeves testified during a pretrial suppression
hearing and the Court recalls nothing indicating
that
Reeves's
intellectual
functioning
was
significantly sub-average. See Clisby v. Alabama,
26 F.3d 1054, 1056 (llth Cir. 1994) (holding that
Clisby's testimony gave the trial judge 'an
opportunity to gauge roughly his intelligence').
This Court concludes that Reeves's intellectual
functioning, while certainly sub-average, is not
significantly sub-average.
"A review of the trial transcript indicates that
Reeves does not suffer from significant or
substantial limitations in his adaptive functioning.
Testimony at trial indicated that Reeves was a gang
member.
Further, Reeves's mother testified that

13

The circuit court issued the order in 2009, years before
this Court first addressed the "Flynn Effect."
52

243a

CR-13-1504
while
Reeves
attended
Job
Corp
he
earned
certificates in welding, brick masonry, and auto
mechanics -- jobs that would require some degree of
technical skill.
Reeves's mother also testified
that after he returned from Job Corp that Reeves
worked for Jerry Ellis doing carpentry and roofing.
While he worked for Mr. Ellis, Reeves would get up
as early as 5:30 a.m. to be ready for work. It was
only after his younger bother Julius returned from
being confined in the juvenile facility at Mt. Meigs
that Reeves chose to stop working for Mr. Ellis.
According to his mother, Reeves went with Julius
because he was afraid his brother would get shot.
Reeves
had
extensive
contact
with
juvenile
authorities and with law enforcement prior to his
arrest for the victim's murder.
In a pretrial
mental evaluation, Dr. Kathy Ronan diagnosed Reeves
as suffering from Adaptive Paranoia -- that is, he
adapted his behavior in order to survive in the
dangerous environment in which he lived.
Reeves
reported to Dr. King that he sold drugs and
sometimes made between $1500 and $2000 per week.
Reeves used the money from his drug dealing to
purchase clothes, food, and a car.
"The record also reveals that Reeves and his
codefendants planned to commit a robbery. It is
undisputed that Reeves actively participated in the
planning of the robbery.
There was no evidence
presented at the evidentiary hearing suggesting that
Reeves's participation in the planning of the
robbery or the ultimate murder and robbery of the
victim was the result of being coerced or threatened
by another person. The evidence from trial,
including the compelling testimony from one of
Reeves's codefendants, proved beyond a reasonable
[doubt] that it was Reeves, and Reeves alone, that
decided to murder the victim.
After he shot the
victim, Reeves hid incriminating items of evidence,
including the murder weapon and bloody clothes that
he and his codefendants had worn.
In addition,
Reeves split the proceeds with his codefendants, was
53

244a

CR-13-1504
boastful to others about shooting the victim, and
seemed proud that he might get a tear drop -- a gang
symbol indicating that a gang member had killed
another person. See Ex parte Smith, [___ So. 3d at
___] (wherein the court considered Smith's actions
after committing murder as a factor in concluding
that Smith 'does not suffer from deficits in his
adaptive functioning').
"'In the context of an Atkins claim, the
defendant
has
the
burden
of
proving
by
a
preponderance of the evidence that he or she is
mentally retarded and thus ineligible for the death
penalty.'
Ex parte Smith, [Ms. 1060427, May 25,
2007] ___ So. 3d ___, ___ (Ala. 2007).
After
considering the evidence presented at Reeves's trial
and the evidence presented at the evidentiary
hearing, this Court concludes that Reeves failed to
meet his burden of proving by a preponderance of
evidence that he is mentally retarded and that his
death sentence violates the Eighth Amendment. Rule
32.3, Ala. R. Crim. P. This claim for relief is,
therefore, denied."
(C. 949-53.)
With respect to the intellectual-functioning prong of
intellectual

disability,

Reeves

contends

that

"[i]t

is

undisputed that [he] has significantly subaverage intellectual
functioning" and that the circuit court erred in finding that
he did not.

(Reeves's brief, p. 41.)

Specifically, Reeves

asserts that the circuit court erred in rejecting the "Flynn
Effect" and in not deducting points from his IQ scores to
account for that phenomenon.

Reeves also appears to assert

54

245a

CR-13-1504
that the circuit court was required to find that he suffered
from

significantly

subaverage

intellectual

functioning

because, he says, all three of his IQ scores fell within the
range of significantly subaverage intellectual functioning,
i.e., between 70 and 75 or below, when considering the SEM,
and one of his scores was below 70 even without consideration
of the SEM.14
We reject Reeves's argument that the circuit court erred
in rejecting the "Flynn Effect" and in not deducting points

14

Reeves also maintains in passing that consideration of
the SEM makes his IQ scores "even lower" than reported.
(Reeves's brief, p. 44.) However, contrary to Reeves's belief,
consideration of the SEM would not make his IQ scores "even
lower." In Byrd v. State, 78 So. 3d 445, 452 (Ala. Crim. App.
2009), this Court "reject[ed the appellant's] request that we
presume that a capital defendant's IQ falls at the bottom of
the range of the confidence interval or 'margin of error.'"
See also Carroll v. State, [Ms. CR-12-0599, August 14, 2015]
___ So. 3d ___, ___ (Ala. Crim. App. 2015). Although Byrd was
released long before the United States Supreme Court's opinion
in Hall, nothing in Hall requires a court to presume that a
person's IQ score falls in the bottom of the SEM of plus or
minus five points. As noted above, in Hall, the Supreme Court
merely recognized that the SEM is a fact that means an IQ
score is not determinative of intellectual functioning and
must be considered, not as a fixed number, but as a range.
See Ledford v. Warden, Georgia Diagnostic & Classification
Prison, [No. 14-15650, March 21, 2016] ___ F.3d ___, ___ (11th
Cir. 2016) ("[T]he standard error of measurement is a
bi-directional concept that does not carry with it a
presumption that an individual's IQ falls to the bottom of his
IQ range.").
55

246a

CR-13-1504
from his IQ scores to account for that phenomenon. This Court
has repeatedly held that a circuit court is not required to
accept, consider, or apply the "Flynn Effect" in determining
intellectual disability.

See Carroll v. State, [Ms. CR-12-

0599, August 14, 2015] ___ So. 3d ___, ___ (Ala. Crim. App.
2015) ("[T]he circuit court could have reasonably rejected the
'Flynn Effect.'"); Smith v. State, 112 So. 2d 1108, 1131 (Ala.
Crim. App. 2012) ("[T]his Court has previously held on several
occasions that a trial court need not accept the 'Flynn
Effect' as binding, and that it has not been accepted as
scientifically valid by all courts."); and Albarran v. State,
96 So. 3d 131, 200 (Ala. Crim. App. 2011) ("[T]he circuit
court could have reasonably rejected the 'Flynn Effect.'").
As noted above, Dr. King testified that it is not required
that the "Flynn Effect" be taken into account when evaluating
someone

for

intellectual

disability

and

that

the

"Flynn

Effect" is "not settled" in the "psychological community." (R.
244-45.)

Although Dr. Goff and Dr. Salekin both testified

that the "Flynn Effect" is generally recognized as valid, Dr.
Goff admitted that he did not use the "Flynn Effect" for over
20 years after it was first discovered. He also admitted that

56

247a

CR-13-1504
Dr. Flynn himself, the psychologist who had discovered the
"Flynn Effect," had stated in a recent article that the "Flynn
Effect" had not, in fact, been generally accepted as valid.
Finally, Dr. Goff admitted that the "scoring manual" for the
WAIS-III does not require the use of the "Flynn effect" to get
an accurate IQ score and that the Diagnostic and Statistical
Manual of Mental Disorders, Fourth Edition ("DSM-IV") also
does not mention the "Flynn Effect" or require its application
to IQ scores.

Therefore, the circuit court did not err in

rejecting the "Flynn Effect" and in not deducting points from
Reeves's IQ scores to account for that phenomenon.
We also reject Reeves's argument that the circuit court
erred in not considering the SEM.

Nothing in the circuit

court's order indicates that the court did not consider the
SEM in evaluating Reeves's claim.

Although the circuit court

did not specifically mention the SEM in its order, it did
state that it had considered all the evidence presented at the
evidentiary hearing and that evidence included testimony about
the SEM.
We further reject Reeves's argument that the circuit
court was required to find that he suffered from significantly

57

248a

CR-13-1504
subaverage intellectual functioning because, he says, all of
his

IQ

scores

fell

within

the

range

of

significantly

subaverage intellectual functioning when the SEM is considered
one of his IQ scores was below 70 even without consideration
of the SEM.

As noted above, in Hall, the United States

Supreme Court recognized that an IQ score, alone, is not
determinative

of

intellectual

disability

or

even

of

the

intellectual-functioning prong of intellectual disability.
The

Court

explained

that

because

of

the

imprecision

in

intelligence testing, an IQ score should be considered a
range, not a fixed number.

Subsequently, the United States

Court of Appeals for the Fifth Circuit explained:
"The consideration of SEM as discussed by the
Supreme Court, however, is not a one-way ratchet.
The imprecision of IQ testing not only provides that
IQ scores above 70 but within the SEM do not
conclusively establish a lack of significantly
subaverage general intellectual functioning, but
also that IQ scores below 70 but within the SEM do
not conclusively establish the opposite. In other
words, a sentencing court may find a defendant to
have failed to meet the first prong of the AAMR's
definition of intellectual disability even if his IQ
score is below 70 so long as 70 is within the margin
of error and other evidence presented provides
sufficient
evidence
of
his
intellectual
functioning."

58

249a

CR-13-1504
Mays v. Stephens, 757 F.3d 211, 218 n.17 (5th Cir. 2014).

The

United States Court of Appeals for the Eleventh Circuit has
similarly recognized that
"[t]he standard error of measurement accounts for a
margin of error both below and above the IQ
test-taker's score. As the Fifth Circuit recently
concluded, the U.S. Supreme Court's consideration of
the standard error of measurement 'is not a one-way
ratchet.' Mays v. Stephens, 757 F.3d 211, 218 n.17
(5th Cir. 2014). We agree with the Fifth Circuit
that the standard error of measurement is merely a
factor to consider when assessing an individual's
intellectual functioning -- one that may benefit or
hurt that individual's Atkins[ v. Virginia, 536 U.S.
304 (2002),] claim, depending on the content and
quality of expert testimony presented. Further, the
standard error of measurement is a bi-directional
concept that does not carry with it a presumption
that an individual's IQ falls to the bottom of his
IQ range.
"While Hall[ v. Florida, 572 U.S. ___, 134 S.Ct.
1986 (2014),] requires lower courts at least to
consider the standard error of measurement when
evaluating intellectual functioning, it does not, as
Ledford contends, require lower courts to find that
an IQ score of 75 or below necessarily satisfies the
significantly subaverage intellectual functioning
prong. In fact, the Supreme Court steers us away
from such rigid assertions by emphasizing that an IQ
score represents a 'range, not a fixed number.'
Hall, 572 U.S. at ___, 134 S.Ct. at 1999.
"A district court's actual application of the
standard error of measurement -- i.e. whether the
concept would make a finding of significantly
subaverage intellectual function more likely, less
likely,
or
have
no
effect
on
the
court's
determination -- is a matter of fact-finding
59

250a

CR-13-1504
informed by testimony from expert witnesses.
See
Connor [v. GDCP Warden], 784 F.3d [752,] 766 [(11th
Cir. 2015)]; Thomas [v. Allen], 607 F.3d [749,] 758
[(11th Cir. 2010)]. So long as the district court's
findings regarding how the standard error of
measurement informs its ultimate intellectual
functioning determination are plausible in light of
the record evidence viewed in its entirety, there
will be no clear error."
Ledford v. Warden, Georgia Diagnostic & Classification Prison,
[No. 14-15650, March 21, 2016] ___ F.3d ___, ___ (11th Cir.
2016).
In this case, Reeves had full-scale IQ scores of 68, 71,
and 73.

Considering the SEM, these scores indicate that

Reeves's IQ could be as low as 63 or as high as 78.

Reeves's

expert, Dr. Goff, concluded, based on Reeves's IQ scores as
well as all other information before him, that Reeves suffered
from significantly subaverage intellectual functioning.

On

the other hand, the State's expert, Dr. King, concluded, based
on Reeves's IQ scores and all other information before him,
that Reeves falls within the borderline range of intellectual
functioning.

The circuit court, after considering all the

evidence presented at the hearing, and after observing Reeves
when Reeves testified at a pretrial hearing, resolved the
conflicting

expert

testimony

as

60

251a

to Reeves's

intellectual

CR-13-1504
functioning

adversely

to

Reeves,

finding

that,

although

Reeves's intellectual functioning was subaverage, it was not
significantly subaverage as required to meet the first prong
of intellectual disability.

"Conflicting evidence is always

a question for the finder of fact to determine, and a verdict
rendered thereon will not be disturbed on appeal." Padgett v.
State, 668 So. 2d 78, 86 (Ala. Crim. App. 1995).

There is

ample evidence in the record to support the circuit court's
finding and we will not disturb the circuit court's resolution
of the conflicting expert testimony.

Therefore, we find no

abuse of discretion on the part of the circuit court in
concluding that Reeves failed to prove by a preponderance of
the evidence that he suffered from significantly subaverage
intellectual functioning.
As for the adaptive-functioning prong of intellectual
disability, Reeves contends that he "presented evidence of
significant

deficits

in

at

least

six

areas

of

adaptive

functioning and therefore [he] meets" the requirements for the
second

prong

of

intellectual

disability

--

significant

deficits in at least two areas of adaptive functioning -- and
that the circuit court erred in not so finding. (Reeves's

61

252a

CR-13-1504
brief, p. 45.)

Specifically, Reeves asserts that the circuit

court "erroneously discounted Dr. Goff's findings by pointing
to anecdotal tasks that Mr. Reeves can perform, such as his
purported planning of the crime, his earning of Job Corps
certificates in welding, brick masonry, and auto mechanics,
his extremely brief construction employment, and his purported
drug

selling

activities,"

none

of

which,

Reeves

claims,

undermines or refutes Dr. Goff's opinion that Reeves suffers
from

significant

functioning.
Reeves

deficits

in

multiple

areas

(Reeves's brief, pp. 50-51.)

further

argued

that

even

of

adaptive

At oral argument,

discounting

Dr.

Goff's

testimony, Dr. King testified that on the ABS-RC-II test,
Reeves

scored

in

the

prevocational/vocational,

25th

percentile

self-direction,

and

in

the

domestic-

activity domains, thus conclusively establishing that Reeves
suffered significant deficits in those three areas of adaptive
functioning.
was

required

Therefore, Reeves concludes, the circuit court
to

find

that

he

suffered

from

significant

deficits in at least two areas of adaptive functioning.
Reeves's arguments in this regard appear to be based
solely on his scores on the ABAS test administered by Dr. Goff

62

253a

CR-13-1504
and the ABS-RC-II test administered by Dr. King.

However,

contrary to Reeves's apparent belief, a circuit court is not
required to find that a person suffers from significant
deficits in adaptive functioning merely because that person's
scores on a standardized test indicate such deficits. Just as
an IQ test is necessarily imprecise and, therefore, not
determinative
intellectual

of

the

intellectual-functioning

disability,

standardized

tests

for

prong

of

adaptive

functioning are also necessarily imprecise and, therefore, are
not

determinative

of

intellectual disability.

the

adaptive-functioning

prong

of

Cf., United States v. Davis, 611 F.

Supp. 2d 472, 493 (D. Maryland, 2009) (noting that "nearly all
methods of assessing an individual's adaptive functioning -particularly in a retroactive analysis -- are imperfect" and
that,

therefore,

"the

typical

approach

used

in

forensic

assessments of adaptive functioning is to collect information
from a multitude of sources and look for convergence of
findings

in

order

to

confirm

one's

conclusions");

and

Singleton v. Astrue, [No. 2:11CV512-CSC, February 29, 2012)
(M.D. Ala. 2012) (not reported) (noting that scores on the
ABAS-II test are not determinative as to adaptive functioning

63

254a

CR-13-1504
for purposes of qualification for social security disability).
Although

standardized

tests

for

adaptive

functioning

are

certainly useful in assessing a person's adaptive functioning,
a court should assess such test scores in light of the
circumstances of each case and in light of all other relevant
evidence

regarding

adaptive

functioning,

including

the

person's actions at the time of the crime.
In this case, the evidence regarding Reeves's adaptive
functioning was conflicting.

Although Reeves scored low in

the domains of domestic activity, self-direction, and work on
the ABS-RC-II test administered by Dr. King and in the areas
of

self-direction,

work,

leisure

activities,

health

and

safety, self-care, and functional academics on the ABAS test
administered by Dr. Goff, thus indicating significant deficits
in those areas of adaptive functioning, other evidence was
presented that either called into question the validity of
those scores and/or indicated that Reeves's deficits in those
areas were not, in fact, significant.
For example, Dr. King testified that Reeves scored in the
25th percentile in the domain of domestic activity because
Reeves had never been required to do any type of domestic

64

255a

CR-13-1504
activity growing up and had been incarcerated since he was 18
years old.

Dr. Goff testified that it is not unusual for

someone who is incarcerated to have low adaptive functioning.
Dr. King also testified that he would have scored Reeves
higher in the self-direction domain if he had known at the
time that he evaluated Reeves that, from an early age, Reeves
had been "involved in a lot of drug activity and was actually
directing the behaviors and activities of others in this drug
related activity."

(R. 231-32.)

Additionally, Reeves was

described in his juvenile mental-health records as "extremely
goal-directed," even at a young age.

(C. 1556.)

Dr. King further testified that he believed that Reeves's
low score in the work domain was because Reeves "did not get
to the age where he might be able to master use of complex job
tools or equipment" before he went to prison, and because
school records indicated that Reeves often missed school and
had "pretty poor school habits."

(R. 230-31.)

Dr. Goff

concurred, stating that Reeves's deficit in the work area "may
be because he had a lack of opportunity."

(R. 62.)

Dr. Goff

further testified that the validity of Reeves's low score in
this area was questionable in light of the fact that Beverly

65

256a

CR-13-1504
Seroy, the person to whom he administered the ABAS test, had
simply guessed on the majority of questions in this area.
Additionally, as the circuit court noted in its order, Reeves
had obtained certificates in brick masonry, welding, and
automobile mechanics, all of which require some level of
technical skill, and the record indicates that Reeves held a
construction job while his brother was incarcerated and that
he was a good employee.

Furthermore, the evidence indicated

that Reeves's "poor school habits" were more a product of his
defiant behavior in school than of any deficits in adaptive
functioning.
Additionally, although Reeves scored low in the health
and safety, self-care, and leisure-activity areas on the ABAS
test

administered

by

Dr.

Goff,

on

the

ABS-RC-II

test

administered by Dr. King, Reeves achieved the highest score
possible in the domain of independent functioning, which
included such things as self-care and health and safety, and
Reeves also scored high in the domains of responsibility and
socialization.

Moreover, the evidence indicated that Reeves

sold drugs to make money and that he used that money to buy

66

257a

CR-13-1504
personal belongings for himself, including a car, and to help
pay the household bills.
Finally, Reeves scored in the 5th percentile in the area
of functional academics on the ABAS test administered by Dr.
Goff, and Dr. Goff testified that Reeves was functionally
illiterate and could read only at a third-grade level and,
therefore, that Reeves suffered from a significant deficit in
this area.

However, Dr. Goff indicated that the ability to

read at about a fifth- or sixth-grade level would not qualify
as a significant deficit in functional academics.

Dr. King

testified that Reeves was able to read at a fifth-grade level,
thus

indicating

that

Reeves

did

not

have

a

significant

deficient in functional academics.
Simply put, the circuit court in this case was faced with
conflicting evidence regarding Reeves's adaptive functioning,
including conflicting expert testimony.

Reeves's expert, Dr.

Goff, testified that Reeves suffered from significant deficits
in six areas of adaptive functioning.

On the other hand, the

State's expert, Dr. King, indicated that, although Reeves
scored low on the ABS-RC-II test in three areas of adaptive
functioning,

those

scores

were

67

258a

questionable

for

various

CR-13-1504
reasons.

It

was

for

the

circuit

court

to

resolve

the

conflicting evidence and the conflicting expert testimony, and
it obviously resolved the conflicts adversely to Reeves.

In

doing so, the court appropriately looked at evidence regarding
Reeves's adaptive functioning other than the expert testimony
-- such as Reeves's technical abilities in brick masonry,
welding, and automobile mechanics; Reeves's ability to work
construction and do so reliably when he was not around his
brother,

Julius;

Reeves's

participation

in

a

drug-sale

enterprise in which he was able to make thousands of dollars
a week that he then used to purchase personal items and a car;
and

particularly

Reeves's

cold

and

calculated

actions

surrounding the murder, including planning the robbery with
his codefendants, hiding incriminating evidence after he had
shot the victim, splitting the proceeds of the robbery with
his codefendants, and bragging about the murder, claiming that
he would earn a "teardrop" – a gang tattoo indicating that a
gang member had killed someone – for the murder

See, e.g., Ex

parte Smith, [Ms. 1080973, October 22, 2010] ___ So. 3d ___,
___

(Ala.

2010)

("We

find

especially

persuasive

behavior during the commission of these murders.")

68

259a

Smith's
There is

CR-13-1504
ample evidence in the record to support the circuit court's
finding that Reeves did not suffer from significant deficits
in at least two areas of adaptive functioning, and we will not
disturb the circuit court's resolution of the conflicting
evidence.

Therefore, we find no abuse of discretion on the

part of the circuit court in finding that Reeves failed to
prove by a preponderance of the evidence that he suffered from
significant

deficits

in

at

least

two

areas

of

adaptive

functioning.15
For these reasons, the circuit court properly denied
Reeves's claim of intellectual disability.
III.
Reeves next contends that the circuit court erred in
denying several of his claims of ineffective assistance of
trial and appellate counsel.
"'In order to prevail on a claim of
ineffective assistance of counsel, a
defendant must meet the two-pronged test
articulated by the United States Supreme
Court in Strickland v. Washington, 466 U.S.
668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984):

15

Because we find no error in the circuit court's findings
regarding the first two prongs of intellectual disability, we
need not examine the third prong -- whether the deficits
manifested before the age of 18.
69

260a

CR-13-1504
"'"First, the defendant must
show that counsel's performance
was deficient.
This requires
showing that counsel made errors
so serious that counsel was not
functioning as the 'counsel'
guaranteed the defendant by the
Sixth Amendment.
Second, the
defendant must show that the
deficient performance prejudiced
the defense.
This requires
showing that counsel's errors
were so serious as to deprive the
defendant of a fair trial, a
trial whose result is reliable.
Unless a defendant makes both
showings, it cannot be said that
the conviction or death sentence
resulted from a breakdown in the
adversary process that renders
the result unreliable."
"'466 U.S. at 687, 104 S.Ct. at 2064.
"'"The performance component outlined
in Strickland is an objective one: that is,
whether counsel's assistance, judged under
'prevailing
professional
norms,'
was
'reasonable
considering
all
the
circumstances.'"
Daniels v. State, 650
So. 2d 544, 552 (Ala. Cr. App. 1994), cert.
denied, [514 U.S. 1024, 115 S.Ct. 1375, 131
L.Ed.2d 230 (1995)], quoting Strickland,
466 U.S. at 688, 104 S.Ct. at 2065.
"A
court deciding an actual ineffectiveness
claim must judge the reasonableness of
counsel's challenged conduct on the facts
of the particular case, viewed as of the
time of counsel's conduct."
Strickland,
466 U.S. at 690, 104 S.Ct. at 2066.

70

261a

CR-13-1504
"'The claimant alleging ineffective
assistance of counsel has the burden of
showing that counsel's assistance was
ineffective. Ex parte Baldwin, 456 So. 2d
129 (Ala. 1984), aff'd, 472 U.S. 372, 105
S.Ct. 2727, 86 L.Ed.2d 300 (1985). "Once
a petitioner has identified the specific
acts or omissions that he alleges were not
the result of reasonable professional
judgment on counsel's part, the court must
determine whether those acts or omissions
fall
'outside
the
wide
range
of
professionally
competent
assistance.'
[Strickland,] 466 U.S. at 690, 104 S.Ct. at
2066." Daniels, 650 So. 2d at 552. When
reviewing a claim of ineffective assistance
of counsel, this court indulges a strong
presumption that counsel's conduct was
appropriate and reasonable.
Hallford v.
State, 629 So. 2d 6 (Ala. Cr. App. 1992),
cert. denied, 511 U.S. 1100, 114 S.Ct.
1870, 128 L.Ed.2d 491 (1994); Luke v.
State, 484 So. 2d 531 (Ala. Cr. App. 1985).
"This court must avoid using 'hindsight' to
evaluate the performance of counsel.
We
must
evaluate
all
the
circumstances
surrounding the case at the time of
counsel's
actions
before
determining
whether
counsel
rendered
ineffective
assistance." Hallford, 629 So. 2d at 9.
See also, e.g., Cartwright v. State, 645
So. 2d 326 (Ala. Cr. App. 1994).
"'"Judicial
scrutiny
of
counsel's performance must be
highly deferential.
It is all
too tempting for a defendant to
second-guess counsel's assistance
after
conviction
or
adverse
sentence, and it is all too easy
for a court, examining counsel's
defense after it has proved
71

262a

CR-13-1504
unsuccessful, to conclude that a
particular act or omission of
counsel was unreasonable. A fair
assessment
of
attorney
performance requires that every
effort be made to eliminate the
distorting effects of hindsight,
to reconstruct the circumstances
of counsel's challenged conduct,
and to evaluate the conduct from
counsel's perspective at the
time.
Because
of
the
difficulties inherent in making
the evaluation, a court must
indulge a strong presumption that
counsel's conduct falls within
the wide range of reasonable
professional assistance; that is,
the defendant must overcome the
presumption
that,
under
the
circumstances,
the
challenged
action 'might be considered sound
trial strategy.'
There are
countless
ways
to
provide
effective assistance in any given
case.
Even the best criminal
defense
attorneys
would
not
defend a particular client in the
same way."
"'Strickland, 466 U.S. at 689, 104 S.Ct. at
2065 (citations omitted).
See Ex parte
Lawley, 512 So. 2d 1370, 1372 (Ala. 1987).
"'"Even if an attorney's
performance is determined to be
deficient, the petitioner is not
entitled to relief unless he
establishes that 'there is a
reasonable probability that, but
for
counsel's
unprofessional
errors,
the
result
of
the
72

263a

CR-13-1504
proceeding
would
have
been
different.
A
reasonable
probability is a probability
sufficient
to
undermine
confidence
in
the
outcome.'
[Strickland,] 466 U.S. at 694,
104 S.Ct. at 2068."
"'Daniels, 650 So.2d at 552.
"'"When a defendant challenges a
death sentence such as the one at
issue in this case, the question
is whether there is a reasonable
probability that, absent the
errors,
the
sentencer
-including an appellate court, to
the
extent
it
independently
reweighs the evidence -- would
have concluded that the balance
of aggravating and mitigating
circumstances did not warrant
death."
"'Strickland, 466 U.S. at 697, 104 S.Ct. at
2069, quoted in Thompson v. State, 615
So. 2d 129, 132 (Ala. Cr. App. 1992), cert.
denied, 510 U.S. 976, 114 S.Ct. 467, 126
L.Ed.2d 418 (1993).
"'....'
"Bui v. State, 717 So. 2d 6, 12-13 (Ala. Cr. App.
1997), cert. denied, 717 So. 2d 6 (Ala. 1998)."
Dobyne v. State, 805 So. 2d 733, 742-44 (Ala. Crim. App.
2000), aff'd, 805 So. 2d 763 (Ala. 2001).
"The standards for determining whether appellate counsel
was ineffective are the same as those for determining whether
73

264a

CR-13-1504
trial counsel was ineffective."

Jones v. State, 816 So. 2d

1067, 1071 (Ala. Crim. App. 2000), overruled on other grounds,
Brown v. State, 903 So. 2d 159 (Ala. Crim. App. 2004).

"The

process of evaluating a case and selecting those issues on
which

the

appellant is

most

likely

to

prevail

has

been

described as the hallmark of effective appellate advocacy."
Hamm v. State, 913 So. 2d 460, 491 (Ala. Crim. App. 2002).

As

this Court explained in Thomas v. State, 766 So. 2d 860 (Ala.
Crim. App. 1998), aff'd, 766 So. 2d 975 (Ala. 2000), overruled
on other grounds, Ex parte Taylor, 10 So. 3d 1075 (Ala. 2005):
"As to claims of ineffective appellate counsel,
an appellant has a clear right to effective
assistance of counsel on first appeal. Evitts v.
Lucey, 469 U.S. 387, 105 S.Ct. 830, 83 L.Ed.2d 821
(1985).
However,
appellate
counsel
has
no
constitutional
obligation
to
raise
every
nonfrivolous issue. Jones v. Barnes, 463 U.S. 745,
103 S.Ct. 3308, 77 L.Ed.2d 987 (1983). The United
States
Supreme
Court
has
recognized
that
'[e]xperienced advocates since time beyond memory
have emphasized the importance of winnowing out
weaker arguments on appeal and focusing on one
central issue if possible, or at most on a few key
issues.' Jones v. Barnes, 463 U.S. at 751-52, 103
S.Ct. 3308.
Such a winnowing process 'far from
being evidence of incompetence, is the hallmark of
effective advocacy.' Smith v. Murray, 477 U.S. 527,
536, 106 S.Ct. 2661, 91 L.Ed.2d 434 (1986).
Appellate counsel is presumed to exercise sound
strategy in the selection of issues most likely to
afford relief on appeal. Pruett v. Thompson, 996
F.2d 1560, 1568 (4th Cir. 1993), cert. denied, 510
74

265a

CR-13-1504
U.S. 984, 114 S.Ct. 487, 126 L.Ed.2d 437 (1993).
One claiming ineffective appellate counsel must show
prejudice, i.e., the reasonable probability that,
but for counsel's errors, the petitioner would have
prevailed on appeal.
Miller v. Keeney, 882 F.2d
1428, 1434 and n.9 (9th Cir. 1989)."
766 So. 2d at 876.
Moreover, in reviewing claims of ineffective assistance
of counsel, this Court need not consider both prongs of the
Strickland test.

See Thomas v. State, 511 So. 2d 248, 255

(Ala. Crim. App. 1987) ("In determining whether a defendant
has established his burden of showing that his counsel was
ineffective,

we

are

not

required

to

address

both

considerations of the Strickland v. Washington test if the
defendant

makes

an

insufficient

showing

on

one

of

the

prongs."). Because both prongs of the Strickland test must be
satisfied to establish ineffective assistance of counsel, the
failure to establish one of the prongs is a valid basis, in
and of itself, to deny the claim.

As the United States

Supreme Court explained:
"Although
we
have
discussed
the
performance
component of an ineffectiveness claim prior to the
prejudice component, there is no reason for a court
deciding an ineffective assistance claim to approach
the inquiry in the same order or even to address
both components of the inquiry if the defendant
makes an insufficient showing on one.
In
75

266a

CR-13-1504
particular, a court need not determine whether
counsel's performance was deficient before examining
the prejudice suffered by the defendant as a result
of the alleged deficiencies.
The object of an
ineffectiveness claim is not to grade counsel's
performance.
If it is easier to dispose of an
ineffectiveness claim on the ground of lack of
sufficient prejudice, which we expect will often be
so, that course should be followed."
Strickland, 466 U.S. at 697.
In

his

ineffective

petition,
assistance

Reeves
of

raised

trial

numerous

and

claims

appellate

of

counsel;

however, he does not pursue all of those claims in his brief
on appeal.

Those claims that Reeves raised in his petition

but does not pursue on appeal are deemed abandoned and will
not be considered by this Court. See Brownlee v. State, 666
So. 2d 91, 93 (Ala. Crim. App. 1995) ("We will not review
issues

not

listed

and

argued

in

ineffective-assistance-of-counsel

brief.").
claims

that

As

for

Reeves

the
does

pursue on appeal, the circuit court found that Reeves had
failed

to

evidence.

prove

these

claims

by

a preponderance

of

the

We agree.

The record from Reeves's direct appeal indicates that
attorneys Blanchard McLeod and Marvin Wiggins were initially
appointed to represent Reeves.

McLeod withdrew approximately

76

267a

CR-13-1504
three months before trial, and Thomas Goggans was appointed as
a replacement. Reeves was represented at trial by Goggans and
Wiggins. Goggans continued to represent Reeves on appeal. At
the Rule 32 evidentiary hearing, Reeves did not call McLeod,
Goggans, or Wiggins to testify.

In its order, the circuit

court found that Reeves had failed to prove his claims of
ineffective assistance of trial and appellate counsel, in
part, because he had failed to call Goggans and Wiggins to
testify at the evidentiary hearing.

On appeal, Reeves argues

that the circuit court erred in finding that his failure to
call his attorneys to testify resulted in his failing to prove
his ineffective-assistance-of-counsel claims because, he says,
"there

is

no

requirement

(Reeves's brief, p. 62.)

that

trial

counsel

testify."

Specifically, Reeves argues that

because the Strickland test is an objective one, testimony
from

counsel

is

not

necessary

to

prove

any

claim

of

ineffective assistance of counsel.
However, Reeves's argument fails to take into account the
requirement that courts indulge a strong presumption that
counsel acted reasonably, a presumption that must be overcome

77

268a

CR-13-1504
by evidence to the contrary.

In Broadnax v. State, 130 So. 3d

1232 (Ala. Crim. App. 2013), this Court stated:
"It is extremely difficult, if not impossible,
to prove a claim of ineffective assistance of
counsel without questioning counsel about the
specific claim, especially when the claim is based
on specific actions, or inactions, of counsel that
occurred outside the record. Indeed, 'trial counsel
should ordinarily be afforded an opportunity to
explain his actions before being denounced as
ineffective.'
Rylander v. State, 101 S.W.3d 107,
111 (Tex. Crim. App. 2003). This is so because it
is presumed that counsel acted reasonably:
"'The presumption impacts on the
burden of proof and continues throughout
the case, not dropping out just because
some conflicting evidence is introduced.
"Counsel's competence ... is presumed, and
the
[petitioner]
must
rebut
this
presumption by proving that his attorney's
representation
was
unreasonable
under
prevailing professional norms and that the
challenged action was not sound strategy."
Kimmelman v. Morrison, 477 U.S. 365, 106
S.Ct. 2574, 2588, 91 L.Ed.2d 305 (1986)
(emphasis added) (citations omitted). An
ambiguous
or
silent
record
is
not
sufficient to disprove the strong and
continuing presumption. Therefore, "where
the record is incomplete or unclear about
[counsel]'s actions, we will presume that
he did what he should have done, and that
he
exercised
reasonable
professional
judgment."
Williams [v. Head,] 185 F.3d
[1223,] 1228 [(11th Cir. 1999)]; see also
Waters [v. Thomas,] 46 F.3d [1506,] 1516
[(11th Cir. 1995)] (en banc) (noting that
even though testimony at habeas evidentiary
hearing was ambiguous, acts at trial
78

269a

CR-13-1504
indicate that counsel exercised
professional judgment).'

sound

"Chandler v. United States, 218 F.3d 1305, 1314 n.15
(11th Cir. 2000). '"If the record is silent as to
the
reasoning
behind
counsel's
actions,
the
presumption of effectiveness is sufficient to deny
relief on [an] ineffective assistance of counsel
claim."'
Dunaway v. State, [Ms. CR–06–0996,
December 18, 2009] ___ So. 3d ___, ___ (Ala. Crim.
App. 2009) (quoting Howard v. State, 239 S.W.3d 359,
367 (Tex. App. 2007))."
130 So. 3d at 1255-56.
Subsequently, in Stallworth v. State, 171 So. 3d 53 (Ala.
Crim. App. 2013) (opinion on return to remand), this Court
explained:
"Further, the presumption that counsel performed
effectively '"is like the 'presumption of innocence'
in a criminal trial,"' and the petitioner bears the
burden of disproving that presumption.
Hunt v.
State, 940 So. 2d 1041, 1059 (Ala. Crim. App. 2005)
(quoting Chandler v. United States, 218 F.3d 1305,
1314 n.15 (11th Cir. 2000) (en banc)). 'Never does
the
government
acquire
the
burden
to
show
competence, even when some evidence to the contrary
might be offered by the petitioner.'
Id.
'"'An
ambiguous or silent record is not sufficient to
disprove the strong and continuing presumption [of
effective representation].
Therefore, "where the
record is incomplete or unclear about [counsel]'s
actions, [a court] will presume that he did what he
should have done, and that he exercised reasonable
professional judgment."'"'
Hunt, 940 So. 2d at
1070–71 (quoting Grayson v. Thompson, 257 F.3d 1194,
1218 (11th Cir. 2001), quoting in turn Chandler, 218
F.3d at 1314 n.15, quoting in turn Williams v. Head,
185 F.3d 1223, 1228 (11th Cir. 1999)).
Thus, to
79

270a

CR-13-1504
overcome the strong presumption of effectiveness, a
Rule 32 petitioner must, at his evidentiary hearing,
question trial counsel regarding his or her actions
and reasoning. See, e.g., Broadnax v. State, 130
So. 3d 1232, 1255–56 (Ala. Crim. App. 2013)
(recognizing that '[i]t is extremely difficult, if
not impossible, to prove a claim of ineffective
assistance of counsel without questioning counsel
about the specific claim, especially when the claim
is based on specific actions, or inactions, of
counsel that occurred outside the record[, and
holding that] circuit court correctly found that
Broadnax, by failing to question his attorneys about
this specific claim, failed to overcome the
presumption that counsel acted reasonably'); Whitson
v. State, 109 So. 3d 665, 676 (Ala. Crim. App. 2012)
(holding that a petitioner failed to meet his burden
of overcoming the presumption that counsel were
effective because the petitioner failed to question
appellate counsel regarding their reasoning); Brooks
v. State, 929 So. 2d 491, 497 (Ala. Crim. App. 2005)
(holding that a petitioner failed to meet his burden
of overcoming the presumption that counsel were
effective because the petitioner failed to question
trial counsel regarding their reasoning); McGahee v.
State, 885 So. 2d 191, 221–22 (Ala. Crim. App. 2003)
('[C]ounsel at the Rule 32 hearing did not ask trial
counsel any questions about his reasons for not
calling the additional witnesses to testify.
Because he has failed to present any evidence about
counsel's decisions, we view trial counsel's actions
as
strategic
decisions,
which
are
virtually
unassailable.'); Williams v. Head, 185 F.3d at 1228;
Adams v. Wainwright, 709 F.2d 1443, 1445–46 (11th
Cir. 1983) ('[The petitioner] did not call trial
counsel to testify ... [; therefore,] there is no
basis in this record for finding that counsel did
not sufficiently investigate [the petitioner's]
background.'); Callahan v. Campbell, 427 F.3d 897,
933 (11th Cir. 2005) ('Because [trial counsel]
passed away before the Rule 32 hearing, we have no
evidence of what he did to prepare for the penalty
80

271a

CR-13-1504
phase of [the petitioner's] trial. In a situation
like this, we will presume the attorney "did what he
should have done, and that he exercised reasonable
professional judgment."')."
171 So. 3d at 92-93 (emphasis added).

See also Clark v.

State, [Ms. CR-12-1965, March 13, 2015] ___ So. 3d ___ (Ala.
Crim. App. 2015) (holding that Rule 32 petitioner had failed
to prove that his appellate counsel was ineffective for not
raising issues on appeal where the petitioner did not call his
appellate counsel to testify at the Rule 32 evidentiary
hearing regarding counsel's reasons for not raising those
issues).
In this case, Reeves's failure to call his attorneys to
testify is fatal to his claims of ineffective assistance of
counsel.

Reeves reasserts on appeal the following claims of

ineffective assistance of trial and appellate counsel that he
raised in his petition:
(1) That his trial counsel were ineffective for
not hiring Dr. Goff, or another neuropsychologist,
to evaluate Reeves for intellectual disability and
for not then presenting testimony from that expert
during the penalty phase of the trial that Reeves
was intellectually disabled in order to establish a
mitigating circumstance;
(2) That his trial counsel were ineffective for
relying during the penalty phase of his trial on the
testimony
of
Dr.
Ronan,
the
court-appointed
81

272a

CR-13-1504
psychologist who examined Reeves before trial to
determine his competency to stand trial and his
mental state at the time of the offense, to present
mitigation evidence;
(3) That his trial counsel were ineffective for
not objecting during the penalty phase of the trial
to Dr. Ronan's testimony on cross-examination that
Reeves was not intellectually disabled;
(4) That his trial counsel were ineffective for
not conducting an adequate mitigation investigation
and for not presenting what he claimed was
substantial mitigation evidence during the penalty
phase of the trial;
(5) That his trial counsel were ineffective for
not objecting at trial to
(a) the prosecutor's allegedly urging
the jury during closing arguments at the
penalty phase of the trial to consider nonstatutory aggravating circumstances to
impose a death sentence;
(b)
the
prosecutor's
introducing
evidence and making argument during both
the guilt and penalty phases of the trial
that Reeves was involved in a gang;
(c)
the
prosecutor's
allegedly
referring to the jury's penalty-phase
verdict as a recommendation; and
(d) the trial court's instructing the
jury that its penalty-phase verdict was a
recommendation; and
(6) That his appellate counsel was ineffective
for not raising on appeal the following claims:

82

273a

CR-13-1504
(a) that the prosecutor improperly
urged the jury during closing arguments at
the penalty phase of the trial to consider
nonstatutory aggravating circumstances to
impose a death sentence;
(b) that the prosecutor improperly
introduced evidence and made argument
during both the guilt and penalty phases of
the trial that Reeves was involved in a
gang;
(c) that the prosecutor improperly
referred to the jury's penalty-phase
verdict as a recommendation; and
(d) that the trial court improperly
instructed the jury that its penalty-phase
verdict was a recommendation.16

16

We note that Reeves also reasserts on appeal the claim
from his petition that his trial counsel were ineffective for
allegedly not investigating the possibility that Reeves was
not the shooter. However, Reeves mentions this claim only in
passing in a single sentence in his brief, and he makes no
argument at all in his brief regarding why he believes the
circuit court's denial of this claim was error.
Reeves's
argument regarding this ineffective-assistance-of-counsel
claim fails to comply with Rule 28(a)(10), Ala. R. App. P.,
and it is well settled that the "[f]ailure to comply with Rule
28(a)(10) has been deemed a waiver of the issue presented."
C.B.D. v. State, 90 So. 3d 227, 239 (Ala. Crim. App. 2011).
Therefore, Reeves's claim that his trial counsel was
ineffective for allegedly not investigating the possibility
that Reeves was not the shooter is deemed waived and will not
be considered by this Court.
Additionally, we note that
Reeves also argues in his brief on appeal that his trial and
appellate counsel were ineffective for not challenging at
trial and on appeal the constitutionality of Alabama's
capital-sentencing scheme. Although Reeves raised a claim in
his petition that Alabama's capital-sentencing scheme was
83

274a

CR-13-1504
The decisions by counsel that Reeves challenges in claims
(1), (2), (3), (5), and (6), as set out above -- what experts
to hire, what witnesses to call to testify, what mitigation
evidence to present, what objections to make and what issues
to raise at trial, and what issues to raise on appeal -- are
typically

considered

strategic

decisions,

and

do

not

constitute per se deficient performance. See, e.g., Walker v.
State, [Ms. CR-11-0241, February 6, 2015] ___ So. 3d ___ (Ala.
Crim. App. 2015) ("'An attorney's decision whether to retain
witnesses, including expert witnesses, is a matter of trial
strategy.'

People v. Payne, 285 Mich. App. 181, 190, 774

N.W.2d 714, 722 (2009).

'[I]n general, the "decision not to

hire experts falls within the realm of trial strategy."'

unconstitutional under Ring v. Arizona, 536 U.S. 584 (2002),
nowhere in his petition did Reeves assert that his trial or
appellate counsel were ineffective for not raising a challenge
to the constitutionality of Alabama's capital-sentencing
scheme at trial or on appeal. A substantive challenge to the
constitutionality of a statute is not the same as a claim of
ineffective assistance of counsel. Therefore, because Reeves
did not raise in his petition claims that his trial and
appellate counsel were ineffective for not challenging the
constitutionality of Alabama's capital-sentencing scheme,
those claims are not properly before this Court for review and
will not be considered. See Arrington v. State, 716 So. 2d
237, 239 (Ala. Crim. App. 1997) ("An appellant cannot raise an
issue on appeal from the denial of a Rule 32 petition which
was not raised in the Rule 32 petition.").
84

275a

CR-13-1504
State v. Denz, 232 Ariz. 441, 445, 306 P.3d 98, 102 (2013),
quoting

Yohey

v.

Collins,

985

F.2d

222,

228

(5th

Cir.

1993)."); Johnson v. State, [Ms. CR-05-1805, September 28,
2007] ___ So. 3d ___, ___ (Ala. Crim. App. 2007) ("'[I]n the
context

of

an

ineffective

assistance

claim,

"a

decision

regarding what witnesses to call is a matter of trial strategy
which an appellate court will not second-guess."'

Curtis v.

State, 905 N.E.2d 410, 415 (Ind. Ct. App. 2009).

'[T]he

decision of which witnesses to call is quintessentially a
matter of strategy for the trial attorney.'

Boyle v. McKune,

544 F.3d 1132, 1139 (10th Cir. 2008)."); Dunaway v. State,
[Ms. CR-06-0996, December 18, 2009] ___ So. 3d ___, ___ (Ala.
Crim. App. 2009) ("'The decision of what mitigating evidence
to present during the penalty phase of a capital case is
generally a matter of trial strategy.'

Hill v. Mitchell, 400

F.3d 308, 331 (6th Cir. 2005)."), rev'd on other grounds, [Ms.
1090697, April 18, 2014] ___ So. 3d ___ (Ala. 2014); Lane v.
State, 708 So. 2d 206, 209 (Ala. Crim. App. 1997) ("This court
has held that '[o]bjections are a matter of trial strategy,
and an appellant must overcome the presumption that "conduct
falls

within

the

wide

range

85

276a

of

reasonable

professional

CR-13-1504
assistance," that is, the presumption that the challenged
action "might be considered sound trial strategy."'

Moore v.

State, 659 So. 2d 205, 209 (Ala. Cr. App. 1994)."); and Thomas
v.

State,

766

So.

2d

860,

876

(Ala.

Crim.

App.

1998)

("[A]ppellate counsel has no constitutional obligation to
raise every nonfrivolous issue. ... Appellate counsel is
presumed to exercise sound strategy in the selection of issues
most likely to afford relief on appeal."), aff'd, 766 So. 2d
975 (Ala. 2000), overruled on other grounds, Ex parte Taylor,
10 So. 3d 1075 (Ala. 2005).
The burden was on Reeves to prove by a preponderance of
the evidence that his counsel's challenged decisions were not
the result of reasonable strategy, i.e., the burden was on
Reeves to present evidence overcoming the strong presumption
that counsel acted reasonably. However, because Reeves failed
to call his counsel to testify, the record is silent as to the
reasons trial counsel (1) chose not to hire Dr. Goff or
another neuropsychologist to evaluate Reeves for intellectual
disability and chose not to present testimony from such an
expert during the penalty phase of the trial that Reeves was
intellectually disabled in order to establish a mitigating

86

277a

CR-13-1504
circumstance; (2) chose to rely during the penalty phase of
the trial on the testimony of Dr. Ronan to present mitigation
evidence; (3) chose not to object to Dr. Ronan's testimony on
cross-examination during the penalty phase of the trial that
Reeves was not intellectually disabled; and (4) chose not to
object at trial to the prosecutor's allegedly urging the jury
during closing arguments at the penalty phase of the trial to
consider nonstatutory aggravating circumstances to impose a
death sentence, to the prosecutor's introducing evidence and
making argument during both the guilt and penalty phases of
the

trial

that

Reeves

was

involved

in

a

gang,

to

the

prosecutor's allegedly referring to the jury's penalty-phase
verdict

as

a

recommendation,

and

to

the

trial

court's

instructing the jury that its penalty-phase verdict was a
recommendation.

The record is also silent as to the reasons

appellate counsel chose not to raise on appeal the claims that
the

prosecutor

improperly

urged

the

jury

during

closing

arguments at the penalty phase of the trial to consider nonstatutory

aggravating

circumstances

to

impose

a

death

sentence, that the prosecutor improperly introduced evidence
and argued during both the guilt and penalty phases of the

87

278a

CR-13-1504
trial that Reeves was involved in a gang, that the prosecutor
improperly referred to the jury's penalty-phase verdict as a
recommendation, and that the trial court improperly instructed
the jury that its penalty-phase verdict was a recommendation.
Where "'"the record is silent as to the reasoning behind
counsel's

actions,

the

presumption

of

effectiveness

is

sufficient to deny relief on [an] ineffective assistance of
counsel claim."'"

Broadnax, 130 So. 3d at 1256 (citations

omitted).
As

for

ineffective

Reeves's
for

not

claim

that

conducting

his
an

trial

counsel

adequate

were

mitigation

investigation and for not presenting what he claimed was
substantial mitigation evidence during the penalty phase of
the trial, claim (4), as set out above, we point out that
Reeves's claim in this regard is not that counsel failed to
conduct any mitigation investigation or that counsel failed to
present any mitigation evidence during the penalty phase of
the trial.

Rather, Reeves's claim is that counsel did not

conduct an adequate investigation and either did not present
during the penalty phase of the trial all mitigating evidence
that may have been available or did not present the mitigating

88

279a

CR-13-1504
evidence in the manner he believes would have been most
appropriate.
"[T]rial counsel's failure to investigate the possibility
of

mitigating

evidence

[at

all]

is,

per

se,

deficient

performance." Ex parte Land, 775 So. 2d 847, 853 (Ala. 2000),
overruled on other grounds, State v. Martin, 69 So. 3d 94
(Ala. 2011). However, "counsel is not necessarily ineffective
simply because he does not present all possible mitigating
evidence."

Pierce v. State, 851 So. 2d 558, 578 (Ala. Crim.

App. 1999), rev'd on other grounds, 851 So. 2d 606 (Ala.
2000).

When the record reflects that counsel presented

mitigating evidence during the penalty phase of the trial, as
here,

the

question

investigation

and

becomes

whether

counsel's

counsel's

decisions

mitigation

regarding

presentation of mitigating evidence were reasonable.
"'[B]efore we can assess the reasonableness of
counsel's investigatory efforts, we must first
determine the nature and extent of the investigation
that took place....' Lewis v. Horn, 581 F.3d 92,
115 (3d Cir. 2009). Thus, '[a]lthough [the] claim
is that his trial counsel should have done something
more, we [must] first look at what the lawyer did in
fact.' Chandler v. United States, 218 F.3d 1305,
1320 (11th Cir. 2000)."
Broadnax, 130 So. 3d at 1248 (emphasis added).

89

280a

the

CR-13-1504
At the evidentiary hearing, Reeves presented testimony
from Karen Salekin, a forensic clinical psychologist who
performed a mitigation investigation, regarding the mitigation
evidence he believes his counsel should have presented and the
manner in which he believes that evidence should have been
presented.

However, Reeves presented no evidence at the

evidentiary hearing regarding what mitigation investigation
his trial counsel conducted, because Reeves failed to call
trial

counsel

to

testify.

Although

Reeves

argues

that

counsel's investigation was not adequate, because the record
is silent as to the extent of counsel's actual investigation,
we must presume that counsel exercised reasonable professional
judgment in conducting the investigation and that counsel's
decisions
reasonable.

resulting

from

their

investigation

were

also

The silent record before this Court regarding

counsel's investigation and their resulting decisions as to
what evidence to present during the penalty phase of the trial
and how to present that evidence is not sufficient to overcome
the strong presumption of effective assistance.

See, e.g.,

Woods v. State, 13 So. 3d 1, 37 (Ala. Crim. App. 2007)
(holding, on appeal from four capital-murder convictions and

90

281a

CR-13-1504
a

sentence

establish

of

death,

that

his

that

the

counsel's

appellant
mitigation

had

failed

to

investigation

constituted deficient performance where the record contained
"no

evidence

about

the

scope

of

counsel's

mitigation

investigation" but contained indications that counsel had at
least conducted some mitigation investigation).17
For the reasons set forth above, Reeves failed to satisfy
his burden of proof as to his claims of ineffective assistance
of counsel.

Therefore, the circuit court properly denied

those claims.
IV.
Reeves next contends that the circuit court erred in
summarily dismissing his claims of juror misconduct without
allowing him to present evidence to support them.
In his petition, Reeves alleged that during his trial one
of the jurors who sat on his jury improperly communicated with
her husband about the trial and improperly watched and read

17

Although Woods was in a different procedural posture
than this case -- it was a direct appeal from multiple
convictions and a death sentence -- the principle that a
record that is silent regarding the scope of counsel's
mitigation investigation will not support a finding that
counsel's performance is deficient is equally applicable here.
91

282a

CR-13-1504
media coverage of the trial.

Reeves further alleged that,

during the penalty-phase deliberations, after the jury had
entered an informal vote of nine in favor of the death penalty
and

three

in

favor

of

life

imprisonment

without

the

possibility of parole, that same juror escorted another juror
-- a juror who Reeves claimed was young and emotional and had
originally voted for life imprisonment without the possibility
of parole -- out of the jury deliberation room and spoke to
that juror in private.

When the two jurors returned, Reeves

alleged, the young and emotional juror changed her vote and
voted for the death penalty, resulting in a jury verdict of 10
in

favor

of

the

death

penalty

and

2

in

favor

imprisonment without the possibility of parole.

of

life

Finally,

Reeves alleged that this same juror repeatedly told the other
members of the jury that Reeves's family "would 'come after'
the jurors after the trial" and stressed to the other jurors
that "the decision to impose the death penalty truly belonged
to the judge rather than the jury."

(C. 585.)

In support of

these claims, Reeves attached to his petition an affidavit
from another juror who sat on Reeves's jury, juror G.B., in

92

283a

CR-13-1504
which G.B. averred essentially the same facts as Reeves
alleged in his petition.
At the conclusion of the Rule 32 evidentiary hearing, the
following exchange occurred:
"[Reeves's counsel]: ... Judge, there was one
other thing. I think when you ruled on the issue of
juror misconduct, you indicated that we could put on
the record -"THE COURT: I did, and it slipped my mind.
"[Reeves's counsel]: And [cocounsel] is going to
go ahead and do that."
(R. 285-86.)

Reeves's counsel then made an offer of proof

regarding the evidence that would be presented regarding the
juror-misconduct

claims

if

the

court

had

allowed

such

evidence.
Although the record contains no order by the circuit
court summarily dismissing Reeves's juror-misconduct claims
before the evidentiary hearing, the above exchange indicates
that the court had ruled on the claims before the hearing,
apparently concluding that the claims did not warrant an
evidentiary hearing.
petition,

the

court

In its final order denying Reeves's
found

that

Reeves's

juror-misconduct

claims were precluded by Rules 32.2(a)(3) and (a)(5), Ala. R.

93

284a

CR-13-1504
Crim. P., because they could have been, but were not, raised
and addressed at trial and on appeal.

Therefore, we consider

Reeves's juror-misconduct claims as having been summarily
dismissed without Reeves's being afforded an opportunity to
present evidence to support those claims.
We

agree

with

Reeves's

argument

on

appeal

that

the

circuit court erred in finding that his juror-misconduct
claims were precluded by Rules 32.2(a)(3) and (a)(5) on the
ground that they could have been, but were not, raised and
addressed at trial and on appeal. See, e.g., Ex parte Hodges,
147 So. 3d 973 (Ala. 2011); Ex parte Harrison, 61 So. 3d 986
(Ala. 2010); Ex parte Burgess, 21 So. 3d 746 (Ala. 2008).
However, the circuit court's error in this regard does not
require a remand for further proceedings in this case because
we conclude that Reeves's juror-misconduct claims were not
sufficiently pleaded to warrant an evidentiary hearing and,
therefore, that the circuit court properly refused to allow
Reeves to present evidence on this claim at the Rule 32
hearing.
Rule

32.3,

Ala.

R.

Crim.

P.,

states

that

"[t]he

petitioner shall have the burden of pleading and proving by a

94

285a

CR-13-1504
preponderance of the evidence the facts necessary to entitle
the petitioner to relief."

Rule 32.6(b), Ala. R. Crim. P.,

states that "[t]he petition must contain a clear and specific
statement

of

the

grounds

upon

which

relief

is

sought,

including full disclosure of the factual basis of those
grounds.
been

A bare allegation that a constitutional right has

violated

sufficient

to

and

mere

warrant

conclusions of
any

further

law

shall

not

proceedings."

be
To

sufficiently plead a claim of juror-misconduct, a Rule 32
petitioner must, at a minimum, identify the juror who the
petitioner believes committed the misconduct, must allege
specific facts indicating what actions that juror took that
the

petitioner

believes

constituted

misconduct,

and

must

allege specific facts indicating how that juror's actions
denied the petitioner a fair trial.

See, e.g., Moody v.

State, 95 So. 3d 827, 859 (Ala. Crim. App. 2011) (holding that
Rule

32

petitioner

had

failed

to

satisfy

his

burden

of

pleading his claim of juror misconduct when the petitioner
"failed to identify a single juror who he believed did not
answer questions truthfully during voir dire," failed to
"identify which questions he believe[d] the jurors did not

95

286a

CR-13-1504
answer truthfully," and "failed to plead what 'extraneous'
information he believes was considered during the jury's
deliberations or how that information prejudiced him.").
In this case, Reeves failed to identify in his petition
the juror he believed committed the misconduct; he referred to
the juror only as "Juror Jane Doe."

(C. 584-85.)

He also

failed to identify the juror who allegedly changed her vote
during

the

penalty-phase

deliberations

speaking with Juror Jane Doe privately.

after

allegedly

G.B.'s affidavit18

also failed to identify Juror Jane Doe or the juror who
allegedly

changed

her

vote

during

the

penalty-phase

deliberations. In a footnote in his petition, Reeves admitted
that he knew the identity of both jurors; he alleged that
"[s]ignificant efforts have been undertaken to identify Juror
Jane Doe" and that "by speaking with certain jurors who served
on Mr. Reeves's trial and have been willing to speak with Mr.

18

"Although a Rule 32 petitioner is not required to
include attachments to his or her petition in order to satisfy
the pleading requirements in Rule 32.3 and Rule 32.6(b), when
a petitioner does so, those attachments are considered part of
the pleadings." Conner v. State, 955 So. 2d 473, 476 (Ala.
Crim. App. 2006). See also Ex parte Lucas, 865 So. 2d 418
(Ala. 2002) (attachments to a Rule 32 petition are considered
part of the pleadings).
96

287a

CR-13-1504
Reeves's current counsel, the identities of these jurors are
believed to be known."

(C. 585.)

Nonetheless, Reeves failed

to identify either juror in his petition.

In addition,

although Reeves alleged that Juror Jane Doe had spoken to her
husband about the case and had watched and read media reports
about

the

case,

Reeves

failed

to

identify

exactly

what

information Juror Jane Doe received from her husband or from
the

media

reports

or

how

this

unidentified

information

prejudiced him.
Because Reeves failed to identify in his petition Juror
Jane Doe, the juror he believed was improperly influenced
during

the

penalty phase

of

the

trial,

or

the

specific

"extraneous" information he believed Juror Jane Doe improperly
considered,

all

of

Reeves's juror-misconduct

claims

were

insufficient to satisfy the pleading requirements in Rule 32.3
and Rule 32.6(b).
Doe

repeatedly

Moreover, Reeves's claim that Juror Jane

told

the

other

members

of

the

jury

that

Reeves's family "would 'come after' the jurors after the
trial" and stressed to the other jurors that "the decision to
impose the death penalty truly belonged to the judge rather
than the jury" also fails to state a material issue of fact or

97

288a

CR-13-1504
law upon which relief could be granted.

(C. 585.)

Reeves's

claim in this regard is based on the debates and discussions
of the jury, not on extraneous facts considered by it.19

As

this Court explained in Bryant v. State, 181 So. 3d 1087 (Ala.
Crim. App. 2011):
"It is well settled that 'matters that the jurors
bring up in their deliberations are simply not
improper under Alabama law, because the law protects
debates and discussions of jurors and statements
they make while deliberating their decision.'
Sharrief v. Gerlach, 798 So. 2d 646, 653 (Ala.
2001). 'Rule 606(b), Ala. R. Evid., recognizes the
important "distinction, under Alabama law, between
'extraneous facts,' the consideration of which by a
jury or jurors may be sufficient to impeach a
verdict, and the 'debates and discussions of the
jury,' which are protected from inquiry."' Jackson
v. State, 133 So. 3d 420, 431 (Ala. Crim. App. 2009)
(quoting Sharrief, supra at 652).
'[T]he debates
and discussions of the jury, without regard to their
propriety or lack thereof, are not extraneous
facts.'
Sharrief, 798 So. 2d at 653.
Thus,
'affidavit[s or testimony] showing that extraneous
facts influenced the jury's deliberations [are]
admissible; however, affidavits concerning "the
debates and discussions of the case by the jury
while deliberating thereon" do not fall within this
exception.' CSX Transp., Inc. v. Dansby, 659 So. 2d
35, 41 (Ala. 1995) (quoting Alabama Power Co. v.
Turner, 575 So. 2d 551, 557 (Ala. 1991))."

19

Reeves did not allege in his petition that Juror Jane
Doe's statement to the jury that Reeves's family would "come
after" the jurors after trial was based on extraneous
information she had received.
98

289a

CR-13-1504
181 So. 3d at 1126-27.

To allow "consideration of this claim

of juror misconduct -- which is based entirely on the debate
and deliberations of the jury -- 'would destroy the integrity
of the jury system, encourage the introduction of unduly
influenced juror testimony after trial, and discourage jurors
from freely deliberating, and inhibit their reaching a verdict
without

fear

of

post-trial

harassment,

publicity,

or

scrutiny.'" Bryant, 181 So. 3d at 1128 (quoting Jones v.
State, 753 So. 2d 1174, 1204 (Ala. Crim. App. 1999)).
For these reasons, the circuit court properly dismissed
Reeves's claims of juror misconduct without affording Reeves
an opportunity to present evidence.20
V.
Finally, Reeves contends that the circuit court erred in
denying, on procedural grounds, the claim in his petition that
lethal injection constitutes cruel and unusual punishment in

20

Although the lack of specificity and the failure to
state a material issue of fact or law upon which relief could
be granted were not the reasons for the circuit court's denial
of these claims, we may nonetheless affirm the circuit court's
judgment on this ground. See Moody v. State, 95 So. 3d 827,
833-34 (Ala. Crim. App. 2011), and McNabb v. State, 991 So. 2d
313, 333 (Ala. Crim. App. 2007), and the cases cited therein.
99

290a

CR-13-1504
violation

of

the

Eighth

Amendment

to

the

United

States

Constitution.
We agree with Reeves that the circuit court erred in
finding his constitutional challenge to lethal injection to be
precluded by Rules 32.2(a)(3) and (a)(5).

Although typically

such a constitutional challenge to a sentence would be subject
to the preclusions in Rule 32.2(a)(3) and (a)(5), in this case
Reeves was convicted and sentenced in 1998 and his convictions
and sentences were affirmed on appeal in 2000, years before
Alabama adopted lethal injection as its primary method of
execution.

See Act No. 2002-492, Ala. Acts 2002.

At the time

Reeves was convicted and sentenced to death and during his
direct

appeal,

electrocution.

Alabama's

method

of

execution

was

It is well settled "that trial counsel cannot

be held to be ineffective for failing to forecast changes in
the law."

Dobyne v. State, 805 So. 2d 733, 748 (Ala. Crim.

App. 2000), aff'd, 805 So. 2d 763 (Ala. 2001).

Because

Reeves's trial and appellate counsel could not have been
expected

to

execution,

forecast
Reeves

Alabama's
could

not

change
have

in

its

method

challenged

of
the

constitutionality of lethal injection at trial and on appeal.

100

291a

CR-13-1504
Therefore, the circuit court erred in finding this claim to be
precluded by Rules 32.2(a)(3) and (a)(5).
However, the circuit court's error in this regard does
not require this cause to be remanded for further proceedings.
First, it is not clear from Reeves's petition whether Reeves
challenged in his petition the constitutionality of lethal
injection

per

se

or

the

constitutionality

specific lethal-injection drug protocol.

of

Alabama's

Because we cannot

determine from the allegations in his petition exactly which
claim Reeves asserted, his claim in this regard necessarily
fails to satisfy the pleading requirements in Rule 32.3 and
Rule 32.6(b).
Moreover, to the extent that Reeves is challenging the
constitutionality of lethal injection per se, that claim has
been expressly rejected by this Court numerous times.

See,

e.g., Townes v. State, [Ms. CR-10-1892, December 18, 2015] ___
So. 3d ___, ___ (Ala. Crim. App. 2015), and the cases cited
therein.

To the extent that Reeves is challenging Alabama's

specific drug protocol for lethal injection, the drug protocol
Reeves

mentioned

in

his

petition

--

sodium

thiopental,

pancuronium bromide, and potassium chloride -- is no longer

101

292a

CR-13-1504
the

drug

protocol

Alabama

uses

for

lethal

injection.

Therefore, Reeves's challenge in his petition to that drug
protocol is moot.

Additionally, it appears that in his brief

on appeal Reeves is attempting to challenge Alabama's current
drug protocol for lethal injection, specifically Alabama's use
of midazolam as a substitute for sodium thiopental.

That

challenge, however, was not raised in Reeves's petition and
is, therefore, not properly before this Court for review. See
Arrington v. State, 716 So. 2d 237, 239 (Ala. Crim. App. 1997)
("An appellant cannot raise an issue on appeal from the denial
of a Rule 32 petition which was not raised in the Rule 32
petition.").

In any event, the United States Supreme Court

has upheld as constitutional the use of midazolam for lethal
injection. See Glossip v. Gross, ___ U.S. ___, 135 S.Ct. 2726
(2015).

Therefore, Reeves is due no relief on this claim.21

21

Although these were not the reasons the circuit court
denied this claim, we may nonetheless affirm the circuit
court's judgment on these grounds. See Moody v. State, 95 So.
3d 827, 833-34 (Ala. Crim. App. 2011), and McNabb v. State,
991 So. 2d 313, 333 (Ala. Crim. App. 2007), and the cases
cited therein.
102

293a

CR-13-1504
VI.
For the foregoing reasons, the judgment of the circuit
court denying Reeves's Rule 32 petition is due to be affirmed.
In affirming the circuit court's judgment, we recognize
that the United States Supreme Court recently vacated this
Court's judgment in Johnson v. State, [Ms. CR-10-1606, May 20,
2014] ___ So. 3d ___ (Ala. Crim. App. 2014), a case in which
the death penalty had been imposed, and remanded the cause for
further consideration in light of its opinion in Hurst v.
Florida, 577 U.S. ___, 136 S.Ct. 616 (2016).

See Johnson v.

Alabama, [Ms. 15-7091, May 2, 2016] ___ U.S. ___, ___ S.Ct.
___ (2016).

In Hurst, the United States Supreme Court held

unconstitutional Florida's capital-sentencing scheme on the
ground that it violated its holding in Ring v. Arizona, 536
U.S.

584

(2002),

because

Florida's

statute

authorized

a

sentence of death based on a finding by the trial judge,
rather than by the jury, that an aggravating circumstance
existed.

The impact, if any, of Hurst on Alabama's capital-

sentencing scheme has not yet been addressed by this Court or
by the Alabama Supreme Court.

We need not address it here

because Hurst is not applicable in this case.

103

294a

CR-13-1504
The United States Supreme Court's opinion in Hurst was
based solely on its previous opinion in Ring, an opinion the
United States Supreme Court held did not apply retroactively
on collateral review to cases that were already final when the
decision was announced.
348 (2004).

See Schiriro v. Summerlin, 542 U.S.

Because Ring does not apply retroactively on

collateral review, it follows that Hurst also does not apply
retroactively on collateral review.

Rather, Hurst applies

only to cases not yet final when that opinion was released,
such as Johnson, supra, a case that was still on direct appeal
(specifically, pending certiorari review in the United States
Supreme Court) when Hurst was released.

Reeves's case,

however, was final in 2001, 15 years before the opinion in
Hurst was released.

Therefore, Hurst is not applicable here.

Based on the foregoing, the judgment of the circuit court
is affirmed.
AFFIRMED.
Windom, P.J., and Welch, Burke, and Joiner, JJ., concur.

104

295a

IN

THE C]RCUIT

COURT

OF DALLAS COUNTY, ALABAMA

STATE OF ALABAMA,
Pl : i nr i

F
L rF //Poennn.'l^-t'\sJt,v'LusirL,

F?filD

ocl 46 ?009

*,.
:::.

""

CASE NO. CC_1997-31

:),.. r., "' " Samt:-H'Hffi*
ORDER DENYING RUTE

32

PETITION

THIS MATTER, having come before the Coutt upon the

petition of

Matthew Reeves for refief pursuant to Rufe 32 of the ALabana Rufes

of Criminaf Procedure, and the Court havinq conducted an
Evidentiary Hearing pursuanr ro RuIe 32, and afcer consjderinq Lhe
evidence and arguments of Lhe parties at Lhe Evidentiary Hearing

together with the evidence at the Trial of this case, finds

as

foLlows:
The brutaL murder

of Wi1lie Johnson on Thanksgiving Day 1996,
and the event.s immediaLely before and after the killinq, are set
forth in this Court, s Sentencing Order filed August 2L, tggg.
.fhe CoLrt made [he followLng Findings of Fact. at tnat Lime:
"On November 26, 1996, the victim in this case, Wiflie
.tohnson, stopped his vehicl_e to assist some motorists he believed
to be in need of help. A short time later, Mr. Johnson was dead,
rrini- im
r^hl.6-r' y and
rhn
h^hi ^i
-F the hands of the Defenoanc,
hornicide
at
^f
^
^^
Matthew Reeves.
Perhaps the most compelling testimony regarding the facts of
this case and the invofvement of the Defendant and co-defendants
came from 21 year-old Brenda Suttles. Suttl-es testified that on
the day of the murder she, aiong with the Defendant. Matthew
Reeves, his Brother, Julj-us Reeves, and an individual named
-^ .-^mmi F i r^hh^r.'
sef
T'r.rAnrrcl
. As rhey set ouL ro commit
^rrthe robbery, they came into contact with an individuaf named Tony
who gave them a ride to a focatlon where Jufius Reeves secured the

mrrrr'1or

296a

A general discusslon ensued with regard to a robbery, and it
was decided that the group would travel to Whitehal-l, Alibama, ro
commit the robbery. Dur.ing the trip to whiteharr, the vehicle in
which the group was traveling deveJ,oped mechanical problems and the
group was feft stranded on the side of the road.

It was at this time that Wilfie Johnson happened upon rhe
group and towed the vehicle back to Selma and to the letendant
Reeves' home. Mr. Johnson advised Juli-us Reeves that he wou_Ld
charge 925 for towing them from Whitehall- to Sel,ma, and it was
determined that none in the group had the money to pay. However,
JuLius Reeves advised Mr, Johnson that if he drove ihe group to
Katrina White's house, he would give Mr. Johnson a ring fof payment

of his services. Upon returning from Katrina White, s
Mr. Johnson was instructed to d.ri-ve his truck into crockett,shouse,
Alley
whlch is a location between Selma and A.Labama Avenues in Setm.r
A-I

abama

.

Brenda Suttles testified that the group intended
rob
Mr. Johnson at this time,. and as he stopped his truck in thetoalley,
Matthew Reeves placed the shotgun in through the sriding back
window of the truck and fired one shot into the neck or -wittre
Johnson. rt was at this time that Julius Reeves and Brenda
pulJ-ed wi1lie .lohnson from the r:ruck and robbed him of hi_ssuttres
m'ney.

of Brenda Suttl-es with regard to the group,
. The testimony
activities
after the robbery and murder was compelling aJ well.s
She stated that the group took the money and divide! it, and
lhroughout the night the Defendant Matthew Reeves partie;
danced to rap music and occasionafLy mocked the horribre deathand
of
the victim by flinching and jerking. She also stated that Matthew
Reeves had boasted about his commission of the murder, in that
it
would earn him a .tteardrop,,. a gang-related sign that indicates
a
gang member
has committed murder.

further review of the Record at Trial, the Court looks to
1-ac1.in^-',
of Brenda Suttles which illustrates that the conduct
Upon

iha

of Reeves

was

impulsive act

the resuft of a pre-meditated

pJ-an

rather than

She testified

an

that they (Matthew Reeves, Julius
Reeves, Immanuel Sutt.Les, and Suttles) got together during
the
afternoon hours of Tha n <s giv ing, and "went looking for some
robberies. "

-2297a

A short time l-ater, Jufius Reeves secured the shotgun used to
murder Willie Johnson and gave it to Matthew Reeves who kept it in
his possession che encjre afrernoon carefully concealing iL. as he
boarded Wi-llie Johnson, s truck, thereafter pJ,acing it to Willie
Johnson's head and firing the shot that took vvillie Johnson's 1ife.
Marthew Reeves

did noL relinquish the

weapon

at rhis rime, but

cared for it and concealed it in his room at his home as he
exchanged his bloody clot.hing for cfean clothes, and ordered his
confederates to change their bloody clothing as wel1.
Test.imony from the

trial of this case clearly estabLished that

che robbery was pre-mediated and the gun used by Matthew Reeves

was

secured for his purposes. Not only did Matthew Reeves pulf the

trigger and cause the death of Wiflie Johnson, but ordered his
brother, Julius, and friend, Brenda Suttles, to go into the pockets
of the deceased Wifl-ie Johnson, and take his money. The Defendant
Reeves was not only responsible for hiding his own shoes and
clothing, but hld the shoes and clothing of the other participants
together wj-th the gun used in the murder. SubsequentLy, it was
Reeves who divrded up the noney and boasted of the murder and his
,rlfih-r^
u_LL,Lrnare

acceprance Lnto a gang as displayed by a teardrop he would

earn from the murder.

Finding of Facts During the penalty phase:
defense offered three witnesses during the penalty phase,.
Detective Pat Grindl-e, Marzetta Reeves, Defendant's mother, and Dr.
The

Kathaleen

Ronan .

These witnesses test i fied

regardlng the

-3298a

Defendant's formative years/ and the turbulent. environment in which
he was raised. Detective Grindle talked of his professional

relationship with the Defendant and the Defendant, s brother
reaching back to the age of 9 or 10 years oJ-d, when Matthew Reeves
first became famili-ar to 1aw enforcement,
He described the home in which Matthew

Reeves

was rai-sed;

there were a series of photoqraphs that depicted a di l:ni,{rt-,-{
structure with obvious structural failings to the roof. This
testimony clearfy represented to the Jury the difficul-t environment
in which Matthew Reeves was raised.
Marzetta Reeves was calfed to describe the family structu.re
and formative years of Matthew Reeves, chirdhood. she testified

that 1n 1996, ten people lived in the four bedroom house. Marcnew
lived with her afl his life and only met ht-s father on 2 occasions.
She described

his struggles in school, and testified that he
repeated the first and third or fourth grade and ultimately was
socially promoted to the seventh grade,
Academic and social issues continued to pl-ague Matrnew
throughout his school career untif he finally was expelled from
cne

pubrllc school system. However, his mother reported that
during nrs
early years in school, his teachers reported he was doinq well
but

shoufd have one-on-one help.

Marzetta Reeves attempted to give Matthew some acaciemrc
assistance and sought menta.l health counseling. She descr.rbed
numerous

facilities

in which Mat.thew was placed; specifi,cally,
-4299a

a

LalrLP

/11dlJcrLl|cr,

crr

tLl

.rrl-\rrn
\j_vup

hnmo

in

MnFilo

Alabama. She reported thar Lhe counselors indicated ro her that
rri.'i r.ra1r in

rl-a

dr^11^ t^.'na a-tzi r-,n',o^r

he

and s)rh.scolrcnr
I!.' rs\
securecl
YqsrrLf/

certificates in welding, auto mechanics, and brick masonry through
The final witness called by the d.efense was Kathaleen

N.

Ronan, a Clinicaf Psycholoqist employed at Taylo.r Hardin Secure

Medical Faciljty in Tuscaloosa, A]abama. Dr. Ronan was ordered

bV

the Circuit Court of Dallas County, ALabama. to evaluate the
defendant on an ouL-patient basis for his competencv to stand trial
and mental- state at the time of the alleged offense. This
eva-luation took place on June 3, 1991 . Dr Ronan exp_lained to rhe
Jury her evaLuation as foLlows:
"The next step is to conduct [,/hat we call mental status
examinacion. This is to see how an indiv iclual is funct.ioning right
now. Can they concentrate? Are they attentive to the topics of
discusslon? Are they showing any kind of rnental illness symptoms
that would make them unable to communicate effectively. Do they
know where they are? Do they know who they are? Do they know what
the date is, why they are tal"king to you? What is their general
fund of information? Do they know things that, you know, most of
us have qrolcn up with and know really well, like the colors of the
American flag ot in what direction does the sun rise? Do they have
lust some basic information availabfe? If given a hypothetj,cal
social situation. can chey reason what they are supposed Lo do? So
we get an i-dea as to whether or not the person has any major
interference due to some king of psychiatric symptoms. Rnd then
and I ask them specifically about symptoms. And have you ever had
hallucinations, seen or heard things other people tell you cney
can't see or hear or had any firm beliefs that are not based on
reality such as del-usions And I will go through basicaLly all of
the syniptoms that a person might experience.

At that point, I usuaLl-y will ask the person to te.l_.1 me
ever.ything that they can recall about the time that the offense
took place. Some peopJ.e say they can,t remember. Some people wi]l
give a detailed account. Some people will go on and on ana on for
-5300a

a very long time talking about it.
It: depends. In Mr. Reeves,
case he did gi-ve me a detailed but somewhat brief explanation about
his behavior during rhat c_ime frame.
The very final step is to administer r,rhat is caLl-ed the
to stand tria] assessment instrument, which is basicallv
a structured interview asking the person what they know about court
procedures. For instance, what is capital murder? What does that
mean? What could happen to you if you were found guilty? How do
you think your case is going to turn out and why? What does a
defense attorney do? !{hat is his main role? What is the rote of
the Di-strict Attorney? What is a plea bargaln, a whole reafm of
different questions to see if this person understands about cne
court process and what they're facing. And usual-J-y at that point
the evaluation is concluded unfess there is any further testrng.
Now in Mr. Reeves, case I dj,d give him one part of the Wexler
competency

Intelligence

Tes L.

Wefl, I didn,t get as much information from him about his
background, but there certainly was extensive documentation about
his backqround. He came from a very turbulent upbringing. There
was not a great deal of structure in the home or guidance or
supervasron, He presented with a number of behavioral difflcufties
.in school . There were constant attempts on the part of the
to comnunicate with hi-s mother - the father was not present schoof
in tne
home - in order to try to get him lnto appropriate piogram= and ro
control- his behaviors. .

,

werl' turbulence in my opinion wou.ld mean that there was noc a
lot of structure, that.a chi-r-d basi.calry raises themsefves.
They
may run in and out of the home or on the streets, not have a l"ot of
structure. They may be subjected to abusive si-tuations, neglectful
situations. There was no stabirity of rerationships for th6 chird.
They were in an environment which woufd I guess under
normal
conditions be considered pretty dangerous.
Q I believe you mentioned that you gave Matthew Reeves some
type of intelligence test of some sort?
A
lnlh:i
,,^., damtnrster
,rrrd L ni-l
Lrru yuLr
^!*r-r^.

to do tha t ?

A Well, the most widely used intelligence test is calfed the
wexler rntelfigence scafe. And there is a chj.rd/
s verslon, and
there is an adult,s versj_on. And he received the
the
adult's version this time. He had received the chir-d,s child,
version in
What were

the results of your testing?
-6301a

A I gave him a verbaL portion only. I didn,t give him the
entire test because the verbal portion tape into the i-ssues Lnat
were being asked by che Court, somebody's abilicy co undersrand,
their verbal reasoning, more so than the eye, hand coordination
part of it. The results showed that he was in what we call the
i ne
re-)no .\.
i nral I inonna
,re rd_Lge
u_ ,--e,_,

hn-rJa-l

marni nn

Lhat he was two steps or

two what we cal-l standard deviat.ions befow norrnal-. And it,s the
borderline of mental retardation. The verbaf Ie score that I qot
was - I believe it was a ?4. And he had received the child, s
version of the same test when he was young, and his verbal Ie then
was 15. So that just shows that basically nothing had happened.
His TQ had stayed aboul the same.
And you srated that his IQ was borderline range?
A

That '

s correct.

So he wasn't actuallV mentallv retarded?

A He was not in a levef that they woufd call- him mental

retardation , no."

Rule 32 Findingrs of Fact

Dr, John Goff was cafled first

by the petitioner.

He

evaluaced Reeves on February 2,20A6, and administered a baLtery of

tests including che WAIS LII.

The resulL Dr. coff obtained was

a

fufl-scal-e IQ score of 1I; a verbal IQ score of '15, and a
performance IQ score af 76. However, when Dr, Goff appfied the
Flynn Effect, a phenomenon he defined as an inflatlon of Ie scores
observed by Dr. llames Flynn, he t.estified that Reeves, actuaf Ie
was 56.

Goff then reviewed alf other known Ie test results of Reeves
as far back as 7992, and found Reeves, full-scale score was 73;

verbal IQ was 75, and perFormance Ie 74 However, he chen applied
then Ffynn phenomenon and arrived at an fe af 6j .6.
-7302a

C/-\.f ihrrn

>nnl ia.l

rl-p qrn ^ nho.rlm,..ton

tO Df . Ronan'S WAIS-R

resuLL of 14t which was the verbal JQ admini stered ro Reeves in
1qq?

AFl-uer
ar
n_

:nrrl jtrr9
\/i nd ihA
uyt/r
LrrL tr1\/nn

trFfa-l- L,

hA
/-\n i n6.l
L-L vyr.ruu

l-

-.\
rv

p6Ava.,

h.l-

would be 69,2. Dr. Goff also adminlstered certain tests to Reeves

in an effort to deterrnine whether Reeves exhibited signifj-cant or
subscantiaL deficics in adaptive functioning. Dr. Coff concluded

that. Lhe adaptive behavior assessmenr system test whi-ch tested
communications, functional academics, self-direction,
--rj-,rr:^^

^^^.r.1

-ki-lc

r-n*,nr.nil-\/
r-qF- homa lirrinrru v-.-LLUI r ul

sAfFf \/- scl t-.ra rc Anrl \n?^-k- incl: r-at eri snecific

Ieisure
ho,a1r\

2nd

SubSLantial skiIfS

deficits in work acrivities/ healch and safety, seff-direccion.
,.,all

.-

f.irrLJ

-l-.i':t-,.
a\JL]..LLy

/.1^-

-^

h^h^,,
t'r\Jrr€y

'.'i-h
wrLrr

pd
L\j.

/qaa
\Jv!

G)\
vL1.

as

trinrl
-f -,orLy,lrr

Dr. Goff testified that these deficits were manifested during the
clatra I nnman I r I ncri.'rd

he'nra

"8 vears

oF ano

:..1

rhaf

rt_a ar-:rlgJnjg

and school records supported this finding.

Dr.
a..pntF,,l
Dc\,-\^t^^r,
r n|l''.harh:i

Ka-ren

SaIekin, a C-LinicaI Psycholoqist, was offered

aq:n

pvnart

.-^

n6r.d-

ir

Psvcholoqv

;nr-l - in

^nh6r+: t Dc'nrn

^E ^a^nr ^ ,"railable

nar Fnrmod
mi I i d-- i ^^
lL.gvltL!.-9otr\JllclltdryJIJ.

an'

in L998 yl6
-^rr

"-i

-

narl- ir-rr'ar-

She said

and

f,orenSic

Lhat there

were

r,ora nrr:1 i Fi orl ^t i ^, :.i ans
Am.rn-

t h.lea

m6nt i nnod

hrr

Dr. Safekin as qualified and avail,abf e was Dr. Kathafeen Ann Ronan,
'n/f'^ ir

Far-F t^qf : f j-ed On behalf Of Reeves in fhe nenaI fLl,rz Pr.u5e
nl-as^ u^F
I

She reviewed medlcal and school records. interviewed friends

and family members in order to determine the risk and protective

-8303a

facrors that woufd have posiriveLy or negatively influenced
r.i

orr a

1

Reeves'

nnmonl-

-r rorri
-rF a^hrhadaonn,4na
.rvslcrJvuyu

ewi

nr
nf
vL

^o 1-hp rasfinonv af TrraI of MarzetLa Reeves
q^l dkin criticized

i nf nrm
L!--,,.crLru"

the Lescimony as be-ing, "a

- ^

yuL

and

'r -L-"l-

/-^nratr-

."

"lhatt
rrrLyt

"illcf
JvJu

kind of noinl out that these risk factors exist and did not discuss

it in terms of how that affected Matthe\,/'s deve]opment over the
course of the time. "

The balance of Dr. Salekln's testimonv outl-ined the risk

factors that existed in Reeves' 1ife,

their

affect on his

developmental trajecLory and that they were not offered to Lhe iury

as mitigation tesrimony. She a-Lso poLnted out two proLective
factors she found to exist in Reeves' life.
t.nr.rarrer
of fime

tl.:t

tLaqo
L..eJe

neoar irrelv
v vtl,

-.L5^

Icrj-LULs,

-,.rr-rathar
a\/6r fha aoufse
-v|juurre!

r-^r-DLrr19

narsnnrq
irrn:^t q ,a
u
YU!rvrr

t-.,tJquLJ

She conc.Luded'

f 'n.-iinninn

in fhF sahool- and

socia.L envi ronment, as weII as their employabi-Lity.

Dr. Salekin testified,

This,

is afl compounded by a ]ow leve.L of

intellectual functioning.
The State of Alabana offered the testlmony of Dr. G-Ienn David

King, a Cl-inical and Forensic

Psychologj

st, as well as an attorney

at law. Dr. King was .eLained by the State ro perform a mental
exam and eval

uation on rhe PeLit.ioner,

a neuro-psychological evaluarion.
6, and again on Septernber

21

I\4atthew Reeves, and Lo make

He meL

,

with

Reeves on september

2A06.

administered the WAIS TII, and reported Reeves' verbaf IQ score of

-9304a

69; performance fQ score of 73, and full scale IQ score of 68.
The wide range achievement test indj-cated Reeves read and
larret
an,1 nerformed
maCh On a fou-rth grade
-*^r'r ^r ^- - Fi €-F ^r.r.lF
!v!!'
LvvLr
srrv
t/!!
YLsuu

rPe-LrE\]

Based on the WAIS and Wide Range Achievement

level.
did

Test, Dr.

conclusion regarding

nor reach a definiLive

King

Reeves'

though, "I was Ieaning in the direction of
borderL ine incellectual functioning. " However, after cons idering
alI of the other test data, Dr. King concl-uded that Reeves

ability

intellectual

functj.ons in a borderline range of ability.
-rr
!!.

Kinn
rr-lrnnr"rl -doed -h.rf .rnv diaonoSis of mental retardaLion
!\f
t|Y

must also consider a measure of adaptive functioning, and

any

indication of the existence or non-existence of mentaL retardation
nrior
tJ! !v!

the

lR vc:rq

to
fhe
aoe
of
rYU
Lv
u.-e

Tl-i s was arhiarra.l

h\/ :nnlir-:l-

il)n 6f

Edition (Adaptive Behavior ScaLe Residential and
-v) a. rnsl- rrrrre^f :nn-n'red hrr rhe American Association of

ABS-RC Second

t^nnnrrri

/

!r!rr!q

u,L

Mental Retardatlon.
He evaluaLed

ten domains: Independent function-ing, physical

a-nnr_\n- ir- a--, rrt l-vr]a\r6I
vuvL!vvIL!rrL /-\nr1anj-

I ima

r{nmocl- i r- :nf

irri rrr

'ancnt.]oF .lerra'nnmcnf - nrrmhc-5 and

nrol'/1.^t

i nn :nrt

responsibil lLy, and socializacion.
rarriar"rinr
DFF\/Fq rrl-a

ror-nrdq

:ri

Ior:-rralI',

I.Q. would tall

inro-rri

pr"rr

'"--1- irns

After administering the Lest,

r,.r Raairaa
ir

qa I f -.l i ra.t r on,
--- --;

rrnr^:r i nn

'Fo

nr

kin^

horcler'ine

hr>in

ranoc

that

and hiS

in rhe range of 70 to 84.

Dr. Ki r-r fttrf l^er e\riLuaLed ReeveS Io deterrina

tn

^n;n6.1

F,rnrt

inn

hrr
pJ

:dminiaf
qunLrrrrrLe!-.ry

arin^

i-L
LLle -

Anv i'nna:rne,nf
nd-LJ

Ltjd!r-r\tjI

Ldll

-10305a

Neuropsychological Test Battery. This series of tests administered
ra
.]ararmi n,. urrl
Lv utLe--Lr-rLr
^n\/

hr:i n n:l-hnl
!!qrrt
yoLrrvrvYJ
^^,7 q )-L. aq l_ttm.\r

ncral'rr.t

I rr.:sCUf af

After administering the sub-

accident or LraumaLic brain injury.

tests to determ.ine sensory perceptuaL functionaf tesring, motor
functionjngf attencion concentration and memory. language skills'
-'i<rrrl

an:Fi:l

ekillq

end rc^soni no
,Y and
*'.*

ctrrdl-yL-L\-d

IU9llcl-L

Dr, Kinq concluded thac Reeves was noL menta-Lly retarded.
F'rthor

own l:q i-.'vv
nod t ha f ha^ro1* i.Al

n.s

L^LJr

i

He

r ion of Tho cl rrnn qtfa.-f

hrrf

,,.li.l nof annlv
F1\rnr E f .o/-1- f^ fhtr a1/aluatiOn Of Lhe De.[endant.
uvPi
uuv
), rhe
nr
I(i
!\t'r9nn qr:rcd
r.f L .
.-^rr

i rari

Lrhan

fLrrdL
h.-!

_--r i^-+.t^-vrr
FL^
Lrrc
dPF,f f udLf

61/;r I rr.at i nrr

^.

q.\mpnnFt q mpnT- ...--.-ctr

f l^e Flvnn
I r yrrrr

Efrpr-t
!!!rLL

JLcrLuD

a-LLlruu9rr

does appear to be some research to establish the theory.

iS not

r!

LrlcLc

Based

upon Dr. King's review of the data and research accumufated by

\/nn

E"
|
r
LIJ'|'\,vrrv+9gt,y!qlv

l-hForv
L'r!vrl,

ha

ra

ar.\n,-,a

rq to be unreliable daca to

whtrn evF Uafr..r

Ein:l
duLurLrL-rrdL

s.)mF.)ne' s nFTfal

ef f ect iveLy

apply the

SLatuS.

K;
upon reviewing the data of Dr, Goff and
, nr--- .--rrgr
'\aL the Defendant Reeves
!Jwrr LrdLcl,
r LL9 urD
lrr

functions in che borderLine range of intel-Ieccual abiLity and

that.

he functioned in Lhe borderline range prior to the age of 18.

Dr. King stated that the Defendant would not have
mont:

I I rr ra

F

a

rnad

ha Fn ra

i ha ar-ro .rf

been

1A

The Court, based on the evidence and arguments of the
,aif nrrFVs af Fl^p F,v: rionl-i errr He,eri rnrlv9l4ltY,

has considered

aIl

of Lhe

:lleoations of fhe Petitioner's RuIe 32 Petition for ReLief

and

Convict ion, specif icaf -Ly. vrzr

-11 306a

I.

CLaim

that Reeves is mentally retarded.

II.

Claim

chaE. Reeves was

r-orrnecl d.rrirn
/r\
\ol
:qsi

-ri rqt:n.-p

denied Lhe effective assisLance of

f l-p canf ,-rcr no nhaqa of L'.S Tf iaI
^^, nqal
rc.tar.linn

f:i
Mr

.r-.-.\ nr.-\r-rrra
lad
Roorract lnr^r cnnnitirro

in that:
ar.narr
frrnr-l-i LvIrrrY
nn i nrr urru
:nll

rrevuoJaly

norFntjrl nenfal reLardation in addit'cl'.l -^ .rFner:1

rri f

irr4li6n

ev10ence.

(b) frial Counsel prorzided ineffective assistance of counsel

in

ralrrinn

^n

nr

R.\n.an ,4rrrinn

f ho

Mr. Reeves' Trial.
(c) TriaL Counsel failed to object.
f aqi- irn^n\/

f rom

nr

F.\n:n

,.lrrr i nn

Mr. Reeves' Tria1.
(d) Trial Counsel failed to

I ho

qan t an.

i n^

1'^
i mn-^^^qanfan^i.^

in\/Fqiir-rarF

end

aF

^hrca

nnini^nh.<6

nf

nroqani

mear i notrr I 'ni f i dal- i /-\n ev j.dence.

(e)

TriaL Counsel failed to ilLicit criLical mitigating
evidence from Mr. Reeves' Mother nhen she testified during rhe
Senf e'rcino nhasc .)f lqr, ReeveS'

Triaf

.

{f) TriaI Counsel failed to investigate for and present
wiLnesses co show signiticanr m-Ltigaring evidence thar was
ava

i -L abf e.

(S) Trial Counsel [ailed to presenr any mitigaring evidence

ron:rninn

III.
viol.ried

Mr

Daat:ac.

!ra^^^-i
E\tE:sntr

I

t9

I lFl^^
9udrrL.Lijs

L,.---:!,,
llUlllctltILy.

---l
dll(r

Mr. Reeves' right to a fair and impartial jury
hv i rrnr niq/-^.rd..F

.lr'-:nr
vur
!r19

was

.-la1ibeIaLions.
uur!,

IV. Cfain of instructional errors of the Trial Court denied
Mr, Reeves a fair rria-L and appropriate sentencing determination.
\/

1-..\^
lrrE nr^'^L>u(JrtoUUL ctll(l
'It-.ion's
s Imisconduct
and
bJlucceJLrult

'mn-oner

a

rormenf s .lr
-Jlfng

TriaJ- deprived Mr. Reeves of his rights Ln LhaL:

(b)
nreirr,-li

The exrensive reference to supposed gang membership
'-a'-l Mr

Daarrocf

It,r,,'
uq!l,

(c) The Prosecution unconstirutional Iy diminished the Jury,

s

_L2_
307a

sense of responsibjIity;

(d)

The Prosecution subnitted non-statutory aggravating
circumstances to the Jury.
VI.
nrFqpr\/c

Tria.L counsef were rneffective by failj-nq to raise
mprif oriotts

,-larmq

fn-

:nnaal

if

and

thaL:

Counsel failed [o prevent or oEherwise object to
prejudiciaf errors;
(a)

(b) Trial counsel failed to provide Mr. Reeves ltith effective
assist ance of counsel by fail ing Lo investigate che
possibility that Mr. Reeves did not shoot Mr. Johnson;
(c) Counsel failed co provide Mr. Reeves with effective
assistance of counsel on Appeal.
VII. Alabarna Statutorv Sentencinq

Scheme

violates the United

States Constituti-on and the Afabama Constitution.

VIlI. Alabama's method of execution bv lethaL iniection as
.:nnl i ed hv fhe Sfate of Alabama results in the infl"iction of cruel
and unusual punishment in viofation

of the United States

Constitutlon and the Constitution of the State of
I.

CLAIM TEAT REE\IES

IS

MENTAI,LY RETARDED.

fn Part. I, paragraphs 28-42 of Reeves' second
Del.iiion.

Rcevps nlaims

Alabama.

amended

Lhat because he is 'nFniil'v

Rule

32

-erarclcd he

cannot be executed under che United SLares Supreme Courc's holding

in Atkins v. Virginia/ 536 U.S. 304 (2002). In Atkins, the United
crr!a-

c,r^r-n-

^^,--f

neniatlv
heLd that Lhe eXeCUt jor nf J'!-'..u:fy

-efarded

.UL!

capita.I ofIenders violates che Ejqhth Amendment's prohib.lt jon
against cruel and unusual

pun

Lshment. lhe Atkins Court ooserved

-13308a

rhat "clinical definitions oI mental reLardaLion require noc only
s'rh-averrnc
u vrlo\jr
Ju,

inlel

€..--Fi^-r-rvlrrr9'

e-*..^r

hr.f

,e1qn

sr.rni'i_CanL

Id. at 3l-8. The Atkins Court

limitations i"n adaptive ski1ls,"

declined to create a national standard lhat reviewrng courts

shoul-d

apply in deLermining whether a capital otfender is mentally
rerarded and not eLigible for a deach sentence. fnstead, the Court
Ieft to che States "the rask ot developing appropriace w.iys to
enforce the constitutlonal- restriction upon their execution of
earl-anroe

Td

"

-L-*^ rLegfrro-u!e
^^i c1:rr.ra
.l1.LcrrrdrLrcr

IlrC

..\,rrr- q

h:q nnf rrcf
derrel
oner] :q nronedttfe
vsvs!vlJcu
yeu
lJrvusuur

Of

ennlrz
i'r '^lc-ermi ri no whe.her ^ .^nita I cie'encl,ant iS
)'
manra'lrr rcferrlod
. thns. inal'oihle
For execution.
This Court
,,'LrrLurt),
^n-l
rtvn

qyyr

Fha-of

Al^abama

ora

- trn

"^

i-hF
LrLU

.l''a

nr

.nininnc

v|,!r'rvr!

r-.r 'rl-S

:nnollarc

Of

for guidance in resolving this issue.

rn
Fx n-rfe -:-:Perkins, 851 So.2d 453, 456 (Ala.
' ^' :ji----::-:::

, the
Alabama Supreme Court se c Eorth che foI Iow ing standard for
ro-riewi no a mer-,rl retardation
Those sLates

2AA2\

claim:

wilh statutes prohibiLinq che execuLion of

monl- > l I rr rol- :rdad

dofan^:nr

rorrrr i ro rh:r

a r]pfandanl-

a

l- r-l

be considered menralfy retardedf must have significanE
sub-average intel lectua-L functioning (an lQ of 70 or
beJ,ow), and significant or substantiaf deficits in
rrJ^nl-irr,L !

guq|J

hch:rrinr

Addil-inn:l

lrr

l-

hoca

nrnhl

ame m,r<i-

have manifested themselves during the developmental

narin|
*fA'll

ir.c

hsf6se the defen6i6pg -ear-hcd aoe II).

fLrae nronfls of Lhe test

SeL lorth

Porkrns must
in F.v
na-tc :_:i_ljjil*
',. _r:i_::

be sacisried jn order For a person Lo be considered menrafly
retarded. " Ex parre snith, 20al \,!L 1519869. at *--- {AIa. May 25,
2041

).

"A classification of 'borderfine rnteffectual functionj-ng'

-14309a

describes an inte.lliqence fevel that is higher than mentaf
retarddtion, ..., and, thus, ooes nor render a person ineligible for
j-hc .lc^th
nenalj- r; . "
Fv
nirl-6
chifh
!.r
2001 wL 7519869, at *--- (A1a.
Yq! LU JrL'!Llr,
M:rr

?(

?nn?\

The Alabama Court of Criminal Appeals has examined numerous

factors in deternining whether a pe.rson suffers from siqnificant or
Substantial limitations in ^.j:nti\/tr f,rn/-rioning. See Stallworth v.
Stale, 868 So.2d L128, 1182 (Ala. Crirn. App. 2001) (where relying on
Stallworth's employment hist.ory, hi-s historv of sociaf
relationships, and his use of conununity resources - such as
qualifying for tood st.amps - Lhe A_Labama Courc ot Criminal Appeals
rejected Staf l-worth, s cl,aim that he had significant deficits in
adaptive functioninq),. Lewis v. Stare, 889 So.2d 623, 695-69g (AIa.
Crim. App. 2003)(findrng that Lewis, academic history, employmenr

hlstory' relationship with his wife, and post-crime craftiness alf
rveighted against a find that he had significant defici-ts rn
adapcive fLnct

Lon

inS)

;

C_!Smen!__x.

EqlS , 2003 WL 2204:'260 (AIa.

Crim. App. June 24, 2005) (setting forth the following factors ro
consider when evaluating adaptive functioning: erLpfoyment hrstory,

ability to have lnterpersonal rerationships, extent of involvement
in
cri
mi n' 1
trr
\-! r,iL-L!r.-L

:-l- r-ria'if
ou
v!

.,
post-crlme
Ly,

resources); Brown v. State,

craf ti-ness, and use of communitv

20A6 WL

IIZsAffi, at *32-36 (Ala. Crim.

App. Apr. 26, 2006) (full scale re of 16 and the forlowing evidence
indicating that defendant had no deficits in adaptive functioninq:

that he could pick the locks of his handcuffs as well as his iaif

-15310a

cell'

had learned to swaflow razor blades and regurgitate rnem
without injury to himself, and asserted to a poJ.ice officer that he
had gotten away with offenses in the past by getting sent to mental

facillties

and

r,{ouJ,d

do so in his current case); periata v, State,

897 so.2d 1L6I , 1206-12A1 (AIa. Crim. App. 2003) ("[E]ven rhough rhe

record indicates that he was in severaf learning dlsability c.Lasses
and has a history of criminal activity, we do not believe that
those facts afone are sufficient to show that he has siqnificant of
substantial- deficits in adaptive behavior,,); yeollans v, State, B9g
So.2d 878, 900-9AZ

(A_La.

Crim. App. 2004) (noting, in case i.nvolving

IQ scores ranging from 67 to g3, that '.though the Defendant .ao a
tumu]-tuous upbri-nging and was currently functioni-ng in the row
average range of intelligence, he has and does functi,on 'normarly,
i-n society") .
There is no dispute that Reeves, Ie rs sub_average. However/

the expert testimony about Reeves' adaptive functioning was
conflicting.
Before addressing the merits of Reeves, menta-L
retardatlon clai-m, this court beri,eves i-t should first discuss
conflicting expert testimony about the Flynn Effect.

cne

Dr. Goff and Dr. Salekin indicated that the Ffynn Effect is
accepted in the sclentific community while Dr. King stated that it
rvas not. The Court notes that Dr. Goff testlfied that Dr.
Fl-ynn
published hj-s flndings in Lgg4. However, Dr. Goff did not
start
utilizing the Ffynn Effect until 2OO5 _ years after the Ftynn

Effect

came

into exislence. There

was no dispute

that nei.ther the
-16-

311a

pubfishers of the IQ tests adninistered on Reeves nor the DSM-IV
require thar the FIynn Effect musr be utilized in determininq a
person's intef-Lectual functioning. While there was testimony that
appellate courts outside of Alabama have addressed the application

of Lhe Flynn Effect, this Court is unaware of any Alabama case faw
reguiring use of the Fl-ynn Effect. It does not appear to this
Court that the issue of whether the Flynn Effect shoul-d be
considered when reviewing an individuaf, s fe score, at least in
Afabama, is settled in the scientific conmunitv.
Reeves achieved a fufl

administered when he was

scale Ie score of 73 on a resr
14t years oJ-d, The fulr scale re score of

71 achieved by Reeves on the test administered by Dr. Goff is
consistent with his prior Ie score of 73. See Ex parte Smith, 2AO3
WL IL45415, *9 (Ala. March 14, 2003)(hofding that a fufl scale Ie
score of 72 "seriously undermines any conclusion that la defendantl
suffers From significanLly sub-average intellecrua_L tunctioninq

contemplated under even the broadest definitions
ro1.rr.l.l-i^nI"\

Further, Reeves testifled

tof mental
during a pretrial

suppression hearing and the court recafls nothing indicating tnat
Reeves' intel.Lectuar functioning was significantry sub-average.

v. Afabama, 26 F.3d 1054, 1056 (t-1rh Cir. 1994) (holding
that Clisby,s testimony gave the triaf judge ,,an opportunity to
See Clisby

gauge roughly his intelligence") .

This court concludes that
Reeves' inteflectual functioning, while certainly sub-average, rs
not siqn ificanr 1y sub-average.
-L7312a

A review of the triaf

transcript indicates that Reeves does
not suffer from sig'nificant or substantiaf limitations
in his
adaptlve functioning. Testimony at trial indicated that
Reeves was
a gang member. rurther, Reeves' mother testified that whife
Reeves
attended Job Corp he earned certificates in welding,
brick masonry,
and auto mechanics _ jobs that woufd require some
degree of
technical skill.
Reeves, mother also testified that after he
returned from Job Corp that Reeves worked for Jerry
Ellis doing
carpentry and rooflng. While he worked for Mr. EIIis,
Reeves wou]d
get up as earfy as 5:30 a.m. to be ready for work,
rt was onry
after his younger bother Jur-ius returned from being confined
rn the
juvenile facilj-ty at Mt. Meigs that Reeves
chose to stop working
for Mr. ElLis. According to his mother, Reeves
went with Jul,.lus
because he was afraid his brother would get
shot. Reeves had
extensive contact- rvith j uvenile authorities
and with r.aw
enforcement prior to his arrest for the victim,
s murder. In a
pretrlal mentaf evaluation, Dr. Kathy Ronan
diagnosed Reeves as
suffering from Adaptive paranoia - that is ne
adapted his behavior
in order to survive in the dangerous environment
in which he rlved.
Reeves reported

to Dr. King that he so10 drugs and sometimes made
between $1500 and $2000 per week. Reeves
used the money from his
drug dealing to purchase clothes, food, and
a car.
The record afso reveafs that Reeves and
his co_defendants
pfanned to cornmi_ t a robbery. It is undisputed
that Reeves actlvely

participated in the planning of the robbery.
There was no evidence
-18313a

presented at the evidentiary hearing sugqesttng that
Reeves,
participation in the planning of the robbery or the ul-timate
murder
and robbery of the victim was the result of being coerced or
threatened by another person. The evidence from trial, includlng
the compelllnq tesLimony from one of Reeves, co_defendants, proved
beyond a reasonabfe that it

decided to murder

was Reeves, and Reeves alone, that

victim. After he snot the victim, Reeves hid
incriminating items of evidence, i-ncluding the rourder weapon
and
bloody clothes that he and his co_defendants had worn.
In
addition, Reeves split the proceeds with his codefendants,
t_he

was

boastfuf to others about shooting the victim, and seemed proud
that
he miqht get a tear drop - a gang synbol indicating
that a gang
member had kill,ed another person. See Ex parte
Smith, 2AO3 WL
7t45415, at *10 (where in the court considered
Smith, s actrons
after comnitting murder as a factor in conc_luding that
..does
Smith

not suffer from deficits in his adaptive functioning,,)
.
"Tn the context of an Atkins claim, the defendant has

cne

burden of proving by a preponderance of the evidence
that he or she
is mentally retarded and thus ineligible for the
death penalty.,.
Ex parte smith, 2afi wL 1519869 ar *___ (Afa.
May 25,

20a1

). Afrer
and the

considering the evidence presented at Reeves,
trial
evidence presented at the evidentiary hearing,
this court conciuoes
ahat Reeves faifed to meet his burden of proving
by a preponderance
of evidence that he is mentatly retarded and
that his death

-x9314a

sentence violates the Eiqhth Amendment. Rule 32'3, ALa. R.Crjm'P'

This claim for relief is, therefore, denied.
II . claiD that Reeves was denied the effective assistance of
counsel. during the sentencing phase of his Trial

.

The Court, in consideraLion of Petitioner's claim of
ineffeccive assistance of counsel during the sentencing phase,
recognizes that the Sixth Amendment to the United States
ConsL icution guarantees every cr iminal defendant the right to
counsel.
The Supreme Court of the United States tn Sttickfand vs.

Wash,

466 u.S. 668 (1984) estabtished the standard governing claims of

ineffective assistance of counsel, and held that the defendant must
nrarro l^rr : nrennrde.ance of the ev Ldence lhac counsel's performance
vl'

v!vv!

was
hi-

deficient and that counsel's deficient performance preiudiced

s defense.

(a) Trial Counsel f,ailed to plocure necessary expert
assistance regarding Mr, Reeves' low cognitive functioning and
potential urental retaldation in addition to general mitigation
evidence.

This Court by Order dated October 20,
rha nrrrnose of hi r'..r

F no r'66q171h6'ooi st.

1991

, approved funds for

Soon a fter

the funds

were approved, Defens€ Counsel McLeod withdrew' and the Court
---^]
--^.-l
dPPUtrrLsu

!.ri^^i--^,1
\rw9I dr rJ drru
n!99r

The Court notes

D.

at rnis point thaL Lhe Peticioner during his

Evidentiary Hearing, failed Eo caLI eiLher Goqgans or Wiggins in

srnnnrf of

l-nei

r -lajm of ineffective assistance of counsel.

-20315a

Therefore, this Court will review this claim in light of this
fa j-]ure and consider only that which is in the Record'
Tria-l Counse I made a decision to reLy on the testimony of
FJr K-th\/

Ronan

rather than retain Dr. John Goff.

Dr. Ronan's tescimony is considered in its entirety
rogether wich the records collected by TriaL Counsel, there was no
i nrli r-:ri nn of : r'li:nnosis of mental retardatlon. As a matter of
When

fact, Dr.
Wi.L

Ronan on cross-examination by

Assistant DiscricL AtLorney

son was asked,

*0. So he wasn't actually nentaLly retarded?
A. He was not in a level that they

wou,Ld

ca.Il him mental

rafrr.lrfi-n

Furthermore, Lhe Reeves Trial took place four years

UniLed States Supreme Court issued iLs Opinion

-tn

L-^5^-^

rl.^

Atkins vs.

Virginia, 536 U.S. 304(202). Therefore, the Court nor the Jury
woufd have been required to consider mental retardatj-on as a
miIir-nl-

rrn

.a:lad

l^
LV

r-i r-r-'l.<l- :lnCe.
nrr\,/a
PLU'E

The Coult finds that the Petitaoner

frrr
:O nrcnnr-pr:nfF
VY
tJ!L[/JI

n€ -L-

^--l r^-^-

assistance of counsef as alleged in Sec. II(a)/

,*^..^;cive

Faifure to prove

necessary exper t assistance.

(b) Tria1 Counsel provid€d ineffective assistance of counsel
in relying on Dr. Ronan during the Sentencing phase of Mr. Reeves'
TriaL
Dr. Kathleen Ronan at the time of Tria.l- in 1998 was
cnnl ovee

;-

-he

r>\/ l.1r

IJrr-lar

cA-rrra

Vcd j n: l

tr:r-i I i trr

Tuscaloosa, Alabama. As a licensed cl in ical psychologist

an

in
and

-2t316a

certified

Lorensic examiner, she had

spec Lal

ized

r

raining to

conduct evaluations for the Coul.t., such as competence to stand

crial and mencal staLe at the time of Lhe alleged offense.

Upon

Order of this Court, she conducted a forensic evaluation of the

Petitioner and tesLified during the
The

Affidavit of Dr.

considered in its
inr6.act

nr

-ty phase of Lhe TriaI.

Ronan has been reviewed

entiretv.

D^rr^ts

pena

bv the Court

and

fhe Court not.es of particular

cynlanarion

oF

.aqfir^n,,

hp-

-ir6^

lbove

where she declared the Petitioner was not mentallV retarded,

Again/ che Court must poLnr out that the Petitioner fajled to
r-al I eif her Goooanc ^r r^ii
nr

R^n:n'q

when considered

l-aqf im^n\/

^ c.-^^^rt
rlrrrinrr

fhF

of his Petitron.

ccnF,5n.-i na nhrqa
vrrqrv

aF
v ! rha

Tri:l

with a1l- exhiblts and documents avail-able to her at

rhe time including the Reporr prepared by her, esLablishes that it
h/as reasonable for Defense Counsef to refV on her testimonv and

work as Lhe sole source of mitigarion evidence during the
sentencing phase of hls Trial. "The fact that Petitioner can find
a professional witness years afrer his TriaI thar is \^/ilLing
resri

Fv
y

Fa\/orF.)l
rovw-o^rly

\,'

:t
qL

establishes that TriaI

u

^

nr\ql
VvJe -r-nnrr ir-r i nn

Counsef'

ha>.i
.-_*---,, n^

i

h

co

Way

s performance was deficient.

"Hors-ley vs. A_laba.nal 45 Fed.3rd 1486, 1495 (11tn Cir. 1995)

.

The Court finds that other testimony was offered durinq the

penafty phase from Detective pat Grindle and Marzetta Reeves (the

Petici-oner's MoEher) rhat establ ished for the Jury the diflicult
nature of che PetiLioner's background rogeLher with his struggles

-22317a

socially.

The testimony clearly establishes those things t-hat

could have had an adverse affect on his development.
Taking this together with all testimony offered by Dr.

during the

penaLr-y phase, one can

this Court were given a fair

Ronan

only conclude that the Jury

ancl

evaluation of the Petitioner.

Therefore, the Court finds rhal PeLitioner faifed to prove by

a

preponderance of the evidence ineffective assistance of counsef as

alleged in Sec. II(b) , Reliance of Dr.

Ronan

during che sentencing

phase.

(c)

Trial Counsel failed to object to inpropar oPinion
testi-mony frod Dr. Ronan during the Sentencing phase of !dr. Reeves'
TriaL.
This Court had previously decided the credentrals of
Dr. Kathleen Ronan and the Record is
ozlrrn:rinn:l
rvr,u!

h:r-knrnrrnd
vu v,\Y !

phase of this friaL.
Ass

:nd

Dr,

pvnariFn.-a

:l-

Ronan was asked

clear regarding her
f he

rim,o

-'-"
rrF t he ncr
r--rarLy

on cross-examination by

i-stanr Districc Attorney Wilson, if the Pecitioner was menraJ Iy

recarded. Dr. Ronan's response has been cited above, and the Court
has considered the Affidavit of Dr. Ronan and comment on the

same.

The fact that Dr. Ronan now wishes to change her testimony with

regard Lo Lne Petitioner, does not demonstrate rhat TrLal Counsel's
ner tormanr:e was de'i

cienl,

The Court noLes, agajn, with regard to this aflegation Lnat

Petitioner did not call Trial Counsel coggans and Wiggins at his
i'rri darl- i :rrr

rla:ri

nn

-23318a

"whether and when to object is a matter of
triar strateqv,,,
Hunt vs. State, 940 So.2d 1041, 1064 (Ala.
Crim. App. 2OO5)

This Court has also considered the records
that were
introduced by Reeves, Trial Counsel, including
school records
and

records of past menta.r heaLth treatment.
rn addition, the court
considered the Scale f .e. Score of 73 when Reeves
was 14 years old,
together with the Evaluation of Dr. DanieL Hoke
who concruded
Reeves suffered from a conduct disorder
and had severe borderline

lnteffectual

functi_oning. However, there was no diaqnosis
of
mental retardatlon, and considering that together
with Dr. Ronan,s
eval-uation and testing, it wouLd have been
reasonabLe for TrialCounsel to concLude that Reeves lvas
not mentalfy .retarded and
further conclude that there was no reason
to object ourlng
Dr. Ronan, s cross_examinat ion. Therefore,
the Court finds that the
Petitioner faifed to prove by a preponderance
of the evidence
ineffecLive assistance of counsel as allegeo
1n Sec. II(c) , F,ailure
to object during Dr, Ronan, s cross_examination.
(d) Trial CounseJ. fai].ed to investigate
and present any
meaningful Ditigation evr.dence.
The court must note, once again, that petitioner
failed to
call Gogrgans and Wiggins in support
of his cLaim of ineffective
assistance of counseJ., and this Court
finds this

significant

in terms of evaLuating all
assistance of counsel.

fai.lure to be
craims of ineffectlve

-24319a

Petitioner mai,ntains Lhat Trial
i,1af o l-ie

i nr',.ef

.-.\.,nilvvvrrtLrvr irre

-nFnt2l

h:^lerr-rrrr.l

imnei rmanr
rrrPurUL'urL-/

Counsel did nothinq to

hoe'Fh

or

h's

L^ !.,1waD y!sJuurueu
^-^irrrti'-ort

-h^ -F-arru

nelro

noi r-a l_ 3nd

hrr
vy rhie
-!rrJ.

ltnrrorror

the Record contains significant documentation from the

Cahaba

Center for Menta.l- Health and Mental- Retardat.ion, Selma Citv Schools
Fdrr.al-rn.

Snpcial

Prnnra'r

r-orrpr i.1o

fhe

ado-LeS6ent and

v!v

adolescent years of the Petitioner, as well as assessments from

che

Denzrtmcnf of Yorth Services. A11 of these documents were admitted
inrn

ar': nan ^a

At

-

:nr.t hrasFn-tr.1

t.'

rril-ro^tinn

the,Irrr\/.rs

cvi denCe,

aac,l- ? 'rrr6gg Concluded afEer hear''-rn tha avide-r-e

Ln

mitigation rhat the aggravat ing circumsLance rhat he intentionally
murdered the victim during the course of a robbery. did not
nrrrrtai.rh

tho

atairrl-^.r/

:nd

nnn-qt:rrii-r\/

mi ri^ial-ind

-i

r/-rrmc1-rh-aq

and voted for Iife wichouc parole. This Court specifically

found

on the Record [rom the mitigaLion evidence Ehat he grew up in
h^ha

6-rri

r^FhaFf

resources growinq up.

.r..1

l:r-kod

annrnnrial-

e

A11 of which was elicited

.lavFl

a

^nmentaL

through the

testimony of Detective Grindle and Ms. Reeves.
The Court finds che mitigarion evidence presenred by Reeves'

Triaf Counsel was cons Lstenr wLth rhe Lype of mitigating evidence
presented in olher capital cases in Dal-Las County at the time of
Reeves' Trial- in L998. Grayson vs. Thompson, 251 F.3rd 1L94, 12751)16

?f]fl1
.-. ----).
Therefo re t he Court finds
l1lr-h.ir

tnar

based on prevail ing

professional norms exisring in )aIlas County in 1998, chaL Trial

-25320a

I
I

counsey s performance was reasonable and that petitioner
has failed
to prove by a preponderance of the ev.idence i-nef fective
assistance

of counsef as alleged in Sec. II(d), Failure to i-nvestigate
and
presenc meaningrf ul mitigation evidence,
(e) Tria1 Counsel failed to elicit critica]'
evidence from Mr. ReaveE, Mother when sba teetified mitigatrng
during th€
Sentencing phase of Mr. Re€ves, Triat.
The Court finds this cfaim to have been abandoned
in that
Petitioner offered no testimony in support of the
allegation, and
further/ failed to call TriaI Counsel Goggans
and Wiggins.
(t') Trial Counsel failed
investigate for atrd. present
witnesses to stror sigrnificant to
mitigating
evid,ence that vras
available.
petitioner maintalns that Trial
CounseL shou.Id have spoken
wlth famify members and others who knew petitioner
througnout
Petitioner, s life.
fn particular, petitj-oner alleges that
his
Aunt, Beverly Seroy, knew of the significant
hardship and
difficurties Mr' Reeves had faced throughout
his life. petitioner
maintains thal: becalrse Trial Counsel failed
to contact and present
thj.s witness, the Jury and Court were
feft to consider only
l{r. Reeves' aqe at the tirne of the crime
as a mltigating facror,
The Court has previously noted the
other mitigating factors,

one of which was the significant hardship
and difficu-Lties
Mr. Reeves faced throughout his life.
petitioner failed to calt
Ms. Seroy to testify at his
Evidentiary Hearingf . Therefore, her potentia_L
trial- testimony was
not offered to this Court. The Court
does note that Drs. Goff and

-26321a

Safekj-n 1n preparation of their

evafuation and rnitigation

assessment, referenced interviews with Ms. Seroy.

Once again, Petitioner failed to call hj-s TriaI Counsel
Goggans and I{iggl-ns

in support of his PeLicjon.

The Court finds this cfaim to have been abandoned in that

Pecitioner otfered no restimony in supporc of the allegarion from
Ms. Seroy, Reeves or Reeves' Trial CounseL.

(S) Trial Counsel failed to present any uitigating evidence
regarding Mr. Reeves, redeeoing qual.ities and huoanity.
The Court, once again, finds that the petitioner abandoned
l-,.
l I^^
Lnrs cJ-arn
^l.ioy F-i
rarLrng
LO presenr Lesrrmony at che Evidentiary
Hearing supporcing this claim.
Petitioner asserts in hi_s petition that trial counsel failed
Ftai-

t.o present e'ridence to the Jury in rnit.igation of an incident
regarding Reeves defencling a female relative and receivirrg a
gunshot wound to the head. petitioner claims this was evidence of
his humanity and redeeming qualities and that the failure to
provide this evidence and the evidence of the gunshot wound to his
head, resulted in ineffective assistance of

counse.L.

In fact, the Record is clear that Marzetta Reeves testlfied in
mitigation to rhe head wound, buL medicaL documentation admiLted at
the Trj-a] of this case from Caraway Methodist Medlcat Center
reveals that there was "no evidence of the bul-let entering the
crania.l vauft,"
v'/ound

The medical records indicate, at best, a flesh

wit.h a slight fracture to the right frontal- temporal bone.

-21 322a

Petitioner lvas rereased from the rntensrve care
unit within
hours of admission, and was discharged home in good

24

condition

within 4B hours of admission, Marzetta Reeves, testimony
during
the penarty phase crearly established Matthew,s redeeming
qualities
and humanity as she testified at length about
the petitioner, s
concerns for his brother, Julius, and his
constant effort to
protect Julius after Julius was re.leased from a juvenile
detenrron
fac1lity.
To asser! that trial

counsel failed to reveal- the redeemrng

qualities and humanity of petj-tioner, is without
rnerit and whof]y
d.isingenuous.

Therefore, this Court finds that petitioner faifed
to prove by
a preponderance of the evidence ineffective assistance
of counsel-

as alleged in sec. 2(s), Fairure to prove mitigatinq
evidence
rega.rding petitioner, s redeeming qualities of
humanity.
ffl. Mr. Reeves, right to a fair and J.mpartia]violated by juror misconduct during aefileratio;. - --- ilury
--', was
The Court f,inds that the claims of juror
misconduct
a.re

procedura'L1y barred from post-conviction
review because they could
have been but were not raised at Trial/
ano because

they could

but were noL raised on direct appeal.
rv' rnstauctionar .rlor' 0f the Trial court
denied !{r.
a fair triar and approprr.ate sent€lncing.
deter.uination.

have

been

Reeves

The Court f,inds that this claim is procedurally
barred from
post-convictlon review because it could
have been but was not

-28323a

raised at Triaf, and because it coufd have been but

was

not rarsed

on direct appeal.

v. The Frosecution's misconduct and i-mproPer alguments during
Tria]. deprived Mr. ReeveE of, rights grraranteed by Ala.bama law and
the United states Coostitution.
The Court f,ind.s

that these claims are procedurally barred

from

post-conviction review because they couLd have been but were not
rei ce.l af

anrl hena11co l-l^arr rn|l rl haVe been bUt weI.e nOL

Tri.rl

raised on direct appeal.
VI . C1aiss that Reeves' trial

counseL were

preaerving alleged errors for ap,pellate review,

ineffective by not

This Court notes that whether or not to object is often

a

strateqy and is presumed to be reasonabfe.

matter of trial

This Cou.rt also. once aqain, finds chat the Petitioner failed
Lo calL trial

counsel at the Evidentiary Hearing, and furcher finds

that the Petitioner has abandoned these clai-ms for ineffecti-ve
assistance of counsel-.

Nevertheless, Petitioner claims that Reeves' trial

counsel

were ineffective for the fallinq to obiect when the Prosecution
r'l

lonadlrlru

naA

tho

.-Tr

rrt/

l-^

-^h<i.lar

n
aggravating
.ron-staLutory

cr-rcumstances, vlz:

(i)

The Prosecurion improperly argued for rhe Jury to seno a
message Lo prevent crime, and Lmproperly argued for the Jury Lo
disregard mic iga E i-ng evidence;

(ii )

The Prosecurj on improperly raised the specter of
fawlessness as a reason Lo impose dearh,'
(iii)
i nn^ea.i

l-r:cazi

The ProsecuLion improperly argued thar death should be
nr
rol
__-rgl
ous reasons;

-29324a

prosecution i_mproperly argued
Reeves, future
dangerousness as a basis to impJse death; and,
{v) The cumu-lative effect of the prosecutors, arguments
raised a substantiar possibility the
Ju.ry idas infr_uenced to render
a death sentence based on improper considerations.
(iv)

finds from the Record that each enumerated clalm of
ineffective assistance of triar counse-l is wlthout merit
and is due
to be denied.
The Court

The Record clearly establi-shes that the prosecution
presented
its in'pressions from the evidence and argued legiti-mate
inferences

that were drawn from the evj-dence. Therefore, Trial
Counsel
not ineffective for failing to object to permissible

were

argument.

The Record also crearly establishes that the prosecutor
in
lhis case, in the penalty phase c.Losj-ng argutnent/
replied in klnd
to statements made by the Defense Counse] j_n Defense
Counse-1, s
closing argument, A full review of the closinq
argunent by both
prosecuLion and defense counsel, for inscance,
cl-early estabfishes
that the prosecutor did not argue that Jurors
shourd reconnend
death based on reli-gious factors, but in fact.,
encouraged

the Jury

to base its penalty phase verdict on the facts
of the case.
FinaJ'1y' petj-tioner cfa.ims that the prosecution

inproperry

argued Reeves, future dangerousness as a
basis to impose the death

penalty. This Court- finds that the prosecutor,s
remark dur.ingr cne
penalty phase cl0sing argument regarding
the future d,angerousness
of the Petitioner is a valid sentencing factor.
Therefore, the claim that the cumulative
effect of the
Prosecutors' arguments raised a substantial possibility
the .Jury
30325a

was inffuenced to render: a death sentence based on improper
considerations, is without merit.

B. Claim that Trial Counsel were ineffective
fai].:.ng to
object wheo the proEecution i.uproperry introduced f,or
evidence
that
Reeveg was in a gang.
Evidence was presented by the State which proved thar
one
possibfe motive for Reeves to murd.er the victlm was
to earn a ..tear
drop," a qang symbor indicating an indivlduaf had kirred someone.
Because Reeves, gang membership was material- and
relevant,

this

Court finds the alfegalion of ineffective assistance
of trj_alcounsef for having failed to object to the evidence
is without
merit and is due to be denied.
C. Cl.aims that Trial Counsel were Inef,fective for failure
to
object when this coult and the prosecution 1nforEed th€
Jury
that
its penalty phase verdict was advisory.
The Court

finds that this allegation of ineffective assistance
of trial counsel is without merit and is due to be denied.
The lav./
of the State of Alabama is well established and has
been

repeated.Ly

upheld that informing jurors t.heir pena.Lty phase
verdict rs a
recommendation, is not improper. There is no
impropriety in the
trial court, s reference to the Jury that l-rs sentenctng
verdicc t-s
a re c onnendat i on .

D. C1aia that Tria1 Counsel were i.neffective
fot not
inveEtigating the possiSiliby that neeves
did not shoot the victi-'.
The Court f,inds

this claim of ineffective assistance of trial
counsel is wi_thout merit and is due to be
den.red,

-31 326a

Reeves presented no evidence

at his

wou.Id have caused any reasonable person

Erridanl-i.r"

to conclude

tJar ri
,r!u!!rrY

r-h-r
srrou

-^

other

someone

than Matthew Reeves shot the victim.

E. Claim that Re€ves rec.eived ineffective aasistance fron his
appellate counsel on direct appeal .
The court finds that this cfaim of ineffective assistance
of

appellate counsel is without merit and is due to be denied.
The fact that the Jury was informed that 1ts penalty

phase

verdict was a recorTrmendat i on was not improper because it
was a
corlect sLatement of faw. Because this Court, s instruction
and the
Prosecution, s comments were correct statements of law,
if Reeves.
appelfate counsel had rai-sed this issue on Appeal, there j-s
no

reasonable possibility

the penalty phase of trial- would have been
reversed. Furthermore, evidence that Reeves was in
a gang was
reJ-evant, and thus admissible, to prove his motive
and/or incent
for murdering the victim. Because testimony about Reeves,
gang

membership was admissible, the court conc.ludes
that even if his
appellate counsel- had raised this issue on d.rrect appeal,
there
1s

no reasonable possibility

Reeves conviction wouJd have

been

The Court finds that this clairn of ineffective
assistance of

appellate counsel is without merit, and therefore,
due to

be

denred.

-32327a

('.
lr

vII. Clai.ms that tha capitol sentencing schene in
violates the United States and Alabaoa Constitutions.
The Court

noqt-conrri

r:l-

i

finds that these c.Iaims are

AJ,abana

proced.uraf f v barred from

on rerzi-ew because it could have been but was not

raised at Trial, and because it could have been but

was

not

rai-sed

on direct appeaf,

VffI. The Claid that lethal iDjection as applied in
Constitutes crueL and unusual punishment.

Alabama

The Court finds that this clain is procedura.l-1v barred from
post -convi" ct

ion review because it coul-d have been but was not

raised at Trial. and because it could have been but
on direct appeal,
IT IS

ORDERED

I

ADiIITDGED,

and

DECREED

was

not raised

that the Defendant,s

Rule

32 Petition is due to be denied.
DONE

and ORDERED, this the 26t

zl:rr

nf

al-1-

^l-\6.

?nnO

)lt/ r s
((

'A6
An\.1oot

-33328a

4n1>6r)

L;tk2_

